<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1998

=========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                     L. Baldwin, Staff Assistants
                                ________

                                 PART 8

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
41-002 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          










                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director













DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                           ORGANIZATIONS \1\
---------------------------------------------------------------------------
    \1\ The remaining sections of some curriculum vitae will be kept on 
file with the Subcommittee.
---------------------------------------------------------------------------

                              ----------                              

                                         Wednesday, April 30, 1997.

 ENVIRONMENTAL PROTECTION AGENCY, BROWNFIELDS, HOUSING OPPORTUNITY FOR 
                      PERSONS WITH AIDS, AND CNCS

                                WITNESS

HON. JAMES H. MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Lewis. Will the meeting come to order.
    Mr. Maloney, we appreciate your being here at the scheduled 
hour and you may present your whole testimony or you can submit 
it for the record and give it to us off the top and you are 
really great off the top.
    Mr. Maloney. Well, Mr. Chairman, I can take a hint.
    Mr. Lewis. Generally speaking, members tend not, like our 
other witnesses, to give us advance copies of their written 
statements, that is largely because their staff is inefficient, 
not because the members do not like to do it.
    In the meantime, I know that you will submit yours for the 
record and both of you talk off the top straight.
    You may choose how you want to proceed.
    Mr. Maloney. Mr. Chairman, thank you.
    I would like to submit testimony for the record and if I 
may summarize. Thank you. Mr. Stokes, members of the 
subcommittee thank you very much for the opportunity to be here 
this morning to support proposed enhancements to the 
Brownfields Economic Redevelopment Initiative through the EPA 
and the Department of Housing and Urban Development.
    The Brownfields program represents one of the most 
promising opportunities we have to put together projects that 
have been traditionally of disparate interest economic 
development and environmental protection. In the State of 
Connecticut I represent a community, including the Naugatuck 
River Watershed, once known as the ``Brass Valley'' for its 
formidable levels of metal fabrication work. It was a principal 
supplier for the United States Department of Defense, among 
other major customers.
    The Naugatuck Valley today is home to better than 20 
percent of the Brownfields sites listed by the State of 
Connecticut Department of Environmental Protection. It has an 
unemployment rate that hovers just below 10 percent. The 
Brownfields initiative will help formerly productive 
commission's, like those in the Naugatuck River Valley thrive 
again.
    Congressman Shays and I have introduced a bill which will 
increase the EPA's Brownfields' budget from $36.7 million to 
$87.4 million for each of the next four years to fund site 
assessments, provide remediation planning grants, and 
capitalize revolving loan funds at sites that are ready for 
cleanup. The bill also creates a HUD Brownfields budget of $25 
million over the next four years to leverage State, local and 
private funds to foster new development and create jobs after 
the sites have been cleaned.
    Given the opportunity, our legislation affords Brownfields 
can be successfully returned to productive use. Let me offer, 
for the Subcommittee's consideration, a specific example.
    Following its closure after years of industrial activities, 
a brass manufacturer, an approximately 100-acre factory site 
fell into disuse in the city of Waterbury, Connecticut. As a 
State Senator I worked to secure funding for the environmental 
cleanup of the site. Once clean, this site was made available 
to the private sector. The private sector did all the actual 
investment. This fall the residents of Waterbury will see the 
opening of one of the largest shopping malls in all of New 
England. This new use, a successful Brownfields cleanup, will 
add hundreds of millions of dollars to the city of Waterbury's 
tax base.
    Mr. Lewis. It I could just interrupt you just for a moment, 
and maybe go off the record.
    [Recess.]
    Mr. Lewis. Back on the record.
    Mr. Maloney. Well, this mall adds hundreds of millions of 
dollars to the Waterbury tax base and 4,000 jobs to the State 
of Connecticut.
    Mr. Lewis. You know, Chris, once a State Senator always a 
State Senator, cannot get over it.
    Mr. Maloney. Chris and I feel that success in Waterbury, 
Bridgeport and other sites can be replicated across the 
country, provided we are willing to take the first steps 
represented by the Brownfields initiatives.
    [The statement of Mr. Maloney follows:]

[Pages 3 - 4--The official Committee record contains additional material here.]


                                         Wednesday, April 30, 1997.

      ENVIRONMENTAL PROTECTION AGENCY, BROWNFIELDS, HOPWA AND CNCS

                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Lewis. Okay, good.
    Mr. Shays. I will jump in right away, Mr. Chairman. You 
have my statement. We just know that the way to rebuild our 
urban areas is to bring businesses back in to pay taxes and 
create jobs. And they are just bypassing the urban areas 
because the land has negative value. You actually have to pay 
someone to take over that land.
    And what the Brownfields does is it does not pay for 
cleanup. It pays for really having a determination of what 
actually exists there. And with the $200,000 that Bridgeport 
got from EPA they brought that into $2 million of other funds 
coming in. It has been probably the most significant thing I 
have seen to help urban areas, the most significant thing and 
we are starting to rebuild Bridgeport, Democratic Mayor and 
Republican Member of Congress and it is a team and a Republican 
Congress and a Democratic President, we are all working 
together on this and would love you to give consideration.
    [The statement of Mr. Shays follows:]

[Pages 6 - 11--The official Committee record contains additional material here.]


    Mr. Lewis. I will yield to Mr. Stokes after I make this one 
comment that EPA has come to us in this year's budget and they 
are asking for $600 million of extra money for Superfund and I 
must say with the history of that program and what we have not 
done to fix it, I would urge them to have a bias that is even 
more strongly expressed than yours, that Brownfields is an 
avenue that really has produced results and is very 
significant.
    So, your testimony is welcome and your point is a very good 
one.
    Mr. Shays. And we will talk to EPA, as well.
    Mr. Lewis. Yes, good.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    I would just like to commend Mr. Maloney and Mr. Shays for 
their testimony here on Brownfield. This, of course, is an 
area, as you know, that is very, very important to me as a high 
priority and the President's budget has requested a substantial 
increase in this area. There is some concern, I think, on the 
part of members of this Committee that the Superfund, itself, 
ought to have a priority over Brownfields. I do not share that 
particular philosophy. And I think your testimony here helps 
very much to try and put this in perspective so that people 
understand that if we are talking about bringing our cities 
back that this is one of the most viable ways of doing it and I 
commend you for your testimony.
    Mr. Lewis. And we also commend you for your brevity. 
[Laughter.]
    Mrs. Meek. If I may comment on?
    Mr. Lewis. All you would like.
    Mrs. Meek. I think one of the most viable methodologies for 
bringing back these areas is the Brownfields. We have been 
trying since I have been here to get such an initiative done 
and I am so glad to see these two gentlemen have really come 
forth with something.
    I am hoping that it is fundable and will go through the 
process because it takes a very long time with EPA to do 
anything within the inner-city areas. And I do hope that we can 
cut some of the red tape when it comes to getting these kind of 
programs done, two to three years and all of that time and many 
times they just have grants that are hard to get and it is a 
difficult task. And I wish the Committee would look into that 
as well.
    Mr. Lewis. Good.
    Mr. Frelinghuysen. Mr. Chairman, I share the gentlelady's 
views. It is inexcusable that it takes so long to get these 
things done. In a bipartisan way we need to move this process 
along.
    Mr. Lewis. I would like the gentleman to know that you have 
the benefit of being the first public witnesses at the 
Committee. By the time we get to 5:45 on Friday, we will not 
have questions from every member, but in the meantime. 
[Laughter.]
    Mr. Shays. You got a great Committee, Mr. Chairman. 
[Laughter.]
    I just have a thing on HOPWA?
    Mr. Lewis. Sure, absolutely.
    Mr. Shays. I would like to take the Committee's time now to 
request consideration of additional funds for HOPWA, Housing 
Opportunities for People With AIDS. We have gone in 1995 to 
186, and down to 171 and then up in 1997 to 196, thank you for 
the Chairman for reviewing that and the Administration is 
asking for $404 million and we would like you to consider a 
request for 250.
    And I would just say that briefly approximately 70 new AIDS 
cases were reported in 1996 and one-third to one-half of the 
people with AIDS are actually homeless and think of the danger 
of them becoming so if they are not now and just comparing the 
acute care facility cost of $1,000 versus the HOPWA of $55 to 
$110. So, we hope that that does not get lost in the mix.
    Mr. Lewis. I hope the members will be patient with me, but 
let me mention, for the record, for the first time an item that 
occurred just recently. As a new member of this Committee in 
1981, I was the sponsor of the initial funding--it was a very 
small amount--the initial funding for research relative to 
AIDS. In 1981, most of my members on both sides of the aisle 
did not know what it was. But, nonetheless, over the years we 
have done an awful lot.
    Recently, I had a gentleman come to my office who was 
lobbying me, of all things, regarding a special program that 
relates to prostate cancer. He lobbied me on this issue a year 
earlier. This year, when he came in though, the gentleman was 
wearing a baseball cap for he had lung cancer. And he brought 
with him a chart that showed the relative money made available 
for research for AIDS versus a combination of lung, prostate 
and breast cancer. The figures were astonishingly different. 
And priorities, as dollars get slim, are very difficult.
    My friends who have worked with me on the AIDS issue need 
to know that there is that reality out there and the numbers of 
people dying from breast cancer, for example, for which we are 
not getting nearly the numbers of answers we would like make it 
difficult, at the same time the challenges are very real. We 
know this is a worldwide problem and we have got to deal with 
it.
    Mr. Shays. The issue though as it relates to housing is a 
big problem.
    Mr. Lewis. I totally understand.
    Mr. Shays. And I do concur that we sometimes get out of 
balance in terms of it, we do not put enough, for instance, in 
prostate cancer and that is a disease that a number of us are 
trying to really pay attention to it.
    Mr. Lewis. In this Committee, we have been asking the head 
of Veterans Affairs, the Secretary, to help us really 
accelerate the coordination of Veterans-controlled pool groups 
of people who can help us with breast cancer, and with prostate 
et cetera but moving down that path is difficult.
    But, nonetheless, your testimony is welcome and we very 
much understand. Any other comments are welcome or lack of 
comments, just as well.
    Mr. Shays. Just a question, does Mrs. Meek try to sometimes 
take over the Committee and pretend that she is just a grandma 
and, you know, she is not.
    Mr. Lewis. When I wished her happy birthday yesterday she 
promised me she would be good today. [Laughter.]
    Mr. Shays. I consider her the most powerful member of all 
of Congress. She does it quietly.
    Mr. Stokes. All of us concur in that. [Laughter.]
    Mr. Shays. Mr. Chairman, if I could just take care of the 
third item, I do not appear before many appropriators but I do, 
evidently, have a special interest in your Committee.
    Mr. Lewis. Well, one more?
    Mr. Shays. I am willing to look for offsets.
    Mr. Lewis. Please note that this gentleman asked for three 
items.
    Mr. Shays. He can only ask for one, Mr. Chairman.
    I just happen to be a very strong supporter of national 
service and I do put my money where my mouth is. I did vote 
against giving it to the Department of Veterans Affairs as one 
of them. I believe in this program. I do not understand 
particularly why Republicans want to give away grants in 
education instead of having young kids earn it. And, frankly, 
in Bridgeport, Connecticut, we have gangs. We have gangs of 
AmeriCorps Volunteers that are in total opposition in a sense, 
a wonderful contrast to the other kinds of gangs we have.
    And these young people, for a minimum income, basically are 
rebuilding our city and, yet, they have one grant that is left 
to them and the only way they can spend it is on education. And 
it seems to me rather than having grants or loans, have young 
people work for them. And I just cannot tell you how strongly I 
believe in national service.
    And one last point, the Administration to its credit, made 
this a decentralized program. Two-thirds of the program is 
decentralized and we have to be careful, as Republicans, that 
when we see a bad program we just say, see, see it is a bad 
program. Well, a lot of times the bad programs are local and 
State, you know, you have more innovation.
    Mr. Lewis. I think that is a very important point and the 
Committee has noted that there are really excellent programs 
and there are questionable programs. I think evaluation is the 
key to all that and help the ones that are working.
    In the meantime, we have a new era of volunteerism across 
the country, you know, the big conference over the weekend 
where we were encouraging employers to pay people to take a 
week off to volunteer somewhere which is a very interesting 
form of volunteerism.
    Mr. Shays. Well, it is encouragement. The one thing I do 
know as a former Peace Corps volunteer, whatever you give you 
get back more and it makes you want to give more and you get 
back more. And it just, to me, it goes up in geometric 
proportions.
    Mr. Lewis. The gentleman notes for the record that the most 
sophisticated form of selflessness is giving.
    Mr. Shays. I concur. Thank you.
    Mr. Lewis. Thank you.
    Mrs. Meek. Thank you very much.
    Mr. Lewis. Mr. Lampson?
                                         Wednesday, April 30, 1997.

    ENVIRONMENTAL PROTECTION AGENCY, GULF COAST HAZARDOUS SUBSTANCE 
                            RESEARCH CENTER

                                WITNESS

HON. RICK LAMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Lampson. Thank you, Mr. Chairman and I only have one 
request.
    Mr. Lewis. Thank you. As I said earlier, your entire 
statement will be in the record and if you present your 
interest with brevity, we would appreciate it.
    Mr. Lampson. I am here to talk to you about my support for 
the continued line-item funding in the amount of $2.5 million 
for the Gulf Coast Hazardous Substance Research Center. It is a 
university-based consortium.
    This Center carries out a program of peer-reviewed 
research, evaluation, testing and development of a 
demonstration of alternative and innovative technologies that 
may be used in the minimization, destruction and handling of 
hazardous wastes associated with the petroleum, chemical and 
other Gulf Coast industries.
    Since the establishment of the center in 1988, it has 
sponsored 300 multi-year projects with 200 different principal 
investigators and approximately 400 graduate students at 
affiliated universities. The program has produced more than 600 
publications, theses, technical presentations and has been 
extremely successful in leveraging additional outside research 
support for projects originally funded through the center 
through Federal, State and industrial-related research grants.
    The major focus is in the area of technology, invention and 
modification, emerging technologies and remediation in waste 
treatment. The center's technology transfer programs are 
designed to bring technologies for cleaner environment out of 
the laboratory and into the field, where we think that 
practical application is going to help.
    The center operates the Gulf Coast Environmental Library 
for both universities for academic and non-academic public. It 
provides a coordination of activities of the research 
consortium at six different universities--Texas A&M, University 
of Texas, Rice University, the University of Houston, Lamar 
University, Louisiana State University, Mississippi University, 
the University of Alabama, and the University of Central 
Florida.
    The center enters into research agreements with private 
research organizations and industry and if you do not mind, I 
would like to introduce the several representatives of some of 
those who are here. Dr. Bill Baxter of Texas A&M; Dr. Minosh 
Chopra from Central Florida; Dennis Clifford from the 
University of Houston; Dr. Jack Hopper, who is the current 
director of the center and David Koch, both of LaMar 
University; Dr. Danny Rable of Louisiana State University; and 
Dr. C. Herb Ward from Rice University and then the former 
director, Dr. Allen Ford is with us also.
    I want to thank you, Mr. Chairman, for calling the hearing 
to order and I request the Subcommittee provide continued 
support for funding for the Gulf Coast Hazardous Substance 
Research Center through the EPA Office of Research and 
Development in the amount of $2.5 million.
    [The statement of Mr. Lampson follows:]

[Pages 17 - 22--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Lampson, I might suggest to you but by way 
of you suggesting to your guests who are here, that it probably 
would not hurt at all if they were to discuss this matter 
personally with a member of this Committee, Mr. DeLay, and also 
the Chairman, I believe of the full Committee, I think he is 
from Louisiana, but I am not sure of that.
    Mr. Lampson. We will, indeed do that.
    Mr. Lewis. Any other comments or questions?
    Mr. Stokes. No, thank you, I appreciate your testimony very 
much.
    Mr. Lampson. Thank you very much, thanks a lot.
    Mr. Lewis. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

            ENVIRONMENTAL PROTECTION AGENCY--CLEAN WATER ACT

                                WITNESS

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Lewis. Mr. McGovern and Mr. Frank are here, I believe. 
Barney Frank, my friend from the gym and he is not smiling this 
morning. You may both proceed as you wish, your statements will 
be included in their entirety in the record.
    Mr. Frank. Thank you, Mr. Chairman.
    You have been very understanding. I have been here 
previously with Mr. McGovern's predecessor and we managed to 
work on a bipartisan basis on this. We have several projects in 
Massachusetts which came later along, in a number of cases they 
were court-ordered, and Federal law changed as a result. There 
is a substantially lower level of Federal funding, in general, 
for clean water projects than would have been had we done them 
earlier, obviously.
    They are court-ordered, they are interstate in impact. They 
affect Rhode Island, they affect other New England States, they 
affect the Atlantic Ocean. And what we have is a set of 
requests. In the past the Subcommittee has graciously under 
both parties acknowledged the problem and made a move towards 
helping, obviously not overwhelming.
    I should say all of us, I think, yourself as well, would 
agree that overall legislation would be very good, it would be 
nice if they would reauthorize the Clean Water Act and clean 
this up----
    Mr. Lewis. That is the problem.
    Mr. Frank [continuing]. And get you out of this. I 
appreciate that you are stuck with the cleanup. I know as a 
member of an authorizing committee, the authorizing committees, 
on the one hand they are criticizing the appropriations 
committee for interfering, and on the other hand, leaves you 
all the tough decisions and then not do them. And this is a 
clear case where if the authorizing committee was doing its 
job, you would not be in this bind and I appreciate your 
responding.
    In fact, let me just say one thing at the outset where I 
would hope we could get the authorizing committee to move. Even 
if they did not do--and I know you have some influence over 
this, I would hope--even if they do not do an overall clean 
water reauthorization because they are focused on Superfund and 
other things in that subcommittee, simply allowing 
municipalities and States the option of extending the bond term 
would have a great impact in alleviating the financial crunch.
    We have a situation now where municipalities have to 
finance projects or regions have to finance projects that cost 
$150 or $200 million with a 20-year bond term. Now, the life of 
the equipment here is 40, 50, 60 and 70 years. We are talking 
about equipment that lasts far beyond the 20 years.
    And the statute forces them to borrow and pay back in 20 
years and it would be as if people were told their mortgage had 
to be paid off in half the time.
    Mr. Lewis. Barney, I think you are touching on a very 
important point. And I wonder if maybe you could have one of 
your staff people help develop that in a formal way and maybe 
you and I will communicate to the Committee.
    Mr. Frank. I would be glad to do that. Because I have 
talked to the Subcommittee Chairman and his general sense is, 
well, yes, that is something that is noncontroversial. The 
House has already passed it but it is sort of literally bogged 
down in the wetlands issue. And if we could find some way to 
break that out, Mr. Chairman, frankly we would get out of your 
hair.
    Mr. Lewis. Yes. I frankly think it is a very worthwhile 
effort.
    Mr. Frank. And it is a win-win situation. It is a way of 
spreading this out to max the benefits and, of course, the 
problem we face is that in a lot of cases people say, well, you 
are going to pay more over time. Sure, but what we face is the 
prospect that you will drive out a lot of business and industry 
in the short-term because of the high cost and then there will 
be nobody left to enjoy it when it is paid off.
    Mr. Lewis. It is a very good suggestion.
    Mr. Frank. All right, we will pursue it.
    Mr. Lewis. Please.
    Mr. Frank. Let me just say that we would hope to also renew 
our request pending that and, frankly, if we can get this 
through this would be the last time we would have to ask for 
this. We have gotten $1.5 million, I believe, for both Fall 
River/New Bedford and there is $50 million for the 
Massachusetts Water Resources Authority. We hoped we could 
continue that level. But I would stress again, if we could get 
to that 40-year bonding thing I think we could stop making 
those requests and save some money and it would be win-win.
    Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

            ENVIRONMENTAL PROTECTION AGENCY--CLEAN WATER ACT

                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Lewis. Mr. McGovern.
    Mr. McGovern. Yes, I just want to agree with everything 
that Barney Frank just said. I mean I wish we could extend the 
bond term. I think that would alleviate a lot of the problems 
but specifically we are here. There is $3 million in the 
Administration's budget earmarked for Bristol County which 
includes Fall River and New Bedford. Barney represents New 
Bedford and we both represent half of Fall River, apiece.
    And, specifically, we are hoping for $1.5 million for Fall 
River combined shore overflow project which is having a 
devastating impact on the city. And, as you know, a lot of 
communities are faced with these kinds of projects and are 
having a difficult time financing it without increasing taxes 
and discouraging economic growth.
    So, you know, that is what we are here for basically.
    One last thing as a final mention. You know, I do not know 
whether this Committee is going to do any earmarks for the safe 
drinking water projects. But if you do, I would simply point 
out that in the conference committee report last year a number 
of communities were singled out, 24 specific projects that were 
to get priority funding within the bill, Worcester and 
Attleboro, were both named. I represent both of those areas. 
And they are incurring right now major costs with regard to 
safe drinking water. And I hope you would consider those two 
communities if, in fact, you decide to do earmarking. But we 
are here basically together to talk about the money for Bristol 
County and Fall River and New Bedford.
    Mr. Lewis. Since this is the first time in the Committee, 
Mr. McGovern, let me mention that we do have some difficulty in 
this bill especially on the House side with earmarking in 
general. Because often there are people who are looking into 
this bill and they would love to have individual targets in it. 
If a person has a project and it loses on the floor then in 
conference it is hard to do things. So, sometimes there is 
special attention in conference but in clean drinking water, in 
that area, because most States have not passed the laws that 
are necessary to be able to accept the money, there has been 
very little action in the recent past. So, your helping us 
address that question as well would be appreciated.
    Mr. McGovern. I do not want this Committee to violate any 
of the precedents, but since these two communities were singled 
out last year for special consideration, you know, if you do 
anything I hope you will take that into consideration.
                              ----------                              

                                         Wednesday, April 30, 1997.

            ENVIRONMENTAL PROTECTION AGENCY--CLEAN WATER ACT

                                WITNESS

HON. JOHN F. TIERNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Lewis. John, welcome.
    Mr. Tierney. Thank you, Mr. Chairman.
    You know, my nephew, Jimmy, was a young guy when Jim 
Tierney was running for governor and something in the book was 
not going to hang in his room. [Laughter.]
    Mr. Frank. I used to have a brother-in-law named Jerry 
Lewis but they got divorced. [Laughter.]
    I just want to correct myself because on the NWRA I read 
that the President asked for $100 million and I know that $50 
million was what they got last year to do it. But I would hope 
that they could get that but also I believe the 40-year bond 
term would alleviate them a lot as well. So, that one, I think, 
does a great deal to help everybody.
    Mr. Lewis. Okay.
    Mr. Frank. Thank you.
    Mrs. Meek. You used an acronym, what does it mean, the last 
one?
    Mr. Frank. Massachusetts Water Resources Authority, I am 
sorry. I should not have assumed that.
    Mrs. Meek. Thank you. That is all right.
    Mr. Frank. That is Greater Boston, the Massachusetts Water 
Resources Authority.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you for asking. I did not know either but 
I was embarrassed to ask.
    Mr. Frank. I thought the Chairman had heard more about that 
than he wanted to hear.
    Mr. McGovern. Thank you.
    Mr. Lewis. You are welcome, thank you very much.
    Mr. Tierney. I just wanted to add something very briefly. 
Obviously, I support their efforts on that because it is in my 
State and the little bit that touches upon the bottom part of 
my district. The major part of my district, however, is the 
South Essex Sewer District. And in years past, we have not 
gotten the attention that the Massachusetts Water Resources 
Authority and others throughout the country have received, 
although we suffer the same exact effects and consequences of 
funding or no funding on that.
    I want to thank you, Mr. Chairman, because last year you 
did acknowledge and I understand all of the aspects that went 
into the consideration and I appreciate them very much but 
nothing has changed. We still need that kind of attention just 
as much as others throughout the country and the Massachusetts 
Water Resources Authority does.
    The impact on our communities is severe and probably more 
so than the homeowners of the NWRA region because we are a 
smaller base and the impact is greater and that project is 
probably going to level out at around $29 million for the South 
Essex Sewer District. That means a community like Salem, where 
I am from, and what houses the plant and the secondary 
treatment facility, is going to go from about $5 million up to 
almost $7 million; particularly for senior citizens, but for 
everybody that is a tremendous impact and they need that help.
    The money that you gave us last year will go toward that. 
We have got about $4 million that we have to spend just on 
bringing in a 20-year old primary plant up to snuff. So, we 
obviously need whatever help that you can give us in that 
regard.
    I would hope that you will continue on with the same 
philosophy that you did last year acknowledging that we have 
the same difficulties and even though you give us less than you 
give the others, it certainly is helpful. I mean we need every 
bit that we can get.
    Other towns in our district, the cities in our district 
like Gloucester--I think you heard from Mayor Tobey or are 
going to hear from him when he comes down--are suffering 
assessments up to $20,000 or $22,000 on a household to tie into 
sewer. Devastating to people, particularly seniors, but mostly 
young families too. It is just almost impossible for them to 
get that kind of funding and do that.
    And I appreciate and acknowledge all of that and, so, I 
just come simply to thank you for what you did last year and to 
ask you to, please, be consistent and try to do it again for us 
this year, because it is a serious, serious matter, as you 
know, and whatever you do would be seriously appreciated.
    Mr. Lewis. Mr. Tierney, I believe before you came in, 
Barney Frank recommended that extending the length of the bond 
time could be very helpful. If Massachusetts would take the 
initiative, kind of in a bipartisan way, to address that 
question to our Committees, Mr. Stokes and I are very 
interested it that, so, that could be helpful.
    Mr. Tierney. That would certainly be a tool I think our 
mayors would like to have the option for and some of them have 
reacted well and some of them have been a little skeptical 
whether they want to amortize over that period of time, but I 
think it is helpful to have that option in the arsenal and we 
can work on that.
    Mr. Lewis. Okay.
    Mr. Tierney. Thank you very much.
    Mr. Lewis. Thank you very much.
                              ----------                              

                                         Wednesday, April 30, 1997.

            VIRGINIA'S MARINE RESEARCH AND STRANDING CENTER

                                WITNESS

HON. OWEN PICKETT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
MAC RAWLS, DIRECTOR, THE VIRGINIA MARINE SCIENCE MUSEUM
    Mr. Pickett. Thank you, Mr. Chairman.
    I am very pleased and honored to be here today to present 
Mr. Mac Rawls. We are here in support of an appropriation for a 
marine stranding program in Virginia Beach. Mac is the director 
of the Virginia Marine Science Museum, which is a fairly 
extensive museum complex in the city of Virginia Beach, 
adjacent to the Atlantic Ocean.
    And they have been conducting a marine stranding program on 
their own, mainly with volunteers. They have provided some of 
the funding themselves and I think they have got some funding 
from some private sources.
    Mr. Rawls. That is right.
    Mr. Pickett. But this has limited their ability to respond 
to requirements in the area for salvaging marine mammals that 
get stranded. He is the expert. Let me let him tell you about 
it.
    Thank you.
    Mr. Lewis. Mr. Rawls, if you have formal material you would 
like to present for the record, we will include it in the 
record and we would prefer that you talk to us off the top and 
not read the entire statement.
    Mr. Rawls. Okay, we will do that.
    Mr. Lewis. That way we have the opportunity to spend more 
time carefully evaluating your request.
    Mr. Rawls. Let me say, first of all, I appreciate the time 
that you are giving to hear this request and to let us come 
here and Congressman Pickett, I appreciate your kind words.
    Mr. Pickett. You had better use your time to tell him about 
this program. [Laughter.]
    Mr. Lewis. Mr. Rawls, you should know that I have a very 
serious personal interest in things that relate to marine life 
et cetera, so, I will pay attention to your formal statement 
myself. So, just tell me what you are doing.
    Mr. Rawls. All right.
    Let me read to you just three statements in here around 
which our whole request is based and then the rest of it I will 
summarize and hopefully I will get a question or two from you.
    Mr. Lewis. That will be fine.
    Mr. Rawls. Three strong points. Marine mammals, strictly 
coastal migratory, Atlantic bottle-nosed dolphins have great 
potential for serving as indicators of the water quality of the 
Mid-Atlantic States. I do not think this is currently being 
pursued to its great advantage.
    Number two, there is currently little systematic effort to 
collect baseline data for pollutants found to be present in 
stranded Mid-Atlantic marine mammals, most of which are bottle-
nosed dolphins.
    Number three, because of its geographical location and the 
existing marine mammal stranding research resources, developed 
by the Virginia Marine Museum, Virginia Beach is a strongly 
logical location for establishing a research center for 
measuring pollutants found to be present in marine mammals.
    Now, let me add a little explanation that goes along with 
that. The Mid-Atlantic States, for purposes of this 
presentation, we are defining those primarily as they relate to 
the range of this particular animal, and those States would be 
bordered on the north by New Jersey and as far south as North 
Carolina. And they are fairly unique, as much as they have nice 
sloping sandy beaches, fairly shallow waters and they are 
inhabited by, primarily in terms of cetaceans, the Atlantic 
bottlenose dolphin, which is an interesting animal also.
    This animal is very gregarious in its habits. Interestingly 
enough they have developed three stocks and over time they have 
adapted to certain factors of the marine environment. There is 
one stock that lives offshore and migrates primarily in the 
deeper waters. There is a second stock that is a residential 
stock that lives around Florida and the Gulf States. Then there 
is this third stock, the one that we are concerned about, that 
migrates between North Carolina and as far north as New Jersey.
    They are great indicators, perhaps, of the water quality 
that exists in waters off those States. Much of their potential 
in terms of being used for that purpose has gone untapped, 
primarily because we have not established a systematic way of 
collecting the data from the tissue samples and other 
investigations that we do in the course of dealing with 
stranding marine animals.
    There is a great potential here, and it has not been 
realized. What we would like to do at the Virginia Marine 
Science Museum, which is an agency of the City of Virginia 
Beach, is to increase our capacity to do research and 
particularly the lab studies and control the lab processes so 
that we can begin to build a data base so that when pollutants 
are found in these animals that we will have something to 
compare that to, to tell us whether it is high, low, 
indifferent, toxic, whatever, and perhaps cause of death not 
only for these animals but perhaps dangerous to humans who also 
inhabit those same areas.
    Our stranding program, which was formed in 1987 in response 
to a massive die-off of dolphins in our area--in 1987 over 200 
of these animals died and washed up upon our shoreline--it is 
primarily staffed by volunteers, although we have a permanent 
staff that oversees their work, we have about 150 people who 
are responsible for many of the things that we do in our 
stranding operation.
    I do not think there is any other agency that could 
possibly do what we do in such a cost-effective manner simply 
because we have so much volunteer help.
    [The statement of Mr. Rawls follows:]

[Pages 30 - 35--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Rawls, if I could interrupt your commentary?
    Mr. Rawls. Sure.
    Mr. Lewis. Let me ask you this general question. While I am 
very empathetic to the potential value of what you are 
discussing here, in an environment where dollars are shrinking 
at the Federal level in many an account that we deal with 
ranging from VA medical care to housing, et cetera, we have to 
ask ourselves the question, be very careful the farmer says 
before you buy the cow that you know how you are going to feed 
it.
    Mr. Rawls. Right.
    Mr. Lewis. So, what do you anticipate, if you had the 
$600,000 here, would be your annual costs, your ongoing needs 
for food from that point forward, and where would you get it?
    Mr. Rawls. Well, I would think it would be considerably 
less than what we are asking for.
    Mr. Lewis. That was not my question, where do you think it 
will come from, here or?
    Mr. Rawls. Perhaps some and you might be eager to fund some 
of our future research based upon what we have found.
    Mr. Lewis. Well, it might be but in the meantime, I want to 
hear what you have to say.
    Mr. Rawls. But, primarily, we would continue to do what we 
have done which is to finance it from private contributions and 
grants from other agencies and so on.
    I do not think you would be the only governmental agency 
that would have an interest in this. Did I answer your 
question?
    Mr. Lewis. You answered my question. I believe my 
colleagues may want to ask further about that. But let me 
mention to you a session I had this morning in my office with a 
new president and former member of a State university location 
in California.
    I suggested to him, as he goes forward with his 
construction program where he is looking for Federal money, 
that he might consider consulting, a contractual consulting 
relationship with a guy who used to be the President of San 
Diego State, for that fellow use to raise private monies in 
numbers five times any other State college in our State. For, 
indeed, Federal dollars for education have never really been 
more than about 10 percent and, in the meantime, dollars are 
getting tougher here.
    So, I just really mention that for the long-term, not 
necessarily any judgment about establishing the center.
    Mr. Rawls. Well, most of the money we are asking for here 
is start-up money to be able to do the kind of research, 
equipment and provide for that. And, so, the operational part 
is not the biggest expense of this.
    So, I think later on that we would not be coming back each 
year asking for $600,000.
    Mr. Lewis. Okay. Well, I think you understand my point and 
I heard you clearly.
    So, Mr. Stokes?
    Mr. Stokes. Mr. Chairman, I would just say to Mr. Rawls and 
Mr. Pickett, I was interested in the questions being posed by 
the Chairman because I know that probably there is no one else 
in the House who has as much information, knowledge and 
expertise in marine water life than the Chairman of this 
Committee. And, so, that is sort of just personal involvement 
in that area for most of his life. And I was interested in what 
questions he would have to pose to you because he started out 
by saying to you that you had someone who shared with you your 
concerns about marine life and I know that to be a fact.
    So, I think if you can answer his questions in other 
regards, then I think you will be way ahead of the game.
    Mr. Rawls. Okay.
    Mr. Lewis. So, we ought to communicate with each other 
further and your testimony I will pay careful attention to and 
Mr. Pickett will make sure I am very well-informed, I am sure.
    Mr. Rawls. Well, I think this is indicative of the 
volunteer help that we have. We deal with all kinds of marine 
animals. This happens to be a sea turtle. And we have 150 
people who staff this program. It is not unusual for them to 
stay up all night long doing these kinds of things. There they 
are tube-feeding a sea turtle.
    Here we are taking tissue samples from a pygmy sperm whale 
which we had for about three weeks. And often whales wash up on 
our shorelines. Here is a humped-back whale which we are doing 
a necropsy on which is where we collect these tissue samples.
    Mr. Lewis. Let us make sure that Mrs. Browner sees these 
photos, huh? [Laughter.]
    Mrs. Meek. I think the staff has tremendous opportunities 
in terms of education. The University of Miami has a similar 
project on that end. And it is funded by both public and 
private resources. So, I do think you are on the right track 
here. And I know what contributions it would make if you are 
able to get it going.
    Mr. Lewis. I guess that means Mr. Pickett would have to 
spend some time with my colleague from Florida, as well. 
[Laughter.]
    Mrs. Meek. You would be surprised at the kind of research 
that has come out of the center.
    Mr. Pickett. Thank you very much, Mr. Chairman.
    Mr. Lewis. Thank you.
    Mr. Rawls. I have some information I would be glad to leave 
because you are interested in reading a little more about our 
stranding program and what we are up to.
    Mr. Lewis. I do not want to take all of your material but 
in the meantime I am very interested and I will make sure the 
members have it also.
    Thank you.
    Mr. Rawls. Thank you very much, thank you for your time.
    Mr. Lewis. Thank you, Mr. Rawls.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Lewis. Mr. Blumenauer.
    As you know, we will take your entire statement for the 
record and you can give it all or summarize, whatever you would 
like.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I have submitted something and I will be out of here in two 
minutes. But I----
    Mr. Lewis. We are pleased to have you, but in the meantime.
    Mr. Blumenauer. I know you have a lot on the agenda.
    The issue that I guess I am concerned about when we are 
watching what is coming with the National Weather Service now, 
we are hearing potential additional problems with flooding 
around the country, I think it is appropriate to just stop by 
for two minutes to reinforce for FEMA's pre-disaster mitigation 
program. I know it is not in vogue to talk about government 
regulation, land use planning, all of that, but I do think we 
are in a situation now where the taxpayers are spending 
billions of dollars to try and bail out situations where people 
were building where God did not intend them to build according 
to standards that really are not quite as strong as we can and 
should do.
    I come from a community in Oregon where we have had some 
land-use standards that way people do not build in flood 
plains, where we are in the process of reinforcing buildings at 
great cost to the public and to the private but it is going to, 
in the long-term, it is going to reduce expenditures because we 
know the earthquake is coming.
    I would hope that two things could happen, Mr. Chairman. 
One is that the President's request for $50 million for pre-
disaster mitigation programs for FEMA, really, I think deserves 
serious consideration, perhaps even beefing up because spending 
money early we know is going to save us money in the long term. 
And also, if in the wisdom of the Committee that we could think 
of some opportunities to provide some incentives for 
communities that are doing the right thing upfront, where they 
are doing the appropriate land-use planning, the retrofit, this 
stronger building standards, so, that there is an incentive for 
people to do something that is occasionally is unpopular to try 
and do things a little differently.
    You have got an opportunity with this program and with the 
signals that you send to make a big difference and it is going 
to pay dividends for years to come and it is going to help have 
livable communities, save tax dollars, and prevent loss of life 
and property.
    [The statement of Mr. Blumenauer follows:]

[Page 39--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Blumenauer, for the Chairman--the members 
can speak for themselves--I could not agree with your point 
more. FEMA is a much different agency today than it was 10 
years ago. They are doing a lot of good work in this subject 
area in this subject area. And while we have encouraged it, I 
think our encouraging it used to go further than that. So, we 
appreciate very much your testimony.
    Mr. Stokes. I just join with the Chairman, Mr. Blumenauer, 
in thanking you for your testimony. Just this past week, the 
Chairman and I visited some FEMA operations in the field just 
to get a better feel for ourselves in terms of the precise area 
that you are testifying on today. So, I appreciate it very 
much.
    Mr. Lewis. You may be interested in knowing that last year 
we put money in the bill for the very item you are discussing 
when it was not even requested. So, we feel the same way.
    Thank you very much.
    Mr. Blumenauer. Thank you very much.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. PETE J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Lewis. I have heard you talk off the top, you are 
fabulous.
    Mr. Visclosky. Well, Mr. Chairman, I would like to be 
fabulous, short and get some money. My statement is entered in 
the record and I would simply encourage the Chair, the members 
of the Committee to consider special purpose grants. I 
understand the policy has been not to encourage those in the 
last couple of years, but just have some very basic needs in my 
Congressional district.
    I have three requests pending. Two for northwest Indiana. 
One is in the amount of $2.3 million to help to begin to 
provide sewer and water service to a community of Green Acres 
in Hobart, Indiana, that has a serious drainage and water 
quality problem.
    The other is a renewed request from the last year of $1 
million for demolition monies for the City of Gary. We have 
just a horrific rebuilding program and while we want to build 
things in Gary, Indiana, part of our problem is we have over 
3,000 abandoned sites as well that, in many cases, harbor those 
who are engaged in criminal activities that devalue property 
values in the neighborhood and no longer serves any useful 
purpose.
    The city, while it has experienced some new revenue during 
the last year, is just desperately strapped for funds. And I 
appreciate, as always, that both yourself and Mr. Stokes, Mrs. 
Meek and the members of the Committee will give me every 
serious consideration and I thank you for that.
    [The statement of Mr. Visclosky follows:]

[Pages 41 - 42--The official Committee record contains additional material here.]


    Mr. Lewis. Let me ask about those abandoned sites just very 
briefly. Are those sites largely publicly owned or are they 
privately held?
    Mr. Blumenauer. Mr. Chairman, most of them are publicly 
held and most of those, also now, would revert to public 
authorities, the county, because of forfeiture on property tax 
payments and things such as that.
    Obviously, if some of these dwellings can be rehabilitated 
for lower-income, moderate-income housing, we would like to do 
that but many of these cases and most are residential 
structures, although many are also commercial structures. They 
have simply long-since been abandoned, taxes have not been paid 
and they simply have not reverted to the public list because 
the County, obviously, wants to avoid any liability to have 
attached to ownership.
    Mr. Lewis. Let me mention to you that I have been 
discussing this very subject with my colleague from California, 
George Brown who's district is adjacent to me. He has my 
hometown in my district and there are like 800 homes that are 
boarded up and vacant.
    Mr. Visclosky. How did they get away with that?
    Mr. Lewis. Well, you know, communities do change.
    But in the meantime, the problem that you are identifying 
by way of this request is a national problem and we need to 
have input regarding how we, long-range, go about handling 
these difficulties or helping communities turn themselves 
around. So, your testimony is welcome and I must say that we 
have been very cautious, as you know, this Committee about 
earmarking, in no small part, because people love to focus on 
our bill when they go to the floor.
    Mr. Visclosky. I understand.
    Mr. Lewis. So, sometimes this work finds its solution in 
conference and sometimes it does not. Would the State 
legislation apply to Indiana on the clean drinking water 
question?
    Mr. Visclosky. I think so.
    Mr. Lewis. Last year we did not earmark any clean drinking 
water projects because so many of the States have not passed 
the legislation that is necessary for them to receive those 
monies. I do not know the condition of Indiana, but in the 
meantime----
    Mr. Visclosky. Mr. Chairman, I assume Indiana is in good 
shape in that regard because three years ago the Subcommittee 
did earmark monies for another very similar project in another 
community.
    Mr. Lewis. Special purpose grants are items of interest to 
many people who address themselves to our Committee and we deal 
with that one step at a time. But I must say that with Mrs. 
Meek on the Committee I am not sure if it will be one step at a 
time, it may be----
    Mrs. Meek. I did not hear that last statement, Mr. 
Chairman. [Laughter.]
    Mr. Stokes. It was a compliment, Mrs. Meek.
    Mr. Lewis. Thank you very much.
    Mr. Visclosky. Thank you, Mr. Chairman, Mr. Stokes.
    Mr. Stokes. I would just like to thank Mr. Visclosky, also, 
Mr. Chairman, and his testimony is always very reasoned, very 
thoughtful and I appreciate very much his appearance here.
    Mr. Visclosky. Mr. Stokes, thank you very much and thank 
you, Mrs. Meek.
    Mrs. Meek. Thank you.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

  ALVIN C. YORK VA HOSPITAL IN MY HOMETOWN OF MURFREESBORO, TENNESSEE

                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Lewis. Mr. Gordon, we will take your statement for the 
record. We encourage your staff not to allow you to read it 
all. In the meantime, if you would give us an idea of what you 
want us to hear, we would be happy to have it.
    Mr. Gordon. Thank you, Mr. Chairman, Mr. Former Chairman, 
and Mrs. Meek, I am glad to have a chance to be with you today. 
I will be brief. I want to talk to you about the Alvin C. York 
VA Hospital in my hometown of Murfreesboro. I can speak with 
some authority since my father worked there for 27 years, I was 
a volunteer there, my uncle worked there and I am very familiar 
with the facility.
    This is the only time in 12 years of being in Congress that 
I have really come to make a request for this facility. They 
are a psychiatric hospital basically and they have very 
antiquated facilities for their patients in terms of the 
physical plant. They still have baths and they are like on the 
floors, they are communal baths. They are not places for women 
Veterans to be able to have baths and things of this nature.
    And it simply needs to be renovated. That is why the VA, 
the Federal VA has put it on their deficiency list. Last year, 
this Committee voted $2.3 million for the design. They have 
full disclosure. They have only obligated 10 percent of that. 
But within 30 days they will obligate the remaining 90 percent 
of which then they will need $26 million to do the renovation. 
And, so, that is really where we are.
    [The statement of Mr. Gordon follows:]

[Pages 45 - 47--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Gordon, as you know, within the authorizing 
swirl around here there is often discussion among authorizing 
chairmen and other members that the appropriations committee 
tries to do too much of their work. And, so, in connection with 
that, I would be interested in knowing whether the authorizing 
committee intends to authorize this construction process and 
have you discussed it with them?
    Mr. Gordon. We would hope so. We have made that request and 
they have not yet dealt with it.
    Mr. Lewis. Okay.
    I would appreciate it if you would help us pursue that 
matter, we will pursue it as well.
    Mr. Gordon. All right.
    Mr. Lewis. And in the meantime, I understand your 
situation. The committee is attempting to help walk through a 
policy relative to construction, reconstruction of old projects 
whether clinics, better service needs, et cetera because of the 
reality that veterans not only are not necessarily located in 
concentrations where big facilities are, and they move around a 
lot. So, as we do walk our way through that, every community 
that has an existing facility has a problem. We understand, but 
in the meantime we are very anxious to work with you on that.
    Mr. Gordon. And you have limited funds and I understand 
that. So, sort of the process here is again, the VA has 
identified it as a deficiency.
    Mr. Lewis. Correct.
    Mr. Gordon. You have provided funds for the design.
    Mr. Lewis. Correct.
    Mr. Gordon. Those funds will be 100 percent allocated 
within 30 days and then the construction will need to go 
forward. So, I think we are trying--and then the piece I left 
out is we need to be sure that we go to authorizing committee 
and hopefully we will do this in the responsible way.
    If I could make a quick report. Some years ago, this 
committee appropriated some funds for what is called Bradley 
Academy in my hometown of Murfreesboro. After the Civil War, 
well, actually James K. Polk went to school at this location. 
Then from 1860 to about 1960-something, from post-Civil War to 
post-integration it was the only one in the community for the 
African-American community.
    If you have parents in the African-American community from 
my community your mother, grandfather, great uncles, somebody 
has gone to that school. And it was in horrible disrepair.
    This committee had provided some funds that had been 
leveraged into additional funds for that very historic part of 
the community to be renovated. It is being used or just almost 
completed now, so that we can use it for meetings, also a 
museum.
    It is a place for African-Americans to bring their kids and 
grandkids and say this is where I went to school, this is where 
your grandfather went to school. And here is a photograph of 
somebody that went here that is a doctor, that is a lawyer, 
that is an athlete or whatever. And it is a great source of 
pride and help for our community and I thank you for this.
    And I hope to bring photographs back soon to show you----
    Mr. Lewis. Well, Mr. Gordon, I was going to suggest that as 
you go about convincing Mr. Stokes that we ought to visit that 
academy we might just as well look at the hospital, too.
    Mr. Gordon. Well, it was the one appropriation from this 
Committee and I hope that you will feel that it was worthwhile 
and I want to bring you back that documentation very soon.
    Mr. Lewis. Thank you.
    Mr. Stokes. Mr. Chairman, I would like to see it. Mr. 
Chairman, Mr. Gordon has shared with me on several occasions 
not only his great pleasure with what the Committee did at that 
time for Murfreesboro there, which is in his district, but he 
has also shared how much it has meant to that community and 
what they have really been able to do in the leveraging they 
did with the funding and so forth. And it is one of the reasons 
why we continue to feel that the special purpose grants really 
did what they were supposed to do and that was tend to some 
very special purposes.
    Mr. Gordon. And this would never have been saved--and it 
goes beyond, I mean it is just good for everybody.
    Thanks.
    Mr. Lewis. Thank you, it is good to be with you.
    Mr. Stokes. Thank you.
    Mr. Lewis. And we are in recess.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

    ENVIRONMENTAL PROTECTION AGENCY; THE NEW YORK-NEW JERSEY HARBOR 
               SEDIMENT DECONTAMINATION TECHNOLOGY STUDY

                                WITNESS

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Lewis. The Committee will come to order.
    Mr. Pallone, I notice you have got all kinds of underlined 
things, et cetera, et cetera. If you would make sure that you 
give the underlined copy to us for the record then you can off 
the top tell us what you want.
    Mr. Pallone. That is exactly what I will do, Mr. Chairman, 
and members of the Committee and thank you for the opportunity.
    I am here to talk about EPA, the appropriation request. And 
most of them are, well, some of them are specific to New 
Jersey, and others are of a more general nature. But I just 
wanted to highlight a few of them, if I could.
    I am not going to talk about all of them.
    Mr. Lewis. I hope not.
    Mr. Pallone. Okay. First of all, you have been very 
supportive, collectively, of this decontamination technology 
study. Just so you know, in my district, off of my district 
there is what they call the ``Mud Dump Site'' where 
contaminated dredge material from New York/New Jersey Harbor is 
disposed of. And pursuant to an agreement with all parties, 
most notably the Vice President, that site is going to close 
September 1st of this year.
    But we need alternatives. And decontamination is really the 
best alternative in the long run. And right now, our goal 
really is to have one or more full-scale dredge material 
processing facilities to decontaminate this toxic dredge 
material on board within the next year or two.
    And you basically have been providing money every year for 
this overall study project. What we are asking for is $5 
million for the next fiscal year to continue it. It has been 
successful. These technologies exist. They are used in the 
Great Lakes. My colleague from New Jersey, Mr. Frelinghuysen, 
has been very supportive and he is aware of it. And, so, I hope 
that you would really consider continuing with that amount of 
money.
    The other thing is that New Jersey has, for a long time, 
had a very good beach-water quality monitoring program. And we 
have been trying to expand it nationally and get a federal 
program that was similar to that. And in his budget, the 
President included $2 million for what he calls the right-to-
know initiative but there is $750,000 of that which is slated 
for a new beach-water quality initiative which is similar to 
what we do in New Jersey.
    I guess the idea is that if this pilot program works that 
they would expand it throughout the country. So, I am just 
asking that you support that because it is so important to the 
tourism industry which continues to grow not only in New Jersey 
but throughout the country.
    Clean lakes. What you have done in the past two years 
neither the Subcommittee nor the Administration has put in any 
money for the clean lakes program. And I think what you have 
said is that you have made lakes eligible for funding under 
Section 319 of the Clean Water Act, the non-point source 
pollution program. But the problem with that is that because 
there is not that much money in that program either lakes 
really have not been able, I mean essentially there is no clean 
lakes program any more on the Federal level.
    And we really have not been able to channel much through 
the non-point source pollution program. And I guess I just 
wanted to stress that this is something that really is a small 
program that has been very effective in New Jersey and other 
parts of the country getting communities involved, getting 
matching State funds, getting local funds, and if there was 
just a small amount of money, like a few million dollars, in 
the clean lakes program, I think it would really make a 
difference in terms of, you know, basically acquiring money 
from various other sources to do more with clean lakes. So, I 
would ask you to consider that.
    The other thing is that the EPA has a number of 
laboratories around the country but one of the major ones is in 
my district in Edison, New Jersey. They do a lot, particularly 
with Superfund, and they are the home of the national emergency 
response team. But the facilities in Edison are very old and 
over-crowded, out-dated, it is really having an impact on the 
research that they can do.
    So, I was asked that the Committee would consider $3 
million under your building and facilities account for EPA to 
basically prepare a formal construction design and consolidate 
these laboratories.
    Obviously, you do not have the time to go there but you may 
have actually been there or maybe I will take you there if you 
have not been just to see how bad it is.
    Mr. Frelinghuysen. Is that a request or a threat?
    Mr. Pallone. Let me just talk, I have a couple of more 
things, and then I will leave. The helicopter----
    Mr. Lewis. You are very close to impinging upon Ms. 
Pelosi's time and that is a very dangerous thing to do.
    Mr. Pallone. Oh, she is over there, oh, I do not want to do 
that. Okay, very quickly. [Laughter.]
    The helicopter. We have an EPA helicopter that does water 
quality testing and monitoring for debris. Basically it was in 
the aftermath of the late 1980s when we had all these beach 
washups on the shore. And we need $500,000 to continue that 
helicopter program for New York and New Jersey in the next 
Fiscal Year.
    Mr. Lewis. Sounds like we bought another cow, Mr. Pallone.
    Mr. Pallone. Well, you have had it, Mr. Chairman. It has 
been operating but we need it and Rodney knows about it. He 
sees the helicopter when he is on the beach, I am sure, coming 
by, not that he is ever on the beach.
    The Brownfields, we are trying to move a Brownfields 
program under Superfund and EPA has requested $50 million as 
part of a program to basically do, I guess, 5,000 Brownfields 
sites by the year 2000. And I just would ask that you fully 
fund that pursuant to the Administration's request.
    Also, on Superfund, in general, I think you are aware that 
the Administration has this program where they want to 
basically begin construction of an additional 150 cleanups in 
1998, and 900 cleanups by the year 2000. I am very supportive 
of that because I think that even though a lot of people 
criticize it, I think that Superfund has been pretty much a 
success and there has been a lot of sites cleaned up in my 
district, in particular, New Jersey, which has the most sites 
in the nation.
    So, we would very much like to see you go along with the 
Administration's request with regard to this.
    [The statement of Mr. Pallone follows:]

[Pages 52 - 59--The official Committee record contains additional material here.]


    Mr. Lewis. If I could comment just generally on your 
request.
    Mr. Pallone. Sure.
    Mr. Lewis. There are items within your request that very 
much do relate to the authorizing committee and I hope you will 
be communicating with them as well.
    Mr. Pallone. We will.
    Mr. Lewis. But we do need some help from the authorizers, 
especially with the Clean Water Act. And in the meantime, the 
agency has asked for a very sizable increase this year and most 
of it ends up going to Superfund. I mean if that money which is 
spent were spent as effectively as Brownfields has operated, I 
would be very encouraged. I would urge you to communicate with 
the agency as well about the success of Brownfields. Spend 
other new monies that might be available if they are eventually 
available in some of the other programs that you are talking 
about rather than throwing money in hopes that we can fix the 
parts of Superfund that have not functioned so well.
    Mr. Pallone. I appreciate that. And one of the things that 
I have been saying, I think Brownfields has a very bipartisan 
support at this point, at least that is my impression.
    Mr. Lewis. I did not know anything about it until Mr. 
Stokes started twisting my arm. [Laughter.]
    Mr. Pallone. Now, it is bipartisan. [Laughter.]
    But, you know, the----
    Mr. Stokes. Thank you for letting me twist your arm, Mr. 
Chairman.
    Mr. Lewis. Mr. Stokes, please?
    Mr. Pallone. But the problem I was going to say, you know, 
in the Commerce Committee we have been trying to push your 
Brownfields proposal with Mr. Dingell as well but so far what 
we are getting and I do not want to say just Republicans, but 
primarily from the Republican leadership in the Committee, is 
that they want to do the whole Superfund, you know, 
reauthorization and they do not want to separate out 
Brownfields. I mean that is fine if you can get the 
reauthorization but if you cannot, I do not want the 
Brownfields to be held hostage to the lack of a reauthorization 
bill, in general.
    Mr. Stokes. Well, that brings to mind that on our 
Subcommittee during the course of our hearings I sort of noted 
a philosophy with reference to putting more emphasis on 
Superfund than on the Brownfields. And so it sort of ties into 
the same thing that you are speaking of there.
    Hopefully we can get to the point where we realize that 
both areas are extremely important and we really ought not to 
hold one hostage to the other. On a bipartisan basis we need to 
look at the whole picture and approach it in that respect.
    Mr. Pallone. I agree.
    Mr. Lewis. And let me yield to our colleague from New 
Jersey for he might very well want to comment.
    Mr. Frelinghuysen. Mr. Chairman, briefly, I want to welcome 
my colleague, Mr. Pallone, to the Committee. Unfortunately New 
Jersey has only had nine Superfund cleanups. You may have had 
better luck in your district, than mine. We need to spend the 
money in actual cleanup and get away from litigation and 
overhead.
    Relative to clean lakes through the Chair's good work we 
actually have language in there directing. We did last year but 
the EPA has not followed up on that language. We find often 
times we direct the EPA to do things, to provide for clean 
lakes money through other accounts. They do not do it even 
though we requested it.
    Mr. Pallone. So, they just have not followed up on the non-
point source.
    Mr. Lewis. Thereby, people like you begin to express 
concern separate from the Committee that can be very helpful. 
So, that is why I suggested that.
    Mr. Pallone. Maybe we can put some language in there 
somewhere.
    Mr. Frelinghuysen. We did last year and they did not follow 
the language.
    Mr. Lewis. But I am sure with your charm Mrs. Browner will 
be more responsive.
    Mr. Pallone. I will try, I will try. [Laughter.]
    Thank you.
    Mr. Lewis. Thank you.
    Ms. Pelosi.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

HOPWA AND UNIVERSITY OF SAN FRANCISCO CENTER FOR INTERNATIONAL BUSINESS 
                               EDUCATION

                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Pelosi. Thank you, Mr. Chairman.
    It is always a pleasure to follow, Mr. Pallone, our 
colleague. He covers so much territory in so short a time, so 
effectively. Being on the other side of the table in my other 
Committees I am always amazed at how much area he covers.
    Thank you so much for the opportunity to be here. I will 
try to confine my remarks to a few requests, although I respect 
the incredible, wonderful jurisdiction that this Committee has, 
it is so important to our country. I, particularly, want to 
commend you again for your support for FEMA striking the 
midwest. As you know we have had our bad days in California and 
still do with some of the flooding, but the contract that the 
American people with their government is honored by you and 
this Committee and bringing help to them in FEMA.
    But now, about my own and more specific, closer to home.
    Mr. Lewis. I am very much interested in the testimony. I 
know you have prepared for your interest in subject areas that 
we have shared mutual concern about and it is much appreciated. 
So, please proceed.
    Ms. Pelosi. Thank you. I will submit it for the record and 
just touch on a few points.
    Mr. Chairman, members of the Committee, Mr. Stokes, thank 
you. I appreciate your consideration of these requests and for 
your past generosity. And I want to start off by asking for 
funding for Housing Opportunities for People With AIDS, the 
HOWPA program, which you have been most generous to.
    This important program, as you know, has made a significant 
difference in the lives of many people with HIV/AIDS across the 
country and deserves continued Federal support. I want to point 
out this year that more cities and communities are qualifying 
for funds under the formula. So, with these new jurisdictions, 
five were added for Fiscal Year 1997, and 10 new jurisdictions 
will be added for Fiscal Year 1998.
    Unfortunately, the annual level of funding has not kept 
pace with the number of new eligible jurisdictions because so 
many of them have come on board. The nongovernmental 
organizations which provide AIDS housing and services believe 
that $250 million is the figure needed.
    I frankly, hesitated to mention that number here today 
serving on your side of the table because it is a large number, 
but it is a defensible number that is needed. I would hope that 
the Committee would fund the program though for the $204 
million, a modest increase of $8 million over Fiscal Year 1997. 
The Administration's request is $204 million. It falls short of 
the basic need of $250 million but it is a number that I hope 
you will consider.
    If I may make available to our colleagues, this is ``Giving 
Life a Home,'' HOWPA at work in San Francisco now. In the back 
of the book you will see the chart that talks about the cases 
across the country. This is just a presentation of how it works 
in our community, if you would be interested in that.
    Mr. Lewis. Thank you.
    Ms. Pelosi. Section 8. I strongly support the 
Administration's request for renewal of project- and tenant-
based Section 8 certificates we have talked about this in years 
gone by. It is an ongoing request. These certificates provided 
important stability in the lives of low-income people and you 
know that through Section 8 we can prevent homelessness, give 
working families an opportunity, they need to be self-
sufficient.
    I also hope the Subcommittee will support initiatives to 
facilitate the transfer of developments receiving project-based 
Section 8 to non-profits and tenant organizations. I would like 
to note that the importance of sufficient funding for the HUD 
budget overall. In light of the welfare reform passed this 
year, so many families are dependent on that HUD budget.
    Mr. Lewis. Ms. Pelosi, if I could interrupt at that point.
    You are aware of the growing problem that we have with 
Section 8 certificate renewals. The added VA that we are going 
to need over time is huge and is really exploding on us down 
the line. There are programs around the country where housing 
efforts have worked very poorly and had problems and other 
cases there have been improvements and change, et cetera. As a 
result of that, I have begun to try to visit some urban centers 
where we see difficulties but also where we have seen change.
    Your community, San Francisco, is one of those that have 
gone through a good deal of change. And, frankly, I intend to 
talk with my Committee members sometime about going to have the 
mayor introduce us to your housing people and spend a little 
time there.
    Ms. Pelosi. That would be great.
    Mr. Lewis. Not too many weeks, but a little time.
    Ms. Pelosi. Well, we can stretch it out as long as you 
want. [Laughter.]
    It is such a big city.
    Mr. Lewis. I wanted to mention that to you because I know 
of your imagination and thought it would not be bad to let my 
colleagues know that I was thinking about that while you were 
present.
    Ms. Pelosi. I appreciate that and I would like to join our 
mayor in welcoming the Committee to a visit to our area, to San 
Francisco and the surrounding areas to see how the Section 8 
works there.
    We have had this discussion before in the Committee. We are 
a high-cost area. And it presents special challenges. But in 
some of the low-cost areas we do not want the Section 8 
certificates exploited and it is a big issue that we can talk 
about when you come out on your trip. But I know it is a big 
funding issue. I mean it would require a great deal of money to 
fully fund the Section 8 needs. So, we would like to show you 
some successful examples of how it works.
    Mr. Lewis. In terms of preservation, you should be aware 
that the Administration has made no request for preservation 
funds this year, last year, I think maybe even the year before. 
But in the meantime, your----
    Ms. Pelosi. That is part of my statement and it is there 
for the record.
    Mr. Lewis. Right.
    Ms. Pelosi. I think preservation is very important and I am 
sorry that the Administration has not asked for the request. 
But I believe that a cost-effective preservation program could 
meet the needs out there for about $500 to $600 million. I 
would like to say estimates have been as high as $900 million 
but even half of that would go a very long way.
    And, then just in closing, the University of San Francisco, 
in the past, you have provided funding for a Center for Pacific 
Rim Studies. If you do fund economic development initiatives 
this year, I hope you will consider their request and I will 
not go into any more detail on that except to thank you again 
for your past leadership and generosity and your consideration.
    Now, once again, thank you for what you do for FEMA.
    [The statement of Ms. Pelosi follows:]

[Pages 64 - 66--The official Committee record contains additional material here.]


    Mr. Lewis. Well, as you know, within this Committee we are, 
the full Committee, we are all in this together and, so, we are 
very pleased to try to work with you.
    Mr. Stokes.
    Mr. Stokes. Mr. Chairman, I would just note that Ms. 
Pelosi, I think is the only member of the Appropriations Full 
Committee who has appeared here this morning to testify before 
us.
    Mr. Lewis. And that will not hurt you very much. 
[Laughter.]
    Mr. Stokes. I just say that because I think she is an asset 
to the Committee.
    Mr. Lewis. Absolutely.
    Mr. Stokes. And she is one of the most effective advocates 
of the things that she came here to Congress to represent and I 
just have nothing but tremendous admiration for her.
    Ms. Pelosi. That is nice, thank you very much, Mr. Stokes. 
Thank you, Mr. Chairman.
    Mr. Lewis. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                 ENVIRONMENTAL PROTECTION AGENCY--TARP

                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Lewis. The Committee will come to order.
    Mr. Weller, we will take your testimony for the record. If 
you would summarize very briefly, we are scheduled to leave the 
room at 12.
    Mr. Weller. Thank you, Mr. Chairman.
    First, Mr. Chairman, and Mr. Stokes, I want to thank you 
for the opportunity to testify and submit my request. I do have 
some testimony I would like to submit for the record, as well 
as some statements from local officials back on the South Side 
of Chicago and the south suburbs, I would like to submit for 
the record, as well.
    Mr. Lewis. Good. I had the impression that you were going 
to have guests with you and that is why we were actually 
holding off a little to see if we could go two minutes after 
12. But, since they are not here that is not a problem.
    Mr. Weller. They were unable to be here and that will 
shorten the amount of time I need. At the last minute, the 
gentleman who was going to be with me was unable to come. So, I 
have his statement and it will be included.
    I come before you with a project which this Committee has a 
long-time investment in and that is continued funding for the 
deep tunnel, the tunnel and reservoir project [TARP] which is 
of major interest to the entire Chicago region.
    The deep tunnel project is a project that provides flood 
control for half a million residents, particularly on the South 
Side of Chicago and the south suburbs, as well as the major 
anti-pollution control effort, particularly when there is heavy 
rains, of course, this prevents raw sewage from going into Lake 
Michigan. It is a major environmental initiative, as well.
    What I am asking for today is for $30 million in funding. 
Last year the Subcommittee provided $10 million for continued 
development. The majority of deep tunnel has been completed. 
There is 93 miles of deep tunnel that are completed, 16 miles 
of the tunnels remain to be completed.
    They primarily affect the South Side of Chicago and the 
south suburbs that I represent. And deep tunnel has been a 
success, I do want to point out. In fact, the Environmental 
Protection Agency has pointed out that TARP or the deep tunnel 
has probably been the most cost-effective plan to meet the 
enforceable provisions of the Clean Water Act as they affect 
the Chicago area and actually we get a pretty good bang for the 
buck. If you look at the cost of this project for what we have 
been able to achieve, we are able to get twice the results for 
what the Boston project, for example, which I know you have 
been asked to support, as well.
    So, I do want to come before you and ask your 
Subcommittee's continued support. It is actually four times the 
result of what Boston is able to remove.
    Mr. Lewis. If I might interrupt the gentleman's testimony. 
I do know the Administration has asked for money for Boston and 
New Orleans. They have not included this within their request 
this year. I would think that the entire delegation from 
Illinois might want to focus upon that for I do not really 
understand the difference. This project we have made the 
investment in but it is hard in a very tight circumstance when 
they are asking for a lot of money for Superfund to fund items 
that they do not make requests for.
    So, in the meantime, I bring that to your attention and if 
I were you I would broaden the request beyond your district, 
which I know you are doing but I just want to make that point.
    Mr. Weller. Well, I believe the members of the Illinois 
delegation have indicated their support in the past, as well as 
for this particular request.
    Mr. Lewis. I know that they have. I would suggest that in 
this case the Administration needs to hear that initiative one 
more time from the entire delegation, I would guess.
    Do you agree with that, Mr. Stokes?
    Mr. Stokes. I certainly do, Mr. Chairman, and, of course, 
as Mr. Weller said this is a project that our Subcommittee has 
supported for quite a number of years now. But I think it would 
be very helpful if he were to follow your suggestion.
    Mr. Weller. I will. I will make the contact with the 
Administration and, of course, this does affect more districts 
than just mine.
    Mr. Lewis. Mr. Weller, that is precisely my suggestion, 
much broader letter than just a single shot.
    Mr. Weller. But I do ask for the full $30 million to 
continue this project, to continue the investment the 
Subcommittee has invested in the deep tunnel project. It is 
important to a lot of people and it is both a flood control 
project which affects a lot of homeowners and working people, 
and it is also a pollution control measure to protect the water 
quality of Lake Michigan and the Great Lakes.
    [The statement of Mr. Weller follows:]

[Pages 69 - 71--The official Committee record contains additional material here.]


    Mr. Lewis. If I could, Mr. Stokes, just to raise the level 
of urgency to my suggestion. It is not logical that government 
would invest a lot of money over time and not continue with 
that investment to completion. But you may remember the 
Superconductor and the Supercollider, it does happen from time 
to time.
    Mr. Weller. I appreciate that.
    Mr. Lewis. Thank you very much, Mr. Weller.
    Mr. Weller. Thank you very much for your time and thank you 
for your continued support, we appreciate it.
    Mr. Lewis. Ladies and gentlemen, our other witness for the 
morning has cancelled just this moment. So, we will recess 
until 1 o'clock.
                              ----------                              

                                         Wednesday, April 30, 1997.

VETERANS' ADMINISTRATION, ENVIRONMENTAL PROTECTION AGENCY, HOUSING AND 
           URBAN DEVELOPMENT, AND NATIONAL SCIENCE FOUNDATION

                                WITNESS

HON. MIKE DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Lewis. The meeting will come to order.
    Please know this, that you benefit much better with this 
committee if you submit your testimony for the record and 
briefly summarize. Expressions of desire end up having a 
negative effect rather than a positive effect. [Laughter.]
    Mr. Doyle. Thank you, Mr. Chairman. I will be as brief as 
possible. I have submitted much lengthier comments for the 
record.
    Mr. Lewis. I see a lot of big type there, and we can read 
that, too.
    Mr. Doyle. Mr. Chairman, if you were to do everything in 
this big type, I would just hand it to you right now and walk 
out the door. [Laughter.]
    I will try to be brief.
    Let me start by thanking you for the opportunity to come 
before you today.
    The first issue I do want to address is an EPA directive to 
over one-third of the 67 communities in my District, to 
eliminate their separate sanitary sewer overflows. My written 
remarks, in a letter to the committee dated April 14, signed by 
myself and Congressmen Coyne and Mascara, provided a detailed 
description of the situation, so I will be very brief.
    Given the unique structure of the sewer system in Allegheny 
County, the cost of eliminating the sanitary sewer overflows 
could well exceed $750 million.
    We would like to propose a solution to this sewer overflow 
problem which would develop innovative, cost-effective 
solutions to eliminate these overflows. Specifically, we are 
requesting, in EPA's fiscal year 1998 budget, $2.5 million for 
the Three Rivers Watershed Protection Demonstration Project. We 
are also requesting that language be included that instructs 
EPA to work in partnership with the impacted municipalities in 
solving this serious water quality problem.
    In the region I represent, the median income is around 
$23,000. We just don't have the tax base that can absorb the 
necessary cost. Thus, it makes sense to approach the problem 
collectively, utilizing locally-matched federal grant funds.
    The proposed project would develop a master plan to 
eliminate more than 40 separate sanitary sewer overflows in the 
three rivers area of the county. Any time we can solve a $750 
million problem by providing $2.5 million up front, I think 
that's a good use of our money.
    Also, this project will not only address the problems in 
Allegheny County, but since it has never been done on this 
scale, it is my belief it would be a model for other regions.
    Another item in the EPA budget that I hope you would 
consider funding is the particulate matter research at $50 
million, which is the amount approved by the Science Committee 
in H.R., 1276, the EPA R&D Authorization bill. I'm one of a 
growing number of Members who have publicly gone on record as 
saying that these new clear air standards are premature, at 
best, and we need to do a lot more research and want to give 
EPA the ability to do that, so that before we implement rules 
and regulations, we make sure they're based on sound science.
    Let me just say, very briefly, that in my testimony I make 
reference to the NSF's Partnerships for Advanced Computing 
Infrastructure. Since that decision has been made, we need to 
look at how we can protect the federal investment in the two 
centers that were not maintained--the Pittsburgh Supercomputing 
Center and the Cornell Theory Center. I want to work with the 
Committee in identifying areas of high-end computational needs, 
federal and otherwise, that are in our national interest.
    I will skip down to the Department of Veterans Affairs. I 
would hope that the Committee could complete the funding for 
the environmental improvements required at the University Drive 
VA Medical Center, which were begun in the current year's 
appropriation. This center is vital to veterans living in the 
entire 65-county network as the medical/surgical tertiary care 
center, which includesPennsylvania, Ohio, West Virginia, and 
Maryland.
    Finally, Mr. Chairman, there are some issues that I have 
made relative to HUD in my testimony, which I hope you will get 
a chance to look at, especially the issue of flexibility for 
local housing authorities in meeting consent decrees to 
disperse public housing within our communities.
    With that, Mr. Chairman, I will conclude my remarks and 
answer any questions you might have.
    [The statement of Mr. Doyle follows:]

[Pages 74 - 77--The official Committee record contains additional material here.]


    Mr. Lewis. I appreciate very much the brevity of your 
testimony, and also the subjects to which you expressed 
concern.
    Let me mention, Mr. Doyle, that there are many of us who 
share Senator Chafee's concern that EPA moves forward on the 
schedule they appear to be determined to move forward on. It 
could undermine long standing positive efforts involving clean 
air. I personally have been very much involved in clean air 
efforts and I have similar concerns.
    Each Member who is willing to independently work at 
communicating to EPA that moving precipitously could be 
disastrous will have a positive effect on where we might end 
up. So I encourage you to broaden your interest beyond just 
this testimony. I appreciate what you've already done at the 
authorizing level.
    Mr. Doyle. Right. And I've been party to every letter that 
I know of that's gone to the Administration, asking them to do 
exactly that, Mr. Chairman.
    Pittsburgh is an area that would be severely impacted by 
these new regs. We have made tremendous strides in cleaning up 
our air, and we just need to slow this process down a little 
bit.
    Mr. Lewis. Thank you for your testimony. We look forward to 
working with you.
                              ----------                              

                                         Wednesday, April 30, 1997.

  HOUSING AND URBAN DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY AND 
           DEPARTMENT OF VETERANS AFFAIRS; NEBRASKA PROJECTS

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Lewis. Mr. Bereuter, you're up.
    Mr. Bereuter. Thank you, Mr. Chairman, Members of the 
Committee. How are you this morning?
    Mr. Lewis. We're doing just great, especially when the 
people seem to understand that, in this extensive series of 
meetings we have with people, that testimony submitted for the 
record is paid careful attention, and other testimony sometimes 
has an effect, sometimes not. [Laughter.]
    Mr. Bereuter. Thank you, Mr. Chairman. I'll be brief. I 
have three points to bring up with you today, and I have made 
the usual comments about the difficulty that I know you face, 
serving on the authorizing committee and subcommittee.
    I want to talk to you first about the Indian Housing Loan 
Guarantee program. I request the Subcommittee continue to fund 
the Section 184 Indian Housing loan guarantee program. I think 
this is an excellent program. I say that immodestly, since I 
had something to do with creating the authorization. But it 
provides privately-financed homes for the first time on Indian 
reservations through the loan guarantee program for Indian 
families who would otherwise have to rely on public housing or 
simply do without it.
    HUD's Section 184 program was drafted in consultation with 
a broad range of Indian housing specialists, including the 
National American Indian Housing Council, HUD, Fannie Mae, the 
National Commission on American Indians, Alaska Native, and 
Native Hawaiian Housing, and various tribes and Indian housing 
authorities. I have heard from a great many tribes--I'm a 
regular stop on their visitation to Washington--all of whom are 
quite enthusiastic about the program if they've looked at it. 
Their only complaint is that there is too little money 
available.
    The program is based upon the model of the USDA's program, 
the Section 502 program, for a Middle Income Loan Guarantee 
program, which I also initiated with a lot of help from 
colleagues. That's not in your jurisdiction.
    I request that the Subcommittee provide $5 million in loan 
subsidy to expand this very successful program. Although the 
program is in its infancy, HUD has reported that of the 
approximately 225 closed loans, none are in default. HUD 
further estimates there are approximately 600 loans pending in 
the pipeline, and expanding. Thus, this $5 million 
appropriation would facilitate, under a worst case scenario, 
about $65 million in guaranteed loans.
    So, Mr. Chairman, my colleagues, I think this kind of 
investment provides a real opportunity for Native Americans to 
own their homes for the first time on Indian reservations.
    As you know, in the past we've had the problem that this is 
trust territory land----
    Mr. Lewis. Correct.
    Mr. Bereuter [continuing]. And bankers would not 
participate in providing loans. But we have solved that 
problem. I think it leverages our resources very well.
    Secondly----
    Mr. Lewis. Before you move on, Mr. Bereuter, I wonder if I 
could just briefly make a comment for your consideration in 
that subject area.
    Mr. Bereuter. Yes.
    Mr. Lewis. There are Indian tribes and there are Indian 
tribes, and independent nations, indeed. Near my own district 
there is a very small, independent tribe, something less than a 
hundred members. Their income flows from gambling are about 
$100 million. In the United States, we have a long-established 
process in our country where poor states are sometimes helped 
by larger states, and poorer families are helped by family 
taxpayers at a different level.
    I just wonder if others are discussing that with their 
Indian friends, about where one reaches for assistance, when 
one wants independence otherwise.
    Mr. Bereuter. That's a logical question. I don't know the 
answer.
    As you know, Indian tribes are not permitted to participate 
in gambling operations unless state law provides that 
opportunity.
    Mr. Lewis. Correct.
    Mr. Bereuter. So from one state to another, you've got some 
states that can participate and have huge incomes, and others 
that have no income whatsoever. It doesn't matter whether 
they're recognized federal or recognized state tribes. If state 
law doesn't permit it, that's not a resource.
    Are you thinking that Indian tribes ought to be putting 
more of their own money in, if they have that authority?
    Mr. Lewis. It seems to me that at least there ought to be a 
discussion of this reality before we have sizeable lines around 
the country, for example, in the whole field of public housing, 
where the poorest of the poor are outside. Some are totally 
dependent upon public assistance, and the government is 
responsive, where they can, up to some limits.
    I'm just asking out loud these questions. We have three 
holes in our schedule this afternoon because Indian tribes have 
cancelled. I had planned to ask this question of individuals 
directly, and I intend to do that over time. I would urge you 
to help me with the discussion.
    Mr. Bereuter. We still do need the loan guarantee program--
--
    Mr. Lewis. Absolutely.
    Mr. Bereuter [continuing]. Because it's for private 
housing. But I do think, where we're talking about the public 
housing authority on the reservation, you ought to expect that 
tribes that have big revenue flows would pick up a major part 
of that responsibility directly.
    Mr. Lewis. I would think so.
    Mr. Bereuter. I know they're doing some of the renovation 
in a couple of Indian reservations in my district. They're 
doing some of the renovation work out of tribal funds that 
ordinarily would have been under HUD funds.
    Mr. Lewis. I absolutely agree with the policy direction 
you're taking in terms of the loan guarantee opportunities. In 
the meantime, this broader question occurs to me, and I 
certainly wanted you to think about it.
    Mr. Bereuter. I do want to address two other subjects, if I 
may.
    Mr. Lewis. Certainly.
    Mr. Bereuter. The Rural Water Training and Technical 
Assistance program, I have given you some substantial detail on 
this in my written testimony.
    I will just tell you that the ``circuit rider'' program, 
which provides expertise to very small communities, I think is 
a big bargain. It is providing the kind of resources necessary 
to keep sewer and water systems up and running by having a team 
of experts that provide these services to a broad array of 
communities. So I think that, in every state, on-site technical 
assistance is the backbone of the small water system compliance 
programs. So I would urge you to continue to make this a 
priority under your EPA budget request.
    Mr. Lewis. I doubt that our priority will change in that 
connection, so I appreciate it very much.
    Mr. Bereuter. It is very important to about 100-plus 
municipalities in my district, for example.
    Finally, VERA. This is the new Veterans Equitable Resource 
Allocation system. If it was fully implemented, it would have a 
very devastating effect on sparsely settled parts of the 
Nation. I think it is a ``meat axe'' approach to developing a 
formula for distributing funds.
    There has to be a basic level of infrastructure in services 
that are provided to veterans across the whole country. You 
simply cannot do it on a per capita basis. Otherwise, you 
penalize people living in North Dakota, Nebraska and other 
states.
    Now, it is true that you've got huge demands building up in 
sun belt states. As veterans migrate, as they go there for the 
winter, as more people retire in those regions, you need new 
facilities. Undoubtedly, that's the case in your state and in 
Texas and Florida. But you can't simply arbitrarily, with 
justice to veterans, say you're going to distribute this on a 
per capita basis.
    Yes, you can ask states like my own to consolidate two of 
its three veterans facilities, as they have just announced. But 
there is a commitment that we've made to veterans, and so you 
need to provide a basic level of infrastructure in services to 
every veteran across the country.
    It's like the U.S. Postal Service. The U.S. Postal Service 
is a service because it provides for the distribution of mail 
throughout our country, not just the communities that are 
large, not just for people who happen to live in large cities, 
and ignore those in rural areas. If you have a system, you have 
to at least provide a minimal acceptable level of service to 
everybody.
    The VERA program is a very bad idea in its current formula. 
So I ask you to do what you can to make the adjustments, using 
the power of the Appropriations Committee, to see some 
accommodation made, on some kind of de minimis level, for very 
low population, huge states. Delaware, a low population state, 
not a problem. But when you're stretching your veterans out 
over, like in my state, 580 miles from one end to the other, 
and the closest veterans services are now, despite some new 
veterans outpatient clinics, a long way away in other states, 
then something is wrong with the system.
    I brought this to the attention of the Deputy Secretary 
when he was in my state, but I think we need to have some 
changes in there.
    I would be happy to answer any questions.
    [The statement of Mr. Bereuter follows:]

[Pages 82 - 84--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Bereuter, first, I am very interested in 
your testimony. I do come from California, but you can put four 
eastern states in my desert alone. It's a very similar problem.
    I hope you have provided this testimony to the authorizing 
committee as well.
    Mr. Bereuter. I will do that. In fact, I have provided it, 
on a direct basis, but not in oral testimony.
    Mr. Lewis. I'll make sure that my specialist in this field 
looks at this and we can ask you further questions, if there's 
a need to. In the meantime, your testimony is welcome.
    Mr. Bereuter. Thank you, Mr. Chairman. I would be happy to 
answer any questions on anything I have said.
    Mr. Lewis. Do members have any questions? Okay. Thank you 
very much.
    Mr. Bereuter. Thanks for your time.
    Mr. Lewis. That was very good.
                              ----------                              

                                         Wednesday, April 30, 1997.

        ENVIRONMENTAL PROTECTION AGENCY; BOSTON HARBOR CLEAN UP

                                WITNESS

HON. JOE MOAKLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Lewis. Welcome, Mr. Moakley.
    Mr. Moakley. I thank you for the opportunity to come before 
you.
    Mr. Lewis. As you have so gracefully done in the past in 
the Rules Committee, you suggest to people that testimony for 
the record has a very positive effect upon the Rules Committee, 
and a lot of conversation sometimes interferes with one's 
understanding. So proceed.
    Mr. Moakley. That's why I have kept mine down to half an 
hour. [Laughter.]
    Actually, I am here once again to ask the subcommittee to 
appropriate $100 million for the clean up of Boston Harbor.
    I appreciate the help the Federal Government has given us. 
So far, the Federal Government has contributed some 21 percent 
of the total clean-up costs. After a decade, and $3.5 billion 
later, we're almost finished.
    It wasn't too long ago, we all recall, when George Bush 
sailed into Boston Harbor and proclaimed it was the dirtiest 
harbor in America--and he was right. The harbor smelled like 
rotten eggs, sewage systems across the state overflowed, and 
debris was floating in the waterways. Residents of the coastal 
area were up in arms and afraid the economic and environmental 
damage to the region would be irreversible.
    But since that time, Mr. Chairman, we've made great 
progress. The project is more than 90 percent complete. A new 
treatment center has been operating for two years. The water is 
clean. Seals and porpoises have returned to the harbor, and 
people are returning to the beaches to swim, sail and fish. So 
this truly is an environmental success story.
    Boston Harbor has been transformed from one of the most 
polluted harbors in the Nation to a glistening body of water, 
abundant with marine life.
    As many of you know, this project is the result of a 
Federal court order. This was unfunded----
    Mr. Lewis. Mr. Moakley, let me make a couple of suggestions 
or comments.
    First, your colleague, Mr. Frank, was here earlier, and he 
suggested that, in terms of some of our clean water problems, 
if we would in some way, within our total process here, allow 
for the extension of bond----
    Mr. Moakley. Absolutely.
    Mr. Lewis. The suggestion is 40 years. That suggestion is 
really interesting to me, and have someone of your background 
and experience working on that, with maybe a cross-section of 
people that----
    Mr. Moakley. Oh, I have already told Congressman Frank that 
it's a delightful idea.
    Mr. Lewis. The other thing I was going to mention is that 
this Subcommittee has many a problem, housing problems and 
otherwise, and among other things, the Chair is attempting to 
go to certain urban centers to take a look at some of those 
housing difficulties.
    It might be, if we were to have occasion to come to Boston, 
that incidentally you might show us some of the progress 
regarding this project that we haven't seen.
    Mr. Moakley. I would be glad to.
    The thing I want to point out is the harbor clean up was 
mandated by a Federal court. Forty-three cities and towns have 
to pick up the ball. That's why the Federal Government has 
acquiesced in helping us. As I said, they've only paid for like 
21 percent of the entire cost of cleaning up the harbor. Those 
people who live in those 43 cities and towns had no more to do 
with polluting that harbor than anybody else.
    But the problem is the water bills have gone up. Even with 
this money the Federal Government has given, the water bills 
have increased to a degree that people have had to go out and 
get second jobs to help pay their water bill. And when people 
are buying property, one of the first things they ask isn't 
what's the assessment, what's the tax, but what is your water 
bill. I mean, industries are relocating to areas with cheaper 
water. So these are issues, too.
    As I said, when I travel through my district, when people 
talk about things, always the top three or four is the water 
rates, what are you doing about the water rates. It's just 
terrible because I don't have the answers.
    When you think that we've got the highest water rates in 
the Nation, in the Nation----
    Mr. Lewis. It might be helpful, if you would--I have never 
thought to ask this question before--but it might be helpful in 
our record if you would trace for us kind of the pattern of 
what may have happened to three separate kinds of families 
relative to their water bills over time, or three separate 
businesses, just so we have it in the record and can see it, 
over the last five years or so?
    Mr. Moakley. Sure, to show where businesses have moved out 
because of water rates.
    Mr. Lewis. It would be very interesting.
    Mr. Moakley. So I said here, continued Federal funds are 
necessary, because it is going to be completed I think within 
two years. But it is so necessary that we get the final Federal 
money. President Clinton has put $100 million in the budget 
this year, and promised $100 million next year, and that should 
wrap it up.
    I know it's a lot of money, but when you think of why we 
are where we are--I mean, we're there because the Federal court 
says you've got to clean up the harbor. They didn't say 
``here's the check''. They just said go out and do it.
    So we have done well. People in the cities and towns have 
picked up the tab. I mean, it isn't even the entire 
Commonwealth that's paying for it. It's just 43 cities and 
towns.
    Thank you, Mr. Chairman.
    [The statement of Mr. Moakley follows:]

[Pages 88 - 98--The official Committee record contains additional material here.]


    Mr. Lewis. Do my colleagues have any questions?
    You make your case very well, and as I suggest, we will 
work together on this as we go forward.
    Mr. Moakley. And this Committee has been very kind, very 
generous. I understand the entire Nation, the major cities, 
have the same problems and probably haven't been getting the 
help that we've gotten. But as I said, it was a very, very 
expensive thing to do, and it's working.
    Mr. Lewis. It was very clever of you to get the former 
President to take that trip.
    Mr. Moakley. Actually, he got off at the wrong stop. I 
really wanted him to go to Chelsea. [Laughter.]
    Thank you very much.
    Mr. Lewis. Thank you, Joe.
    We'll be in recess one more time.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

 ENVIRONMENTAL PROTECTION AGENCY--ALTERNATIVE WATER SOURCE PROJECTS IN 
                          THE STATE OF FLORIDA

                                WITNESS

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Lewis. Miss Thurman, we normally say that your 
testimony will be received in its entirety for the record, and 
you can present that which you wish. Then we suggest, if you 
don't present anything, that's terrific. But in your case, 
please, we want to hear what you have to say.
    Ms. Thurman. Thank you, Mr. Chairman. I appreciate that. As 
a matter of fact, we have written testimony that is much 
longer. We will have a very short oral presentation.
    Again, Mr. Chairman, thank you for letting me do this. I 
certainly thank Mrs. Meek for her attention to this matter as 
well, and Mr. Davis, our new Member from Tampa, who has so 
kindly been involved with this issue. It is nice to have some 
other support up here, even though this year I believe we have 
really done a good job with our delegation. It seems that we've 
been able to get a lot of support. In fact, most of the 
delegation has signed a letter--I think all of them would had 
we had the time--and I would like to submit both the letter 
from the delegation, a personal letter from Mr. Young, and also 
Miss Fowler, before coming over here, contacted my office and 
asked that we read that into----
    Mr. Lewis. For the record.
    Ms. Thurman. Yes. We won't read it. So we'll give it to 
you.
    I also want to reiterate that we are very grateful for this 
Committee's attention to this matter in the past. You have been 
very helpful with us in the dollars that we have asked for 
before.
    Just so you will know, this is an issue that I have not 
only worked on up here, but it's an issue that I have tried to 
solve a lot of the problems within Florida. So I have really 
been working on the water issues for Florida for a long time.
    As you know, we have experienced significant population 
growth, making us the fourth largest state in the country. As a 
result, our groundwater supply has become threatened. Florida's 
well field levels are being depleted, causing our wetlands and 
lakes to dry up.
    Also, we are experiencing salt water intrusion in the 
aquifer on the Gulf and Atlantic coasts. These events have 
caused the destruction of critical habitat, threatened 
endangered and rare species, and could seriously hinder 
Florida's future economic development.
    The maps I have provided with my written statement depict 
these water use caution areas across the state.
    Today I am joined by the Florida congressional delegation 
in requesting $50 million for alternative water source 
development in Florida. You have each received this delegation 
letter of support, and I am particularly pleased to be joined 
by Representatives Meek, Young and Miller of the Appropriations 
Committee in this request.
    My colleagues and I believe that Federal partnership on 
these projects is critical. The challenge of developing 
adequate water supply is nothing new for growing sectors of our 
country. The Federal Government has responded to this problem 
in some of our western states. In fact, in many ways, Florida's 
situation is similar to that of the West. The Federal role in 
bringing water to the West made a critical difference in 
developing the West into the rich economic powerhouse it is 
today. Florida only asks for that same consideration.
    Mr. Chairman, our local folks are ready to act. We simply 
need a helping hand. The Florida Water Management District has 
identified the needs, created solutions, and are willing to put 
up matching funds. For example, the Southwest Florida Water 
District has been at the forefront developing water 
conservation initiatives. They have been joined by other 
districts in the state, such as St. John's River and South 
Florida in developing conservation plans.
    However, water conservation is not enough. We must act to 
develop alternative water sources that will meet the water 
demands of the future, while protecting our environment. A 
phrase we have become familiar with in Florida is that ``there 
is no cheap water.'' The development of new water sources 
requires the use of technology that is more expensive and, 
therefore, the cost of water from the tap has increased 
somewhat.
    Because Florida's primary source of water, groundwater, is 
endangered, we cannot continue to build well fields. We must 
turn to technology. The technology used in these projects is a 
state-of-the-art. It is cutting edge, but it is not 
experimental. The Water Management Districts have done their 
homework. This technology is both transferrable to other states 
and exportable to other countries. We are getting a ``bang for 
the buck'' here. Together, the State of Florida and the Federal 
Government can bring the newest technology on line.
    We would appreciate your consideration and anything you 
might do in helping us with this.
    [The statement of Miss Thurman follows:]

[Pages 101 - 111--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much for your abbreviated 
testimony. We do appreciate it.

                              ----------                              

                                         Wednesday, April 30, 1997.

 ENVIRONMENTAL PROTECTION AGENCY; ALTERNATIVE WATER SOURCE PROJECTS IN 
                          THE STATE OF FLORIDA

                                WITNESS

HON. JIM DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Lewis. Mr. Davis, I had suggested earlier to your 
associate that testimony for the record is very helpful to the 
Committee. Sometimes when you speak in the Committee it may 
hurt your cause. But since her mother is with her today, we 
made some exception. [Laughter.]
    In the meantime, I would be happy to hear whatever you 
might want to say.
    Mr. Davis. Perhaps I should defer to her mother. 
[Laughter.]
    I'm three minutes late, and if that held you all up, I've 
learned a valuable lesson on punctuality with the Subcommittee.
    You know from California the terrible problems that develop 
when the water supply gets separated from the demand. In 
Florida, 80 percent of our population lives within a few miles 
of the coast. We've got a terrible problem and we have the 
private sector and local governments and state government 
working together. On that predicate, we're here to ask for your 
continuing support. Karen has stated the case better than I 
could.
    Mr. Lewis. We have heard from virtually all of your 
members. Frankly, the input is both helpful and important to 
us.
    Mrs. Meek doesn't have any influence on what our attitude 
will be in the meantime. Mrs. Meek, do you have a question or a 
comment?
    Mrs. Meek. I said she explained the case very well, 
legitimately, and we thank you for being here. I would just say 
there's no problem. Let's do it.
    Mr. Lewis. We're sure going to try to help, no doubt about 
it.
    Ms. Thurman. She understands ``brief''.
    Mr. Lewis. She does.
    Miss Loveland, bless you. Thank you for being here.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

                           VETERANS' AFFAIRS

                                WITNESS

HON. JACK QUINN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Lewis. Hello, Mr. Quinn.
    Mr. Quinn. Hello, Mr. Lewis. How are you?
    Mr. Lewis. You are not going to read all that, are you?
    Mr. Quinn. I certainly am not.
    Mr. Lewis. Okay. Since you are submitting your testimony 
for the record, we would be glad to hear what--and probably we 
can help you. Just be brief.
    Mr. Quinn. So the less I speak, the more you help me?
    Mr. Lewis. That is what we hear around here. [Laughter.]
    Mr. Quinn. Mr. Chairman, thanks for the minute or two to be 
here. We are in the middle of a vote. I will leave with you 
four pages of testimony. Simply put, I am here as the chairman 
of the Subcommittee on Benefits for the Veterans' Affairs 
Committee to ask for your support for the request that the 
National Cemetery System has made.
    One of the differences that I will point out to you in the 
Cemetery System, the NCS, is that as we try to cut costs with 
the rest of veterans' functions and some of those needs dwindle 
because our veterans are dying, the cemetery needs are 
increasing for exactly the same reason.
    [The statement of Mr. Quinn follows:]

[Pages 114 - 117--The official Committee record contains additional material here.]


    Mr. Lewis. That is a very legitimate area of discussion. We 
are sensitive to it. We are glad that a Member of the Committee 
is similarly concerned. So we are happy to receive your 
testimony.
    Mr. Quinn. Thank you very much.
    Mr. Lewis. We will try to be responsive. We appreciate it.
    Mr. Quinn. Thank you.
    Mr. Lewis. Thank you. That was great.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HENRY CAGEY, CHAIRMAN, LUMMI INDIAN BUSINESS COUNCIL
    Mr. Lewis. You would help us with our schedule by way of 
making sure that your testimony is submitted for the record. 
And if you can just speak off the top briefly, we would 
probably do everything if you needed it.
    Mr. Cagey. No problem, Mr. Chairman. I am looking for my--
do you have a copy right there?
    Mr. Lewis. We do.
    Mr. Cagey. I will summarize.
    Mr. Lewis. Please be seated, and welcome. Mr. Cagey, would 
you introduce yourself for the record and go from there?
    Mr. Cagey. Good afternoon, Chairman Lewis. My name is Henry 
Cagey, Chairman of the Lummi Nation, and our nation is located 
up in Washington State. We have a population of 3,800 members.
    Also, one of my duties I have been assigned serving on the 
negotiated rulemaking committee for HUD, and I am happy to say 
that the progress of the negotiations are complete. As of 
today, we expect to have the regulations done and finalized for 
the negotiations.
    Mr. Lewis. Good.
    Mr. Cagey. Hopefully you will be seeing that very soon in 
the future.
    One of the main points I guess we would like to make, Mr. 
Chairman, is the allocation I guess that was set aside for 
Indians, and right now we understand it is $450 million that is 
being appropriated for Indian housing block grants, and NHIC is 
requesting that it is going to be a minimum of $850 million 
that is going to be needed to really fulfill the real gap in 
the need for Indian housing. And we think that the committee 
should reconsider some of the appropriations for this historic 
initiative on the block grant. It is a good initiative. A lot 
of tribes are very supportive of this process and this new 
concept. But the lack of funding is something that we really 
need to reconsider when it comes to carrying out this program 
successfully.
    The other concern we have, Mr. Chairman, is the training 
and the implementation of the block grant. One thing that is 
going to be needed, there is going to be a lot of technical 
assistance, a lot of implementation costs that tribes are going 
to incur in implementing the block grant, start-up costs, 
updating some of their equipment, getting some of the 
ordinances in place so that the grant will be carried out 
successfully once the program takes effect. So we are 
requesting that $148 million is needed to really do a good job 
in implementing this block grant.
    Other things that we are concerned with is $32 million is 
needed for the loan guarantees, the 601 monies. As you know, 
with the Federal dollars declining and tribes need to maximize 
their dollars as much as they can, we need access to these loan 
guarantees. We think the administration needs to reconsider its 
zeroing out loan guarantees for this purpose. We request that 
$32 million be set aside for the loan guarantees.
    Mr. Lewis. I assume that these elements of your testimony 
have been heard or will be heard by the authorizing committee 
as well?
    Mr. Cagey. That is correct.
    Mr. Lewis. Okay. Thank you.
    Mr. Cagey. The other one is $3 million for the 184 program. 
It is not much, but it is a good program. It is working in 
Indian country today, and it does need to be increased. It is a 
program that is taking effect, and we are feeling the success 
in Indian tribes in implementing 184. So we are asking that $3 
million be requested to do this.
    In addition, I guess one of the things we put in our 
testimony was Davis-Bacon. I understood that the Committee did 
support Davis-Bacon or some people did support Davis-Bacon, but 
once again, for the record, we wanted to request that Davis-
Bacon be waived as it applies to housing dollars on 
reservations. Where the biggest effect is going to take place 
is the small tribes. Large tribes, we have been doing this 
already, working with Davis-Bacon, but the small tribes really 
need to have some flexibility in carrying out these wage 
scales. And if we can maximize our dollars as much as we can 
without Davis-Bacon, we should do this.
    I would like the Committee to maybe take a--consider taking 
a look at its effects on Davis-Bacon since it--as it is being 
applied.
    Mr. Lewis. Mr. Cagey, I might mention to you that while I 
may have a bias that would suggest that at least we ought to do 
some testing of that which you are discussing, it is a pretty 
fundamental policy matter, and I would urge you to discuss it 
in- depth with those policy people. Frankly, I think a number 
of private discussions with people on both sides of the aisle 
in terms of the Indian problem would be very helpful.
    Mr. Cagey. We are just laying the groundwork now, Mr. 
Chairman.
    Mr. Lewis. I understand.
    Mr. Cagey. We want to make sure that it is understood by 
both sides and by all Committee Members.
    Okay. The last comment, Mr. Chairman, is welfare reform and 
the effect it is going to have on Indian housing. We understand 
and really know what is going to happen with welfare, and it is 
going to change in the States, in Indian country. But when 
welfare really kicks in to Indian country, it is going to 
affect Indian housing, and it is going to be a problem that the 
tribe is going to have to address, the States, and the Federal 
Government when it comes to dealing with Indian housing and 
where the income is going to come to cover some of those costs 
for maintenance and different other costs that the tribes are 
going to incur.
    I think that is the last point I had.
    [The statement of Mr. Cagey follows:]

[Pages 121 - 125--The official Committee record contains additional material here.]


    Mr. Lewis. If that is your last point, maybe I could make a 
point with you, Mr. Cagey, and submit it for your record rather 
than in any other fashion. Let's presume that we are in a 
diplomatic discussion between countries, your responsibilities 
as well as rights overlapping a couple more countries than 
mine. Nonetheless, within the United States, we have found that 
within several States ofttimes there are people who have very 
dire circumstances, and so we have created programs to provide 
them with assistance. Maybe it is public housing. Maybe it is 
social welfare programs, et cetera.
    Within the independent nations, there are some that are 
very wealthy and some not so wealthy. I can think of a small 
tribe in California, fewer than 100 people, who have flows of 
$100 million. I would think that maybe nations helping nations, 
even poor people within those nations, ought to be a discussion 
item at the table somewhere. And since I am far from being able 
to have such participation, I want to mention it just so that 
it is--for your own consideration.
    Mr. Cagey. I think one of--can I respond to that?
    Mr. Lewis. Of course.
    Mr. Cagey. One of the thoughts, I think, is really taking a 
look at creating different ways for financing in the area of 
housing, is that I understand there has been some initiatives 
or attempts to create an Indian Finance Division that will 
allow tribes to work together and finance some of their own 
costs, especially in housing. That is something that I think 
Indian country would support, our tribe would support. It is a 
big need.
    You know, as we look at going down into the future and 
balancing the budget with the United States, it is important 
that all entities work together. And tribes can help tribes. It 
has been done in the past, and our tribe has actually worked 
with another tribe in getting loans from another nation. It 
does help.
    But the pieces have to be put together. The government 
responsibilities have to be in place, and all parties have to 
be wanting to do this. I think it is something that I think 
Indian country would love to see this happen.
    Mr. Lewis. It is strictly a thought that has come to mind 
over time, and I appreciate your even being willing to discuss 
it. It is very helpful to have your kind of testimony in our 
Committee, so we appreciate your being here.
    Mr. Cagey. Thank you.
    Mr. Lewis. I have another meeting I am going to have to 
attend for a while, just for the record, and Mr. Frelinghuysen 
will take over the chair.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

MARTIN AVERY, EXECUTIVE DIRECTOR, NAVAJO NATION
    Mr. Frelinghuysen [presiding]. Mr. Martin Avery, Executive 
Director of the Navajo Nation. Good afternoon and welcome.
    Mr. Avery. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Nice to have you with us.
    Mr. Avery. Glad to be here.
    Mr. Frelinghuysen. As Chairman Lewis says, a copy of your 
formal remarks will be included in the record, but we would be 
very pleased to have you bring a few points to our attention 
and for our consideration.
    Mr. Avery. All right. Thank you. My name is Martin Avery, 
and I am the Executive Director of the Navajo Nation Washington 
Office. On behalf of the Navajo Nation and President Albert 
Hale, thank you for this opportunity to present our testimony.
    As you mentioned, our written statement outlines in real 
specific detail our request for the 1998 appropriations.
    I would like to open with some interesting and, I think you 
may find, distressing statistics. The Navajo Nation is the 
largest Indian Nation in America with a population of 250,000 
people. Our reservation extends into the States of Arizona, New 
Mexico, and Utah, with an area of 17.4 million acres, which 
makes us slightly larger than the State of West Virginia.
    We recognize that the enactment of welfare reform marks a 
significant reversal of Federal entitlement policy that will 
greatly affect Indian nations in the coming years. The 
rationale that ending welfare assistance will force people to 
work, however, simply ignores the limited economic development 
and resulting lack of employment opportunities on the Navajo 
Nation. And so in order to create a viable Navajo economy, we 
must build an adequate infrastructure, including housing, to 
support the livelihood of the Navajo people and to also attract 
and maintain a stable environment for economic development.
    Navajo traditions and customs teach self-sufficiency and 
self-reliance. We recognize that we must take responsibility to 
provide for our people essential governmental services. The 
enactment of the Native American Housing Assistance and Self-
Determination Act of 1996 is certainly a step in that 
direction. The Navajo Nation supported this act because it 
would allow Indian housing programs to be operated in a manner 
consistent with our priorities and improve coordination of 
Federal housing programs on Indian reservations. We hope also 
that a reduction in the bureaucracy will also improve services 
and stretch valuable housing dollars.
    Which brings me to my next point. While we support the 
President's request of $467 million, this amount is much too 
low to even begin to adequately address the housing shortagein 
Indian country. The scarcity of adequate housing on the Navajo Nation 
is of a magnitude that can be characterized as a housing crisis. We 
estimate that 23,527 existing housing units, which is about 61 percent 
of the housing units, on the Navajo reservation are in substandard 
condition because they lack either running water, indoor plumbing, 
electricity and/or central heating. The Navajo Nation has also 
determined that we need 13,529 newly constructed homes immediately to 
alleviate severe overcrowding.
    Mr. Cagey previously mentioned that the real need for 
Indian country is closer to probably $850 million, and that is 
included in our written testimony.
    Concerned as we are with these needs, the Navajo Nation is 
also reminded of those who served the Navajo Nation and the 
United States for the everyday freedoms that we all enjoy.
    We are proud to state that Navajo warriors have a very 
distinguished service record, including the famed Navajo 
Codetalkers of World War II. Men and women from the Navajo 
Nation volunteered in large numbers to serve in the United 
States military, most recently in the Gulf War. As a matter of 
fact, American Indians on a per capita basis have volunteered 
in greater numbers than any other segment of American society.
    After many years of effort and with this committee's 
support, the Department of Veterans Affairs in July 1996 agreed 
to establish a veterans service center in Chinle, Arizona, so 
that they could provide greater access to services for our 
Navajo veterans. Previously, Navajo veterans had to travel over 
300 miles to the nearest DVA center to obtain services, and 
this lack of access, coupled with language difficulties and the 
formidable bureaucracy, effectively denied services to Navajo 
veterans. This new center we hope will provide job training, 
readjustment counseling, referral services, outreach to 
veterans, community education, and employment assistance, among 
other services.
    On a related matter, even though this may not touch on 
appropriations, we would request the subcommittee's support to 
reauthorize the Native American Veterans' Direct Home Loan 
Program until at least fiscal year 2000. This program 
authorization will run out this year. This has been an 
excellent program that has been hampered by certain 
requirements which result in only four Navajo applications and 
two loans approved over the 5-year authorized period. It needs 
to be extended.
    While we must attend to the immediate needs of our people, 
we must also address the larger issue of providing and 
maintaining a safe environment for the Navajo people. The 
Navajo Nation, through our Navajo Nation Environmental 
Protection Agency, administers several programs regarding air 
and water quality, waste disposal and management, and hazardous 
waste treatment. Through these programs, the Navajo Nation has 
taken a number of steps to ensure that we are in compliance 
with the various environmental laws and regulations. However, 
without adequate resources, the Navajo Nation cannot fully 
implement these programs to meet these Federal mandates.
    For example, the Navajo Nation has a severe open dump 
problem. In June 1996, the Navajo Nation completed its own open 
dump site inventory, sites that are used by four or more 
families, and have estimated that there are at least 465 sites 
that need to be closed and covered by October 1997.
    In closing, on behalf of the Navajo Nation, thank you, Mr. 
Chairman and Members of the Subcommittee, for your leadership 
and support of Indian programs. If you have any questions, I 
would be happy to answer them.
    [The statement of Mr. Avery follows:]

[Pages 129 - 133--The official Committee record contains additional material here.]


    Mr. Hobson [presiding]. I have one question, just sitting 
here listening. How many Navajo veterans are there?
    Mr. Avery. We have estimated about 16,000 Navajo veterans.
    Mr. Hobson. Sixteen thousand?
    Mr. Avery. Yes, about 9,600 of whom are currently 
unemployed.
    Mr. Hobson. And where are the majority of that 9,600?
    Mr. Avery. Most of them, the majority of them, probably 
live on the Navajo reservation.
    Mr. Hobson. Do you know how many housing units they are 
currently in?
    Mr. Avery. I do not have----
    Mr. Hobson. There is a direct home loan program. Do you 
know how many--it would be interesting to know the number of 
people that are----
    Mr. Avery. I do not have that figure.
    Mr. Hobson. Could you get it for us?
    Mr. Avery. I can get that figure for you.
    We have estimated, however, that--I think it is included in 
here. We have asked for $10 million, or we are going to suggest 
that--previously made a request to the Bureau of Indian Affairs 
to consider legislation to authorize up to $10 million for 
housing programs on the Navajo reservation in the form of 
grants because many--these are veterans, as we mentioned, 9,600 
of the 16,000 who are unemployed. So they would not even be 
able to afford the veterans' direct home loan program. So their 
housing needs are very drastic as well. But we can get those 
figures for you.
    Mr. Hobson. Mr. Price.
    Mr. Price. No questions, Mr. Chairman. I do want to thank 
our witness for his testimony.
    Mr. Hobson. Mr. Frelinghuysen.
    Mr. Frelinghuysen. No questions. Thank you.
    Mr. Hobson. Mrs. Meek.
    Mrs. Meek. No, Mr. Hobson.
    Mr. Hobson. Thank you very much.
    Mr. Avery. Thank you, sir.
                              ----------                              

                                         Wednesday, April 30, 1997.

     ENVIRONMENTAL PROTECTION AGENCY, HOUSING AND URBAN DEVELOPMENT

                                WITNESS

TOM MAULSON, CHAIRMAN, LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA
LARRY WAWRONOWICZ, NATURAL RESOURCE DIRECTOR
    Mr. Hobson. We are a little bit ahead of time. Is there any 
other person in the room that is scheduled later that wants to 
take the time now?
    Mr. Maulson. We would, sir.
    Mr. Hobson. Go ahead.
    Mr. Maulson. I am Tom Maulson. I am the Tribal Chairman of 
the Lac du Flambeau Band of Lake Superior Chippewa Indians of 
northern Wisconsin. I brought Larry Wawronowicz. He is our 
Executive Director of our Natural Resource Program on the 
reservation.
    I want to just summarize this. It is lengthy. I would like 
to just identify from a cultural standpoint that our native 
people in Wisconsin, the Ojibway people, you know, have a very 
sacred meaning to this pure water. This is something that we 
have been--hopefully we can get some support from this 
Committee to support the dollars that were requested in 
reference to making sure that our quality of water is there, 
because if we do not have that, we do not have life. This is 
what our old people tell us. This is the direction that I am 
coming from in reference to my band in Wisconsin.
    I think it is important to also identify my people have 
told me that we have a government-to-government relationship 
here, a trust responsibility that you all have to us as Indian 
people based on what has gone on in the past with our 
forefathers and with your forefathers. So I am hoping that we 
can keep that in context, and maybe renew those old talks that 
took place in reference to protecting our people, our health 
and our education and our welfare for our people.
    I think it is important for you to take a look at our 
paperwork. It deals with water quality, EPA. We are involved 
with being treated as a State. I am going to turn this over to 
Larry so he can give you more of the technical details, as the 
Tribal Chairman, as you would know from other testimony, we are 
very busy people. I come from a reservation of well over 144 
square miles and roughly about 1,500 of our people live on 
reservations and 1,500 non-Indian people live also on the 
reservation. So hopefully we can come to some meetings here.
    Mr. Wawronowicz. Thank you, Mr. Chairman.
    Mr. Hobson. Would you identify yourself?
    Mr. Wawronowicz. My name is Larry Wawronowicz, Natural 
Resource Director for Lac du Flambeau Band of Lake Superior 
Chippewa Indians. I want to thank you for having me here.
    The Lac du Flambeau Indian Reservation is 144 square miles. 
It is 12 miles by 12 miles. When reservations got into 
existence with the 1854 treaty, we were given a very diverse 
ecosystem. We have 20,000 surface acres of water, 34 miles of 
creeks, rivers, and streams, 14,500 acres of wetlands, and 
about 55,000 acres of forested lands.
    Like the Chairman says, the Lac du Flambeau Band has a 
cultural existence that is associated with that ecosystem, and 
that ecosystem is what the Ojibway people are. Through the 
Constitution and the by-laws of the Lac du Flambeau Band, we 
have the authority to protect, conserve, and enhance those 
resources for present and future generations of all people that 
live within the exterior boundaries of the reservation.
    We are strictly going to be dealing with the independent 
agency aspects of this thing rather than VA and HUD, and we 
have a big water base, as I said, 20,000 surface acres of 
water, 34 miles of creeks, rivers, and streams, and 14,500 
acres of wetlands, which comprises about 37 percent of the 
total reservation. So we need to be able to utilize funding 
from the Environmental Protection Agency to make sure that the 
water quality and the wetland habitats and the natural 
resources in general are protected and conserved for the 
Seventh Generation of people.
    So, specifically, we have some funding requests and 
probably in terms of the dollars and cents you deal with on a 
daily basis, it is not a lot of dollars. But some small amounts 
sometimes go a long way in Indian country.
    We have one particular project. It is within the Clean 
Water Act programs. It is one of six water pollution control 
programs which we would like to have this committee look to put 
a little bit more money set aside for Indian programs.
    Under the 106 water pollution control programs, I think 3 
percent of the national budget is given to set-asides for 
tribes, and we would like to see if there is a chance for you 
to reconsider that and increase that at least 10 percent so the 
funds can be used to help Lac du Flambeau Band protect and 
conserve those resources. We are requesting $100,000 in fiscal 
year 1998 for the Lac du Flambeau Band specifically.
    The other program that helps us, we usually call this 
program the GAP program, the General Assistance Program, and it 
is likely that the tribe's Environmental Protection Agency on 
the reservation--you know, we conduct things other than water, 
like we have to keep track of our underground storage tanks, 
for example, radon testing of tribal homes, tribal businesses, 
tribal community centers. We have to deal with solid waste. We 
have to do as a government all the things that you have to do.
    We got dollars from the General Assistance Program through 
the U.S. EPA, but we identified more needs. And we would like 
to have you take a look specifically at our request of $100,000 
for fiscal year 1998.
    It is always interesting because you say, well, what are 
you going to utilize that money for? And we would like to be 
able to maintain two people on the reservation on staff to be 
able to carry on some of these things like emergency response 
to toxic spills and inventory and try to remove theunderground 
storage tanks that have an effect on the tribe's groundwater supply.
    Mr. Hobson. How many do you have, 200 underground storage 
tanks?
    Mr. Wawronowicz. Two hundred underground storage tanks, 
mostly on Native American land, within the exterior boundaries 
of the reservation.
    Mr. Hobson. Say that again?
    Mr. Wawronowicz. We have over 200 underground storage 
tanks, which are gas tanks, that are under the ground, that are 
probably under for a long time, which could be leaking and 
having an effect on our groundwater supply.
    Mr. Hobson. Are they on tribal ground?
    Mr. Wawronowicz. They are within the boundaries of the 
reservation, the majority of them being on non-Indian land.
    Mr. Maulson. Old resorts, old gas stations, years ago, 
things of that nature that were putting pressure on our 
cleanup----
    Mr. Hobson. Are those your responsibility to clean up?
    Mr. Wawronowicz. Ultimately----
    Mr. Hobson. Or is it the State?
    Mr. Wawronowicz. It will be our responsibility.
    Mr. Hobson. Is it Federal ground? Whose ground is it?
    Mr. Wawronowicz. It is Federal ground.
    In terms of the Clean Water Act program, we will use the 
$100,000 for implementing a drinking water protection plan, 
non-point source pollution inventory, public education for 
lakefront property owners, water quality standards revisions, 
and continued water quality monitoring to assure compliance 
with the Band's water quality standards, which currently the 
Lac du Flambeau Band, for example, has treatment in a State 
status under the Section 106 of the Clean Water Act in which we 
have the responsibility to set water quality standards for 
reservation waters within the boundaries of the reservation, 
which applies to both tribal and non-tribal lands. We have that 
authority under the Clean Water Act.
    We feel that the authority should stay with the tribe 
because like the State of Wisconsin, for example, we do not 
think they are doing a very good job of protecting our water 
supply. In the State, for example, we have 206 lakes that are 
on the fish consumption advisory. One lake in particular on the 
reservation, just based on State standards, we cannot even--
they are Group 4 fish for mercury. We cannot even eat those 
fish.
    We feel that we could do a much better job with our water 
quality standards in protecting our reservation resources. So, 
with that, I want to take the opportunity to thank the 
Committee for hearing me out, and we need the Committee's 
strong support to enable us to preserve and expand our 
environmental programs. From our perspective, this effort is 
vitally important to protect the future of Mother Earth, and we 
look to the United States to work with us to maintain our 
natural resources and the environment at a superior level.
    Thank you for your time.
    Mr. Maulson. We would entertain any questions.
    [The statement of Mr. Maulson follows:]

[Pages 138 - 141--The official Committee record contains additional material here.]


    Mr. Hobson. Any questions?
    Mr. Price. No, Mr. Chairman. I do thank you for your 
testimony, though, and we will look at it carefully.
    Mrs. Meek. No, thank you, Mr. Chairman. Thank you for being 
here.
    Ms. Kaptur. I just want to thank you for coming and 
traveling such a distance to be with us.
    Mr. Hobson. That is important. Thank you, and we will take 
a look at your request.
    Mr. Maulson. Thank you.
    Mr. Wawronowicz. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

LARRY SCHWARZKOPF, NATURAL RESOURCE PROGRAM MANAGER, FOND DU LAC BAND 
    OF LAKE SUPERIOR CHIPPEWA
    Mr. Hobson. Would you identify yourself, please?
    Mr. Schwarzkopf. Yes, my name is Larry Schwarzkopf. I am 
the Natural Resource Program Manager at the Fond du Lac 
Reservation. I am sorry the Chairman could not attend. He had 
other commitments.
    I would like to thank the Chairman and Members of the 
Committee for allowing us to provide this important testimony 
to your Committee. For fiscal year 1998, we are requesting 
funds primarily for housing and environmental issues, and 
basically the Fond du Lac Reservation is located approximately 
20 miles west of Duluth, Minnesota. There are about 3,350 band 
members, and the reservation is about 100,000 acres. We also 
have important rights for the use of the resources within the 
1854 ceded territory, basically the entire Arrowhead region of 
the State of Minnesota.
    Our primary concern in the housing area for the HUD budget 
is the--recently I have been very concerned about the 
organization of the funding program, and we originally 
requested that funding be maintained for the Indian housing 
program. These funds are needed to provide affordable housing 
for our band members, for families and for the elderly. The 
availability of affordable housing in our region for families 
and so on is very limited, and this program is very essential 
to the Band of Chippewa.
    Under the U.S. EPA items, environmental issues, werequest 
that we receive continued funding for our mercury mitigation and PCB 
mitigation research. At this time we are requesting $275,000 to expand 
our research with researchers at the University of Minnesota-Duluth and 
the University of Wisconsin-Superior. These funds that we are 
requesting would be a wise investment, protecting public health and 
preventing major economic impacts to the area's fisheries and resort 
industry in our region, as well as our subsistence fisheries.
    The amount of funds that are available from other sources 
such as the EPA's Great Lakes National Program Office are not 
adequate to fund this level of research. Their grants are 
usually smaller and they have to expend these grants throughout 
the Great Lakes region, and they cannot concentrate a great 
percentage of their funds in one State. We recommend that the 
budget for EPA Great Lakes National Program Office be 
maintained, and increased if at all possible.
    The research that we are proposing to continue is a method 
to find cost-effective, environmentally benign mitigation 
technology to reduce these contaminants in the Great Lakes 
region for subsistence and game fish. Mercury poses a very 
serious long-term threat to the safety of the sport fisheries 
throughout the Great Lake States and the Northern States. Our 
studies have produced positive results, and we are very 
confident that the expanded large-scale trials that we are 
proposing to continue will be presented in a means that are far 
more cost-effective than alternative approaches of dredging, 
land-filling or other methods that are currently cost-
prohibitive and politically unacceptable.
    This technology would be applicable to many of the areas of 
concern around the Great Lakes. Mercury is a common contaminant 
in many of these areas of concern. These areas of concern are 
identified in many regions of States and the international 
joint commission.
    The PCB continues to be a problem in some sites. PCBs do 
over time degrade, but they continue to be a problem at some 
sites, and this technology would also benefit that problem.
    The mercury problem will continue to be a major 
environmental and public health problem for many years. As was 
noted, non-biodegradable heavy metals continue to be deposited 
on our watersheds from aerial sources until this pollutant is 
greatly reduced from aerial sources sometime in the future. In 
the interim, we need an effective means to reduce the level of 
mercury in gamefish. This is essential before the fish in the 
region become unsafe for consumption, especially by children 
and women of child-bearing age.
    Mercury presents very serious problems of nervous 
disorders, learning disabilities, and other health problems. It 
is not sort of a hit-and-miss situation. The more mercury, the 
more these problems are evident. It is not sort of like a 
carcinogen that some people get affected and others do not.
    We believe that if Congressmen and Congresswomen from the 
Great Lakes and Northeast States were to support our 
appropriation of this amount earmarked for the Fond du Lac for 
this research, the sport fisheries and recreational business 
relying on sport fish, sport fishing, needs fish which are safe 
to consume, and this will be severely impacted if something is 
not done in the near future. Fisheries in the region have 
become contaminated from ongoing release of organic compounds, 
mature compounds from contaminated sites and from sensitive 
lakes in areas of glacial geology. Our mitigation technology 
will use inexpensive minerals such as iron, limestone, in 
combination with synergistic agents which are environmentally 
benign to remediate these sites. Another benefit will be 
economic uses, additional economic uses of these minerals and 
the creation of remediation business opportunities throughout 
the region.
    Another request for funding that we have is that the 
Committee support the Administration budget request for $38.585 
million for the Indian Environmental General Assistance 
Program. This program provides basic environmental staff to our 
programs for the reservation to deal with the most pressing 
environmental issues, and this means we can also deal 
effectively with EPA and other Federal agencies and State and 
local governments on environmental issues rather than having to 
rely on staff that do not have expertise in these issues.
    Our last request is that the Committee support the 
testimony of the Fond du Lac Tribal and Community College. This 
is a joint State and tribal college. About a quarter of their 
students are Native Americans from the region. It is a new 
campus, brand-new campus, but they have now instituted an 
environmental institute, and through their expanding 
environmental education opportunities, they have developed an 
environmental partnership with the Fond du Lac Band, and we are 
requesting $250,000 to more fully implement the institute, the 
laboratory equipment for the students, curriculum development 
and actual hands-on stuff for the students to do.
    They now have a 2,000-acre environmental study area that 
has been established on the St. Louis River, and they are also 
asking--the college is also asking for $25,000 for 1997 
environmental practicum, summer practicum for the Native 
American students.
    That is my testimony. I would like to provide just a graph 
of--Graph 1 is labeled--and this is a projection of mercury 
levels in the lakes in our region, the northern pike with 
existing and projected 5 percent annual increase. If the annual 
increase of deposition of mercury were to go down, this rate 
would change, but it still is an increasing situation. Mercury 
does not biodegrade. And there is a recent article involving 
mercury pollution and another one on contaminants' effects to 
babies.
    Thank you.
    [The statement of Mr. Schwarzkopf follows:]

[Pages 145 - 162--The official Committee record contains additional material here.]


    Mr. Hobson. I have a couple questions I would like to ask 
you. Who introduced the Eurasian ruffe into the----
    Mr. Schwarzkopf. Yes, I did not mention that because we are 
not asking for funds for that, but----
    Mr. Hobson. I would just like to----
    Mr. Schwarzkopf. The Eurasian ruffe was introduced most 
likely in international shipping traffic through bilge water. 
Duluth is an international port, of course, a lot of 
international trade now, the lake iron trade and so on. And 
that fish is now into Lake Huron. When it gets to Lake Michigan 
and through the Chicago barge, it will invade the Eastern part 
of the country's fisheries. It is a very serious problem.
    Mr. Hobson. I think Ms. Kaptur and I would have a problem 
with that fish possibly, if it gets into Lake Erie.
    Mr. Schwarzkopf. It will. It will be----
    Mr. Hobson. Close to where we live, and it is going to go 
all through that area.
    Mr. Schwarzkopf. It is going to displace the yellow perch 
fish even more than the zebra mussel. A double punch, shall we 
say. We will very likely come back to you for funds on that in 
years to come. Right now we are looking for a post-doctorate to 
do the endocrinological research on the spawning pheromones. We 
need to locate somebody who is willing to commit 2 or 3 years 
to that research before we can continue. They are investigating 
the alarm response, and they found a very positive result 
there. We have to narrow down some more of the spawning 
pheromones before we can continue.
    Mr. Hobson. I would just suggest that you--if we could get 
at that early, I think there is a lot--there could be a lot of 
support in the Great Lakes to get at that early.
    Mr. Schwarzkopf. Oh, I agree. The sooner, the better. We 
need management tools. I am basically a fisheries and wildlife 
biologist, and we have been working with the Fish and Wildlife 
Service, the National Biological Service, university 
researchers throughout the region. There are all kinds of 
efforts out there trying to find the control measures, but this 
is probably one of the best ones.
    Mr. Hobson. I would just like to suggest to the Chairman 
when he comes back that we look at that because I think if we 
get at these things early instead of waiting until they get 
really bad, and then everybody has got to try to clean it up 
everywhere, it is a real problem.
    Mr. Schwarzkopf. The researchers are pushing the Great 
Lakes Protection Fund and NSF for some ongoing dollars on that.
    Mr. Hobson. And where is the mercury in here? How did it 
get in there?
    Mr. Schwarzkopf. The areas of concern, a lot of that stuff 
has become a problem from like the paper industries and other 
industries that would use--similar product industries that 
would use mercury in fungicides. But not anymore. But, again, 
it builds up in high levels. The trouble is, again, it does not 
biodegrade. It keeps transporting down the stream. It is 
getting into the lower St. Louis River, into Lake Superior. 
Then, of course, where the site are contaminated, right on 
those sites the fish are very high in mercury.
    Regionally it is a concern with glacial geological areas 
because the geology is such that the chemistry of the water, it 
allows the mercury to become very biomagnified through the food 
chain, and what we are trying to do is to use readily available 
minerals and other agents to mediate highly valuable fishing 
areas and to make it cost-effective.
    It is going to be many years before aerial deposition comes 
down. It looks--there is some evidence that regional deposition 
may be coming down from EPA and the States taking mercury out 
of batteries and paint and so on. But then the worldwide 
mercury budget is quite high and growing. So it is still a 
question as to what the decrease in aerial deposition will be.
    Mr. Hobson. Any questions?
    Ms. Kaptur. No. Just I would be happy to work with you on 
all of the issues you have brought forward, including the 
condition of the lakes.
    Mr. Schwarzkopf. Thank you very much. I appreciate the 
opportunity.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Hobson. Ms. Waters of California.
    Ms. Waters. Thank you very much. I am sorry I was not here 
at the portion that you had set aside.
    Mr. Hobson. That is all right. I was late, too.
    Ms. Waters. Well, I appreciate the opportunity, and we have 
prepared testimony and we will submit it for your 
consideration.
    There are so many things I would like to talk about that 
you have oversight responsibility for. I cannot possibly do it 
all, but you do have some of the important programs that are 
communities of concern that the Congressional Black Caucus 
depend on.
    Let me just talk a little bit about Section 8, $1.8 billion 
project- and tenant-based Section 8 rental contracts will 
expire in fiscal year 1998 that assist over 4 million people. 
$9.2 billion in budget authority is needed to renew these 
expiring contracts. Of the 1.8 million contracts expiring, $1.2 
million are Section 8 tenant-based contracts that provide 
certificates to families. These are increasingly the only 
available form of public assistance to our Nation's poor.
    Mr. Hobson. You mean $1.2 billion, don't you?
    Ms. Waters. What did I say?
    Mr. Hobson. I thought you said million.
    Ms. Waters. No, I said 1.8 million tenant-based.
    Mr. Hobson. Oh, okay.
    Ms. Waters. And then we have over a half million project-
based certificates----
    Mr. Hobson. Okay. You are not talking about----
    Ms. Waters [continuing]. That are also expiring.
    Mr. Hobson. Okay.
    Ms. Waters. The authority for them, as I understand it, the 
1.8 million would be $9.2 billion, and the over half a million 
project-based certificates are $2.5 billion needed to renew the 
contracts.
    Mr. Hobson. Okay.
    Ms. Waters. Also, I think, you know, we have to be 
concerned about our mortgage insurance responsibilities. If 
they expire, it would be prohibitive in cost.
    Let me also mention that last year I worked very hard on 
housing for people with AIDS. The funding is not keeping up 
with the need, especially in the areas with high HIV-infected 
populations, and Los Angeles is one of them. But, again, we are 
experiencing this in certain areas all over the country.
    As better treatments increase the life expectancy of those 
HIV-positive or living with AIDS, the demand for shelter, 
hospice care, like those assisted through this program, will 
increase dramatically.
    In 1996, this program received $104 million. Last year it 
got $196 million. This year's request is for $204 million, but 
the program needs a lot more.
    I worked last year to increase the authorization. The 
housing bill never became law. I worked to increase the 
authorization to $212 million for this year, and up again to 
$225 million for next year. And I think these funding levels 
really do closely reflect the needs that exist. This is very 
important.
    The last one that I would like to burden you with is my 
beloved Section 108 loan guarantee program. I think that this 
program is extremely important to cities. As you know, we can 
create economic development projects with Section 108 loan 
guarantee programs, and it really is just kind of guaranteed by 
the CDBG money that you get. And I happened to be at the 
Conference of Black Mayors this past weekend in St. Louis, 
Missouri, and they all, from all over the country, said to me 
we certainly hope that we can expect an increase in Section 
108. It is a way by which we can create projects for 
communities. It creates jobs. It creates financial resources in 
the communities. So this is a program that I understand is 
being cut.
    I increased the loan limitation from $130 million up to $2 
billion in 1992. That is before Section 108 was widely used. 
And when I was able to convince everybody that the way that 
this is scored it does not cost the budget any money--the 
scoring is such that it is not a cost to the budget, and it is 
a cost-effective way to have these low-cost loan programs in 
the cities that will help them with economic development and 
job creation, and I am told that it is going down from its high 
of $2.1 billion in 1994. It was only $1.5 billion in 1996 and 
now down again to $1.38 billion. I do not know why because if 
you check the scoring, it should not be scored against the 
budget at all.
    This year's request is for only $1.26 billion, and I really 
do believe we should be expanding this program.
    I wanted to talk a little bit about a program called Youth 
for Chance because it funds a number of projects for youth in 
this country. But as I understand it, my staff have not been 
able--it is in the Labor budget, is that right? Okay. Then I do 
not have to burden you with that.
    If you could pay some attention just to these three items, 
and particularly making sure that we do something about these 
expiring Section 108--not 108, but the expiring housing 
programs, I would be very----
    Mr. Hobson. Section 8.
    Ms. Waters. Section 8. Thank you.
    [The statement of Ms. Waters follows:]

[Pages 167 - 172--The official Committee record contains additional material here.]


    Mr. Hobson. Thank you.
    Mrs. Meek. Mr. Chairman, I just want to say that I agree 
with my chairman, Ms. Waters, on the issues she has brought 
before you today, and several other members have come with this 
same problem, particularly ones from California. They are 
concerned about Section 108 and also the Section 8 for housing. 
So I cannot reiterate too much the need for these programs, 
particularly in helping the citizens. We are talking about job 
creation. We have the vehicle there if we just put the funds 
there.
    Mr. Hobson. Mr. Price.
    Mr. Price. Thank you. I do not have any questions, but I 
thank you for being here. We will attend to that testimony 
carefully.
    Ms. Waters. Thank you all for your hard work.
    Mr. Hobson. Let me ask a couple things here. I first of all 
share your concerns about persons with AIDS. I wrote the law in 
Ohio on that. And as I understand it, I think on Section 8 
there is going to have to be some way to handle that problem. 
It is going to have to be worked out. We just cannot throw 
these people out on the street. We cannot let these contracts 
expire. I think everybody recognizes that somehow that is going 
to be done.
    The other thing is, in the area of--I think the President 
asked for, what, $1.4 billion on the 108?
    Ms. Waters. No, I see 1.26 billion, I believe.
    Mr. Hobson. Is that what it is? I thought it was closer to 
1.4 billion. But that is all right. We will take a look at it, 
and we will make sure the Chairman looks at it.
    Ms. Waters. Well, listen, I did not know, Mr. Chairman, 
about your work with AIDS, and let me congratulate you because 
obviously you probably--it appears that you started a long time 
ago before many people got involved.
    Mr. Hobson. It was not a very popular bill to do in the 
State of Ohio when I wrote the law.
    Ms. Waters. I am sure it was not.
    Mrs. Meek. Chairman Hobson, this morning the Chairman 
mentioned--we were talking about Section 8 in terms of the 
budget and some finalization of it, and he said it looked to 
him that, you know, it was up in the air, and they were going 
to have to have offsets to do it. Could you speak to that?
    Mr. Hobson. Offsets in the supplemental or in the--I think 
in the supplemental--I am not--I think in the supplemental that 
is true. I am not sure that in the long-term budget situation 
that we are looking at that that will be true. There is a 
different--there is a short-term problem. There is a long-term 
problem. And the long-term problem that is being probably 
negotiated as we are sitting here now. That is the best I can--
I am not at the table to effect some of the things, but we 
are--it is going to be--I think that is going to be resolved.
    Ms. Waters. Mr. Chairman, let me just say one other thing--
--
    Mr. Hobson. I am not quite sure yet, so don't quote me----
    Ms. Waters [continuing]. That may not fall within your 
jurisdiction--and I thank you for paying attention to this 
Section 8 problem because it is going to hit us very hard if we 
do not deal with it.
    Mr. Hobson. It is in everybody's district. Everybody has 
got a problem. It is more in some than others, but everyone--I 
don't think there is a member here who does not have a problem 
in the Section 8 housing. I hope in the housing bill--that we 
can get a housing bill that becomes law this year and authorize 
the bill. There are some differences on that, but----
    Ms. Waters. I know. We did not get one before. Thank you 
very much.
    Mr. Hobson. Thank you.
                              ----------                              --
--------

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JAMES M. MULLEN, JR., VICE PRESIDENT FOR STUDENT AFFAIRS, TRINITY 
    COLLEGE
    Mr. Hobson. Dr. Jim Mullen, Vice President of Student 
Affairs, Trinity College. Are you here, sir?
    Mr. Mullen. Yes, sir.
    Mr. Hobson. All right.
    Mr. Mullen. Thank you, and my thanks to the members of the 
Committee for providing the opportunity to join you today and 
be with you.
    I would like to request your permission, if I could, to 
have my statement included in the record.
    Mr. Hobson. Without objection.
    Mr. Mullen. Thank you very much.
    I am here to tell you a bit about an ambitious and, we 
believe, imaginative effort for urban renewal and community 
development that is happening in Hartford, Connecticut, and to 
ask for Federal support. Hartford is the fourth poorest city of 
its size in the country, and over the last decade it has 
confronted issues of crime, poverty, and people leaving the 
inner city.
    In Hartford South End, the neighborhood of which Trinity 
College is a part, over 13 percent of the housing is vacant. 
Many local businesses have been forced to close down or move 
away due to crime, lack of sales, and lack of credit.
    Trinity has not turned its back on the needs of our 
community. Instead, Trinity College is leading a $175 million 
community-based effort to revitalize the area, working in a 
spirit of partnership and cooperation to rebuild our 
neighborhood from within.
    Trinity College, along with four other Hartford-based 
institutions, businesses, and State and local government, have 
formed a unique alliance, we believe, to rebuild the 
infrastructure and economic stability of our community. Our 
four institutional partners are Hartford Hospital, Connecticut 
Children's Medical Center, the Institute of Living, and 
Connecticut Public Television and Radio. Working together, we 
have contributed millions to jump-start the renewal efforts and 
have created the Neighborhood Initiative and Learning Corridor. 
These two programs are cornerstones of the future 
revitalization of South Hartford.
    These projects are designed to provide the tools, 
resources, and skills needed by the community to move and 
develop from within. The Neighborhood Initiative covers a 15-
block area in the heart of Frog Hollow and Barry Square 
neighborhoods between Trinity and its partner institutions. The 
initiative includes renewed housing, increased home ownership 
and employment opportunities, youth and family programs, retail 
and commercial development, as well as improved streetscapes, 
lighting, and security. This revitalization effort will create 
the underlying support and infrastructure necessary for 
residents to advance economically and educationally in our 
city.
    The Learning Corridor will offer specialized education, 
skills building, and support to the community. The corridor 
will be constructed over the next 4 years directly east of the 
college on a former bus garage site acquired from the State and 
will house the following educational and training projects: a 
regional Montessori-style public elementary school, which will 
open in the fall 1999; a public neighborhood middle school; a 
regional math, science, and technology high school resource 
center; a regional arts high school program; and a professional 
teacher training and development center.
    On behalf of its partners, Trinity College requests $4.3 
million in Federal funding to support key elements of our plan 
to enable the redevelopment of an economically distressed 
community. Specifically, the requested funding would be used 
for planning and purchase of unused and undeveloped land and 
environmental cleanup of the site, purchasing and renovating 
abandoned buildings, building a family center and a Boys and 
Girls Club, demolishing unsafe and abandoned housing, and 
building new housing, schools, and professional training and 
development center.
    It is projected that the Neighborhood Initiative and 
Learning Corridor in South Hartford will generate well over 
$100 million in new construction for the area. Additionally, 
over 400 construction jobs will be created, with additional 
employment opportunities related to other industries as well.
    We know that this initiative can be successful with Federal 
support, and we have committed a substantial amount of our own 
resources in corporate funding to ensure its success.
    To date, Fannie Mae has committed $75 million in low-rate 
mortgage financing, and our partnership has successfully 
attracted over $13.5 million in private and corporate funding 
to invest in the neighborhood's infrastructure to help turn 
around and stop urban decay.
    The Neighborhood Initiative and Learning Corridor will 
establish the neighborhood surrounding Trinity as a hub of 
educational, health, and family support activities. Urban 
development and renewal, job creation and job training, home 
ownership and education are all elements of our collaboration.
    In summary, with $4.3 million in Federal support, our 
community development initiative will create jobs and provide 
for economic stability, both of which are critical to the 
future of the city of Hartford.
    I thank you for your consideration of this request, and I 
would be happy to answer any questions of the subcommittee.
    [The statement of Mr. Mullen follows:]

[Pages 176 - 183--The official Committee record contains additional material here.]


    Mr. Hobson. Mr. Price, do you have any questions?
    Mr. Price. I wonder if you could just summarize--I am not 
sure it is clear from the materials you submitted--what 
percentage of the total cost of this Federal contribution would 
be and what other sources of support this might leverage? What 
else is in the pipeline?
    Mr. Mullen. Absolutely, Congressman. It is a $175 million 
project, of which we are requesting $4.3 million from the 
Federal Government in this request. There is a significant 
State contribution, $18 million for a Montessori elementary 
school.
    Mr. Price. Is that already----
    Mr. Mullen. That is funded, $18 million, Montessori 
elementary school, 500 students; and $27 million for a major 
middle school which is city-funded; and a high school resource 
center, which is State-funded, the first $7 million of which is 
in place, the rest is being funded by the State this session; a 
$900,000 Boys and Girls Club, which money has been raised 
privately, $900,000 has been raised privately for that. So 
there is a significant public-private partnership, corporate 
support, $1 million for a family resource center from Aetna; 
and the institutions themselves have committed significant 
dollars.
    Mr. Price. So how does the Federal money then fit into 
that?
    Mr. Mullen. The Federal money, the role the Federal money 
will play is it will allow us to do significant work doing 
planning in the four quadrants around the college, the 
neighborhood around the college. It will also allow us to 
assist in the housing initiative which involves about 75 
properties, acquisition where necessary, remediation where 
necessary, demolition or rehab as well. So that is a major part 
of it.
    Mr. Price. Thank you.
    Mr. Mullen. Thank you.
    Mr. Hobson. It sounds like a very ambitious and neat 
project for the area. Certainly you are to be encouraged in 
that. The problem is I do not think that the Committee is doing 
any more of these--what do we call them?--special earmarks in 
these types of projects because everybody has got one 
somewhere. But there are ways, I think, that people should be 
looking at it that might help you, because we want to encourage 
this. This is the kind of thing that should be done, and it has 
certainly got what I would say is strong community support and 
State support for this program.
    But there are home and CDBG programs that I don't know if 
you applied for or that money can be used in this area to help 
you, but the special-purpose grants that we have, years ago 
that they did, we are just not able to do those anymore. But it 
is--at least that is my understanding of the Chairman's 
position. But this is certainly something that looks like it 
has strong support, and we wish you the best in the community 
and appreciate your coming in. Personally, I think we would 
like to know how you come along and how it works, and if you 
have any trouble in these areas, certainly I think the members 
from the State ought to be willing--whose district is this? 
Barbara Kennelly's. She is a very active member. I am sure she 
would be very helpful. She knows a lot of the approaches. So we 
wish you well.
    Mr. Frelinghuysen. Mr. Chairman.
    Mr. Hobson. Yes?
    Mr. Frelinghuysen. I went to school up there. That was a 
good article in the New York Times, just grabbing what you are 
doing up there. I really commend you for what you are doing. 
What has occurred in that neck of the woods over the last 15 
years has been pretty horrendous, and it is good to know that 
you are out there pitching to revitalize that area. That city 
has undergone--and I am good friends with Barbara Kennelly. She 
is a great Member of Congress. It has really undergone some 
great economic troubles. But it is good to know that Trinity is 
one of those providing the leadership.
    Mr. Hobson. I am on the board of a couple small schools, 
and it is interesting to read you--are you pretty well endowed? 
Have you been able to raise endowment funds?
    Mr. Mullen. We have been very fortunate. We have a loyal 
alumni and----
    Mr. Hobson. You are a fairly small school, 1,800 people, 
and 200 in the graduate school, which I think is remarkable 
considering the size school you have. Personally, I want to 
wish you well.
    Mr. Mullen. I appreciate that.
    Mr. Hobson. I graduated from a small college, Ohio 
Wesleyan.
    Mr. Mullen. Oh, sure. That is a good school.
    Mr. Hobson. And Wittenberg--I have a whole bunch of schools 
in my district. I guess I had better not mention one, or I am 
in trouble. I can mention my alma mater. So we want to wish you 
well.
    Mr. Mullen. You are very gracious. Thank you.
    Mr. Hobson. It is very important that you have taken the 
leadership. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

MICHAEL WEINSTEIN, PRESIDENT, AIDS HEALTHCARE FOUNDATION
    Mr. Hobson. Michael Weinstein, welcome to the Committee.
    Mr. Weinstein. Thank you. Members, good afternoon. My name 
is Michael Weinstein. I am president and founder of AIDS 
Healthcare Foundation. AHF is America's largest community-based 
provider of HIV medical and residential services. To date, we 
have served over 10,000 outpatient clients and 3,000 residents 
in a network of four clinics and three free-standing 
residential facilities.
    I am here to request your----
    Mr. Hobson. Where are they?
    Mr. Weinstein. In Los Angeles.
    Mr. Hobson. Okay.
    Mr. Weinstein. I am here to request your help in funding a 
demonstration project of national significance, re-tooling our 
existing residential AIDS programs to maximize success of 
revolutionary new AIDS treatments. Tragically, too many 
Americans with HIV will fail on the celebrated new protease 
inhibitor combinations. They are being asked to instantly 
master something few of us will ever have to face. They are 
required to stay on top of drug regimens which typically 
include over 20 pills per day, staggered throughout the day, 
and which produce strong side effects. Many will experience 
nausea, kidney stones, dizziness, skin conditions, and often 
pain. Some of these drugs require refrigeration. Each drug 
demands its own timetable. Even the most disciplined amongus 
would find that a stiff challenge.
    But these drugs are saving lives in 80 percent of our 
patients when these regimens are adhered to. How can we improve 
their chances? The key to success is establishing a home 
environment that supports treatment. That is where our 
facilities can play a key role.
    You may have read recently about doctors denying new 
treatments for fear that patients will fail to comply with 
these complex regimens. They are forced to play God because 
they do not have the kind of residential option to initiate 
treatment we are describing.
    We are re-tooling our houses to give as many people as 
possible a solid start on treatment. We estimate that we could 
save 200 lives per year in Los Angeles County alone. As 
residential facilities tailored to AIDS treatment, our houses 
offer 24-hour nursing; our nurses monitor the side effects of 
treatment, which are typically most intense in the first month. 
They train residents how to keep their medication schedule. Our 
support staff and volunteers train family members on how to 
provide support.
    A 4- to 8-week in-house program gives residents the strong 
foundation they need to succeed and to return to work. Our 
houses provide a new direction for residential AIDS care which 
others can replicate. Instead of closing hospices for the 
dying, we are developing programs which support life. But we 
need to physically re-tool. Our hospices were designed to care 
for the dying. By definition, that restricted us to persons who 
were not very mobile and who demanded only relief from pain. We 
built these facilities around those needs, but we must now care 
for people who are recovering from hospitalization. That means 
installing back-up generators to meet Medicare codes, 
installing negative pressure rooms, piping in oxygen, 
purchasing physical therapy equipment.
    Our more mobile residents who are initiating new 
combination treatments will need enhancements like conference 
rooms and educational areas, occupational rehab facilities, 
kitchen upgrades, and interior stairwells, et cetera.
    As a HOPWA HUD-eligible project, we believe a Federal 
response at this critical moment is particularly appropriate. 
We are asking $1.5 million in one-time-only support from your 
Committee to help make these upgrades. That represents the 
bridge we need to demonstrate the program will work.
    We have secured and committed almost $18 million over the 
last 2 years for these residential treatment facilities from 
non-Federal sources. We have submitted a written articulation 
of the budget to your Committee. We are at a time of great 
hope, but that hope might easily be dashed.
    I thank you for considering a project that will keep 
doctors from having to play God, that will give patients a 
solid start on life-saving treatments instead of a rejection 
slip. And I am happy to answer any questions you may have.
    [The statement of Mr. Weinstein follows:]

[Pages 188 - 192--The official Committee record contains additional material here.]


    Mr. Hobson. Are there any questions?
    Mrs. Meek. Mr. Chairman.
    Mr. Hobson. Mrs. Meek.
    Mrs. Meek. Thank you so much for appearing. I am very 
concerned and interested in this kind of project, particularly 
housing for AIDS patients.
    Representative--she is from California, and I am trying to 
search for the name.
    Mr. Hobson. Waters?
    Mrs. Meek. No, not Waters. She mentioned it also, but this 
morning, the Representative, remember she left us a booklet 
on----
    Mr. Frelinghuysen. Nancy Pelosi.
    Mrs. Meek. Nancy Pelosi was here this morning with a--it 
was not similar, but she did ask for increased funding in the 
area of housing money for--this is it. And it appears that she 
certainly would agree with what you said. You are asking for a 
model demonstration program.
    Mr. Weinstein. That is correct.
    Mrs. Meek. I think that you are combining, if I understand 
this, all of these modalities. That is, they will not be in a 
hospice; they will be in a regular home-like environment. But 
you will be doing the kind of care that they need wherever they 
are health-wise. Is that correct?
    Mr. Weinstein. Right, but particularly what we are focusing 
on is getting somebody started in treatment. So instead of a 
doctor saying you are not a good candidate because you have an 
unstable home situation, we are saying come in, spend a month 
here, get through the initial side effects, get used to the 
routine, and then you can go out in the world and you have had 
a chance; otherwise, we are just going to write these people 
off and say, you know, they are too unstable, we are not going 
to give them these drugs, and they are certainly going to 
progress and die if that is the case.
    Mr. Hobson. I, too, share the concern over this. I do not 
know if you were here earlier when I said I wrote the law in 
Ohio. The problem we have is we do not have demonstration 
projects right now, but I think in HOPWA there may be funds 
available for you to get the money to do this, Housing 
Opportunities for Persons with AIDS, and I think that might be 
the place for you to get the money that you are looking for.
    Mr. Weinstein. Out of a national demonstration project or 
out of local funds?
    Mr. Hobson. It would be national funds. You might want to 
look at that as a way of getting your money. Can we do anything 
to help get him in the door? Or how would----
    The Staff. I am sure we can probably find some way to help. 
I know that they even have an innovative demonstration program 
for things just like this.
    Mr. Weinstein. Would it be possible to write language to 
indicate the direction?
    Mr. Hobson. I doubt if we could do that. But I think that 
you are going to find that they are going to be interested in 
trying to do something, because it is a problem. Let us know 
how you come out.
    Mr. Weinstein. Thank you. Thank you very much.
    Mr. Hobson. Thank you.
    With the indulgence of the committee, since we are 
running----
    Mrs. Meek. May I ask a question, Mr. Chairman?
    Mr. Hobson. Yes.
    Mrs. Meek. This project that the gentleman just mentioned 
would be ineligible for the housing funds for AIDS victims?
    Mr. Hobson. No. We think he can get some money. We were 
actually saying we think there is money already available that 
he can go and find, and he can go to the HOPWA funds, and they 
have a program, I think, that currently looks for innovative 
ways to deal with problems of housing with persons with AIDS.
    Mrs. Meek. That is what I was asking. He can----
    Mr. Hobson. Yes, he can go there----
    Mrs. Meek [continuing]. Utilize the HOPWA fund.
    Mr. Hobson. Yes, he can go and look at that, and if you 
have a problem, either come back to the committee or go to your 
member--whose district are you in? Whose district?
    Mrs. Meek. He is California.
    Mr. Weinstein. We are located in Congressman Waxman, 
Congressman Dixon, and----
    Mr. Hobson. Well, I know Henry knows how to find these 
funds pretty well.
    Mrs. Meek. One other thing, Mr. Chairman. The other 
Representatives who came in were asking for increase in those 
funds to be sure to cover the need which has greatly increased.
    Mr. Hobson. We will certainly look at that. That may be 
another thing we have to do, too.
    Thank you very much for your testimony.
    Mr. Weinstein. Thank you very much.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

THAN JOHNSON, EXECUTIVE DIRECTOR, CHAMPAIGN RESIDENTIAL SERVICES, INC., 
    URBANA, OHIO, AND VICE PRESIDENT FOR POLICY, AMERICAN NETWORK OF 
    COMMUNITY OPTIONS AND RESOURCES
    Mr. Hobson. I am going to do one thing, since we are 
running about 15 minutes early. I am going to take the 
indulgence of the Chair and take a constituent of mine: Than 
Johnson, Vice President for Policy, American Network of 
Community Options and Resources. He will be short, but direct 
and to the point. Than, how are you?
    Mr. Johnson. Fine.
    Mr. Hobson. Welcome.
    Mr. Johnson. Thank you, Representative Hobson. Good seeing 
you.
    Mr. Hobson. Nice to see you.
    Mr. Johnson. Good afternoon, Mr. Chairman and Committee 
Members. My name is Than Johnson. I am Executive Director of 
Champaign Residential Services, a non-profit corporation 
providing a variety of residential options for over 400 
citizens with mental retardation in 11 counties in Ohio. I am 
also the Vice President of Policy for the American Network of 
Community Options and Resources, ANCOR, on whose behalf I am 
testifying today.
    ANCOR is a nationwide association of over 650 private, non-
profit, for-profit, and family care agencies that together 
provide supports and services to more than 50,000 low-income 
people with mental retardation and developmental disabilities. 
Many of these individuals have very low incomes and rely upon 
housing opportunities that Congress has provided through 
various HUD programs.
    All too often, people with disabilities have been in the 
position of competing for scarce resources at national, State, 
and local levels--competing for housing assistance needed by 
other low-income households in general, and frequently in 
competition with other vulnerable groups, such as people who 
are elderly. The need for affordable, accessible housing in the 
community for people with disabilities is tremendous and is 
increasing each year as a result of the woefully inadequate 
supply of affordable housing and as a result of units lost 
because of designated ``elderly only'' housing.
    ANCOR believes it is critical that there is a Federal role 
in housing and that adequate funding for America's most 
vulnerable citizens--people with MRDD--must continue in order 
to open doors to affordable housing in the community.
    Unfortunately, over the past few years, HUD appears not 
only to have understated the housing needs of people with 
disabilities in this country, but has failed to lead the way in 
urging an appropriate Federal response. Due to this 
Subcommittee's sense of equality and commitment to protecting 
America's most vulnerable citizens, a first step was taken in 
restoring some of the housing lost to people with disabilities 
as a result of recent Federal housing designation policies. 
Although this issue appears to have escaped the attention of 
HUD, it did not escape the stewardship of Members of this 
Subcommittee when it proposed a $50 million appropriation for 
tenant-based assistance specifically for people with 
disabilities last year.
    Mr. Hobson. You can put your total statement in the record 
if you want, Than, and you can just tell us kind of what is in 
here, if you want to do that.
    Mr. Johnson. Okay. I have a brief caption. Do you want me 
to just----
    Mr. Hobson. You can do whatever you want, but I would like 
to get your whole statement in the record.
    Mr. Johnson. Okay. We have that on file.
    Last year I spoke before this Subcommittee, and I 
tremendously appreciate the additional $50 million in 
appropriations that you were able to accomplish for us.
    I also want to thank you for correcting the mistaken 
message sent to people with disabilities that their housing 
needs were no longer important to elected officials in 
Washington. You certainly corrected that.
    And your leadership is again needed this year, as 
apparently the Administration did not hear the message sent by 
this panel and the voices of thousands of people with MRDD who 
face a critical shortage in housing.
    As you know, HUD's 1995 ``Report to the Congress on Worst 
Case Housing Needs'' and its report in 1996 stated that people 
with disabilities often have multiple housing needs and are the 
group most likely to live in severely inadequate housing. But 
in spite of this evidence, HUD has not included adequate 
funding in this budget proposal again this year to begin to 
address the known housing crisis. According to the CCD Task 
Force's 1996 ``Opening Doors'' report, there were 1,790,000 
worst-case housing needs as compared to HUD's estimate of 
170,000. On top of this critical shortage in housing, the CCD 
report also estimates a loss of more than 270,000 federally 
subsidized housing units for people with disabilities over a 5-
year period. This is due to the impact of recent Federal 
designated housing policy.
    ANCOR believes that this loss of units to people with 
disabilities represents the largest single shift in housing in 
our Nation's history.
    ANCOR's written testimony includes information from a 
recent survey of members regarding statewide waiting lists for 
residential and support services. I would like to share a 
little bit of the data from the State of Ohio and the depth of 
its acute housing needs with you.
    In 1995, the Ohio Department of Mental Retardation 
estimated we have nearly 8,000 people on a residential waiting 
list; we have another 8,500 individuals residing in large 
congregate settings, most of whom could be provided 
alternatives if funding was available for housing and 
individual supports.
    We have an additional 28,000 individuals residing with 
their families, most of whose parents are above the age of 50, 
all of whom potentially need housing and support services if 
their family or foster-care arrangements do not continue.
    The average per resident daily expenditure in Ohio's State-
operated developmental centers is $260 a day, or almost $95,000 
annually. In our community-based ICFs/MR, it is approximately 
$150 a day. Clearly, these housing subsidies are much more 
cost-effective than those in these type of residential options.
    I personally--the agency that I work for, we have 
approximately 100 ICF/MR settings, of which our costs are about 
$100 a day. But we also have settings for nearly 250 people 
that are averaging probably a fourth of that because it does 
not have all the regulations that you have within the ICF/MR 
program. It truly lets people choose where they would like to 
live.
    However, the public housing authority tells me that there 
is up to a 3-year wait for federally subsidized housing in 
Clark and Champaign counties. According to our affiliate in New 
York, there are 5,500 people with mental retardation on their 
waiting list. It is estimated that at the current rate of 
development, the parent of a child in New York with 
developmental disabilities must wait until the year 2027 
forcommunity residential opportunities.
    Clearly, the need for housing in the community for people 
with MRDD outstrips current Federal and State resources. 
Waiting is not uncommon for people with disabilities and their 
families. Unfortunately, all too often it becomes a way of 
life.
    Their only alternatives are to continue to live 
inappropriately in large institutions, with their aging 
families, or in substandard housing, or to spend 50 to 70 
percent of their limited income on rent or go homeless. They 
and their families wait and hope that they win the Section 8 
lottery.
    This data does not reflect the number of people with other 
disabilities who are in need of affordable housing. I would 
like to--if I had time, I would like to tell you a little bit 
about Clyde and Scott. Representative Hobson certainly knows 
Scott, where he is living now and how his life has dramatically 
changed. Clyde is a gentleman who has been a friend of mine for 
20 to 25 years, who for 40 of his 60 years lived in a large 
State institution. At this time, we would be spending close to 
$260 a day for him. Clyde lived, while I was building a house, 
about two apartments down from me for about a year-and-a-half--
it took that long to get the house built--where now Clyde 
receives from our agency an average of an hour to two hours to 
support a day in subsidized housing at a total cost of maybe 
$20 to $30 so he could be independent. And he is just an 
example of where assistance in housing tremendously helps 
individuals who do not need all the wrap-around supports that 
we would have to give them in an institutional setting.
    ANCOR recommends that Congress request a report by the U.S. 
General Accounting Office on housing needs for people with 
disabilities. It is imperative that HUD and Congress have 
reliable data on which to assess the housing needs of people 
with disabilities to determine allocation of scarce resources. 
It is important that the study also include the use of 
mainstream housing resources such as HOME and CDBG, which are 
grossly underutilized by communities to assist people with 
disabilities with affordable rent and home ownership 
opportunities.
    ANCOR also recommends that Congress be consistent in its 
policy by appropriating adequate funding for HUD programs, 
those specifically designed to address the housing needs of 
individuals with disabilities, and to direct HUD to promote the 
utilization of mainstream housing programs, such as HOME and 
CDBG, to increase housing options in the community for people 
with disabilities.
    Tenant-based rental assistance is one of your most 
effective ways to provide housing for people with disabilities, 
and it provides an opportunity for people to exercise choice in 
obtaining housing in the private market. ANCOR recommends a 
separate appropriation of $50 million for the new Section 8 
tenant-based rental assistance designed specifically for people 
with disabilities for fiscal year 1998 to address the growing 
housing gap and replace lost housing as a result of federally 
designated housing policy.
    Some people with disabilities of all ages require supports, 
beyond merely rental assistance, to live in the community. The 
Section 811 program has proven to be one of the most 
successful, investing Federal funds to increase housing stock 
available to people with disabilities who also need some array 
of other supports. However, it should not be relied upon solely 
as the only mechanism for addressing the broad range and 
growing housing needs of people with disabilities.
    ANCOR does applaud HUD's efforts to ``avert the Section 8 
contract renewal crisis''; however, it is misleading to say 
that this was done without harming other programs. HUD is 
proposing only $174 million in Section 811 programs, a $193 
million funding cut over 1995 and 1996 levels. It is shocking 
that faced with an acute housing shortage and evidence of a 
growing gap that such a cut is proposed. ANCOR recommends 
restoration of the 811 program to the 1996 funding level, plus 
inflation.
    The Section 811 Supportive Housing for Persons with 
Disabilities Program, like its sister program, Section 202, was 
designed to be administered solely by non-profit organizations, 
respecting the strong belief in the innovation of the public-
private partnership. Section 811 funding should be made 
available to non-profit organizations only. ANCOR recommends 
that Congress provide HUD's Secretary with the waiver authority 
to permit private non-profit organizations to administer 811 
tenant-based assistance. Currently, only public housing 
authorities can administer the 25 percent authorization for 
tenant-based assistance under 811.
    I want to thank you for, one, having me come a little bit 
early and speaking. I also, again, appreciate what you did last 
year for us. Certainly that was something that gave a strong 
message to HUD. I do not know if they necessarily followed it, 
but they at least heard that message, and we would certainly 
hope that you could look at doing something along that same 
line again this year.
    [The statement of Mr. Johnson follows:]

[Pages 199 - 204--The official Committee record contains additional material here.]


    Mr. Hobson. Any questions, Mr. Walsh?
    Mr. Walsh. I have no questions. Thank you for your 
testimony.
    Mr. Hobson. Mrs. Meek.
    Mrs. Meek. No questions.
    Mr. Hobson. I know Than does a good job. We go all the way 
back to when I did some hearings on MRDD when I was in the 
State legislature. So this has been an interesting area for me 
for a long time. I think the Chairman has in the past tried to 
support. If we can get everybody on board, we will be a lot 
better off.
    Mr. Johnson. And I certainly appreciate your support over 
the years, Representative Hobson.
    Mr. Hobson. Thank you. I will turn the chair over to Mr. 
Walsh now.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ANN O'HARA, ASSOCIATE DIRECTOR OF HOUSING, TECHNICAL ASSISTANCE 
    COLLABORATIVE, INC., CONSORTIUM FOR CITIZENS WITH DISABILITIES
    Mr. Walsh [presiding]. All right. Now we will hear 
testimony from Ms. Ann O'Hara, Associate Director of Housing, 
Technical Assistance Collaborative, Inc., Consortium for 
Citizens with Disabilities.
    Watch your step.
    Ms. O'Hara. Thank you.
    Mr. Walsh. Welcome.
    Ms. O'Hara. Thank you very much.
    Good afternoon, Mr. Chairman, Members of the Committee.
    The Consortium for Citizens with Disabilities Housing Task 
Force is really grateful for the opportunity to provide 
testimony to you this afternoon on the housing needs of people 
with disabilities, and we are also extremely grateful and want 
to thank you for the leadership that Representative 
Frelinghuysen and the Chairman and other Members of the 
Committee showed last year in terms of the leadership that you 
provided on new resources, desperately needed by people with 
disabilities, to ensure that they can find affordable housing 
in their community.
    I am a housing professional. I have been in the housing 
business for 22 years. I have served as a public housing 
authority director. I have served as a senior housing official 
in Massachusetts, and now I work for a nonprofit agency, and we 
at the nonprofit, the Technical Assistance Collaborative, work 
very closely with the Consortium for Citizens with Disabilities 
Housing Task Force on two issues.
    One is to document the housing prices that people with 
disabilities currently face, which we believe is not being done 
by agencies within the Government, and number two, to advocate 
for resources that we know are desperately needed by people 
with disabilities due to the dramatic shift that has occurred 
in the supply of housing that is available for them due to the 
implementation of elderly-only housing designation.
    The previous witness just mentioned that we did a study 
last year and published a report that said that 273,000 units 
of housing would be lost for people with disabilities by the 
year 2000 in the public housing program and in the HUD-assisted 
housing programs.
    We now believe that that number is much too low. Studies 
that we have done since that time indicate that the loss may 
be, in fact, twice as high. We just finished a study of one 
county in Michigan where we looked at all of the HUD-assisted 
housing and surveyed the management companies to determine 
whether they had converted their housing to elderly only, and 
out of the 5,000 units that were available prior to elderly-
only designation, 3,000 of those 5,000 units are now off the 
market for people with disabilities. That is a loss of 60 
percent, and it is more than double what we had predicted in 
our 1996 report.
    On the public housing side, we are also very concerned 
because the notice that was recently issued by HUD which 
provides for an expedited process for housing authorities to 
designate, it is predicted by HUD in that notice that 174 new 
plans for elderly-only housing will be filed in the next 12 
months.
    Currently, HUD has approved 50 plans. Those 50 plans have 
taken 22,000 units off the market for people with disabilities. 
If another 174 plans are filed in the next 12 months, that 
amount, the amount of units taken off the market, we predict, 
will go over 90,000. So the numbers continue to rise as the 
implementation of elderly-only housing moves, marches forward.
    It calls the basic question which is where are people going 
to live. People who are currently living with parents, parents 
are aging, there is no extra income to help somebody provide a 
rent subsidy, people who are living in congregate housing who 
would like an opportunity to live on their own.
    The number of people who are homeless and have a disability 
is a disgrace in this country. Over 30 percent of the homeless 
single adults have a disability of some kind. That number is 
going to go up if we don't do something about this problem.
    Until a year ago, there really were no answers to the 
question of where would people go, what resources would be 
available since the pot of units is shrinking so dramatically, 
but thanks to the actions of this Subcommittee, there is a $50 
million appropriation. The money is out in the form of a notice 
of fund availability.
    The telephones are ringing off the hook at my office at the 
Arc, at ANCHOR, people desperate for information on how to get 
a hold of these Section 8's, where do I go, how do I get the 
housing authority to apply, what are the rules, how many are 
there, how many years are they funded for, and so we urge you 
to continue to support that appropriation and for an additional 
$50 million for new Section 8's, which is frankly a drop in the 
bucket compared to the loss of housing that we are dealing 
with.
    If you look, again, at this county in Michigan where we 
have done our work, there is no public housing there, maybe a 
couple of hundred units. All of the housing was assisted 
housing, and it's all converting to elderly only. So people 
with disabilities in that county in the absence of Section 8 
have no options at all.
    There is also a notice of fund availability out at the 
moment for the 811 program, for tenant-based rental assistance, 
and while we applaud the availability of that money as well, we 
are very concerned that that money was carved out of a 
shrinking appropriation, and at a time when we are going to 
need to create more housing, we are trying to do it all with 
811 program or much of it with the 811 program.
    At HUD, the 811 program is still seen as the program for 
people with disabilities, to the exclusion of what I believe 
are the mainstream housing opportunities that every citizen in 
this country who has low income has a right to access. So we 
urge you to fund the 811 program, and adequately, so that 
tenant-based rental assistance can be funded in addition to the 
projected activities that have historically been done with the 
program.
    We also urge you to look at mainstream resources, and we 
keep coming back to that theme because we are aware that there 
is a limit to the amount of money around, but it is true that 
people with disabilities--and I find this constantly in my 
work. People with disabilities get little or no share of the 
mainstream housing opportunities that are out there.
    For example, housing authorities that are designated 
elderly housing very rarely adopt a preference in their Section 
8 programs, so that people who were on public housing lists can 
be given preference on their existing Section 8 program because 
Section 8 does turn over every year. There are certificates 
that become available, and it would be fairly easy to redirect 
some of those resources.
    We are concerned about the HOME and CDBG programs. 
Webelieve that those production programs are important, but we are very 
concerned that those resources don't go to people with disabilities in 
a way that is equitable based on their housing needs.
    So that, really, in conclusion, we believe that new 
resources have to be put on the table, but we also want to see 
real policy direction from HUD and from communities that will 
help people with disabilities have what every citizen who has 
low income wants, which is just a fair shake, a fair chance to 
participate in the limited Federal resources that are available 
in local governments and in State governments.
    So I thank you for the opportunity. I thank you very much 
for your work last year, and we look forward to working with 
you again in the future.
    [The statement of Ms. O'Hara follows:]

[Pages 208 - 219--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you very much for your testimony. It is 
very compelling.
    Are there any questions?
    Mrs. Meek. Thank you.
    She really knows housing, Mr. Chairman, and it is a joy 
listening to you.
    Ms. O'Hara. Well, thank you for listening.
    Mr. Walsh. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you for articulating so many 
issues so well. Our support for the initiatives last year was 
bipartisan. I particularly want to thank Chairman Lewis for his 
aid and assistance, and many of us have been working with 
Chairman Lazio on the authorizing side to make sure that we 
protect what is there as well as obviously find new funding 
wherever possible, but thank you for educating me in the 
process.
    Mrs. Meek. If I may add one more caveat here, in a lot of 
these counties and cities and municipalities, you have trouble 
tapping CDBG funds, even when the Government provides it, and I 
am sorry to hear how negatively this has impacted people with 
disabilities. They don't want to give it up for 108 or any of 
the things, any of the initiatives. So it is hard to get around 
that.
    Ms. O'Hara. It is.
    Mrs. Meek. Yes.
    Ms. O'Hara. It is. There is a limit to the amount of money, 
just the traditional ways of spending it, and so, when you try 
to suggest that that be broadened without more money, it is 
very hard to change local behavior, if you will.
    Mr. Frelinghuysen. We can try to change departmental 
behavior, too.
    Mrs. Meek. Right.
    Mr. Frelinghuysen. That is the main problem is that you 
have got some sort of mind-set over there that needs to be 
shaken.
    Excuse me, Mr. Chairman.
    Mr. Walsh. Not at all. Your points are well taken, both of 
them.
    Thank you very much.
    Ms. O'Hara. Thank you, Mr. Chairman.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

AIMEE R. BERENSON, DIRECTOR OF GOVERNMENT AFFAIRS, AIDS ACTION COUNCIL
    Mr. Walsh. Our next presenter, we will go back to earlier 
in the order to Aimee Berenson, Director of Government Affairs, 
AIDS Action.
    If you would like, you can submit your entire statement or 
the record, and feel free to summarize your statement and make 
the pertinent points.
    Mr. Berenson. Thank you very much. I understand.
    Good afternoon. I am Aimee Berenson. I am Director of 
Government Affairs for AIDS Action Council. The Council 
represents over 1,400 organizations across the country, people 
living with HIV and AIDS that they serve.
    This is a time of great hope in the AIDS epidemic. As a 
result of advances in care and treatment for people with AIDS, 
deaths from AIDS have dropped significantly in the last year by 
13 percent, but the epidemic is far from over. The number of 
people who died from AIDS declined last year, but the number of 
people living with AIDS did not, and AIDS continues to be the 
leading cause of death among American men and women between the 
ages of 25 and 44.
    Worse still, every year, 40,000 to 80,000 more Americans 
become infected with HIV, the virus that causes AIDS.
    Stable housing helps prevent the early onset of illness and 
maintains the quality of life for HIV-infected individuals and 
their families. Without stable housing, many people with HIV 
disease die prematurely because it was impossible to link them 
to care services and life-sustaining treatments.
    Today, with the new advances in the care and treatment of 
HIV disease, stable housing and the access to care that housing 
provides for people may do more than prevent premature death. 
It may make the difference between life and death altogether.
    It is challenging enough for people living with HIV to find 
the health care they need and the services they need. Imagine 
having to choose between paying your doctor's bill and paying 
your rent, paying for your prescriptions or paying your 
mortgage. For too many people living with AIDS, this is not 
just an imagination exercise. At any given time, one-third to 
one-half of all Americans with AIDS are homeless or in imminent 
danger of losing their homes.
    Sixty percent will need housing assistance at some point, 
and in some urban areas, as many as 50 percent of the local 
homeless population are infected with HIV.
    The housing opportunities for people with AIDS program is 
the heart of the Federal response for people living with HIV 
and AIDS. By increasing fiscal year 1998 funding for HOPWA, 
Congress can help us ensure that no American living with HIV 
disease is denied care, treatment, even life itself just 
because they don't have a stable place to live.
    As I know you are aware, 90 percent of HOPWA funds 
aredistributed by formula grants to States and localities hardest hit 
by the epidemic. HOPWA dollars are providing everything from rental 
assistance to rehab of existing units to building new residences and 
coordinating home care services in communities ranging from New York, 
New Jersey, Florida, Mississippi, Ohio, and Wisconsin. In fiscal year 
1997, 80 jurisdictions, 53 metropolitan areas, and 27 States qualify 
for HOPWA formula grants, and HUD estimates that 10 more jurisdictions 
will qualify for fiscal year 1998.
    The President's fiscal year 1998 budget request for HOPWA 
seeks an 8.1-percent increase, for a total of $204 million. 
This increase, while below the $250 million that we estimate is 
needed, will at least ensure that your community and 
communities across the Nation have a fighting chance to address 
the increasingly important housing needs of their citizens with 
HIV needs.
    HUD has estimated that the funding increase requested by 
the President's fiscal year 1998 budget would provide housing 
and related services to an additional 2,836 individuals and 
families. This Nation's investments in AIDS research and care 
have reaped enormous benefits, but if Congress does not make a 
similar investment in HOPWA funding for fiscal year 1998, 
people with AIDS will not have the most basic thing they need 
to realize the benefits from those other investments, namely a 
roof over their head.
    We know there are enormous budgetary challenges facing us 
on a Federal level, particularly with regard to the HUD budget. 
HOPWA is a program that works, and it works well. It is 
community-controlled. It is community-driven, and it is 
essential because without stable housing, people with AIDS will 
continue to die prematurely and perhaps unnecessarily in 
emergency rooms, shelters, on the streets of our cities.
    Homelessness really does kill people with AIDS, and on 
behalf of the many Americans living with AIDS and their 
families, I ask you to remember that HOPWA dollars really do 
represent life or death for too many people. We urge you to 
provide at least the President's fiscal year 1998 budget 
request for HOPWA and help us make sure that all Americans 
living with HIV disease and their families can share in the 
hope of new treatments.
    I thank you for allowing me to testify before you today.
    [The statement of Mr. Berenson follows:]

[Pages 223 - 230--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you very much. Good testimony.
    Mr. Berenson. Thanks.
    Mrs. Meek. Mr. Chairman, I understand she is the authority 
on HOPWA and how it can be utilized most efficiently within the 
communities, the two who just testified.
    Mr. Walsh. We do have some real experts.
    Mrs. Meek. Yes.
    Mr. Berenson. Thank you.
    Mr. Walsh. Thank you very much for your testimony.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ROLAND TURPIN, EXECUTIVE DIRECTOR OF DAYTON, OHIO METROPOLITAN HOUSING 
    AUTHORITY, PUBLIC HOUSING AUTHORITIES DIRECTORS ASSOCIATION
    Mr. Walsh. Our next presenter is Mr. Roland Turpin, the 
Executive Director of Dayton, Ohio Metropolitan Housing 
Authority, Public Housing Authorities Directors Association.
    Welcome, sir.
    Mr. Turpin. Good afternoon, Mr. Chairman.
    Mr. Walsh. As I mentioned to the other witnesses, if you 
would like to present your total statement for the record and 
summarize, that will be fine.
    Mr. Turpin. Yes, sir. I hope to shorten very much the 
formal paper that we have presented.
    Mr. Walsh. Very good.
    Mr. Turpin. Mr. Chairman and Members of the Committee, I am 
Roland L. Turpin, Executive Director of the Dayton Metropolitan 
Housing Authority in Ohio. I am also representing today and 
specifically representing today the Public Housing Authorities 
Directors Association. I am a Member of its Board of Trustees.
    The Association represents some 1,650 CEOs of housing 
authorities around the country, and on behalf of that entire 
membership, we want to thank you for the opportunity to present 
our testimony. You see our colleagues are all here to present 
testimony today on behalf of public housing.
    This hearing is particularly important because it is, 
indeed, a watershed year for HUD and the public housing 
programs. More so now than any other time in recent memory, 
Congress faces a truly monumental dilemma in that it needs to 
find more than $5 billion in new budget authority simply to 
renew expiring Section 8 contracts.
    At the same time, over the course of the last few years, 
public housing authorities have absorbed some of the largest 
spending reductions in the program's history. Funding for 
operating subsidies, modernization, and Section 8 assistance 
have all been dramatically reduced.
    Indeed, combined over the last 2 years, the shortfall and 
PFS, the performance funding system, has exceeded more than 
half-a-billion dollars. Funding for modernization, meanwhile, 
has fallen from a pre-recision national basis of $3.7 billion 
to now just $2.5 billion. It has represented in our case, in 
Dayton, a 34-percent reduction in capital funds available to 
keep our property up to date.
    Housing authorities have been able to absorb these cuts, 
partly because of some of the temporary administrative reforms 
Congress enacted in the previous legislative session through 
this Committee. Housing professionals appreciate that your 
Committee has given us more latitude to run our programs based 
on local needs and priorities. Nonetheless, even with some of 
the additional flexibility, we simply cannot withstand any 
further spending reductions.
    To continue current policies at insufficient funding levels 
is to invite disaster. If funding for operating 
andmodernization expenses are not adequately augmented and expiring 
such needed contracts are not renewed, some high-profile and, frankly, 
some low-profile housing authorities will eventually go bankrupt, and 
Congress could face a situation where countless thousands of deserving 
residents are literally left on the street.
    With all this in mind, I will now proceed to outline 
PHADA's fiscal year 1998 budgetary recommendations. First, Mr. 
Chairman, the Association strongly recommends that Congress 
allocate the additional budget authority that is needed through 
a new $1.8-million aspiring such-needed contracts in the coming 
fiscal year.
    As the Subcommittee knows, these units provide shelter for 
some 4.4 million low-income families who could be put at 
serious risk if Congress fails to act.
    In a related matter, we urge the Subcommittee to rethink 
its recent decision to transfer certain Section 8 funding to 
the Federal Emergency Management Agency, FEMA.
    Under the terms of a supplemental appropriations bill you 
recently approved, $3.5 billion in Section 8 contract reserves 
would be transferred from HUD to FEMA. PHADA recognizes the 
importance of FEMA to the Nation in cases of emergency. 
However, we do not think you should use Section 8 reserves to 
fulfill the Agency's needs. In fact, it is our understanding 
that because FEMA services emergency needs, the law does not 
require Congress to offset any new FEMA expenses with 
reductions in other lives.
    For a more thorough presentation of our position on this 
point, we have attached a copy of a letter we sent to the 
Subcommittee and other Members of Congress.
    Before moving on to some other specific budgetary 
suggestions, we want to thank Members of this Committee for 
addressing many of our programmatic concerns during the 
previous congressional session. Over the last few years, this 
panel has taken a lead role in addressing some of the 
longstanding problems that until recently plagued the public 
housing program. Among other things, you have repealed the 
Federal preferences, the one-for-one replacement. You have 
adopted minimum rents and removed several impediments to the 
Section 8 program, including the take-one-and-take-all and 
endless lease statutes. You have also given housing authorities 
more flexibility to design their own ceiling rents and earn 
income deductions.
    PHADA supported all of these initiatives, believing that it 
will go a long way toward improving the program from both a 
societal and fiscal standpoint.
    Because these reforms were included in one-year 
appropriation bills, most of them are temporary in nature. We 
hope Congress will agree this year on an authorizing bill that 
will permanently authorize these reforms into law. While we are 
hopeful about the prospects for a bill, we hope this 
subcommittee will extend the revisions for, yet, another fiscal 
year if Congress fails to enact an authorizing package before 
adjournment.
    Another major area of PHADA's concern is the significance 
of the operating subsidy. As we noted a few moments ago, 
funding for the performing funding system has dramatically 
reduced over the last several years. In fiscal 1995, for 
example, the PFS was only funded at 89 to 90 percent of its 
total capacity. This fiscal year, housing authorities are still 
being shortchanged at approximately 94 to 95 percent of our 
needs.
    When composing its fiscal 1998 appropriations bill, the 
Subcommittee must consider the strain that will remain for 
housing authorities to control their operating costs. Unless 
there is an agreement on a far-reaching authorization bill that 
truly transforms the way public housing assistance is 
delivered, or both of the pending authorization bills, H.R. 2 
and Senate bill 462, contain some beneficial provisions such as 
the permanent repeal for Federal preferences and minimum 
grants, they will not in and of themselves generate cost 
savings housing authorities need to sustain their operations.
    One must keep in mind that housing authorities have some 
built-in cost to maintain. Housing authorities must continue 
paying insurance premiums, local contract obligations, and 
utility expenses. We cannot ask for increased rental payments 
from our residents. They have few options when the need to deal 
with a budget shortfall arises.
    Unless adequate funding is received, housing authorities 
have little choice but to restrict services to our residents, 
the Nation's $3-millon-plus public housing residents. It must 
be remembered that more than 500,000 of these individuals are 
elderly or disabled.
    With this in mind, the PHADA recommends that the 
subcommittee appropriate $3.2 billion for operating subsidies 
in fiscal 1998. This is about $300 million more than the 
current year's appropriation and $300 million more than what 
HUD proposed.
    Another very high-priority item for PHADA is the public 
housing modernization account. Funds in this program are used 
for major work items, such as replacing boilers and roofs, 
removing dangerous lead-based paint, and further upgrading 
properties, many of which are over half-a-century old.
    The dollars that are used by housing authorities under the 
modernization program go to the very heart of the quality-of-
life issues for the residents we serve.
    Mr. Walsh. Mr. Turpin.
    Mr. Turpin. Yes.
    Mr. Walsh. I am going to ask you if you could wrap it up 
fairly quickly. We have been allocating about 7 minutes per 
person. You are a little bit over that.
    Mr. Turpin. Okay. I am sorry about that.
    Mr. Walsh. That is all right.
    Mr. Turpin. I will just mention that we want you to 
continue the public housing drug elimination program. It is 
very vital. The Administration fee structure needs to be looked 
at again. It needs to be at the original proposal of 7.65 
percent.
    That completes our presentation.
    [The statement of Mr. Turpin follows:]

[Pages 235 - 245--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you. We will make sure that all of your 
comments and statements are in the record.
    Mr. Turpin. I thought I was cutting out a lot, as much as I 
could.
    Mr. Walsh. It is a lot to cover.
    Mr. Turpin. I know.
    Mr. Walsh. We just have so many witnesses today.
    Mr. Turpin. I apologize to the Committee.
    Mr. Walsh. That is no problem.
    Mr. Turpin. I apologize to you.
    Mr. Walsh. Are there any questions?
    Mrs. Meek. No.
    Thank you very much.
    Mr. Turpin. Thank you.
    Mr. Walsh. Thank you, sir.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

RICARDO DIAZ, PRESIDENT OF CLPHA AND EXECUTIVE DIRECTOR OF THE 
    MILWAUKEE HOUSING AUTHORITY, COUNCIL OF LARGE PUBLIC HOUSING 
    AUTHORITIES
    Mr. Walsh. The next presenter is Mr. Ricardo Diaz, 
president of CLPHA--I am not sure what that is yet, but I am 
sure he can tell us--and Executive Director of Milwaukee 
Housing Authority.
    Welcome, sir.
    Mr. Diaz. Thank you, Mr. Chairman.
    My name is Ricardo Diaz. I am the Executive Director of the 
Milwaukee Housing Authority and the President of the Council of 
Large Public Housing Authorities. Thank you very much for the 
opportunity to testify here in front of you today.
    Mr. Chairman, as was said by the previous speaker, public 
housing has some of the deepest cuts in Federal funding. Since 
1995, there has been no funding for development, and 
modernization funds have been slashed by one-third of the 
original appropriation.
    Operating shortfalls have been just as severe. If the HUD 
request is adopted, there will be a combined loss of $1 billion 
for 1997 and 1998. These cuts could result in a drop of $5.3 
billion between 1993 and the year 2002.
    Welfare and SSI reforms will compound these reductions. We 
estimate at CLPHA a rent loss of $500 million annually. In 
Wisconsin, a leading State on welfare reform, we have estimated 
a loss of $300,000 in rental income in 1996. The reduced rents, 
impact of SSI changes on legal immigrants and disabled children 
will be even greater.
    We estimate a loss of $100,000 this year alone. In one of 
our elderly hi-rises, we could lose 25 percent of our rental 
income if legal immigrants lose SSI. This would bankrupt this 
building.
    Despite these huge deficits, we are still expected to run 
the same program serving the same extremely poor households. We 
have become a massive unfunded mandate.
    Mr. Chairman, we greatly appreciate your response to the 
failure of the Authorizing Committees to change the rules of 
the game last year. We hope that the desperately needed changes 
are enacted permanently this year.
    For years, Congress has dictated who should be housed in 
public housing, namely the poorest of the poor. The average 
annual income of our resident is only $5,850. Their rents cover 
only 40 percent of our operating cost. The Federal promise is 
to provide an operating subsidy to cover the gap between the 
low rents and the operating cost of a well-run public housing 
authority.
    HUD's request of $2.9 billion does not come close to 
keeping that promise. It is short a record $500 million. The 
impact of that shortfall is absorbed by the public housing 
authority's budget used for maintaining the properties and the 
grounds, collecting the rents, providing security, and re-
renting vacant units. The utilities must still be paid.
    The Committee should disregard HUD's proposal to cut 
Section 8 administrative fees further. We have already suffered 
a two-step cut of reduced percentage and a reduced base.
    In Milwaukee last year, Mr. Chairman, I had to dip into a 
reserve, $121,000, in order to balance the budget for 1996. If 
this continues, our program will be bankrupt in 5 years.
    Aside from the HOPE VI program, HUD is proposing only a 
$2.5 billion for public housing capital, basically the 
modernization program. Its request is misleading because $100 
million is set aside for non-capital, non-rehabilitation items, 
leaving only $2.4 billion, the lowest level since fiscal year 
1989.
    In Milwaukee, our 1997 funding is the lowest level that it 
has been for 9 years the time that I have been there. Just last 
week, I had to lay off 10 people in our security staff. In 
Milwaukee, we need at least $70 million, and we can contract 
whatever we receive within 14 months after receiving those 
funds.
    HUD is requesting HOPE VI funds for demolition only. I am 
connected to revitalization and for Section 8 tenant-based 
assistance for relocation, an activity traditionally carried 
out under the Section 8 account. There is a bait-and-switch 
aspect to this. Congress appropriates funds narrowly focused on 
the capital needs of major reconstruction, and then HUD adds 
other activities under the popular HOPE VI account.
    CLPHA request that $500 million be designated specifically 
for the capital in supportive services. Supportive services 
should be funded from the community development block grant 
program. Supportive service grants are not confined to public 
housing, nor public housing residents. CLPHA urges the 
Committee to make clear that funding to a nonprofit public 
housing for work done with our residents should be done in 
collaboration with the public housing authority in order to 
avoid duplication and misuse of funds.
    Please clarify the purpose for which these funds can be 
used. CLPHA in partnership with disability groups recommends 
statutory earmarks for these funds for service coordinators for 
elderly and disabled residents. HUD should be instructed to 
drop its unauthorized requirements, as supportive services can 
only be used, and I quote, ``if new or significant expanded 
services.'' These penalizes housing authorities like ours which 
use other grants to develop an award-winning model for service 
coordinators in a hi-rise.
    Prior to receiving HUD funding, Milwaukee received a grant 
from the Robert Wood Johnson Foundation to demonstrate the 
effectiveness of service coordinators in our hi-rises. 
Milwaukee has over 1,400 residents who are over 61 years ofage. 
Approximately 71 of these elderly have had problems of mental and 
physical disabilities. An additional 4 percent require 24-hour care or 
monitoring.
    We have regained the confidence of the elderly and their 
supporters. We appreciate the Chairman's efforts to help us 
provide affordable housing for our senior citizens.
    The Public Housing Drug Elimination Program, PHDEP, has 
been one of the most useful additions to public housing in a 
decade. Milwaukee has been able to leverage over $2.5 million 
worth of services using our $400,000 grant of drug elimination.
    Our public safety staff and service coordinators, funded 
through PHDEP and supportive services, have tremendously 
improved the quality of life for 2,000 elderly disabled 
families receiving them.
    Please, we urge you to increase these worthy programs from 
the $290 million to $350 million, and from $50 million to $75 
million in supportive services. We also ask you that 75 percent 
of the PHDEP funds go to public housings with 500 or more 
units. Although this would reduce current per-unit funding for 
large public housing like ours to the benefit of smaller 
agencies, we would rather have a predictable funding which 
provides continuity and makes it easier to plan and recruit 
capable staff.
    Please don't allow HUD to dictate the percentage of drug 
elimination grant funds that can be used for law enforcement 
and work-related efforts. PHDEP funds are effectively used now 
for the purpose Congress intended it to defeat drug and alcohol 
abuse. Sometimes HUD should learn to leave well enough alone. 
We request report language on this point.
    Mr. Chairman, in conclusion, we urge the Committee to 
recognize that no system of serving $3.4 million persons, all 
poor, many frail elderly, many mentally and physically 
disabled, many children, housing over 13,000 individuals at the 
developments, with 1.4 million apartments, often in difficult 
locations can survive the cuts imposed on public housing. We 
continue to live in an overly regulated industry where housing 
authorities are expected not only to be providers of housing of 
last resorts, but also to be social workers, employment 
counselors, law enforcement officials, health care providers, 
and educators. We need a bill that provides adequate resources 
for these increased responsibilities and the flexibility to 
develop programs and procedures that are responsive to the 
local conditions.
    In an environment with fewer resources, I hope that we can 
work with you and HUD to obtain the flexibility that we need at 
the local level to most effectively use our resources. Thank 
you very much for your past support.
    [The statement of Mr. Diaz follows:]

[Pages 249 - 258--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you for your testimony.
    Questions?
    Mrs. Meek. No.
    Mr. Frelinghuysen. I want to commend you. You didn't read 
it, but let me read it in your statement. ``We regret that 
HUD's budget doesn't request Section 8 units, as in the past, 
to enable non-elderly disabled persons to move from elderly 
buildings or to be able to avoid moving into them in the first 
place. Certificate/vouchers give the non-elderly disabled an 
opportunity to live in the broader community; please continue 
this setaside.'' I am pleased that you are very much in accord 
with Ms. O'Hara's comments.
    What was particularly appalling is that HUD didn't put the 
$50 million back in that we put in last year. You would think 
after last year's experience, they might learn. So we will help 
them relearn it. Thank you very much for your testimony.
    Mr. Diaz. Thank you very much.
    Mr. Walsh. If I could explore this just for a second, this 
issue of disabled versus senior housing and the number of spots 
that will be lost, what is going on in public housing that is 
causing the disabled community to lose units?
    Maybe you could help out, if Mr. Diaz can't.
    Just, if you could, explain that.
    Mr. Diaz. Mr. Chairman, we were the first city in the 
country to have an allocation plan approved by HUD. We have 7 
of our 14 hi-rises designated for elderly. The other seven are 
a mixed situation.
    I can tell you that the service coordinator dollars, and 
this is why I emphasized that in my testimony, that service 
coordinators be a priority. We believe that 40 percent of those 
dollars should be designated for service coordinators. It has 
been a God-send in the City of Milwaukee. Seniors are now 
living a quality of life they were not able to do before. They 
were afraid. We would not get an applicant to public housing.
    We have attempted many things for a long time, advertising, 
going to many service club churches to try to recruit, and we 
are unable to find elderly residents.
    We have, for example, right now, Section 8 certificates 
available for disabled population. We have not had to use any 
of them. We will take any disabled person in Milwaukee. We are 
able to accommodate them. We welcome them.
    What you would need to provide is a service coordinator 
along side in those buildings so there is a provider of 
services, a nurse, a social worker, someone to be able to be 
there to provide that quality of service, whether we are 
talking about elderly or we are talking about disabled. That is 
the difference.
    I think what we are talking about is behavior, Mr. 
Chairman. We should not be tolerating behavior that is bad, 
whether a person is older or not. That is what we should be 
talking about.
    One of the things, we have seen the quality of life 
increase. It is because there is a relationship and rapport 
established between these providers of services and the 
individual residents. We have been able to turn that situation 
in Milwaukee around. We have been working with the disable 
group. They know they can refer their people to our buildings, 
and they would be more than welcome, but we do ask you----
    Mrs. Meek. Mr. Chairman, I think I heard Ms. O'Hara mention 
the paucity of space.
    Mr. Walsh. Right.
    Mrs. Meek. It doesn't appear that you are having that 
problem with your housing authority.
    Mr. Diaz. No, we are not. No, we are not. As a matter of 
fact, we would welcome because we do have vacancies in our 
building that is designated for disabled, and we are prepared 
to house many of them.
    Mrs. Meek. Then, there appears to be some need for having 
some overall kind of application that will be sure to ensure 
that disabled get housing, as Ms. O'Hara was speaking to.
    Mr. Frelinghuysen. I am not sure of the Chair'squestion. 
What is this behavior aspect thing? I mean, we are not talking about 
disabled people having a behavior problem, are you? I am a little bit 
confused how it is all weaved in here.
    Mr. Diaz. You are talking about----
    Mr. Frelinghuysen. In other words, I think we need to 
answer the question, and I am not sure whether you are prepared 
to do that or whether we, Mr. Chairman, ought to call upon--
maybe our next witness may be able to shed some light on that.
    You are not suggesting these coordinators are in there to 
manage people's behavior problems.
    Mr. Diaz. Sometimes they don't follow through with 
medication. There are behaviors in the evenings when security 
is not there, and what you have is someone that works with 
them, gets them involved, gets them engaged in a number of 
activities that improves their quality of life, gets them 
involved in counseling sessions, making sure that they are 
going to their doctor regularly. It is that kind of support 
individual that we have been able to introduce in our building 
for both populations that have really improved the quality.
    If it had not been for that, we would not have had elderly 
applicants in our buildings nor disabled applicants in our 
building. That is what I am talking about what those 
individuals have done.
    Mr. Walsh. It wounds like this issue of behavior certainly 
would be an issue for a group of seniors at a tenant 
organization who would say we want ours, we want it peaceful, 
and having experience in being in city government myself and 
developing group homes in communities, there is always some 
people who are going to be opposed to group people who are as a 
group different or perceived to be different, and I would 
suspect that that is a similar situation in public housing.
    Mr. Diaz. It is. I mean, many of the local officials will 
come and complain about one of the residents calling them. So 
that is the intervention that we had to do in order to ensure 
the local officials that, in fact, there is tranquility in that 
building.
    Mr. Walsh. Because of these service coordinators.
    Mr. Diaz. Yes, sir.
    Mrs. Meek. Right.
    Mr. Walsh. Thank you very much.
    Mr. Diaz. Thank you.
    Mr. Walsh. It has been very helpful.
    Mrs. Meek. May I ask a question, Mr. Chairman?
    Mr. Walsh. Yes, you may.
    Mrs. Meek. Mr. Diaz, how did you pay for the service 
coordinator salary?
    Mr. Diaz. We were able to secure a grant of $500,000 from 
the Robert Wood Johnson Foundation and match with local 
foundations.
    Mrs. Meek. That is not a continuous source of revenue, is 
it?
    Mr. Diaz. Right. That is why we are concerned about the HUD 
language in there about expanding the service. We want you to 
serve the groups that now have these services, not to add more, 
because over time we know you are not going to be able to 
sustain it.
    Mrs. Meek. So volunteerism may not be the answer to yours 
because it may not be consistent enough?
    Mr. Diaz. I think you do need people who are professional. 
You need professional social workers, professional nurses who 
are trained to deal with the individuals in these buildings.
    Mrs. Meek. Thank you.
    Mr. Frelinghuysen. What do you mean by tranquility? Robert 
Wood Johnson comes out of New Jersey. They are promoting 
tranquility by the use of these individuals? ``Tranquility'' is 
the term you used.
    Mr. Diaz. They provided the dollars to be able to hire the 
staff, these service coordinators that we can put in our 
buildings. In other words, those dollars that would----
    Mr. Frelinghuysen. I was just questioning your terminology. 
I think it is rather----
    Mr. Walsh. I think the issue is individuals acting out in 
the public housing or neighborhoods and how they express 
themselves as differently, and people are going to get 
concerned about that. So he has, true to Robert Wood Johnson 
Foundation, found some money to help him to hire these people 
who can help to provide tranquility.
    Mr. Frelinghuysen. I am not sure I am happy with that 
terminology, but thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

WILLIAM R. TESTA, EXECUTIVE DIRECTOR, THE ARC MORRIS CHAPTER, ARC OF 
    THE UNITED STATES
    Mr. Walsh. The next presenter is Mr. William Testa, Arc 
Morris Chapter, Arc of the United States.
    Welcome.
    Mr. Testa. Thank you, Mr. Chairman.
    My name is William Testa, Executive Director of the Arc 
Chapter of New Jersey. I am very proud to be here today 
representing more than 1,100 State and local chapters of the 
Arc across the country.
    The Arc is the largest voluntary organization in the United 
States, devoted solely to the welfare of the more than 7 
million people with mental retardation and their families.
    Mr. Frelinghuysen. Mr. Chairman, this gentleman is from my 
home county, Morris County, representing the national----
    Mr. Frelinghuysen. This is constituency work.
    Mr. Walsh. You are welcome to take the Chair and I will 
slide over.
    Mr. Lewis. I will be glad to do that.
    Mr. Walsh. Excuse us for interrupting.
    Mr. Testa. Not a problem.
    Mr. Lewis. Sorry about not being here, but all of us have 
constituency problems.
    Mr. Testa. Speaking of constituencies, over 17 years ago 
when Congressman Frelinghuysen was a Morris Countyfreeholder, 
our Association was faced with a major financial crisis. With his help, 
the organization averted bankruptcy, rebuilt a community to be a 
provider of services and supports to over 850 individuals each month.
    In 1983, when housing for people with mental retardation 
was extremely scarce, the Arc Morris Chapter began an intensive 
effort to develop community-based housing.
    Today, our agencies supports 125 individuals living in a 
variety of housing across Morris County. Very early on, Rodney 
Frelinghuysen, who moved into the State Assembly in the early 
1980's, became a staunch supporter of the movement to develop 
community-based residential services for people with mental 
retardation. His sponsorship of bond issues and strong support 
of special needs housing was instrumental in New Jersey's 
development of community-based residences for people with 
disabilities.
    For over a decade, a top priority of the Arc has been to 
make available community-based services and supports, including 
an appropriate variety of housing options. The Arc also seeks 
the deinstitutionalization of people with mental retardation 
residing in large, inappropriate, and extremely expensive 
institutions. The people whom we represent, most of whom have 
very low incomes, may already be consumers of HUD programs or 
on waiting lists for a variety of HUD programs both generic and 
disability-specific.
    Housing is often the cornerstone of independence. If a 
person with or without a disability has access to decent, safe, 
affordable housing, then he or she can concentrate on getting 
an education on job training and on receiving a job and 
becoming a viable and productive part of the community.
    Thanks to the Medicaid Home and Community-Based Care 
waiver, New Jersey has developed a community-based residential 
service system that it can be proud of. In less than 15 years, 
it has cut its institutional population from approximately 
8,000 people to 4,000 and is presently serving more people in 
community-based residential services than in its institutional 
system.
    Despite this incredible progress, New Jersey maintains a 
waiting list of over 4,500 individuals in need of community 
residential services. In addition to this crisis within the 
community, people living in State institutions are also waiting 
for appropriate community-based residential services.
    The designation of elderly-only subsidized housing is just 
the most recent factor which has contributed to the critical 
housing shortage for people with disabilities. In 1992 and 
1996, Congress passed legislation which permitted both public 
housing authorities and HUD-assisted housing providers to limit 
or exclude people with disabilities from living in certain 
subsidized housing developments by designating this housing 
elderly-only.
    Despite this dramatic decrease in the supply of subsidized 
housing available for people with disabilities, until Congress 
acted last year, no new resources for people with disabilities 
were authorized, and until this Subcommittee took bold action, 
no new funds were appropriated to address this loss.
    Even after Congress added $50 million for Section 8 tenant-
based rental assistance for people with disabilities and more 
funds for the Section 811 program for FY 1997, HUD did not 
request the $50 million for FY 1998, and once again proposed, 
yet, another cut to the 811 program.
    We, again, are dependent on the understanding and wisdom of 
this Subcommittee to champion what is necessary and what is 
right for people. The Arc strongly believes that Section 8 
tenant-based rental assistance is one of the most effective 
tools for helping people with mental retardation live 
integrated lives in their home communities. Unfortunately, most 
people with mental retardation have low-paying jobs and would 
not be able to live on their own without a rent subsidy.
    While Medicaid can help people get the services and 
supports they need, people still need a rental subsidy to allow 
them to be able to afford a place to live. Access to tenant-
based assistance is even more critical now when so many other 
options have been closed to people with mental retardation.
    The Arc seeks your support for continuation funding for the 
$50 million in Section 8 tenant-based rental assistance 
specifically for people with disabilities. The housing crisis 
faced by many people with mental retardation and other 
disabilities is getting worse, not better. A one-time infusion 
of 8,400 Section 8's does very little to offset the estimated 
loss of over 273,000 units.
    The FY 1998 HUD budget proposes $174 million for the 
Section 811 program. This is the same level of funding that HUD 
requested last year. Fortunately, Congress ignored HUD's 
recommendation and added $20 million back to the program for a 
total 1997 appropriation of $194 million. Unfortunately, even 
that level represents a cut of $193 million from the 
appropriations for the Section 811 program in each of the 
fiscal years of 1994, 1995, and 1996.
    HUD justifies cuts to the Section 811 by stating that all 
programs need to take a cut. Why, then, are programs like the 
home and CDBG held sacred and funded at current levels?
    In addition, why are neither of these programs held more 
accountable for contributing to the availability of decent, 
safe, affordable, and accessible housing for people with 
disabilities.
    At the same time that HUD requests less money, the Congress 
and HUD have directed 25 percent of Section 811 funds to 
tenant-based rental assistance. While it appears that this 
rental assistance will be very useful for people with mental 
retardation and other disabilities, the Arc cannot be the only 
group to wonder why HUD keeps trying to do more in this program 
with less money. This only harms people.
    The Arc supports tenant-based rental assistance as part of 
the Section 811 program only if additional funds are added to 
the program, not subtracted.
    The Arc seeks your support for more adequate funding for 
the Section 811 program. The program is one of those success 
stories where nonprofit organizations have worked in 
partnership with Federal and State governments to provide 
people with mental retardation and other disabilities with 
needed housing in the community. This is a cost-effective 
preventative program, and if I can send any message this 
afternoon, it is that there are faces attached to this problem. 
These are real people faced with very real problems.
    These are profiles prepared by the Arc of the United States 
which provide anecdotes and stories of real people that are 
affected by this issue. One of those individuals are within 
Congressman Frelinghuysen's district. I would urge you to 
remember to not only look at the numbers involved here, but 
know that there are people behind those numbers.
    Thank you for this opportunity.
    [The statement of Mr. Testa follows:]

[Pages 265 - 276--The official Committee record contains additional material here.]


    Mr. Frelinghuysen [presiding]. Thank you for your blunt 
testimony, and may I say that both Chairman Lewis and Ranking 
Member Stokes and all members of this Committee have been 
supportive of the action we took last year, and obviously, we 
will be strongly considering similar action this year.
    Thank you very much.
    Mrs. Meek?
    Mrs. Meek. No.
    Thank you.
    Mr. Frelinghuysen. Thank you for being with us.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

PAUL GROGAN, PRESIDENT, LOCAL INITIATIVES SUPPORT CORPORATION
    Mr. Frelinghuysen. Mr. Paul Grogan, president, Local 
Initiatives Support Corporation.
    Mr. Grogan. Good afternoon.
    Mr. Frelinghuysen. A copy of your entire testimony will be 
included in the record, and if you would like to summarize, we 
would appreciate it.
    Mr. Grogan. I will be very brief.
    Mr. Chairman and Members of the Committee, my name is Paul 
Grogan. I am the President of something called the Local 
Initiatives Support Corporation, which is a 17-year-old private 
nonprofit entity, known as LISC, that was formed by major 
corporations and foundations for the purpose of speeding the 
flow of private capital into inner-city and rural 
revitalization efforts nationwide.
    In our history, we have mobilized more than $2.5 billion of 
private capital in the form of grants, low-interest loans, and 
equity investments which have been contributed to us by more 
than 1,600 corporations and foundations across the country, and 
we have used that capital to build up the capacity now of a 
formidable network of grass roots, nonprofit organizations 
which are succeeding in astonishing ways in turning around some 
of the most devastated communities in America.
    We as a rule do not take public funds and do not seek 
public funds for our own institution. Our role is to mobilize 
private capital, but given our experience in bringing so much 
private capital into these communities and working in some of 
the toughest neighborhoods in the country, we do have some 
strong views about what kinds of public investments work to 
liberate the energies of volunteer grass roots and nonprofit 
efforts and to speed the flow of private capital which is our 
primary mission.
    I know that this panel and, indeed, this Congress is very 
excited about the ferment of grass roots, housing, and 
revitalization activity that is growing across the country. 
This is one of the great success stories in the country based 
on self-help, partnership, intangible results.
    Mr. Chairman, I had an opportunity to meet with you 
recently, and Speaker Gingrich and Congressman Lazio, as LISC, 
Enterprise, and Habitat for Humanity announced a $13-billion 4-
year commitment of private and volunteer energy to build more 
than 200,000 homes in this country. I think that's the kind of 
statement that illustrates just how far along this nonprofit 
movement is and what a bright future it may well have.
    Just last week, we released a report with the Center for 
National Policy, here, in Washington, called Life in the City, 
in which we report that public pessimism, which is widespread 
about the cities, is seriously out of date in view of the 
stunning revitalization efforts that are succeeding in many 
cities across the country. There is a long way to go, but we 
are clearly making progress.
    Now, what are the kinds of public investments at HUD that 
are uniquely valuable to this nonprofit movement? Well, it is a 
very short list, Mr. Chairman, HOME and the community 
development block grant. These flexible block grants that flow 
out through States and localities have been wonderfully 
effective in making effective partners of local government, in 
building the capacity of them to understand what will draw 
private capital in, what will make neighborhood groups strong, 
and the results of these programs are really startling, and I 
don't think that that is any news to this Committee.
    These programs are under tremendous pressure, as is, 
indeed, the whole discretionary budget, but even inside the 
discretionary budget, there is this contest between what I 
would characterize as maintenance programs and new investment 
programs.
    We have the view that this country continues to need to 
make new investments in people and in communities, and these 
investments are working. So we would like to argue today that 
these programs, proven as they are and associated as directly 
as they are with one of the most positive things going on in 
our community, ought to perish the thought and expand it.
    We are very grateful to the Committee in this difficult 
funding environment for maintaining level funding the last few 
years, and that has been a wonderful signal of the standing 
that these programs enjoy, but if programs are this effective, 
can't we consider modest expansion? That is our position today 
that we ought to try to take HOME up modestly from $1.4 billion 
to 1.5.
    In CDBG, we would like to see at $4.6 billion, which is the 
current level, but not including such setasides as are often 
found there, 2- to $300 million. If there are going to be 
setasides, those ought to put on top of that $4.6-billion 
level.
    We are putting far too few dollars into new investment as 
opposed to maintenance.
    Mr. Lewis [presiding]. I wonder if I could stop you right 
at that point.
    Mr. Grogan. Sure. I am about done, anyway.
    Mr. Lewis. The reason I stop you is that I had a 
conversation yesterday with my very dear friend, Dan Goldin of 
NASA, and there are some people who are suggesting that Space 
Station probably ought to be stopped.
    The problem is that Mr. Goldin and I have become convinced 
that if we stop Space Station that all of NASA's programming 
would go right out the window.
    I submit that there may be a small piece of that in what 
you have just suggested about 3- or $400 million. We don't 
earmark in this Committee any longer, but eventually, sometimes 
they are. I would suggest that your careful evaluation about 
that point, perhaps beyond the Committee room discussion, would 
be interesting.
    Mr. Grogan. I would be happy to do that. Thank you, Mr. 
Chairman.
    I am really finished with my statement. Thank you very much 
for the opportunity to be here.
    [The statement of Mr. Grogan follows:]

[Pages 280 - 297--The official Committee record contains additional material here.]


    Mr. Lewis. Now, this is the first witness I have seen who 
has come to us, and he has got a stopwatch on his wrist. So he 
doesn't talk too long. That is pretty good stuff. If nothing 
else, he gets lots of credit for that.
    Mrs. Meek. Mr. Chairman, I would just like to compliment 
Mr. Grogan, particularly on behalf of Miami. LISC has helped us 
tremendously.
    Sandy Rosenberg taught us all a way to go, and it is such a 
magnifier of the amount of monies we have been able to get from 
other sources, and we thank you.
    Mr. Grogan. Well, thank you very much, Mrs. Meek.
    Mr. Lewis. I would say your testimony is very excellent 
testimony, and succinct. I note that you adjusted your comments 
for the record. We will weigh carefully your entire statement, 
and we do appreciate it.
    Mr. Grogan. Thank you very much, Mr. Chairman.
    Ms. Kaptur. Mr. Chairman?
    Mr. Lewis. Yes.
    Ms. Kaptur. I just wanted to ask the witness, if I might, 
first off, again, thank you for the excellent work you do 
around the country, including Toledo, where we have seen 
several hundred housing starts because of LISC's presence, and 
I did want to ask what are the total assets of the corporation. 
I know a couple of years ago, it was somewhere, I think, over 
$300 million, but where are you today?
    Mr. Grogan. We have direct corporate assets of about $360 
million, and we are have limited partnerships exceeding $2 
billion under management. So it has become a very substantial 
enterprise.
    Last year, we put out two Community Development 
Corporations, about $480 million in direct financial support.
    Mrs. Meek. If I may add to that, Mr. Chairman?
    Mr. Lewis. You certainly may, but with these people are 
asking all of these questions, we are 20 minutes behind the 
schedule now.
    Mrs. Meek. Well, it is my fault, Mr. Chairman.
    I must say that LISC has provided such good technical 
support to these CDCs. It is phenomenal how you have helped us. 
Thank you.
    Mr. Chairman is looking at me with a jaundiced eye.
    Mr. Lewis. Thank you very much.
    Mr. Grogan. Thank you again, Mr. Chairman.
    Mr. Lewis. We appreciate it.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

RICHARD C. GENTRY, EXECUTIVE DIRECTOR, RICHMOND REDEVELOPMENT AND 
    HOUSING AUTHORITY
    Mr. Lewis. Mr. Gentry, how are you?
    Mr. Gentry. Good. It is good to see you.
    Mr. Lewis. Yes, it is good to see you.
    If it hasn't been said earlier, we try to let people know 
that we really do appreciate well-developed testimony, and we 
do take that to the record and weigh it carefully, but 
summarized statements usually get more money.
    Mr. Gentry. Mr. Chairman, thank you for the opportunity to 
be here with you. My name is Rick Gentry. I am the Executive 
Director of the Richmond, Virginia Redevelopment Housing 
Authority, and also currently president of the National 
Association of Housing and Redevelopment Officials, which 
represents some 9,000 practitioners in the field of housing and 
redevelopment and some 95 percent of the housing authority 
industry as well.
    We have a prepared testimony for you from NAHRO, but I 
won't read that. I will give you some very brief, succinct 
comments.
    The first had nothing to do with money. It has to do with 
the authorizing language that was included in the 
appropriations bill last year. Although we were hopeful that 
there would be an authorizing bill last year, there was not. In 
the authorizing language of your bill, it was the best bit of 
deregulation I have seen in the 25 years I have spent in this 
industry. It has given us some dramatic changes. We implemented 
rent reform in Richmond a year ago tomorrow, and I have already 
seen some dramatic changes in admissions and people going to 
work, and it is an effort that has rewarded people for working 
and producing like the rest of us to the larger society, and I 
would request, respectfully, that although we hope for an 
authorization of this bill this year as well, and I understand 
it is on the floor today----
    Mr. Lewis. Yes.
    Mr. Gentry [continuing]. If it does not go through, we 
would ask that the authorizing language in your bill of last 
year be continued. It has been a great help, and I would hate 
to see it lost.
    Mr. Lewis. I appreciate that, Mr. Gentry, and I have been 
talking with Mr. Lazio a lot of late. They are hopeful that 
they can work out the problems with the Senate and have a bill 
somewhere at the other end of this process. If not, carefully 
working with the Authorizing Committee, we will see what we can 
do.
    Mr. Gentry. That is great. Well, it has made big difference 
in Richmond, and my colleagues across the country say it has, 
and there are other areas as well. It has been a great help.
    Mr. Lewis. I appreciate that.
    Mr. Gentry. It is a good precursor to the bill that he is 
working on right now.
    The second issue is that of the reauthorization Section 8 
programs. Many of our members operate many of those programs. 
We do in Richmond, both existing moderate rehabilitation and 
new construction. We understand the need to renew those, and we 
do want those renewed.
    We also believe that each of the programs should have a bit 
of financial integrity and that each of the programs be renewed 
without harming other programs, and we think it would be a 
shame that if one program that serves a proportionate 
population very well, it will harm in order to reauthorize 
other programs.
    So Section 8 should be reauthorized, but not at the expense 
of public housing or some of the other major programs.
    We also have some concern over the long-term implications 
of the Subcommittee's decision to recommend the recision of the 
$3.6 billion of Section 8 reserves this year. We understand the 
reasons why. We have a great deal of sympathy over the need for 
those funds, but we would hope there would be just as much 
sympathy when it comes time for a new Section 8 program over 
the next 4 to 5 years if that plays out.
    Mr. Lewis. Let me respond to that by saying I think you are 
sophisticated enough to know full well that budget authority 
that is available around here in a very difficult year or any 
year doesn't just sit there and wait for 3 or 4 years to be 
used.
    Mr. Gentry. Yes, sir. We understand that.
    Mr. Lewis. So, under the circumstances where we suddenly 
discovered reserves, it was pretty obvious that rather than 
having those other reserves that couldn't be used next year 
because they would be gone, go to some other place, and the 
emergency funds, the one-time need that seemed logical, the 
Secretary and I have had a serious discussion about the 
futures. There is no doubt that we are talking about pressures 
from Section 8 that with reform are going to add an extra $50-
billion-plus in VA needs. I mean, that could push all of the 
rest of the programs out the window.
    So your concern is placed correctly. I hope that all of the 
authorizers understand that. I certainly hope my appropriators 
understand just how serious it is going to be.
    So I appreciate it.
    Mr. Gentry. That is right. I understand.
    Mr. Lewis. We are committed to try.
    Mr. Gentry. My agency had problems this year, and I had 
money I was putting up for next year. I would be hard-pressed 
to explain that, too. I understand that, but we just would look 
for sympathy in the future for these needs as well.
    Finally, we would also call for a full funding of each of 
the programs included in the budget this year, and I would like 
to point out for the record, although I am aware that you fully 
understand it, that the need for operating subsidy funding, in 
particular, for public housing is a structural need and not a 
performance-based need that is based on the Housing Act of 
1974, the performance funding system, the Brook Amendment, the 
whole structure of the program, and we are currently in our 
third year of reduced funding and only in our first year of 
reduced regulatory controls, thanks to your Committee. We are 
getting ready to enter our fourth year. We are afraid with 
reduced funding, and according to the contractual commitments 
between us and the Federal Government represented by HUD, we 
would respectfully request consideration for full funding for 
PFS, modernization, HOME, and CDBG.
    Also, in closing, I would offer to you a desire from NAHRO 
to work with you. As you draft the details of the bill, we 
would be glad to be a resource to you and your staff as you 
complete your work this year.
    Mr. Lewis. Could I ask you a question on the record that I 
would like to have my members begin to focus on? There is only 
one other member with me right now, but it is something I 
intend to as of a number of our public witnesses.
    We have scheduled at this moment time for public witnesses, 
not including the members who want to testify. It involves 
approximately twice the time we spent with the Secretary of HUD 
and twice the time we spent with the director of NASA. That 
doesn't make a lot of sense to me, even though I like the 
exchange.
    Would it be more valuable if we ask public witnesses to 
submit their testimony for the record and where it was 
appropriate and valuable to both sides--not both sides, to the 
people who are involved, invite personal discussions of matters 
like this rather than--that is a straightforward question. I 
would just like to see how you react to it.
    Mr. Gentry. Yes, sir. In my capacity as President of NAHRO 
and Senior Vice President before that, which goes back now 
about 4 years, I have had the opportunity for a lot of 
interaction up here on Capitol Hill, and I think that a 5- or 
10- or even 15- or 20-minute presentation is necessarily very 
brief and not very thorough or comprehensive.
    I think the kind of interplay, like we were able to have 
here in this room with you last month dealing with the Section 
8 renewal issue, if I were you, would be of much more benefit 
to me, and that is what I would opt for.
    Mr. Lewis. I am going to probe that further and maybe 
broaden that opportunity for other members who want to 
participate, but you have got a lot of things to do with your 
time, and there are a lot reasons to want to travel to 
Washington, but in the meantime, when someone is coming across 
the country for 10 minutes, that is kind of silly.
    Mr. Gentry. Well, we are very interested in helping you 
help us serve the constituents out there. Anything we can do to 
help you, we would be glad to do.
    Mr. Lewis. I appreciate very much your response. Nice to be 
with you, Mr. Gentry.
    Mr. Gentry. Thank you, sir.

[Pages 302 - 314--The official Committee record contains additional material here.]


                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

BARBARA J. THOMPSON, DIRECTOR, POLICY AND GOVERNMENT AFFAIRS, NATIONAL 
    COUNCIL OF STATE HOUSING AGENCIES; ON BEHALF OF THE NATION'S STATE 
    HOUSING FINANCE AGENCIES
    Mr. Lewis. Ms. Barbara Thompson? Welcome.
    Ms. Thompson. Thank you, Mr. Chairman.
    Ms. Kaptur, I appreciate the opportunity to be here today.
    Mr. Lewis. I won't burden you with having to spend a lot of 
time with the Committee, but if you do have testimony for the 
record, we would appreciate it.
    Ms. Thompson. I have testimony for the record. You will 
notice I don't even have any notes in front of me. This is 
going to be ever, ever so brief.
    I am Barbara Thompson. I do represent the State Housing 
Finance Agencies, the agencies in all of the 50 States, and my 
testimony addresses three areas, HOME, the Section 8 program, 
restructuring program, and finally the FHA wish-sharing 
program, and I would like to summarize my statement by just 
making three basic points with you today.
    First of all, the States implore you not to cut the HOME 
program by the 5 percent that the Administration has 
recommended or, for that matter, by any amount. The HOME 
program, as I think you know, Mr. Chairman, is working 
extraordinarily well. In fact, we believe it is exceeding even 
the objectives that Congress expected of it, particularly in 
the area of income-targeting, and this very Subcommittee 
recognized that in your report last year.
    We think it is working because it does devolve decision-
making to State governments, to local governments. It leverages 
other resources. It is helping out with programs like the low-
income housing tax credit and MRBs, enabling those programs to 
expand their reach and particularly to reach people who are 
lower on the income scale.
    So we really ask you, Mr. Chairman, to continue the support 
that you have shown for HOME. We know it has not been easy to 
keep it level-funded with all the other pressures you face. I 
would have to associate with LISC in asking that if there is 
any way that we can edge this program up over time, we think 
that is the place to put the resources to the extent that they 
may be available to you.
    HUD, I know, says that while they agree with the success of 
the program, they feel that it, too, has to take its share of 
deficit reduction. We would argue that it has; that by being 
frozen, which effectively it has been, although we are grateful 
for it, since 1994, it has lost purchasing power, and we urge 
you to do anything in your power to increase it over time.
    Second is the Section 8 program. I want to thank you for 
recognizing that public agencies, States, local governments, 
nonprofits are the right entities to carry out the very 
necessary Section 8 restructuring. You recognized this in your 
demonstration last year. I am pleased to report to you, Mr. 
Chairman, that 30 States, every single State that applied, has 
been accepted by HUD into the demonstration to act as HUD's 
agent in carrying out this restructuring. We are very pleased 
about that.
    I think it exceeds all of our expectations in terms of how 
many States would come forward, and it represents three-
quarters of the inventory, of the total inventory that needs to 
be restructured is in those 30 States.
    I will also tell you, and Valerie knows the details on this 
because she has been extremely responsive to us, we are 
concerned about the slow pace of the demonstration. They 
haven't frankly demonstrated very much that is going to be 
helpful to you this year. We know that.
    We have pushed and pushed and pushed, and it has been a bit 
of a struggle. Frankly, HUD has invested more resources in 
getting its own staff ready to do the restructuring at the 
field level, which we don't think was your priority, it was the 
Congress' priority, than they have in working with the States.
    We are at the point now, we are finally ready to go, I 
believe, with certain States. I don't think the nonprofits have 
even begun their discussion with HUD. HUD has put that off in 
terms of dealing with the States first.
    So I think HUD, frankly, could be moving more quickly than 
they are, and I urge you and anything you can do to push that 
process along.
    We are also very concerned that the legislation they sent 
to Congress last week does not contain the priority role that 
you gave public agencies and nonprofits. We are concerned 
because we think you did what you did because you recognized, 
as we do, that our agencies not only have the capacity that the 
private sector has, if not more, but we also are committed to 
the public mission, and our agencies exist to provide 
affordable housing and affordable housing over the long term 
and to protect tenants.
    We bring that to the table, and we think you recognized 
that last year. We urge you in any permanent Section 8 housing 
solution this year to preserve that priority role.
    Lastly, the wish-sharing program, a tremendous success, 
authorized in 1992, so successful that this year HUD has put 
forward in its budget that it costs no credit subsidy to run 
the FHA wish-sharing program with the States; that the premiums 
essentially are paying for that program. It is self-supporting.
    We urge you because the authorizers haven't done it yet, 
even though HUD has called for this and the States have, to 
make that a permanent multi-family insurance program. It is the 
only program, Mr. Chairman, that operates under unit 
limitations, and they are strangling the program. Your State 
alone could use about 10,000 more units right now; 20,000units 
have been done nationally, 3,500 in your own State. Much more is in the 
pipeline, but if we could just get away from these year-by-year unit 
allocations, it would have no cost impact. We really urge you consider 
that.
    Mr. Lewis. Thank you for that.
    Ms. Thompson. Lastly, as I leave the table, I just want to 
say that we also urge your support for a program which while it 
is not under your jurisdiction, it is vitally, vitally 
important to affordable housing, and that is the low-income 
housing tax credit program that I made reference to earlier.
    That program is being reviewed by the Ways and Means 
Committee. We urge you as a housing advocate and the leader of 
this Committee to put your 2 cents in, in terms of how 
important the preservation of a permanent tax credit program is 
because we are producing--virtually all the rental housing that 
is being produced today, affordable rental housing is being 
done through that program or HOME, and we must preserve it.
    [The statement of Ms. Thompson follows:]

[Pages 318 - 324--The official Committee record contains additional material here.]


    Mr. Lewis. Valerie, let's help with those letters right 
away.
    Ms. Thompson. Very good.
    Mr. Lewis. I certainly hope that in every possible way, you 
will join me in urging the policy-makers to move forward with 
something regarding Section 8.
    Ms. Thompson. We could not agree with you more.
    Mr. Lewis. There is not a bill in the House--you know, we 
have been thinking about it ourselves, but I don't want to 
become the policy-maker involved here.
    Ms. Thompson. You have played that role for a couple of 
years.
    Mr. Lewis. Well, it really is important that we recognize 
what this is going to do. There is no doubt that in this 
current environment, if there is an escalating dollar need for 
Section 8 over the next several years, there are going to be 
required offsets. Where those offsets would become by way of 
the Budget Committee, for example, nobody knows.
    Ms. Thompson. Right.
    Mr. Lewis. Indeed, the sooner we begin to get a handle on 
this and insist that we get some idea of what others would view 
as the appropriate way to respond, the better, but the sooner 
we fix it, the better.
    Ms. Thompson. The States were very active in designing 
Senator Mack's bill, and we want to be as helpful as we can. We 
agree that we need a solution, and we need it this year. It is 
overdue now.
    Mr. Lewis. Thank you very much for your testimony.
    Ms. Thompson. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                           VETERANS' AFFAIRS

                                WITNESS

WILLIAM T. BUTLER, M.D., CHANCELLOR, BAYLOR COLLEGE OF MEDICINE, 
    ASSOCIATION OF AMERICAN MEDICAL COLLEGES
    Mr. Lewis. Dr. Butler, we--at least the chairman attempts 
to communicate to all who come before us that we are very 
interested in your testimony. That which you have prepared we 
will review in-depth. If you would summarize your testimony, it 
would be very helpful. As you know, our schedule gets to be 
crazy, and we do not like to have you just sitting around here 
for no reason at all.
    Dr. Butler. Well, you have my prepared testimony, and I 
have a stop watch in my mind, and I guarantee you it will not 
be too long.
    Mr. Lewis. Thank you.
    Dr. Butler. I do appreciate you being able to shift gears 
here a little bit and talk about the VA here in the middle of 
HUD.
    Mr. Lewis. Happy to do it.
    Dr. Butler. I also want to thank Congressman DeLay for 
helping to accommodate to my schedule.
    I am Dr. William T. Butler. I am Chancellor of Baylor 
College of Medicine, Houston, Texas. I also served for 7 years 
as chairman of the Special Medical Advisory Group for the VA, 
which reports annually to Congress on the status of the VA.
    Mr. Lewis. Describe that again, the Special----
    Dr. Butler. Medical Advisory Group, which is a 
congressionally chartered committee that reports to the 
Veterans' Affairs Committees each year.
    Mr. Lewis. In a formal fashion?
    Dr. Butler. In a formal fashion, yes.
    Mr. Lewis. With recommendations, et cetera?
    Dr. Butler. With recommendations, and basically with sort 
of a summary of the year's events and what we feel are the 
needs of the veterans.
    Mr. Lewis. Let me hear the rest of your testimony, and then 
I want to have a little exchange about that.
    Dr. Butler. Today I am appearing on behalf of the 
Association of American Medical Colleges. Currently, our 
Nation's medical schools are affiliated with 130 VA medical 
centers----
    Mrs. Meek. Would you talk a little louder, please?
    Mr. Lewis. She cannot hear you.
    Dr. Butler. Okay.
    Mr. Lewis. We do not have quite the microphones set up that 
most places have.
    Dr. Butler. Our medical schools are affiliated with 130 VA 
medical centers throughout the area where 30,000 medical 
residents are trained and 20,000 medical students are trained. 
And the high quality of patient care for veterans is to a 
significant degree due to the strong affiliation with our 
Nation's medical schools.
    Through these academic affiliations, the VA is able to 
recruit the best physicians who want to treat veterans in an 
environment where medical knowledge is at the leading edge of 
discovery. Today I am going to comment briefly on two aspects 
of the President's budget, VA funding for research and for 
medical care.
    Mr. Lewis. All right.
    Dr. Butler. The President proposes to reduce the VA medical 
research budget by 10.7 percent. However, after correcting for 
inflation, it is almost 15 percent, and, if implemented, will 
seriously jeopardize the future of VA medical research.
    For example, it would jeopardize the work of researchers 
like Dr. David Graham at our VA hospital who holds an academic 
appointment at Baylor. He is one of the co-discoverers of a 
treatment for peptic ulcer disease. He found the bacterial 
cause of that disease, and now with a treatment of $100 per 
veteran, can cure the disease as opposed to, in prior years, 
treating for $1,000 per year with anti-ulcer drugs and not 
curing the patient. Translated into the aggregate, it is 
hundreds of millions of dollars of savings in patient care. But 
his research was funded through VA-funded research.
    Mr. Lewis. That is news to me, I must say. All of us have 
read about the peptic ulcer developments, but I did not know 
where this process took place.
    Dr. Butler. The specific bacteria is Helicobacter pylori. 
But it occurred in the VA, and that is the importance of 
research in the VA.
    Mr. Lewis. Correct.
    Dr. Butler. Allied is the research career development 
program which has not been able to be funded for the past 2 
years and which will not be funded under the President's 
budget. That is the program we use to attract young physicians 
just out of training to the VA as a permanent career in the VA, 
taking care of patients who are the veterans of America. It 
would be a tragedy if we cannot attract the high-quality 
doctors to the VA that we have been able to attract.
    We believe that the VA medical research must be funded at a 
minimum of $280 million, and the details are in the testimony.
    Let me now speak briefly to the issue of the patient care 
budget.
    The President's budget of $17.5 billion is portrayed as an 
increase in the VA medical care budget. However, upon closer 
inspection, the proposal actually calls for a $54.6 million cut 
from the fiscal year 1997 medical care budget. The President's 
proposal relies upon $468 million to be funded by yet-to-be-
enacted legislation. To trust the medical care of our veterans 
to proposed legislation sends a message that the Nation may not 
place the priority on the promise that Abraham Lincoln made to 
the veterans to care for those who have fought the battles. In 
order to fulfill this promise, the VA must receive an 
appropriation of at least $18.2 billion for medical care and 
not rely on third-party reimbursements from Medicare, for 
example, that is now not--the enabling legislation does not 
provide.
    In conclusion, then, I would say that the President's 
proposed budget cuts in the VA medical care and Medicare 
research hopefully would be rejected, and I would urge the 
committee to keep its promise it has made to the veterans of 
this country, which ultimately will be to the benefit of all 
Americans.
    [The statement of Dr. Butler follows:]

[Pages 328 - 333--The official Committee record contains additional material here.]


    Mr. Lewis. Mrs. Meek, I am going to respond to the latter 
part of his commentary first, and turn to you, and then I would 
like to discuss a little bit about this advisory committee that 
you mentioned initially.
    I happen to have a veterans hospital in my district and as 
associated medical hospital and for a long, long time have felt 
that there needed to be an expansion of relationship in terms 
of medical research, in terms of the kinds of things that one 
can do with a sizable control group. Veterans are identifiable, 
men and women, items like--I had no idea about peptic ulcers, 
but items like prostate cancer and breast cancer are logical 
targets for that sort of work. And I must say that I haven't 
received the kind of enthusiastic response within the 
Administration since I have been addressing this issue that I 
would like, but in the meantime, money is tough and I 
understand all that. That expresses my bias relative to where 
we ought to be going with this kind of funding.
    But at the same time, my experience with my own hospital is 
very similar to what I hear from a number of my colleagues, on 
this Committee and otherwise, that is, that their veterans 
automatically presume very long waits. The employee base 
automatically assumes that they got some kind of a number on 
their forehead, not heroes of our country to whom we have an 
obligation but, rather, people to get out of the way instead of 
serve. And that mood exists in spades. People have a lack of 
confidence in the kind of care they are receiving because of 
attitudes that are present. And it has been my desire to shake 
the system from the top because of that.
    Clearly, we have got an obligation. Clearly, we have spent 
enough--plenty of money over years. But I have been watching 
this since, you know, 1969 and I have not seen much of a change 
in that one hospital. There have been a lot of changes in 
Administration, et cetera. And it concerns me a lot.
    So having said that, Mrs. Meek, that is the first part of 
my question. Anything you would like to ask?
    Mrs. Meek. Yes, Mr. Chairman. I concur with both you and 
the doctor. If you remember at our last hearing when Secretary 
Brown was there, I pursued this question because I did not see 
the kind of funds for medical research that I thought would be 
necessary to continue the kinds of breakthroughs that you have 
done with the VA over the years. And it appears that the 
Administration does not put as much, I would say, emphasis on 
this as they used to do. And it is something that the Congress 
has to pay attention to in terms of assuring this medical 
research is reinstated. I could not agree with you more.
    Dr. Butler. Well, thank you.
    Mr. Lewis. Now, to the other matter, I hope that perhaps 
you would spend a little time when you have the opportunity 
with my staff, with maybe material that goes back 5 years 
relative to the kinds of recommendations that you have made to 
the Department, longer if you would like. I would like to see 
what kinds of recommendations have been made in terms of 
experimental work, what kinds of dollars have been applied 
relative to those recommendations, et cetera. I frankly want to 
get a handle on how we can best accelerate research and direct 
funding in fashions that make a lot of sense.
    Dr. Butler. I think to a large extent the report of the 
Special Medical Advisory Group stayed pretty much at the 
generic level of supporting research and patient acre 
activities, aging projects, and other special categories. We 
were not down at the technical----
    Mr. Lewis. I would like to just evaluate some, because who 
knows? We might ask some questions that might do a lot of good.
    Dr. Butler. Yes.
    Mr. Lewis. Especially if you help us.
    Dr. Butler. I appreciate that.
    Mr. Lewis. With that, thank you very much for your time.
    Dr. Butler. Thank you very much, and thank you for your 
support of NASA, too. We just signed a contract with NASA at 
Baylor for the Biomedical Institute. We are very, very pleased 
that you are helping them.
    Mr. Lewis. Keep your eye on that target.
    Dr. Butler. Okay.
    Mr. Lewis. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

BART HARVEY, CHAIRMAN AND CHIEF EXECUTIVE OFFICER, THE ENTERPRISE 
    FOUNDATION
    Mr. Lewis. Barton Harvey, please, Enterprise Foundation.
    Mr. Harvey. Greetings.
    Mr. Lewis. Good to see you. I can see you have summarized 
your testimony already.
    Mr. Harvey. That is right. I will be very short, Mr. 
Chairman. I wanted to start by thanking you for having those 
policy discussions and reaching out to the housing community.
    Mr. Lewis. I appreciate that.
    Mr. Harvey. It was really very, very helpful, and Valerie 
gets great praise on doing that as well.
    Mr. Lewis. Well, she learned very early that I learn slow, 
sometimes I learn good.
    Mr. Harvey. You learn very well and very quickly, let me 
tell you.
    I will not go through all of this. I would just like to 
make, very simply, four points. I should first say 
Congresswoman Meek knows what the Enterprise Foundation does. 
We work in Miami, and Jim Rouse--and we started many years ago, 
and just a year ago we had a 10th anniversary which was 
terrific. And we thank you for speaking at it. Even more 
terrific was the work that is being done in all of these 
communities throughout Miami, and very encouraging.
    But the points I would like to make: First, there has been 
a tremendous change in our economy, as you know, and for a 
house to start with the economy may be unusual, but there is a 
very productive end, the high-end, high-value creation, and 
then there is the manufacturing base is largely gone, and there 
is a large service sector. And I saw statistics of 30 percent 
of all those employed in the country today make $8 or less. 
Thirty percent of everyone employed. That is $20,000 and under. 
That is the population that Enterprise and LISC and others are 
serving in these communities all the way down to the people 
with special needs. And that is a critically important 
community and percentage of the economy that needs help.
    Mr. Lewis. Absolutely.
    Mr. Harvey. Thankfully, we have got very good programs that 
are going on that are taking Federal funding in a very 
disciplined and yet flexible way, and marrying it with the 
private effort that is coming from the grass roots, and that is 
through the HOME program and the Block Grant program. They are 
both very flexible. They are fundamental to everything that the 
non-profits are doing in the country today. They are reaching 
into the poorest neighborhoods. They are serving those with the 
most needs in our community. And they can be used for a whole 
variety of things, from a little bit of money for down payment 
assistance for a first-time home owner to helping deepening the 
reach of the low-income housing tax credit to get to people 
that are homeless and get them back on track and into a 
productive society.
    The next point I would like to make is that we were pleased 
to see the Administration come forward with something that you 
have been working on, which is a fix for the Section 8 issue 
and problem. I was delighted to see Treasury along with HUD 
together working at the problem, and, of course, that will come 
back to Chairmen Lazio and Mack and to you all as well.
    Mr. Lewis. And the Ways and Means Committee as well.
    Mr. Harvey. That is right. We look forward--it is not a 
perfect first step by the Administration and there are other 
bills out there, but we really look forward to working with you 
on a fix because that is the Pac Man that eats the budget as we 
go forward in housing, and it does not add a single new unit.
    Mr. Lewis. You have got it right.
    Mr. Harvey. But we ought to find a way to resolve it, and I 
think there is--I think there is the hope that that can be 
resolved.
    Finally, I would just end by saying we hope that you 
support efforts like the National Community Development 
Initiative, which is taking Federal money and using it in very 
different ways, leveraging it with money from foundations and 
corporations. This is on a three-to-one basis so that the 
private sector is putting up three for every dollar that the 
Federal is putting up, and this NCDI uses LISC and Enterprise. 
It only gets to 23 cities, but it is a demonstration of what we 
can do in those 23 cities for all the cities in the country.
    I think there are creative uses that you can use for money 
to encourage those kinds of experiments that will be going on 
throughout the country to find new ways to marry welfare reform 
and community development and to really fix all the needs of 
our low-income community.
    Mr. Lewis. Off the top, can you tell me the cities in 
California?
    Mr. Harvey. I am going to need help, because LISC is--those 
are LISC cities, but I can get them to you. I know it is the 
Bay Area, there is one in Los Angeles, and two----
    Mr. Lewis. Let me tell you the reason I am specifically 
interested. I think I am going to--Willie Brown is an old 
colleague of mine from the legislature, and I want to see 
firsthand some of the transition that San Francisco has been 
through the last decade or so in housing. And I am interested 
in their programs, and it strikes me at times it probably is--
--
    Mr. Harvey. It is. It is one. Los Angeles and San 
Francisco, and those are both LISC administered. Enterprise 
took half the cities, and LISC took half the cities.
    Mr. Lewis. All right.
    Mr. Harvey. That really concludes my testimony. I really 
appreciate the outreach.
    [The statement of Mr. Harvey follows:]

[Pages 338 - 342--The official Committee record contains additional material here.]


    Mr. Lewis. We appreciate your help, and we are very 
interested in your input regarding all the problems you 
mentioned, especially the Section 8 thing. We are going to have 
to have a heavy exchange with a number of--there are several 
interests involved here.
    Mr. Harvey. Yes, there are.
    Mr. Lewis. Most importantly, the people who might be out on 
the street if we do not find a solution.
    Mr. Harvey. Absolutely.
    Mr. Lewis. Thank you very much.
    Mr. Harvey. Thank you very much.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

LIZA K. BOWLES, PRESIDENT, NAHB RESEARCH CENTER, INC.
    Mr. Lewis. Liza Bowles?
    Ms. Bowles. I have got mine down to these bullets right 
here.
    Mr. Lewis. Look at hers.
    Ms. Bowles. I am ready.
    Mr. Lewis. Isn't it strange? I come in the room and all 
my----
    Ms. Bowles. And everybody leaves. [Laughter.]
    Well, I will be brief. I would like my entire testimony 
submitted for the record.
    Mr. Lewis. It certainly will be.
    Ms. Bowles. I just want to make a few comments, and I have 
with me today Pammy Bakke from our staff, who is just going to 
show you some of the examples of what we are talking about on 
the computer.
    I am president of the NAHB Research Center, and we are a 
wholly owned subsidiary of the National Association of Home 
Builders. We were set up about 30 years ago to improve the 
quality and affordability of America's housing.
    NAHB is a large trade association, close to 200,000 
members, build like 85 percent of the Nation's housing, and 
they run through 800 State and local associations. There is one 
in every State, and there are many, many locals.
    We were asked back 1994 by the National Science and 
Technology Council to work on national construction goals, and 
these were for the overall construction industry. We quickly 
broke into sectors, with the residential sector, which, of 
course, we know the best, being very different than those 
builders who build bridges and dams and things like that.
    We have worked on this process for a couple of years. It 
has had good support and good input from builders, from 
modelers, and manufacturers. What they ended up with is 
reducing the seven goals that the Federal Government had come 
up with to two goals that we felt had good private sector 
support and needed national support, and those are reducing 
first costs and improving durability. Where at first they sound 
somewhat contradictory, first cost is always an issue in 
housing, and durability really related to problems with 
hurricanes and earthquakes and other things that really where 
our housing stock has not performed as well as we would like.
    The group ended up with seven strategies to address those 
two goals, and the top strategy was using the information 
infrastructure to really be able to get information out there 
so builders not only had good product information, but if you 
look at the categories, they need to know where they can get 
things. They need warranty information. They need to know 
installation instructions. It is amazing how many products are 
out there with poor installation instructions and instructions 
that do not work.
    Part of the problem, in sympathy a little bit with the 
manufacturers, is that there are so many builders and 
remodelers that they are very difficult to reach. But if you 
can compile the information and you can use products like CD-
ROM and faxback services and the Internet, you can hook into 
this, you could hook into it theoretically to the Internet, and 
you can get information on hurricane ties and things that work 
in Seismet.
    Now, the problem has been that when you do have a disaster, 
like we had with Andrew, what happens is products that really 
make good sense, like staples in housing--that is a 
productivity improvement--end up being banned. And they end up 
being banned because people were not using them right. So there 
really is a need to be both looking at the technologies and the 
use of those technologies so that we can have better housing 
without negatively impacting affordability. So we have ended up 
with these strategies.
    Mr. Lewis. Let me interrupt you and ask a question there.
    Ms. Bowles. Sure.
    Mr. Lewis. I assume that some of your research may be kind 
of fundamental to the work that is known as Safe Home?
    Ms. Bowles. Yes.
    Mr. Lewis. I would think so.
    Ms. Bowles. Yes.
    Mr. Lewis. The reason I ask that question is I ran into one 
of your people from Safe Home on the airplane the other day, 
and he was talking to me about it. But in the meantime, in that 
conversation I raised the point that I would like to ask you. 
It happens in California that I have been for a year in the 
midst of a major remodeling, great people, terrific builder, et 
cetera. But in terms of the question of upgrades for earthquake 
safety, neither the architect, who is a pretty well known guy 
in the region, nor the builder knew a heck of a lot what to do.
    Ms. Bowles. Well, and that is the problem. And one of the 
things that we have done for HUD is actually survey on 
earthquake damage and hurricane damage, and we have pretty 
detailed reports on what has failed and why it has failed. But 
there is oftentimes an over-reaction in those areas, and they 
end up adding things that add costs and really are not giving 
those units any better protection.
    But what you really do need to do is get the information 
out there because you are right, remodelers do not know, 
builders do not know, and in the home building industry we use 
architects and engineers very little.
    Mr. Lewis. Well, why don't you help me by seeing if I can 
get the best reasonable summary of such information and share 
it with the Members of my Committee?
    Ms. Bowles. Sure.
    Mr. Lewis. I might even start a little revolution in San 
Bernardino County.
    Ms. Bowles. Okay. We would be happy to help you with that.
    The final point that I wanted to make is that----
    Mr. Lewis. I live on the San Andreas Fault, by the way. 
[Laughter.]
    Ms. Bowles. So this is interesting to you.
    Mr. Lewis. Yes. I have been wondering if that is why my 
wife wants to spend so much time here.
    Ms. Bowles. Well, I would not blame her.
    But there is technology that can work on those things. 
Oftentimes, technology is not as much of our problem as the 
implementation of that technology and the understanding. One of 
the other things I just wanted to mention is through this 
effort we would very much like to see HUD play a larger role 
than they played in the past. HUD's research budget is dwarfed 
by DOE's research budget and EPA's and others, and when it 
comes to housing, they have single focuses. And we have done 
real good research on energy and how to improve the energy in 
houses, but we really need some good building technology 
research, and we think it would be much more balanced with 
affordability if HUD had a larger role.
    Thank you.
    [The statement of Ms. Bowles follows:]

[Pages 346 - 349--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you. We appreciate it.
    Could I ask a question off the record before Mrs. Meek gets 
to you, because I might not ever get back to it if I----
    Mrs. Meek. Thank you very much. I was really happy to hear 
you say that research is needed in building technology. And I 
am wondering if any of the universities have undertaken any.
    Ms. Bowles. The universities have done some, and a lot of 
what we do, we subcontract out to universities. We run a 
consortium of housing research centers, and we have 18 
universities that participate. To get the university research 
that is done more applied to the housing industry, we also take 
a lot of interns from the universities.
    Mrs. Meek. Thank you.
    Mr. Lewis. Good. Thank you very much.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

WALTER D. WEBDALE, DIRECTOR, HOUSING AND COMMUNITY DEVELOPMENT 
    DIRECTOR, FAIRFAX COUNTY, VIRGINIA; ON BEHALF OF ASSOCIATION OF 
    LOCAL HOUSING FINANCE AGENCIES, NATIONAL ASSOCIATION OF COUNTIES, 
    NATIONAL COMMUNITY DEVELOPMENT ASSOCIATION, NATIONAL LEAGUE OF 
    CITIES, AND THE UNITED STATES CONFERENCE OF MAYORS
    Mr. Lewis. Walter Webdale? How long have you been sitting 
here?
    Mr. Webdale. Not too long.
    Mr. Lewis. Not too long? Then maybe you have not heard my 
stories, so I had better start over again.
    Mr. Webdale. Okay. [Laughter.]
    Mr. Lewis. We are very happy to receive your entire 
testimony in the record, and it will be considered very 
carefully. But summarized testimony is the most effective in 
our Committee, so----
    Mr. Webdale. I already have a summary.
    Mr. Lewis. All right. Thank you.
    Mr. Webdale. Mr. Chairman and members of the subcommittee, 
my name is Walter D. Webdale. I am the Director of Housing and 
Community Development for Fairfax County, Virginia. I am 
appearing before you today representing the U.S. Conference of 
Mayors, National Association of Counties, Association of Local 
Housing Finance Agencies, and the National Community 
Development Association. We appreciate the opportunity to 
present our views on fiscal year 1998 appropriations for the 
two priority programs of local government--Community 
Development Block Grants and HOME.
    We wish to commend you, Mr. Chairman and Members of 
theSubcommittee, for your continuing support for Community Development 
Block Grants and HOME as evidenced by freezing funding for them at $4.6 
billion and $1.4 billion respectively since fiscal year 1995. However, 
we want to reiterate our deep concern over the proliferation of 
unrelated set-asides within the Community Development Block Grant 
program. For 1997, $289.6 million is allocated for set-asides. Of that, 
$180 million is for programs unrelated to the basic CD program: 
Youthbuild, public housing supportive services, lead-based paint 
abatement, and public housing law enforcement. The administration's----
    Mr. Lewis. Could I interrupt at that point? I do not want 
to repeat the comment I made earlier about NASA, but in the 
meantime, I have seen CDBG programs--or distributions that were 
not individually designated within our bill, but where funding 
went by way of application to the X and Y community, used for 
some pretty unusual things compared to what I thought the 
fundamental purpose of CDBG was. Do you ever calculate all 
those monies and to give us a figure for that much?
    Mr. Webdale. Well, we could go back with the organizations 
we have and calculate it and see----
    Mr. Lewis. I am thinking about it. I am a great supporter 
of the YWCA, for example. I really am. But when CDBG funds are 
going to the YWCA programs in some communities, I just scratch 
my head and say, well, somewhere we are a little bit off track. 
And that is not a part of the piece that you are talking about 
here.
    Mr. Webdale. But I think if we do look at the overall 
record, you know----
    Mr. Lewis. I am asking the question for a reason.
    Mr. Webdale. There are people out there who will do things 
with CD money or any kind of money which we would all have 
hoped they would not have done.
    Mr. Lewis. Well, the point I was making earlier is that 
sometimes the driver behind the funding for CDBG money may be 
the other item that you were complaining about, and yet we are 
not complaining about the other problem.
    Mr. Webdale. Oh, I see.
    Mr. Lewis. That is a fundamental problem. And I would 
suggest--I would urge you to examine it.
    Mr. Webdale. We will take a look.
    Mr. Lewis. Help us examine it. Sorry about that.
    Mr. Webdale. Okay. Fine.
    The administration's 1998 budget also requests set-asides 
totaling $290 million. To the extent these programs deserve to 
be funded, they should be funded separately.
    Making them set-asides has the effect of taking formula 
funds, which benefit many communities, and converting them into 
discretionary funds, which benefit far fewer communities. I 
characterize the inclusion of unrelated set-asides as a hidden 
cut in CDBG. Although the CD programs have received level 
funding of $4.6 billion since 1995, the actual amount of 
funding for local governments and States has declined 4 
percent, while the number of new formula grantees has increased 
3 percent. The only set-asides that should be funded are those 
which have been part of the program since its inception--those 
for Indians, insular areas, and for Section 107 special purpose 
programs. Even without considering inflation, this ongoing 
trend toward unrelated set-asides creates a steady, yet hidden 
decline in the actual Community Development Block Grant funding 
to entitlement jurisdictions. My written statement shows the 
effect that this cut has had on several jurisdictions.
    As with CD, there is the beginning of a trend toward set-
asides in HOME. For 1997, $15 million was set aside for housing 
counseling. The HOME program has also experienced an increase 
in the number of participating jurisdictions each year, 
spreading the funds even further.
    Due to the hidden decline in Community Development Block 
Grant and HOME funding over the past 3 years at ``level 
funding,'' we urge the following funding levels, and that is: 
$4.6 billion in formula funding to entitlement communities and 
States without any set-asides within this amount, and $1.5 
billion for HOME.
    Community Development Block Grant is arguably the Federal 
Government's most successful domestic program. Its success 
stems from its utility, that is, providing cities and counties 
with an annual, predictable level of funding which can be used 
with maximum flexibility to address their unique neighborhood 
revitalization needs. Based on HUD's most recent annual report 
to Congress, between fiscal year 1993 and 1996 an estimated 14 
to 17 million households benefited from the Community 
Development Block Grant program. During that same period, an 
estimate 114,799 jobs were created through the Community 
Development Block Grant-funded economic development activities.
    Like Community Development Block Grant, the HOME program is 
also producing very positive results in expanding the supply of 
affordable housing. In fact, your subcommittee report 
accompanying H.R. 3666, the fiscal year 1997 HUD appropriations 
bill, stated, ``. . . the program is well monitored, making it 
possible to determine whether low- and moderate-income families 
are receiving the benefit of the assistance.'' We heartily 
agree.
    According to HUD data, HOME has helped to develop or 
rehabilitate over 230,000 affordable homes for low- and very-
low-income families. Sixty-five percent of all occupied HOME-
assisted rental housing is rented to families at or below 30 
percent of median income. This is substantially deeper than 
required by the statute.
    HOME funds also help low- and very-low-income families 
realize the dream of home ownership. Since 1990 HOME has 
assisted 68,900 home buyers. For every HOME dollar, $1.79 of 
private and other funds has been leveraged since the program's 
inception. This clearly illustrates the effective and judicious 
use of HOME funds by participating jurisdictions.
    We also urge the Subcommittee to fully fund the 
Administration's request for renewal of expiring Section 8 
subsidy contracts--I was here for that. There is a great 
problem there, but it really needs----
    Mr. Lewis. I would think that the National Association of 
Counties and the National Association of Cities by now would 
have an answer as to how we solve the problem presented to us 
because it is such a high priority.
    Mr. Webdale. We have been in many discussions and worked 
with many staff people.
    Mr. Lewis. I would not say that in jest, of course, but----
    Mr. Webdale. Right. But, you know, we have these people 
living in our communities in affordable housing, and it could 
be a real disaster if all of a sudden we found that they were 
going to be put out on the street.
    Mr. Lewis. But would the National Association ofCounties 
and/or Cities recommend that we fully fund Section 8 renewals at the 
risk of literally closing down every other housing program if we have 
in excess of $50 billion of added need in the next 5 years, over the 
next 5 years?
    Mr. Webdale. Which puts us into the----
    Mr. Lewis. The answer is no----
    Mr. Webdale. The answer is absolutely not.
    Mr. Lewis [continuing]. We certainly would not. But in the 
meantime, that is the problem.
    Mr. Webdale. That is the problem. That is the dilemma that 
we are in because we need both sides.
    Mr. Lewis. Correct.
    Mr. Webdale. The families need help in terms of housing. 
They need help in terms of the other programs.
    Mr. Chairman, we believe that a strong Federal role in 
housing and community development programs must continue. Since 
the Housing Act of 1937, Congress has repeatedly said that, as 
a matter of national policy, the Federal Government has an 
obligation to assist States and local governments in providing 
decent, safe, and sanitary housing for lower-income households. 
While progress has been made towards this goal, it has not been 
fully achieved.
    Thank you for your time.
    [The statement of Mr. Webdale follows:]

[Pages 354 - 358--The official Committee record contains additional material here.]


    Mr. Lewis. Let me ask a question that is really more direct 
and one that perhaps you can respond to, and it would be 
logical that one of these associations would have been 
involved. Have any of these, like the National Association of 
Counties or the National League of Cities, Conference of Mayors 
or otherwise, in the past 5 or 10 years done or commissioned a 
study to see how CDBG monies have been spent, relative to that 
outline of the original purpose that you so----
    Mr. Webdale. I believe, John----
    Mr. Lewis. Identify yourself for the record.
    Mr. Murphy. I am John Murphy, Executive Director of the 
Association of Local Housing Finance Agencies. Some of the 
material prepared does indicate funding levels and ways funds 
have been spent. There are some good case studies in the back.
    Mr. Lewis. Let's see.
    Mr. Murphy. We also did a study of CDBG programs and stated 
they have a positive impact.
    Mr. Lewis. Give me your last name again.
    Mr. Murphy. Murphy.
    Mr. Lewis. Murphy. Well, this is interesting largely 
because I really do want to get a handle on it. I am a very 
strong supporter and I think probably Mrs. Meek is a strong 
supporter of CDBG. But at the same time, I have not seen an 
analysis of the mix, and I think as long as there is concern 
about $249 million and X and Y--and I think that is justified--
maybe it is time for us to look again. After I review some of 
this material, I may ask GAO to take a look to help us evaluate 
it, because I want to make sure those excellent uses of money 
dominate the way the funds are used without removing 
flexibility. But it is not always that cities and counties make 
the best decisions. Some make very good decisions. Others make 
others.
    I am thinking of one right now that I love but is not in my 
district but whose solution to their central city problem is to 
build a set of movie theaters at the end of a mall where 150 
movie theaters have just been built. And I a saying to myself, 
Is this going to work? And when I asked the question, the 
consultant almost blanched because I asked the question. What 
is the city going to do with these theaters if they do not 
work? He said, Well, we have got a full year's reserve. It was 
not a very good answer for the mayor who might be in trouble.
    Mrs. Meek. Another thing I have seen, Mr. Chairman, and to 
you, sir, many times the CDBG program funds are used to 
revitalize cities with tall buildings and skyscrapers and to 
sort of like bail big industries out. That has happened in my 
area. But, of course, there is a catch to that because they did 
it so that they could generate jobs, so it might be a good use 
of CDBG funds. But I felt badly about it, but now that I have 
looked into it and see that Pan Am--and I will mention them--
received CDBG monies--not CDBG monies, but they were guaranteed 
by the CDBG monies, they got 108 monies to get their airline 
off the ground and they let them have it. And I, you know, 
yelled a lot, but then when I saw that they were going to 
generate 5,000 jobs, Mr. Chairman, I had to close my mouth 
because that meant that they were utilizing the money for what 
CDBG is purposely doing.
    Mr. Lewis. It is really, I guess, part of our Committee's 
both responsibility but frustration about the fact that there 
is not ongoing authorization, and it gives us some guidelines 
in a variety and mix of areas, and this is an excellent 
program. But really good programs could fall off weight if, 
indeed, we find people with ease criticizing pieces of those 
programs that draw attention that is negative attention.
    Mr. Webdale. Well, quite often, the anecdotal story that 
comes down, and then when you finally get through it, but then 
the headlines have done all the damage, and there is no way to 
correct it.
    Mr. Lewis. Yes. Mr. Webdale, I appreciate very much the 
work you are about and your being with us.
    Mr. Webdale. Thank you very much.
    Mr. Lewis. Thank you.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

REV. LAVERNE JOSEPH, PRESIDENT AND CEO, RETIREMENT HOUSING FOUNDATION, 
    AMERICAN ASSOCIATION OF HOMES AND SERVICES FOR THE AGING
    Mr. Lewis. I see all kinds of notes there, so, I hope you 
summarized your statement.
    Mr. Joseph. I surely did.
    Mr. Lewis. Oh, good.
    Mr. Joseph. I have a written statement and then I have the 
oral statement and I have summarized the oral statement.
    Mr. Lewis. I notice with your background that off the top 
you can speak very well anyway.
    Mr. Joseph. Sure, that is right.
    The last time I had the opportunity of speaking with you 
was two years ago and when the delegation from the California 
Association of Homes and Services for the Aging visited in your 
offices and talked with you about some of these same issues, 
plus some other issues.
    I am the President and CEO of Retirement Housing Foundation 
and we are a national nonprofit and we are based in Long Beach, 
working in 23 States, Puerto Rico and the Virgin Islands.
    Half of our facilities are in the State of California and 
Congresswoman, we also have facilities in the State of Florida.
    I am here today representing the American Association of 
Homes and Services for the Aging. And I know in some sense you 
are quite familiar with all of these issues. You are aware that 
HUD's fiscal 1998 budget called for something less than what we 
would like to see with our programs. You are also aware, I 
think, that in 1996 HUD commissioned a study which showed that 
there were 1.2 million households headed by elderly persons who 
are either paying more than 50 percent of their income for rent 
or living in severely substandard conditions.
    I am also aware of the pressure that you have trying to do 
so many good things with limited resources and I heard the 
question that you asked the previous speaker and I think I 
might have a couple of possible answers.
    So, at least we will put them on the table. There are 
basically five points I would like to make briefly today. Like 
others, we urge the renewal of the Section 8 subsidies and 
existing project-based rental assistance contracts for 
Federally assisted elderly housing.
    I do not believe that the Administration or HUD or Congress 
would walk away from their commitments to poor seniors. But I 
believe that that commitment needs to be firmly made because I 
can tell you as a provider we have seniors that are scared. 
They read about this in the newspaper and they are frightened 
because they think they are going to lose their home.
    Mr. Lewis. I must say if I can just interrupt you?
    Mr. Joseph. Yes.
    Mr. Lewis. I have found from time to time that there are 
people who have not been noted to run the best possible 
programs who are willing to go out of their way to scare those 
seniors. That is an activity which is not just unacceptable to 
me, I find it to be just absolutely the worst sort of treatment 
of their own constituency.
    Mr. Joseph. That is right. I think you would not find that 
to be true in the nonprofit community that I represent. I might 
even digress from my notes here to say that one of the things 
that we labor under is that we are required one year in advance 
of the expiration of the Section 8 contract to post a notice. 
And many people then interpret that to be a done deal, that 
they are definitely using their subsidy. So, for us, I think 
that is where a lot of the fear is. We try to calm people and 
have a good quality life rather than to scare them.
    Mr. Lewis. Yes, it is very important.
    Mr. Joseph. Secondly, we are urging the restoration of the 
funding for the 202 program in Fiscal Year 1998 in an amount 
sufficient to at least maintain 1996 units.
    You are aware I am sure that HUD has asked for $300 million 
for 1998 and that represents a 53 percent reduction in funding 
over 1997. It represents a 64 percent reduction in funding over 
1996 and if you go back to the premier years of housing 
production it represents an 81 percent reduction in the number 
of units.
    You, perhaps, have seen this chart--Larry Nichol and 
Colleen Bloom from the OSEP, Public Policy Housing Staff. Thank 
you.
    And you see what we showed there is a decline in the 
production but the demographic line of the numbers of seniors 
increasing.
    Now, you will probably say to me that is very good, it is 
very needed, but where do we get the resources? Back in 1989 or 
1990, we proposed, and it was adopted, the creation of what is 
called the PRAC program, the Project Rental Assistance 
Contracts. The PRACs have no debt service over 40 years, as 
long as they are maintained in their affordability. The result 
of that is that the Section 8s or the subsidy, the Project 
Rental Assistance gets reduced significantly.
    And one of the things that we are proposing is the 
conversion of the existing elderly housing, nonprofit elderly 
housing subsidies to the Project Rental Assistance because that 
would have the effect of substantially reducing the outlays for 
subsidy. It would, in many projects, reduce the subsidy 
contract by more than 50 percent. And, so, would provide more 
authority for providing new units, at the same time giving the 
ability to renew because the renewals would not be at this 
greatly enhanced cascade effect.
    Interestingly we have been talking about this for several 
years and your colleague, Mr. Lazio and Mr. Kennedy, as well as 
Stephanie Smith from HUD are now saying that they believe that 
this is the best solution to the current problems that we are 
facing. So, this has yet to play out in all of the dialogues. 
And we are most interested in working with you and the 
Committee.
    Mr. Lewis. I certainly hope that you had these discussions 
with them before they went to the floor today.
    Mr. Joseph. Yes. They have been ongoing.
    We also recognize that the whole matter of budget scoring 
is somewhat complicated. And, so, as Chair of the Housing 
Committee we have been producing several documents. And this is 
to come out this week on budget scoring which will be used to 
educate our members about this very complicated process.
    I also have----
    Mr. Lewis. You are going to get your members to read this?
    Mr. Joseph. I think so, at least the executives.
    Mr. Lewis. Okay.
    Mr. Joseph. They have in the past. We had a study group 
that produced a document two years ago which I think was most 
helpful in saving the programs.
    Mr. Lewis. That is very encouraging.
    Mr. Joseph. This is a draft copy of----
    Mrs. Meek. Did OMB get to read this?
    Mr. Joseph. Yes, yes.
    Mr. Lewis. If you would give me some very specific 
references to where it was read in OMB and the positive 
results, please let me know that, I would be interested.
    Mr. Joseph. We think it is going to be an interesting 
dialogue over this year. It is not an easy solution.
    We thank you for your support in the past for the service 
coordinators. We are again urging service coordinators as an 
eligible project expense because we believe that it is good 
national health care policy. Maintaining frail seniors with the 
aging in place within their own homes, it is less expensive. 
And we believe it fits in very well seeing housing as part of a 
continuum of care of long-term care. It just makes good policy 
sense and it makes good economic sense. And, so, we would like 
to see the service coordinators funded as a part of the budget.
    And, finally, we urge the restoration in 1998 of the 
Congregate Housing Services Program to pre-rescission 1995 
levels, to direct HUD to implement the retrofit program, which 
is to update facilities for the aging in place. It is not to 
bring around or pump more good money after bad money into 
trashy facilities. Those are the articles that you read in the 
newspapers about some owners. But it is quality sponsors and 
quality managers needing to update their facilities to address 
the aging in place problem, and to allow Section 236 elderly 
projects to retain excess rents.
    Both HUD and members of the Hill have called the 202 and 
the 811 program the crown jewel of the housing programs. 
Unfortunately, over the years, we have seen these programs 
eroded because there have been a number of bad programs that we 
are all familiar with. And, so, the resources have chased or 
been put into the other programs to try to shore them up. Kind 
of like a child who acts out in school gets the attention from 
the one who is always there with her homework and model 
behavior. So, we believe that we should not become the 
sacrificial lamb for the difficult budgetary problems that we 
have today.
    And, then finally just one little personal note. Because I 
believe that it is very easy for all of us to think in terms of 
statistics and with our more than 14,000 residents I get to 
talk with a lot of them. And I want to tell you a little story 
about a facility that we were dedicating in California. And 
afterwards--this is a 202--and afterwards the lady came up to 
me and said, I want to tell you my story. She said, before I 
moved into this place a few months ago I was getting $680 a 
month in income. I was paying $550 a month in rent and it was 
going up every six months. You have made it possible for me to 
live and to enjoy life again.
    That is what it is all about for the nonprofit senior 
housing community. We find people for whom we have to literally 
collect furniture from churches because they come in with 
nothing. We have people who have lived in cars. We, obviously, 
have lots of people who have been spending most of their 
resources on housing and need to make difficult choices, 
desperate choices between paying the rent, paying for their 
medication or buying adequate food.
    And, so, we are meeting the needs of the poorest of the 
poor and we thank you for what you are doing and what we hope 
you will do for us and we pledge ourselves to working with you 
in any way we can to address the difficult problems.
    [The statement of Mr. Joseph follows:]

[Pages 364 - 369--The official Committee record contains additional material here.]


    Mr. Lewis. Let me say I very much appreciate your 
testimony.
    Mrs. Meek, you might be interested in knowing that long 
before you and I had a chance to become acquainted, I did 
something that got me for the first time on the front page of 
the Los Angeles Times. Now, you know you might change the world 
and not get yourself on the front page.
    Mrs. Meek. That is true.
    Mr. Lewis. Well, this involved a trip up to the top of Mt. 
Whitney with a 90-year old woman. That woman, some years after 
that, sold her home because she thought she was losing a bit of 
her strength and otherwise and put herself in such a facility.
    She is still alive at age 101 and she lives on the third 
floor because she wants to make sure she walks up and down the 
stairs every time she goes. It is fabulous. Absolutely no 
question that we need to be sensitive and careful about what we 
are doing with these programs.
    So, thank you.
    Mr. Joseph. Thank you, it is a pleasure to be here.
    Mrs. Meek. Thank you very much for appearing.
                              ----------                              

                                         Wednesday, April 30, 1997.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

C. KEITH CAMPBELL, BOARD OF DIRECTORS, AMERICAN ASSOCIATION OF RETIRED 
    PERSONS
    Mr. Lewis. C. Keith Campbell, the American Association of 
Retired Persons is going to kind of add strength and verve to 
this last testimony, right?
    Mr. Campbell. Right. [Laughter.]
    Thank you, Mr. Chairman.
    Mr. Lewis. Welcome.
    Mr. Campbell. Thank you for the invitation.
    Good afternoon, Mr. Chairman, and Members of the 
Subcommittee. I am Keith Campbell, a Member of the Board of 
Directors of the American Association of Retired Persons.
    Mr. Lewis. Now, Mr. Campbell, I can see several pages 
there.
    Mr. Campbell. Yes.
    Mr. Lewis. And I wonder if--one of the problems is that 
Mrs. Meek keeps telling me that she learned how to read down in 
Florida, she and I both did.
    Mrs. Meek. Good afternoon.
    Mr. Lewis. And so if you would summarize for me kind of a 
sense of your testimony without 10 pages.
    Mr. Campbell. Certainly.
    Mr. Lewis. And I have done this to everybody today, so, I 
hope you will not be----
    Mr. Campbell. I am not insulted.
    Mr. Lewis. Okay, that is fine. Because I know you arevery 
sensitive about these programs and very articulate and all stuff and, 
you know.
    Mr. Campbell. Well, we are really concerned about weeding 
out the ineffective, wasteful, bureaucratic issues in these 
regulations, number one. And any time you can do that we are 
here to support that particular effort. But we are really----
    Mr. Lewis. Everything you can do to help us get a housing 
bill, the better.
    Mr. Campbell. But we really need to reward the existing 
programs that do work, such as the 202 elderly housing.
    Mr. Lewis. Correct.
    Mr. Campbell. Because the specialized features that are 
providing housing for the frail elderly like the grab bars, 
skid bars really do help these people who are growing older and 
older and more frail as they age in place.
    Mr. Lewis. Right.
    Mr. Campbell. So, you have heard the statistics, eight 
people waiting for every one vacancy and you are more 
conversant with that than I am, I am sure.
    Mr. Lewis. But it is important that we have that material 
in the record and I appreciate it.
    Mr. Campbell. Absolutely and our written testimony will go 
into great detail on that particular thing.
    But the existing cuts that are proposed are 53 percent 
below the existing appropriation. We think that is entirely too 
much, if there is anything that can be done about it. And that 
would make a drop from 8,500 units to 3,500 units per year, and 
we feel at least a status quo, if it can be maintained, is 
entirely defensible.
    And we do strongly urge that the Section 202 be maintained 
at its current level.
    Mr. Lewis. We hear that across-the-board and have a lot of 
testimony about that.
    Mr. Campbell. Right. Also, the voucher programs designated 
for the tenant base programs for persons with disabilities, we 
think needs to be maintained. And these are targeted to, of 
course, the public housing authorities that take care of these 
kinds of problems with mental and physical disabilities.
    And, of course, the additional development and 
modernization funds, I think was mentioned by the previous 
speaker, are of real interest to us because that does help 
people stay in affordable housing.
    Mr. Lewis. Not only are you doing very well as you turn 
those pages, I noted that they are not full pages of comments. 
So, you know, you are doing fine.
    Mr. Campbell. But AARP recommends that no less than the 
Administration's $50 million for public housing supporting 
services continue to be set aside in the Community Block Grant 
Program. These will be used primarily for non-medical services 
for the frail or elderly.
    The service coordinators, again, are an important factor in 
that particular management team in as much as they do help the 
large numbers of disabled residents get through the maze of 
this particular service.
    And we do feel that the coordinators should be 
automatically included in the routine operating budgets and HUD 
should be encouraged to fund them as a part of the operating 
budget.
    Congregate housing programs are due to expire next year as 
you are well aware of and curtailing the non-medical assistant 
that is desperately needed by these frail and disabled tenants 
is really counterproductive, we feel.
    Many have estimated that for thousands of residents 
currently benefitted by the program will be undoubtedly forced 
to relocate into expensive Medicaid, Medicare and confining 
nursing homes.
    We do recommend that expiring contracts be extended for 
another year by setting aside sufficient resources in the 
Community Block Grant Program.
    We further recommend that HUD be directed to come up with 
alternative strategies for providing future funding for these 
vital programs.
    Next year we certainly do urge the availability for housing 
counseling programs. These programs require independent housing 
for elderly homeowners who seek FHA insured reverse mortgages. 
As you are well aware again, there are scam artists who are at 
work in this particular avenue and we think that this is one 
way to help in the education of people when they are house-rich 
and cash-poor and they certainly do need adequate counseling so 
their resources are not squandered by scam artists.
    In the interest of time, again, thank you for considering 
our testimony and the full written record, I trust, is 
inserted.
    [The statement of Mr. Campbell follows:]

[Pages 373 - 382--The official Committee record contains additional material here.]


    Mr. Lewis. It certainly will be in the record.
    And let me say, Mr. Campbell, I appreciate very much your 
testimony. I might mention to you relative to that problem that 
we learned about in California that the first time I ever 
personally testified before a Committee was way back some time 
around 1959 or so where I went to Sacramento to testify about 
the need to do something about what I described as suede-shoe 
people who were selling elderly people health contracts on a 
beg and a promise with large print on the front page that 
supposedly said what they were doing for them or not doing for 
them.
    There is no doubt that there are people who want to take 
advantage and we must be willing to pursue those who make that 
attempt in every way possible. So, on those items, please, 
communicate with me any time if you think I can be helpful.
    But in the meantime I was going to say that for someone 
testifying on behalf of AARP I am not really certain that your 
hair is yet the appropriate color and I am a little concerned 
about that.
    Mr. Campbell. It is getting there. [Laughter.]
    Mr. Lewis. Mrs. Meek?
    Mrs. Meek. Thank you so very much. I enjoyed your 
testimony.
    Mr. Lewis. Thanks a lot. We appreciate your presence here.
    Mrs. Meek. I am a member of AARP, Mr. Chairman.
    Mr. Lewis. Good to be with you.
    With that, I think we are adjourned for the day.
                                             Thursday, May 1, 1997.

                             MISCELLANEOUS

                               WITNESSES

HON. WILLIAM LEHMAN, FORMER REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF FLORIDA
MARY LOUISE COLE, DIRECTOR, ICARE BAY POINT SCHOOLS
    Mr. Lewis. We will start the meeting.
    The Governor who was scheduled to be with us is going to be 
delayed, but to my delight, one of my colleagues is with us, 
and we certainly don't want to cram his schedule.
    So why don't we get Bill Lehman up here.
    Mr. Frelinghuysen, you know Bill Lehman, our former 
colleague.
    Mr. Lehman. How are you, sir?
    Mr. Frelinghuysen. Rodney Frelinghuysen.
    Mr. Lewis. You may remember his father.
    Bill, in this committee, as you know, we normally follow a 
pattern whereby we receive any formal statement that you want 
for the record, and then, from there, if you will summarize 
whatever you would like to share with us. Welcome to the 
committee, and it is a pleasure to be with you.
    Mr. Lehman. Thank you.
    Just briefly, while we are here, about 10 years ago, we 
were before this Committee, and we applied for and received a 
grant for Camilla's House for the Homeless, and now the same 
people that were running Camilla's House then, it is now the 
ICARE institution in South Dade that does Youth at Risk to 
prevent the youth from becoming homeless. So this is an event 
initiated from the Camilla's House for the Homeless, but I 
would like to just introduce Dr. Cole who is running that 
facility now, and she is going to tell you what it is all 
about.
    Dr. Cole.
    Mr. Lewis. Dr. Cole.
    Ms. Cole. I am Dr. Cole.
    Mr. Lewis. I am sorry.
    Ms. Cole. They do it to my husband, too. They call him Dr. 
Cole.
    Mr. Lewis. Well, you know, I have got twin boys who are 
college professors, and I do that to them, too. I would say 
your daughter is much smarter than you are.
    Dr. Cole, please.
    Ms. Cole. Immediately after the hurricane, I was asked to 
pull together a coalition of the churches to build a camp to 
house all the volunteers that you all said that came through 
their churches to help us with Hurricane Andrew, repairing and 
building the homes of those who were too poor who owned their 
own homes, but had no insurance or they were cheated out of 
their money.
    Of course, as that operation has slowly died down, my whole 
field and my Ph.D. is in child development, and I am very 
concerned about what we are doing with the youth that are 
getting into trouble. As a Nation, we are pretty disgusted with 
them, and our whole plan is to build more prisons and to send 
these kids off to prison, but they just learn to be better 
criminals and they do come back home. You don't send a 14- or 
15-year-old kid off for life.
    So my idea was to try to do something about that, and I had 
this temporary camp already set up with dormitories and ways to 
feed them and warehousing and things like that. So I started a 
boarding school for at-risk boys, 14 to 18 years old, because 
in my experience, any of the kids I knew getting into trouble 
as we were growing up were sent off to boarding school and 
military school to get straightened out.
    These kids, many of them are already homeless. They are 
homeless because they have not had family and they are sleeping 
in the parks and they are selling drugs and they are stealing 
and they are getting into all kinds of trouble, or else, they 
are homeless. Because they are so out of control, their parents 
have kicked them out, and they go from neighbor to neighbor or 
friend's house, but they are sustaining themselves by criminal 
activities.
    What our problem is, I have them housed in these very 
temporary buildings, and I really need to build permanent 
buildings, and there will be 200 of them on this campus. It 
should be a model.
    Mr. Lehman. People, not buildings.
    Ms. Cole. 200 buildings. Is that what I said, 200 people? 
The whole thing is----
    Mr. Lewis. Bill will catch you.
    Ms. Cole. He will catch me, okay.
    The important thing, I think, is that this should be--I 
would like to see this become a national model, and I have 
gotten some private funding that purchased what was a formal 
Federal missile base for a million dollars, and we have State 
funding for the operations, but I have no way to build these 
buildings, and I am hoping that we can get through HUD some 
kind of special grant funding.
    Mr. Lehman. Demonstration project.
    Ms. Cole. Yes, a demonstration project.
    And barring that, if there is no special grant funding for 
this, then perhaps some report language that would get us that. 
It is extremely, I think, important that we show that what we 
are doing, it is unusual. It is different. We are excited about 
getting an education, and I would say 100 percent of those boys 
hate school, have either been kicked out or have just dropped 
out, and suddenly, in the kind of motivational teachers we have 
and the kind of training we have, they are excited about 
becoming educated. Once they get a little bit of success under 
their belt, we have boys in college, in special kinds of 
schools, and also those who can't go to college in vocational 
training, learning to build houses along with those wonderful 
volunteers. So we are into the construction trades.
    Mr. Lehman. Low-income housing.
    Ms. Cole. All low-income housing, of course, because, 
obviously, rich people don't need to go there.
    Mr. Lehman. I have been down to that program, and these 
boys have a big turnaround. They don't go back. They don't go 
back to the streets.
    Ms. Cole. No. Well, we keep them, even though their State 
funding runs out. If they haven't finished getting their high 
school diploma or their college semester doesn't start for 
another few months, we just keep them there.
    I think another very important thing of what we do is teach 
them behavior management, leadership skills. They have to learn 
to confront other kids when they are doing something wrong, and 
so we have this wonderful positive peer environment. When you 
walk in, you are just overwhelmed with how polite they are for 
teenagers, and they all look nice. We teach them to look 
presentable because, if they are going to get a job, they can't 
look like punks from the street.
    It was an experiment that has amazed all of us, even me, 
which I really believed it could happen. This is, like, wow.
    [The statement of Mr. Lehman follows:]

[Pages 388 - 399--The official Committee record contains additional material here.]


    Mr. Lewis. Dr. Cole, I presume you have a plan or a game 
plan that would project this as the way you take this over 
time, what the cost might be and all of that?
    Ms. Cole. Yes. Of course, we have had architects and site 
plan development, and the whole project will be $20 million. 
What we are asking for is if we could get some seed money 
through HUD for $3 million, go back and get State funding and 
matching funding from the corporations. We need a beginning.
    Mr. Lehman. If you make the grant, there are, all over, 
matching funds from corporations or State.
    Mr. Lewis. One of the items that we worry about on this 
Subcommittee as well as others--I use the kind of classic 
phrase, it is one thing to buy the cow, then you have got to 
feed it.
    Ms. Cole. Right.
    Mr. Lewis. Let's assume that you went forward with this and 
you had construction funds and you got 200 boys. Where does the 
ongoing funding come from?
    Ms. Cole. The Department of Juvenile Justice in the State 
of Florida. They are very excited about what we are doing. They 
have operational funds, and I am kind of caught in between. I 
need the buildings.
    Mr. Lewis. Yes.
    Mr. Lehman. She has all of the zoning approved and 
everything.
    Ms. Cole. And we own the property now that a private family 
foundation paid the million dollars to buy the 45 acres. It is 
45 acres.
    Mr. Lehman. It comes from Carrie Meek's district. You know 
who that is.
    Mr. Lewis. I have heard of Carrie Meek somewhere. She just 
doesn't happen to be here right at this moment.
    Ms. Cole. Yes. Oh, I am so disappointed, too. This is 
really hers.
    Mr. Lewis. Apparently, she must be voting right now, and 
she is on her way.
    Ms. Cole. That is right. She expected us to be later.
    Mr. Lewis. That is right.
    I must mention for your benefit, but especially for my 
colleagues' benefit, right now all of the Committees are 
meeting pretty intently. I just came from an Intelligence 
Committee meeting where they are discussing China, and I was 
anxious to stay there, but could not because of the conflict. 
The members will receive your testimony in total, and I hope 
that this sparseness presently doesn't reflect in your mind's 
eye anything, but in the meantime, I think what I will do--here 
she is.
    Just sit right down there, young lady.
    Ms. Cole. We are talking about your program in your area, 
too.
    Mrs. Meek. Good, good.
    Mr. Lewis. I think maybe what we will do is--Carrie. Mrs. 
Meek.
    Mrs. Meek. Yes.
    Mr. Lewis. Have you voted?
    Mrs. Meek. I just voted.
    Mr. Lewis. You did. I think I will temporarily turn the 
questioning and discussion over to you while Rod and I go 
upstairs and vote, and we will come right back down.
    Mr. Frelinghuysen. I did vote.
    Mr. Lewis. Oh, you voted already?
    Mrs. Meek. He has voted, right.
    Mr. Lewis. I will turn the gavel over to you, and you can 
distribute the questions.
    Excuse me. I will be right back.
    Mrs. Meek. All right.
    Mr. Frelinghuysen [presiding]. Mrs. Meek, the floor is 
yours. Dr. Cole is going to talk to you about her programming 
needs.
    Mrs. Meek. Yes. From my understanding, Dr. Cole, you are 
with ICARE.
    Ms. Cole. That is right.
    Mrs. Meek. Would you like to tell us briefly what ICARE 
does and why you think you need to come before this Committee 
for funding?
    Ms. Cole. Well, ICARE started out being the interface 
coalition for the Andrew recovery effort, which was a whole 
camp and coordination of all the volunteers to help rebuild the 
homes of home-makers who were too poor to rebuild their homes 
after Hurricane Andrew.
    It has since become, also, a boarding school for at-risk 
boys, 14 to 18 years old, most of whom have been getting into 
habitually offending kinds of things, selling drugs, living in 
the parks and in the streets, and doing things that are totally 
unacceptable.
    What we have done is started this boarding school as 
opposed to a juvenile detention center because we feel these 
kids need to get turned on to get a good education because, 
without that, they are going nowhere, and we convinced them of 
that.
    Then, we also add to that the vocational training and 
learning to build houses, along with our volunteers, houses for 
the poor, low-income people in our community.
    We teach them behavior management. We do all of those 
things, and what my problem is, I can get operational funding 
because they are at risk.
    Mr. Lehman. From the States.
    Ms. Cole. From the State of Florida, I have gotten private 
funds to purchase that property for a million dollars. I am 
looking for seed money from HUD to use as a matching grant. The 
whole project will be $20 million.
    Right now in those very temporary buildings, we have put up 
quickly for hurricane volunteers, and I really must build 
permanent housing.
    Mrs. Meek. I understand.
    Ms. Cole. If I could get a grant, special purchase grant, 
or some kind of report language----
    Mr. Lehman. A demonstration project.
    Ms. Cole [continuing]. For this demonstration. We are 
working miracles. These kids are excited about getting an 
education. They are going off to college. They are going off, 
out into the community as leaders. We give very strong 
leadership training.
    Mr. Lehman. It is your district.
    Ms. Cole. Oh, Carrie has been there.
    Mrs. Meek. Right. I am familiar with your program, and I 
think it is good.
    Ms. Cole. Oh, I want you to come. It is really amazing.
    Mrs. Meek. And I wanted to challenge you. I understand 
specifically that you have given us an option, Mr. Chairman, 
and that is the special purpose grants. If they happen, you are 
asking for $3 million for special purpose grants. I am not sure 
of the challenge. You might be able to speak to that more 
specifically, whether this Committee is going to have special 
purpose grants, but you are saying if we do, that is something 
you want to be on a high priority for that.
    Ms. Cole. Right.
    Mrs. Meek. The second thing, you are asking for language in 
this year's bill.
    Ms. Cole. As a demonstration grant.
    Mrs. Meek. That is right. The language will help us 
persuade HUD that this is an important project.
    Ms. Cole. Right, right.
    Mr. Lehman. Congress is going to do that.
    Mrs. Meek. Yes.
    Well, I don't have any questions. I just know, Mr. 
Chairman, that this project has been very lively. It has helped 
since the hurricane, and it has done something that most 
projects don't do. They have got real busy on this. They are 
working with at-risk kids that a lot of other groups don't like 
so much to work with because these are juveniles, and people 
don't have that much sensitivity many times with this group.
    I can vouch for the reliability and the momentum of this 
group that is here, and the fact that they have the best 
Congressperson in the world here with them says a lot, Mr. 
Chairman.
    Mr. Frelinghuysen. That is a very good endorsement, and we 
are pleased that you took time to be with us, Representative, 
Dr. Cole.
    Thank you, and copies of your full statement will be 
included in the record.
    Mrs. Meek. In the record.
    Thank you. It is so good to see you.
    Mr. Frelinghuysen. Thank you.
    Thank you, Mrs. Meek.
    Ms. Cole. I hope when you are in town, you will come by.
    Mrs. Meek. I am going to try.
    Mr. Frelinghuysen. The next participant will be, I think, 
Director Mary Mathews or Rita Haynes from the Coalition for 
Community Development Financial Institutions. Anybody from that 
organization here?
                              ----------                              

                                             Thursday, May 1, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

WADI N. SUKI, M.D., PRESIDENT, AMERICAN SOCIETY OF NEPHROLOGY
    Mr. Frelinghuysen. The American Society of Nephrology.
    Is this Dr. Suki?
    Dr. Suki. Yes, I am.
    Mr. Frelinghuysen. Okay. Dr. Suki, welcome.
    Dr. Suki. How are you, sir?
    Mr. Frelinghuysen. Fine, thank you.
    Dr. Suki, we have, you know, in the neighborhood of 50 or 
60 witnesses today. So we urge people who come----
    Dr. Suki. I will be concise and to the point.
    Mr. Frelinghuysen. Great. We will take your entire 
statement for the record, and it will be considered by the 
membership in the meantime if you will summarize and be 
concise. We appreciate that.
    Dr. Suki. I will do that.
    Mr. Frelinghuysen. Thank you.
    Dr. Suki. Mr. Chairman, Mr. Frelinghuysen, I am Wadi Suki, 
and I am president-elect of the American Society of Nephrology, 
which is the society that represents the specialists in kidney 
disease and researchers in the field of kidney disease who are 
working to find cures for kidney disease in this country.
    I am grateful for the opportunity to appear before you to 
support funding for biomedical research in the Veterans 
Administration.
    The American Society of Nephrology, which I represent, is 
concerned that President Clinton's fiscal year 1998 proposal 
for budget for VA proposes a devastating $28-million reduction 
in biomedical research funding in the VA. This represents a 
10.5-percent reduction in actual dollars and a 15-percent 
reduction in dollars after inflation.
    The total funding for VA health care research in 1996 was 
$257 million, or just a little more than 1.5 percent of what 
the Veterans Administration spends on health care services.
    Therefore, it would seem that the financial impact of 
meeting the health care needs of an aging veterans population 
far outweighs the amount spent on research. This is quite 
troubling to our society and our membership. It is our view 
that an investment in research is the only real opportunity we 
have to reduce the enormous cost to the VA and to curb human 
suffering from chronic diseases.
    If President Clinton's fiscal year 1998 budget request is 
enacted, research opportunities will be lost. The VA will be 
required to make significant changes in their current research 
program both in terms of reductions in the recruitment and 
retention of investigators and in terms of the conduct of 
medical research.
    The VA Research Realignment Advisory Committee found that 
the VA is not satisfactorily recruiting and sustaining the next 
generation of outstanding clinical investigators. The American 
Society of Nephrology believes that the major obstacle to 
achieving the goals of a cure for and the prevention of kidney 
disease is a difficulty in the current environment of 
attracting the most talented young individuals to pursue 
careers in research in the VA.
    If President Clinton's fiscal year 1998 budget request of 
$234 million is enacted by Congress, the reinvigoration of the 
VA's career development programs would be delayed indefinitely. 
Also, for the third year in a row, the VA would not be able to 
initiate any new career development awards. Reducing the career 
development awards would affect the VA's ability to attract and 
retain high-quality physician investigators for careers at the 
VA.
    Considering that 75 percent of VA researchers are the 
physicians who provide medical care for veterans, the potential 
impact on the VA's ability to provide the high-quality care 
associated with academic research VA facilities would be 
significant.
    As this Committee may be award, diabetes, high blood 
pressure, flomerulonephritis, and polycystic kidney disease are 
the major causes of kidney failure in this country and in the 
veterans population.
    If President Clinton's fiscal year 1998 budget request is 
enacted, plans for new research, centers of excellences, as in 
diabetes, for example, addressing the ravages of diabetes, 
which are kidney failure and blindness, these centers will go 
unfunded. They would not be able to be initiated.
    A number of other cooperative studies having to do with 
heart disease and high blood pressure, high blood pressure 
being the second commonest cause of kidney failure in this 
country and in the veterans population, these cooperative 
studies and what therapies might emerge from them in terms of 
preventing and treating kidney disease would not be realized.
    Furthermore, most research breakthroughs in this country 
come from investigator-initiated projects. If the VA research 
budget is funded at only $234 million for fiscal year 1998, 10 
percent of existing investigator-initiated projects would be 
terminated. That is, the number of funded research projects 
would decline from 1,666 in fiscal year 1997 down to 1,400 in 
1998. This would decrease the funding opportunities for VA 
researchers to an all-time low of less than 15 percent; in 
other words, 1 in every 8 to 10 grant applications that have 
been reviewed and approved will be funded.
    While the American Society of Nephrology appreciates the 
Clinton administration's efforts to balance the national budget 
and recognizes the difficult task that Congress has in choosing 
between Federal programs, these sacrifices should not come at 
the expense of those who have fought for our freedom and for 
the freedom of peoples around the world.
    Therefore, to ensure that research opportunities are not 
lost and that veterans continue to receive high-quality medical 
care, the American Society of Nephrology urges this 
subcommittee to support the full restoration of the $28 million 
that were cut in President Clinton's budget and to fund an 
additional $18 million in new funding for fiscal 1998, to bring 
the total VA research appropriation to $280 million.
    This concludes my statement, Mr. Chairman. I appreciate the 
opportunity to present it before you.
    [The statement of Mr. Suki follows:]

[Pages 405 - 418--The official Committee record contains additional material here.]


    Mr. Lewis [presiding]. Thank you very much, Dr. Suki. I 
must say to you that this Committee has a longstanding pattern 
of very strong support for research of the kind you discuss.
    I must mention to you, in the medical field, there is a lot 
of discussion going on between the various committees that have 
this responsibility, for, as you know, some areas of research 
have been treated differently than others. As we move toward 
attempting to be realistic about balancing the budget, there 
will be a lot more dialogue. So I hope that you will pay 
attention to that and help us focus as well.
    Dr. Suki. We will, and we appreciate your time.
    Mr. Lewis. Any questions from the members?
    Thank you very much, Dr. Suki.
    Dr. Suki. Thank you, sir.
                              ----------                              

                                              Thursday, May 1, 1997

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

STEPHEN GORDEN, DIRECTOR, DEPARTMENT OF WATER AND SEWAGE, CITY OF 
    DETROIT, AMERICAN WATER WORKS ASSOCIATION
    Mr. Lewis. Let's see who is next. Is Mr. Stephen Gorden 
here?
    Mr. Gorden. Yes, sir.
    Mr. Lewis. We appreciate your being present. I know it is a 
little out of order, but on the other hand, you know--you have 
heard my suggestions regarding giving other people an 
opportunity to speak as well. In the meantime, we will take 
your entire statement in the record, and if you would summarize 
your remarks, we would very much appreciate it.
    Mr. Gorden. Well, thank you very much.
    My name is Steve Gorden, and I am the Director of the 
Detroit Water and Sewer. I am also a Chairman of a legislative 
group for the American Water Works Association, and if you do 
not know that group, it represents the water community, and we 
have about 55,000 members.
    Mr. Lewis. Since we don't have a microphone, I would ask 
you to speak up just a little.
    Mr. Gorden. Sure, great.
    There are four issues that we are really concerned about, 
and they are the SRF, the drinking water State revolving fund, 
drinking water research, very, very important to us, public 
water system supervision--that is part of the enabling 
legislation for the Safe Drinking Water Act--and the agency 
itself.
    Whereas, we have seen what those budgets are, they are not 
funded at the level that they really should be. We are talking 
about, as you are, public health, and the drinking water 
industry is very dedicated to public health. In fact, we are 
really probably the entity that has the white hat on, and we 
are trying to encourage the Congress. We are trying to 
encourage the agency to do more in that area.
    In fact, if you look at the budgeting for SRF, we suggested 
around a billion dollars has been suggested, three-quarters of 
a billion dollars. In Detroit alone, my budgets for capital 
expenditures that I need to stop the mining of the capital is 
$400 million a year. So I could take the whole half of the SRF 
myself forever. So you can see the inadequacy of really trying 
to fund that. It needs to be readily increased.
    As far as research, research is very, very important for 
the industry for a whole host of reasons. One is regulations 
come to us, and there is not adequate background work that has 
been done. Health effects, we have requirements for taking 
contaminants out of water, and it is a supposition. The 
research is not there to back that up, and we really need to do 
that because when some regulator says we need to remove 
something, that involves a real cost to our utilities which can 
be in the billion-dollar arena. We don't need to do that.
    If we do the research, we can get the information, and we 
can make appropriate decisions, which affect the public in a 
correct way.
    The other thing it lets us do is to make decisions on sound 
plans, and that is very, very important because then you build 
credibility. People know that you are doing what is in the best 
interest of the public, and we are spending their money wisely. 
I am sure that you are involved in that.
    The other thing, interesting enough, we talk about 
contaminants and taking them out of the water, and yet, I pick 
up my vitamin bottle and I look, and what we are taking out 
over here, we are putting in here. That is why I think there is 
a connection in some research that needs to take place.
    The other thing is the risk factors. Do we need to take 
something up that is going to affect maybe one in a million 
people? Do we need to do something that is going to affect 
somebody, one in a hundred, one in a thousand? Where is that, 
and how do we best determine what that is?
    Another thing for research is long-range planning. The 
agency does not do any long-range planning in our estimation. 
In other words, if we were to ask what are the regulations 
going to look like in 2020, they can't come up with that, and 
it is not their fault. It is just that we are not doing that 
kind of research, and we need to do that because when we make 
investments, they are for 30 years. With a little adjustment 
incrementally, we could probably handle a lot more issues than 
handle one issue, have to go back and reengineer the whole 
issue again at a much greater cost.
    There are other things that the industry itself and the 
water community through its research foundation is more than 
willing to assist in the research. There are issues on arsenic. 
There are other issues that our research arm has put forth, and 
they are willing to match those funds. So we are asking for 
about $5 million in that area, which the industry internally 
will help match, and that is pretty good leveraging of Federal 
funds. I think that is a very, very wise decision.
    The other thing that is really occurring is the Federal 
Government has stopped giving as much assistance. There is a 
requirement for public water supply supervision, and as 
regulations increase and that requirement is not at the State 
level, the State level has to come up with some resources in 
that area, and they don't have those kind of resources.
    So the decentralization, as we look at it, starts to take 
place. You have got to make sure that the appropriate resources 
hit the right area or it is not going to have the effect that 
both of us need.
    Lastly, I would ask--and I guess this will really surprise 
some people, but we think the agency needs its funding, 
especially with the water programs. They have a lot of things 
that they need to do. They have a lot of things that we are 
working on concert with them, and if you don't fund them 
appropriately, we won't be able to do that. We won't be able to 
carry on.
    [The statement of Mr. Gorden follows:]

[Pages 422 - 428--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Gorden, your comments are very much 
appreciated, and this committee feels strongly about playing a 
role in the development and encouragement of sound science, 
especially wherever we can, but with tightening budgets moving 
towards the year 2002, all of us from the ground up have to be 
working together on recognizing there is a partnership. I can't 
help but be reminded of the fact that one of the small rural 
regions that is a part of my district over the last decade on 
three occasions turned down bond issues that involved water 
delivery systems. So there wasn't a commitment there in terms 
of property tax dollars to be willing to say we are going to 
find a way of delivering water to people, and public attitudes 
are very important in all of this, and we are all in this 
together.
    I do note, though, with interest that the clean water 
funding proposed by the administration is a billion dollars, 
and the drinking water program is 750, and I kind of gather 
that you might reverse those two, at least from your priority 
perspective.
    Mr. Gorden. I am on both sides.
    Mr. Lewis. I thought you might say that, but in the 
meantime, your commentary for our record is very helpful. As we 
go forward from here, you know that the budget gives us a broad 
outline of all dollars available, and then we have to select 
between priorities.
    The priorities involve choices between clean water, 
veterans medical care, housing, the National Science 
Foundation, NASA, EPA. To say the least, when you have those 
high priorities, all competing with one another in a shrinking 
circumstance, it is difficult, but in the meantime, without 
your input, it would be even more difficult to make these 
choices.
    Mr. Gorden. Let me suggest this. We are talking public 
health.
    Mr. Lewis. We are talking public health at every level. My 
local people have a responsibility. They are taxpayers, too. 
They have to set their priorities. The States have to set their 
priorities, and we have to do it here as well.
    Mr. Gorden. And the issue that I am trying to bring before 
you is this. The older inner-core cities do not have the 
resources. If you look at the structure, the demographics of 
the citizens, if you enter the population as a worker, 72 or 
beyond, and you are in the bottom 70 percent, you see now real 
increase in real income.
    Mr. Lewis. Let me suggest this. I am not being 
argumentative at all, but my first term here was in 1979. 
Geraldine Ferarro and I were classmates and on the same 
Committee together, then the Public Works Committee. We went to 
New York to look at their water systems. They still have those 
same challenges, and one way or another, altogether, we haven't 
done what might be done. Dollars were easier then.
    So I am suggesting that, as we fight these battles, at 
every level, we have to raise the mind's eye of the public if 
these things are going to be feasible.
    Are there questions?
    Mrs. Meek. No, Mr. Chairman.
    Mr. Lewis. Thank you very much. We appreciate you being 
with us.
                              ----------                              --
--------

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

HON. CHRISTINE TODD WHITMAN, GOVERNOR, STATE OF NEW JERSEY
HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Lewis. We are going back to the original guest on our 
panel who was delayed by way of a flight plan differential, but 
if we can.
    It is the Committee's pleasure to welcome our colleague, 
Jim Saxton, along with our other colleague, Mr. Frelinghuysen, 
as they in turn bring our guest today, Governor Christine Todd 
Whitman.
    Governor, I had occasion to discuss just a couple of days 
ago with Pete Wilson the fact that you were coming to our 
committee. He wanted me to personally extend a special welcome 
to you, and thanks for being with us.
    Governor Whitman. My pleasure.
    Mr. Lewis. So we will accept your entire testimony. We will 
accept your entire testimony for the record, and from there, 
when you do make your statement, whatever you want to say is 
fine. We are on a tight schedule, but I also want to recognize 
Jim Saxton, who is going to formally introduce one of his very 
dear friends.
    Mr. Saxton. That is true.
    Mr. Chairman, thank you very much. I have a written 
statement that I would like to submit for the record, if that 
is all right.
    Mr. Lewis. It certainly is.
    Mr. Saxton. Mr. Chairman, as Rodney Frelinghuysen knows, 
being the governor of the most densely populated State in the 
country presents many challenges. Governor Whitman has stepped 
up to the plate and has been extremely successful in meeting 
those challenges.
    One such challenge that comes from having a lot of people 
live in a relatively small geographic area has to do with 
certain contaminants that find their way into our environment.
    In Toms River, New Jersey, which happens to be in my 
district, there is an event that has occurred which is very 
unfortunate, and that is that in a very small area of Toms 
River, there is an extremely high incident of brain cancer in 
children, and we are searching for the answers as to what the 
causes are and, even more importantly, under the Governor's 
leadership trying to fashion a solution to the problem.
    Last year, you were very generous in providing us with 
$900,000 to begin the work of determining what the problems 
are. We are here to ask you to consider extending that program, 
and under the Governor's leadership, then New Jersey will have 
the resources to proceed to complete the study and fashion the 
solutions that are necessary.
    So Governor Whitman is here to make a personal appeal 
today, and I want to express my gratitude to her for being 
here.
    [The statement of Mr. Saxton follows:]

[Pages 431 - 434--The official Committee record contains additional material here.]


    Governor Whitman. Thank you, Congressman, very much.
    Mr. Lewis. Thank you, Governor Whitman.
    Governor Whitman. I will dispense with reading of any 
statement, Mr. Chairman, in the interest of the fact that you 
have it, and I know you all can read, and well, and in the 
interest of time.
    Mr. Lewis. I think most of us have had the privilege of 
hearing you speak off the top before, and you are fabulous. So 
just go ahead.
    Governor Whitman. Thank you.
    Let me just reiterate what Congressman Saxton said. We 
began this study after an appeal by parents who came to us from 
Ocean County documenting, to the best of their ability, what 
seemed to them to be an inordinately high incidence of cancers, 
the particular cancer of childhood leukemia and brain and 
central nervous system cancers.
    We did the initial study with money from the Federal 
Government and about $700,000 of State dollars as well, and we 
conducted a study which did find statistically significant 
increases in the level of brain cancers and central nervous 
system cancers and leukemias, especially in children under the 
age of five in Dover Township. We also found a statistically 
significant increased number of neuroblastomas in Ocean County 
as a whole.
    What we are proposing to do now, the next step, we 
thenundertook perhaps the most detailed study of water systems in the 
Nation anywhere. We, as you know, have one of the unfortunate 
distinctions. I like New Jersey having distinctions, but we are number 
one in the number of Superfund sites.
    There is a Superfund site near this, located in this 
township, and obviously, people initially thought that was an 
immediate area for concern and the first place to focus, and 
among other environmental studies, we did study the water. We 
found higher levels of certain naturally occurring toxins, as 
well as some others that would come from--could have come from 
the manufacturing that had taken place at Sibagogi plant, which 
is the current Superfund site.
    We don't know, though, whether there is a relationship. The 
studies have not been complete enough to be able to tell us 
whether, in fact--we shut down three wells in the township. At 
the moment, they are still closed down.
    We brought our cancer registry up to date, one of the few 
in the Nation that it as up to date as ours is, up through 
1995. We have found a statistical evidence of increased cancer 
rates. We feel now that the next step is going to be an 
epidemiologic study that is going to require individual 
interviews, extensive interviews, and patterning and going back 
through the water system, as well as the air, to look at the 
Superfund site, to look at what is being transported into the 
water systems, to try to make a statistical--to see if we can 
find any kind of connection and any kind of causal relationship 
between what is turning up in the waters and these increased 
incidents of brain cancer and leukemia in children.
    We are working very closely with the Federal Government and 
with the citizens group that is there, called Oceans of Love, 
and I have to tell you, Mr. Chairman, and I am sure you know 
that there is nothing more tragic than to meet with a group of 
parents sitting there with children who have cancer or parents 
who have lost their children to cancer. They deserve an answer, 
and we are going to do everything that we can to try to find 
that for them, but we simply cannot undertake a study of this 
magnitude on our own.
    We do feel that there is some real lessons that can be 
learned for the Nation, relative to Superfund sites, clean 
water standards, whether this is something we need to take a 
further look at, and so, while we feel it is important for us 
to get answers for our people and we need and ask for your 
support in doing that, we also feel that there are going to be 
lessons learned that could be applicable to other parts of the 
country.
    [The statement of Governor Whitman follows:]

[Pages 437 - 439--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Governor Whitman.
    You might be interested in knowing that even though we are 
on a passway that involves very, very difficult budget 
circumstances moving towards the year 2002, during the last 
Congress, early on, the Speaker had a group of chairmen who 
deal with research dollars into his office.
    The purpose of the meeting, we thought, was how do we cut 
our budgets one more time. Instead, he said, you may have 
wondered about this, but for good or for ill, I have a strong 
bias relative to research, both applied as well as basic 
research, urging us, then, to make reductions in areas in our 
budgets and trying to preserve research wherever we can.
    Your statement regarding cancer in children goes to the 
heart of some of the serious responsibilities we have. Jim 
Saxton has talked to me about this more than once, and in turn, 
Rodney Frelinghuysen has been fighting the Superfund battle 
here in our Committee.
    So, Rodney.
    Mr. Frelinghuysen. Well, Governor, we are honored to have 
you here, and thanks to Jim's continual persistence on this 
issue, your good self, Dr. Len Fishman from the New Jersey 
Department of Health, I can tell you, you couldn't get a more 
receptive Chairman, and I hope that he will, indeed, be 
receptive again because I think we need some more money to 
continue this work and study, and certainly, I am going to be 
working hard on this committee and with Congressman Saxton and 
the entire delegation to see what we can do to get some help.
    Thank you.
    Mr. Lewis. I know that his list of priorities have been 
very, very carefully scaled down. This is getting a very high 
priority.
    Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Governor Whitman, I am a great admirer of yours, and I 
appreciate you and Representative Saxton coming this morning 
with this project which is going to be meaningful for the 
entire country.
    I am one of the ones on this Committee who strives very 
hard for research, particularly the kinds of research which you 
are going through, and I am hoping the Chairman and the rest of 
the Committee will be sympathetic to what you are doing in 
terms of funding you fully because it will be dollars well 
spent, and you have shown the validity and it does take time to 
complete these studies.
    I want to thank you for coming, and you, Mr. Saxton, as 
well.
    Governor Whitman. Thank you very much.
    Mr. Lewis. Mr. Knollenberg.
    Mr. Knollenberg. Governor, thanks for coming by.
    I can assure you that I echo the words of my colleague that 
this chairman is interested in your concerns. Rodney 
Frelinghuysen, my colleague to my left and one of yours, makes 
sure that this gets mentioned. He has been there, and I am not 
suggesting that he has overdone it, but he does, and I believe 
that he is very sincere about that. I just wanted to make sure 
that you knew that he is there keeping----
    Governor Whitman. He has been wonderful. We know that, 
which we are very appreciative.
    Mr. Knollenberg. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    I just wanted to welcome the Governor and our distinguished 
member, Mr. Saxton. I was not here to hear the testimony. I 
have read it and will try to be helpful.
    We have a general problem in the environmental budget, and 
we never have enough money to do all what we are being asked to 
do. That is certainly true with Superfund cleanup, whether it 
is New Jersey or Ohio or California, and so we appreciate the 
Governor coming and expressing in the strongest possible terms 
the need for additional information.
    We need that in many areas of our country, and we are glad 
to have the Governor as an ally on the environmental front. We 
appreciate you coming today.
    Mr. Lewis. Governor, I might mention that the budget 
request for EPA includes a very sizeable request for funding 
for Superfund. We have expressed our concern over time about 
the fact that so much of the dollar in Superfund circles has 
been spent on lawyers rather than otherwise, and we are 
attempting to do something about that.
    In the meantime, the priority that we hold for this kind of 
work and particularly the breakthroughs you can make in 
research that affect people's health, expressed very well by 
you, is a priority for the Committee. So welcome, and we 
appreciate your coming and helping to deliver the message as 
well.
    Governor Whitman. Well, thank you, and thank you for 
allowing us to testify, and I indicate my support for all that 
Congressman Saxton has done in this area.
    Ms. Kaptur. Mr. Chairman, may I ask the Governor a 
question?
    Mr. Lewis. Certainly.
    Ms. Kaptur. On the ozone regulations, I wondered if the 
State of New Jersey has a position in terms of the 
Administration's, the EPA's efforts to include particulate 
matter.
    Governor Whitman. I am very supportive of the need for 
there to be national standards. As you know, New Jersey has 
done a great deal to try to mitigate our air quality, and we 
were fortunate last year. We had for the second time--it isthe 
first time since the Clean Air Act has gone into effect that we have 
had two consecutive years where we had attainment relative to carbon 
monoxide. We still have particulate matter problems, but we feel that 
many of our problems do come from transport. So I have been very 
interested in seeing that we do make an effort to have national clean 
air standards so that we can benefit from that.
    We are doing a lot of things in New Jersey that many States 
have not had to do. We have had the tail pipe emission test for 
20 years. We have the fume capture, whatever they call that 
little thing they put on the gas pump that captures the fumes 
for 10 years, and we have required inspection for that. We will 
continue to live up to our commitment, but we would like to see 
clean air standards that are reflective of the fact that there 
is an issue called transportation, and transport is air.
    Mr. Lewis. Governor, I think Ms. Kaptur raises a subject 
area that is very important where you could also be helpful to 
us.
    My own district is probably the most impacted district in 
the country in terms of air quality questions. We have the 
toughest district in the country dealing with that, and yet, 
probably, under the existing Federal standards, my district 
because of transport will never quite reach the standard that 
you have.
    Governor Whitman. We don't meet all our standards.
    Mr. Lewis. Our challenge is across the country, encouraging 
people to continue to fight clean air. That means we have got 
to be in the real world in terms of what we are dealing with 
here.
    The requirement of excellence of science to make sure we 
are dealing with communities not only positively, but whereby 
they can have the success that you have attained so far is very 
important to us.
    Governor Whitman. I would agree. That is nice.
    Mr. Lewis. Thank you, Governor, very much.
    Governor Whitman. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

                                  CNCS

                               WITNESSES

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
ALEXANDRA HERRERA, FORMER AMERICORPS MEMBER
    Mr. Lewis. Mr. Farr, welcome to the committee.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Mr. Lewis. My colleague from California, as you know, we 
will take your entire statement and put it in the record. Those 
people who speak most briefly usually do the best on this 
committee.
    Mr. Farr. I learned long ago that the mind cannot 
comprehend what the seat cannot endure. So I will try to be 
short.
    First, I bring you offerings from Hershey. They are not a 
bribe, but they help.
    Mr. Lewis. Thank you.
    Mr. Farr. Mr. Chairman and members, I am here today to 
support the President's request for AmeriCorps, the Corporation 
for National Service at $549 million. The increase is to launch 
America Reads, a challenge to all Americans to help children 
read well and independently by the end of the third grade.
    I happened to sit right behind the Governor, who was just 
here at Philadelphia, which is launching this, what I think is 
a reinstatement of the war on poverty, and that is that we are 
going to go out and use all the resources of this Nation to try 
to get to the most difficult nooks and crannies which we have 
never been able to do before.
    I was a Peace Corps volunteer, and it was much in the 
spirit of Philadelphia that I found myself 30 years ago getting 
out of the Peace Corps and realizing that I had just gone 
through one of the most incredible experiences of my life.
    Peace Corps paid a stipend, and it was a stipend that you 
use overseas. It was a cost-of-living. And AmeriCorps does the 
same thing, and some people in this Congress have criticized 
that, thinking that all volunteerism has to be free.
    Well, we have had Vista for a number of years in America, 
and I think that in every program, it was indicated that it was 
a success. In Philadelphia, that were behind it, was a budget. 
So this is the budget behind, I think, the national approach to 
try to reach those corners.
    Now, it is not just that program, but it is also the 
benefits of that program, and I brought with me today a 
volunteer in my office named Alexandra Herrera. She is from 
Watsonville, California, which is a major agricultural area. 
Her father was a farm worker. She was born in the United 
States. She went to a public school, to Watsonville High 
School. She is currently a student at Georgetown University.
    While she is a student at the university, she not 
onlyvolunteers down here as an intern in my office, but she volunteers 
weekly with under-served children in Washington, D.C.
    She was a volunteer with AmeriCorps as a seasonable 
volunteer for summer at the Second Harvest Food Bank in 
Watsonville, and I just thought, you know, we are always here 
talking about numbers and figures, but what we are really about 
and why we are all elected to office is to do things for this 
country and for people in this country.
    Here is one individual where one of our Federal programs 
had a major effect on her life, and I thought rather than 
putting it in the record, I would like to just present her and 
give her a chance to testify before this awesome Committee in 
the United States Congress.
    So, if you listen to Alexandra for a minute, I would 
appreciate it. She was an AmeriCorps volunteer.
    [The statement of Mr. Farr follows:]

[Page 444--The official Committee record contains additional material here.]


    Mr. Lewis. Hi, Alexandra. Would you identify yourself for 
the record so that our recorder has it correctly written?
    Ms. Herrera. Sure. My name is Alexandra Herrera, and as Sam 
said, after having completed my first year at Georgetown 
University, I was able to return to my home town of 
Watsonville, California and participate in the AmeriCorps 
Summer of Gleaning Project. I was a volunteer assistant at the 
Second Harvest Food Bank, and as an AmeriCorps member, I was 
able to take part in an endeavor which went far beyond the 
normal college student summer job.
    I was given an arduous task to complete in the time span of 
3 months. Along with another local AmeriCorps member, we were 
to recruit community volunteers to glean the fields and provide 
fresh produce to needy people in the area.
    The most rewarding aspect of the program was that, as a 
volunteer at the food bank, I was able to see how our work 
directly benefitted people from the community, and the 
AmeriCorps program strives to unify people of diverse 
backgrounds, and I can honestly say that I met people from an 
array of backgrounds in my own community.
    At one point during the program, I was an operator at the 
community food hotline which directs people from the area to 
local food pantries, and this experience made the nationwide 
social problem of hunger and malnutrition much more immediate 
than anything else ever could.
    I feel that you have to interact with people who are 
affected by the social issues to truly grasp an understanding 
of the matter, and I have always held rich ideals about what I 
would like to do with my life. My experience with AmeriCorps 
has given me the incentive to return to my community and make a 
difference.
    I have learned a great deal about myself and the type of 
job that I would like to pursue after graduation. I would like 
to see myself as a public servant, either as an elected 
official or by getting involved with nonprofit organizations in 
the community.
    In addition to this newfound inspiration, the AmeriCorps 
program provided me with an opportunity to enhance my 
leadership skills and the confidence to know that it is 
possible to attain effective results.
    I stated before, I feel I was very fortunate to have been a 
part of this program, and I believe it is important to provide 
these types of opportunities for today's youth.
    The AmeriCorps program encourages college students like 
myself to return to their communities and make a difference and 
becoming involved with worthy causes, and I also feel that it 
emphasizes the importance and value of community service. So I 
strongly urge you all to fund the AmeriCorps program.
    [The statement of Ms. Herrera follows:]

[Page 446--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Ms. Herrera.
    I really don't have any questions of you, but I might 
mention that one of my colleagues who at one time was 
responsible for running counseling for the Peace Corps in 
Southern California once said to me that it really is not quite 
so significant that which the Peace Corps does in the countries 
where these people have a chance to go, but, rather, the fact 
that they come back as different kinds of Americans, and there 
is a parallel here.
    I might, though, ask a question of Mr. Farr. I have had 
another request. It is not exactly in my Committee, but it 
involves education as well, in which the dollars are very 
tight, and it is difficult in this whole process, and sometimes 
you have to make tradeoffs.
    There is some request in California for funding from the 
State colleges who are base conversion that relates to 
educational dollars, and if there had to be a tradeoff, would 
you make a choice in this process?
    That is just in jest, Mr. Farr. You don't have to respond.
    Mr. Farr. Mr. Chairman, you are a very wise man, and I have 
always had a pleasure of working for you when I was a staff 
member in the California legislature and with you here in 
Congress, and I know that that choice, you will make----
    Mr. Lewis. Carefully.
    Mr. Farr [continuing]. Carefully.
    The base closure has benefitted from AmeriCorps because 
they used AmeriCorps volunteers to clean up, and just to tell 
you a story there, in Fort Ord, California, which is the 
largest military base closing in the United States, when bases 
close, there is a lot of cleanup work. What the Army did isn't 
suitable just for civilian use without sort of fixing it up and 
cleaning it up.
    AmeriCorps was called in before the University started, 29 
young Americans. They were older than Alexandra.
    Mr. Lewis. Frankly, I liked Alexandra's story better, and 
rather than extend your testimony, why don't we just take it 
for the record.
    Mr. Farr. The point is, these students would have never 
gone to a University, and after experiencing AmeriCorps, they 
enrolled in the University and started there at Ford Ord.
    Mr. Lewis. Are there other questions of my colleagues?
    Mrs. Meek. I don't have a question. I have a comment. I 
want to compliment Alexandra for coming this morning with such 
an enriching presentation. It has made me believe more in 
AmeriCorps. There is an old saying that I would rather see a 
sermon than to hear one any day. So, this morning, you have 
demonstrated that. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Knollenberg.
    Mr. Knollenberg. I would just add that you mentioned you 
have an interest in public service, and I see that you are 
interning for Congressman Farr. Do you have any interest in 
replacing him?
    Mr. Farr. It would be nice if she did.
    Mr. Lewis. Ms. Kaptur.
    Ms. Kaptur. I just wanted to thank Sam for bringing in such 
an inspiring young woman. You are a true credit to your family 
because you have had to work your way up, and that is very 
hard. That will serve you well the rest of your life, and I 
think Watsonville is one of the communities in California, is 
it not, that has lost lots of jobs in the food processing 
industry? So it is not a community that has necessarily only 
experienced good economic times. Isn't that true?
    Mr. Farr. It is the center of the Loma earthquake. Before 
NAFTA, a lot of the companies that were packaging companies 
left the town, high unemployment, 28 percent at one point. We 
do have a lot of poverty in the area. Everybody thinks the 
Monterey Bay area is just affluence because of Pebble Beach and 
Monterey Peninsula, but remember that the produce of this 
country is harvested in the Salinas valley, and Alexandra 
Herrera's family helped do that.
    Ms. Kaptur. Alexandra, are you the first young person in 
your family to go to college?
    Ms. Herrera. Yes, I am.
    Ms. Kaptur. All right. You are going to do just fine.
    Mrs. Meek. That is right.
    Ms. Kaptur. Thank you very much.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you for being with us.
                              ----------                              

                                             Thursday, May 1, 1997.

         COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS COALITION

                               WITNESSES

MARY MATHEWS, RITA HAYNES, KATE McKEE
    Mr. Lewis. Has Mary Mathews been able to arrive?
    Ms. Mathews. Chris Gaffney has been held up.
    Mr. Lewis. We understand that is the case.
    Ms. Mathews. Kate McKee is taking her place.
    Mr. Lewis. Okay, Ms. McKee.
    You have heard us express our concern about the numbers of 
people in line.
    Ms. McKee. Yes, absolutely.
    Mr. Lewis. So your entire statement will be included in the 
record. So, if you would be brief, we would appreciate it, and 
if you would identify yourself for the record as we go forward.
    Ms. McKee. Yes. Thank you very much.
    I am Kate McKee from Self-Help in North Carolina, and I am 
representing the CDFI Coalition, and we appreciate the 
opportunity to come before you today and support the 
President's full request for funding for the Community 
Development Financial Institution's Fund, a request of $125 
million.
    I will not read from the remarks, particularly since I 
didn't write them, and it just arrived a few minutes ago, but 
will speak just very briefly to the overall field of community 
development financial institutions, the key role the fund has 
already played in its first year of existence in building these 
institutions which served disinvested communities, and then we 
will ask my colleagues to briefly speak from their own 
experience in Cleveland and in rural Minnesota to the kind of 
work that CDFI can do and the work that the fund supports.
    Mr. Lewis. That is fine. If you would individually, as you 
speak, identify yourself for the record and summarize your 
statements, we would appreciate it.
    Ms. McKee. The CDFI Coalition was formed in 1992, and it 
represents over 350 Community Development Financial 
Institutions in all 50 States across the country that are many 
different types ranging from micro loan funds to community 
credit unions, community development loan funds, community 
development banks. A number are located in the areas in which 
you represent.
    Community Development Financial Institutions are basically 
about creating opportunities for economic uplifting in 
disadvantaged communities, and so we are in the business of 
providing financing and related assistance for small business 
development, for job creation and affordable housing, and 
development to support key human services.
    The CDFI Fund was created to use scarce Federal dollars. 
The fund was created to be able to leverage very scarce Federal 
dollars to let CDFIs, which are private-sector institutions, 
leverage those dollars in turn, and my institution, for 
instance, for every dollar that we received in this last round 
of funding from the CDFI Fund would be able to leverage that 20 
times into loans for small business development and affordable 
housing.
    The fund has developed a very careful program of reviewing 
business plans, extensive business plans that each applicant 
submits, and figuring out how to use its capital most 
judiciously, so as to make the maximum amount of private-sector 
capital come into the institution, and we urge full funding for 
the fund which was very over-subscribed in its first round.
    Now I would like to ask Rita Haynes, who is the Director 
and Treasurer of the Faith Community United Credit Union in 
Cleveland and a member of the National Federation of Community 
Development Credit Unions, to briefly speak to the work that 
her organization has been able to do, followed by Mary Mathews 
who is the----
    Mr. Lewis. If you would let them identify themselves for 
the record, that would be fine.
    Ms. McKee. Sure.
    Ms. Haynes. Mr. Chairman, I am Rita Haynes from Cleveland, 
Ohio. I have been a Director with Faith Community United Credit 
Union for some 25 years. We started as a church credit union, 
the Mount Sinai Baptist Church Credit Union, in 1952, later 
changed our charter to be community, and now we serve a mostly 
low-income community of African Americans on the east side of 
Cleveland.
    We currently have $5 million in assets, and we use this 
money for consumer mortgage, auto loans, and now, with the help 
of the CDFI Funds, we are going into home acquisition and home 
improvement loans.
    We received from CDFI a $350,000 grant, 200 of which was 
for capital to allow us to get into these other areas, and the 
$150,000 of it was for technical assistance, so that we could 
improve our operation.
    We are very happy to be a part of the Community Development 
Fund because it has enabled us to really help our borrowers who 
are the real recipients of the money, and as was said, when we 
receive this money, we can leverage it by over 20 times.
    We are also representing Northeast Ventures Corporation, 
which serves seven rural counties in Northeast Minnesota, and 
they received $1.25 million from the fund, Louisville 
Development Bank Corp, which is helping small businesses, they 
received $2 million, Boston Community Loan Funds, which 
provides capital for distressed areas in Massachusetts, and 
South Hills Ventures Fund in North Carolina, the Enterprise 
Corporation of the Delta, serving Arkansas, Louisiana, and 
Mississippi, the Santa Cruz Community Credit Union in 
California, and the Cascadia Revolving Fund in Seattle. All the 
borrowers are counting on assistance to help them do a better 
job in what we are already doing in the central cities of the 
United States, and I might say in our credit union, in faith, 
we also have an AmeriCorps volunteer who was very helpful in 
what we are trying to do in the inner city.
    Mr. Lewis. Thank you very much.
    Ms. Mathews. Mr. Chairman and Members of the Committee, my 
name is Mary Mathews. I am president of the Northeast 
Entrepreneur Fund in Virginia, Minnesota. We are a micro-
enterprise program that helps unemployed and under-employed men 
and women in Northeastern Minnesota, start or expand small 
businesses as a way of achieving economic self-sufficiency.
    I am also the chair of the Association for Enterprise 
Opportunity, which is the national association representing 
micro enterprise organizations, and we are also a member of the 
National Association of Community Development Loan Funds, which 
is the organization that represents nonprofit Community 
Development Financial Institutions.
    So I am here today with my colleagues to talk to you and to 
encourage you to provide full funding for this effort.
    As one of the key features of the CDFI Fund is that it has 
the ability to be flexible and responsible to community 
meetings, and CDFIs have grown up in their local communities 
based on what that community needs have been as a way to really 
promote true community, grass-roots community development.
    Ms. Haynes referred to the Northeast Ventures Corporation, 
which is our affiliate company in Northeastern Minnesota that 
makes equity investments, and they are as a partner to us. We 
are the micro enterprise development organization that works in 
conjunction with them.
    Our organization--and what I would like to do is add a few 
comments to what already are my written remarks and to 
reference some of our experience and the results that we have 
had working Northeastern Minnesota.
    Since the end of 1989, we have helped start over 300, help, 
start, stabilize, or expand 301 businesses. Those businesses 
have created just under 600 jobs, including that of the 
business owner. As an organization, we have made over $800,000 
in loans to date. Our average loan is $6,000.
    In thinking about how this affects the community, we 
recently did a study, and out of those 301 businesses, 37 of 
them have been owned and operated by welfare recipients, and 
today, 27 of those businesses are still in business, and three-
quarters of them are off welfare and are being supported either 
by sole income from the business or income from the business 
and a job.
    Micro enterprise strategy often becomes part of an income-
patching strategy, a frequent strategy for people today. We see 
people come in to our program, and they wantto be full-time 
employed by their business. Ultimately, they may need to get a job, but 
it gets them into the marketplace and helps them build a lifestyle that 
their family wants to move to.
    I could tell you a couple of stories. I don't know if you 
have time for stories, but----
    Mr. Lewis. The chairman has read the ``Magic of the 
Dream,'' though, I think.
    Ms. Mathews. Okay, okay. Well, in Northeastern Minnesota, 
we are not making $50 loans.
    Mr. Lewis. I understand.
    Ms. Mathews. And they are a little bit larger than that, 
but they are having an effect, a dramatic effect not only on 
the individual borrowers and the individual business owners, 
but also on their families. We have families--we have one 
family where the son is starting a--the father does auto 
repair. The family is now off welfare, and the adolescent son 
has started a little business buying and refurbishing bicycles. 
It is sort of his replication of his parents' business. So it 
is having a real impact, and it is having a multigenerational 
impact. So I thank you.
    [The statement of Ms. Mathews follows:]

[Pages 452 - 459--The official Committee record contains additional material here.]


    Mr. Lewis. One of the first jobs I had was taking apart the 
sprockets of my neighbors' bicycles.
    I might say that the Committee is very interested in this 
kind of work and the impact that it can have upon the 
communities involved. We have been supportive of CDFI in the 
past and programs like Neighborhood Reinvestment.
    I am concerned, and I would hope that you would help us 
with this concern as well. There is a tendency sometimes when 
we see what we believe to be a good thing to want to explode it 
overnight, and if you are not very careful, you can take a 
success pattern and destroy it by not allowing it to grow and 
mature in a way that exercises the strengths.
    So we were very concerned about loss ratios. If you look at 
the Gramine Bank, the loss ratios there are commercial kinds of 
ratios, and it is phenomenal, but in no small part because of 
local community, that is, people involvement in reviewing those 
individual small loans, but nonetheless, you are in a very 
fascinating subject area where private sector efforts are 
attempting to tap a few dollars and maximize their potential in 
the communities.
    So we appreciate your being here. If members have 
questions, I would be very happy to yield.
    Ms. Kaptur. I do. Could I just briefly speak to the point 
of losses? Because the CDFI industry as a whole has losses that 
actually are compared favorably with commercial lending 
institutions.
    My own institution has made over $90 million of loans, all 
of them that would be considered non-creditworthy by banks, and 
our losses are well under 1 percent. So I think you make a very 
important point about the need to grow these organizations 
judiciously.
    I can just say, having been through the ringer with CDFI 
Fund staff, they really question the assumptions of our 
business plan and scaled back many of the requests and 
suggested that people have activities.
    Mr. Lewis. Sometimes our local community banks have made 
their biggest mistakes by the fact that they have had a small 
pattern of success.
    Ms. Kaptur. Yes.
    Mr. Lewis. Suddenly, they want to expand overnight and 
become Bank of America, and shortly, they are closing their 
doors.
    Ms. Kaptur. Yes, yes.
    Mr. Lewis. It is very important that we be sensitive to 
those concerns.
    Ms. Kaptur.
    Ms. Kaptur. Mr. Chairman, I just couldn't help but take a 
moment because this is what I did before I was ever elected to 
Congress and say how pleased I am with the progress that has 
been made across our country through organizations like yours 
with the supplemental help of entities like CDFI, and I am 
certainly thrilled to have someone here from Cleveland from a 
credit union. I am a big supporter of credit unions.
    I did want to ask whether or not the credit union in 
Cleveland has been talking at all with the FHA. I understand 
the FHA has a special outreach to credit unions in the mortgage 
arena. Have they managed to find you yet?
    Ms.  Hayes. We have been talking to them. We haven't gotten 
it to the point that gets them to the larger realm. That, we 
haven't been able to do yet, but we have been communicating.
    Ms. Kaptur. All right.
    Ms. McKee. Our credit union was actually the first CDFI 
recruited by FHA to start offering their products.
    Ms. Kaptur. Really? I would be very interested in knowing 
more about that experience, if that is possible.
    Ms. McKee. We would be happy to share that with you, yes.
    Ms. Kaptur. Ms. Mathews from Minnesota, could you just 
describe--you mentioned the auto mechanic business. Could you 
just tick off two or three of the businesses that your efforts 
have helped to spawn?
    Ms. Mathews. The range is incredible. You know, auto repair 
is one that is frequent, but we have worked with small 
manufacturers that have national and international markets, as 
well as local service businesses. There is a higher percentage 
of service businesses because they are easier to start and 
require less capital, but the range--there are some craft 
business, some industrial products, in fact, one that has an 
international marketplace. So it is a full range.
    Ms. Kaptur. I just wanted to end by saying, it is very 
interesting to me that three women have come before us today 
doing the hard work of community development at the local 
level, business development, financial development. You are 
cosmic mothers.
    Mr. Lewis. If you haven't read the ``Magic of the Dream,'' 
one should. It is all women in that case.
    Mrs. Meek. Mr. Chairman, I am not asking for any special 
credit for Miami, but our program won a national award, and I 
just wanted the Committee to know that.
    Mr. Lewis. Thank you.
    Mrs. Meek. We are so good.
    Mr. Lewis. Thank you for being here.
    Ms. Mathews. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

ROBERT MARTIN, GENERAL MANAGER, AWWA RESEARCH FOUNDATION AND THE 
    ASSOCIATION OF CALIFORNIA WATER AGENCIES; ACCOMPANIED BY WIT 
    VANCOTT, CITY OF TOLEDO, OH; AND MR. STEVENSON, HOLLYWOOD, FL
    Mr. Lewis. Next on our list is a hometown fellow from 
beautiful downtown San Bernardino, Bob Martin.
    Mr. Martin, you have heard me caution other witnesses, and 
you can see the schedule we have.
    Mr. Martin. Yes, I have.
    Mr. Lewis. People in and out every 5 minutes, but in the 
meantime, you certainly are welcome and we will take your 
entire testimony in the record, and from there, if you would 
summarize, we would appreciate it.
    Mr. Martin. Thank you.
    My name is Robert Martin. I am with East County Water 
District in San Bernardino, California. With me is Mr. 
Stevenson from the City of Toledo, and Mr. Vancott from 
Hollywood, Florida.
    We want to thank you for----
    Mr. Lewis. You just happened to select people from Ohio, 
from Florida, and California. I wonder why?
    Mr. Martin. It kind of worked out that way.
    We want to thank you for last year's add-on that this 
Committee provided for us, the $2.5 million for the American 
Water Works Association Research Foundation and $1 million for 
the Arsenic Health Effects Research. The AWWARF money is being 
matched with $9.1 million in monies that have been collected 
across the country from water agencies. This is a $3.64-per-
dollar match, and on the Arsenic million dollars, we matched it 
with the half-million dollars from, again, water agencies in 
California, Arizona, and Texas, and another half-million 
dollars from the AWWARF Foundation.
    Since we appeared before you last year, there have been new 
partnerships that have been formed with EPA. The AWWARF has 
formed a partnership to look at the disinfection byproducts 
issues in drinking water for just iridium, and as well as the 
new partnership to look at the health effects of arsenic in 
drinking water. These partnerships are underway now, and we 
have high hopes that they are going to be very effective.
    Based upon this track record of cost-sharing, we are here 
to request an add-on of $5 million for the AWWA Research 
Foundation, as well as a $1 million add-on for the arsenic 
program that we have with the EPA.
    The Safe Drinking Water Act reauthorization demands that 
good science be part of all new regulations. For us to go back 
to our customers, it is essential that we have good research to 
back up new regulations, to justify the costs that are 
associated with them.
    As in the past, the water supply community is bringing its 
own money to the table before we ask for congressional add-ons.
    The colleagues that I am here with today are a good example 
of that. Mr. Gorden, who was here earlier on behalf of Detroit, 
has committed $375,000. Mr. Ciaccia, who is here from the City 
of Cleveland and is also the Vice Chair of the Research 
Foundation, is committing $116,000 to the program. Mr. Correll 
from United Water in New Jersey is $135,000. Mr. Stevenson from 
Toledo is $42,000. Mr. Vancott from Hollywood, Florida has 
invested $10,000 this past year. The Miami Dade Utilities has 
committed $200,000 to this program. My own agency is committing 
$13,000 this year.
    We believe that this local investment and the peer-reviewed 
science that it secures is the best way to fund new drinking 
water regulations.
    We want to thank you for your consideration and your past 
help.
    [The statement of Mr. Martin follows:]


[Pages 463 - 467--The official Committee record contains additional material here.]


    Mr. Lewis. Well, we appreciate very much your testimony.
    Each of us, as you have kind of demonstrated by your 
outline here, has an interest in clean water in our individual 
districts. Mr. Frelinghuysen went so far as to get the Governor 
of New Jersey to show up earlier this morning regarding some 
problems, and in the meantime, I just have my local water 
district representative, and we appreciate that.
    Any questions from the members?
    Mrs. Meek. No.
    Ms. Kaptur. No, Mr. Chairman. We are just glad to have this 
work back.
    Mrs. Meek. That is right.
    Ms. Kaptur. They have done an excellent job.
    Mr. Lewis. Yes, they have.
    Ms. Kaptur. We look forward to more progress.
    Mr. Vancott. Mr. Chairman, I might add, the zebra muscle 
issue that came into the Great Lakes was a joint project 
between Detroit and Toledo and Cleveland. I was a long-term 
resident of Toledo and a good friend of Marcy Kaptur.
    The Research Foundation has been the national information 
clearinghouse for that project, and we brought in two grants 
from the Research Foundation for about $350,000. That money was 
leveraged with almost another $1.2 million between those cities 
involved. So that money is being very well used.
    This year, I am going to be on the Board of Trustees for 
the National Research Foundation, and I will keep Frank Cushing 
well informed of how well we are using that money and how that 
is being spread.
    Mr. Lewis. Well, we not only appreciate your expanding on 
the record, for we will receive your entire statement for the 
record, but anybody who can help me keep Frank Cushing 
informed----
    Mr. Martin. This gentleman does an excellent job. We are 
both Eagle Scouts.
    Mrs. Meek. Mr. Chairman.
    Mr. Lewis. Yes, ma'am.
    Mrs. Meek. The research that you conduct, sooner or later, 
leads to policy-making in this body. Am I correct?
    Mr. Martin. Yes, ma'am. That is what we hope for.
    Mr. Vancott. Yes, ma'am.
    The arsenic issue in California is extremely important. We 
have water supply----
    Mr. Lewis. Do you think that my colleague hasn't talked to 
me about that?
    Mr. Vancott. Yes, sir.
    But Florida is now experiencing water supply issues----
    Mrs. Meek. Yes.
    Mr. Vancott [continuing]. And we are sharing with our 
colleagues----
    Mrs. Meek. Absolutely, big ones.
    Mr. Vancott [continuing]. In California the experiences 
they have had. So I did bring some water bottles. There are 
some for the staff in the back.
    Mr. Lewis. I am not even sure we can accept this.
    Mr. Vancott. These are 87 cents, Congressman. They are 
nominal.
    Mr. Martin. They are de minimis.
    Mr. Vancott. We thank you.
    Mr. Lewis. Well, as you all understand, with our very 
difficult record here, we do appreciate your taking the time to 
provide a supplement for our record, and it is a pleasure to 
work with you and we look forward to continue to do so.
    Mr. Martin. Thank you very much.
    Mr. Lewis. Thank you.
    Mr. Vancott. Thank you.
    Mr. Lewis. If you keep wanting to raise other issues, the 
longer the testimony, the worse off you are.
    Mr. Martin. I will take that as good advice.
    Mr. Lewis. All of these people are waiting in the office.
    Mr. Martin. Thank you, sir.
    Mr. Lewis. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

DONALD L. CORRELL, CHAIRMAN AND CEO OF UNITED WATER RESOURCES, AND 
    CHAIRMAN, GOVERNMENT RELATIONS COMMITTEE, NATIONAL ASSOCIATION OF 
    WATER COMPANIES; ACCOMPANIED BY PETER COOK, EXECUTIVE DIRECTOR
    Mr. Frelinghuysen [presiding]. Moving right along, I am 
pleased to recognize Donald L. Correll, Chairman and CEO of 
United Water Resources, and Chairman of Government Relations 
Committee, National Association of Water Companies.
    Good morning. How are you?
    Mr. Correll. Nice to see you. Thank you.
    Mr. Frelinghuysen. Your statements will be included in full 
and total in the record, and if you could be good enough, given 
our time schedule, to summarize some of your points, but please 
proceed.
    Mr. Correll. I will be glad to do.
    I apologize on behalf of all the member companies of the 
NAWC. We could have provided at least 100 more water bottles, 
if we would have known that that was acceptable, but good 
morning. Thank you.
    With me today is Peter Cook who is the Executive Director 
of the NAWC, and I am Chairman of the Government Relations 
Committee and a Member of our Board.
    Our trade association represents the investor-owned water 
utilities that provide water to some 33 million people across 
the country every day. We are representative companies, the 
number of 340, and we have members in 41 States. On behalf of 
all of them, I appreciate the opportunity to be here with you 
today.
    I am also Chairman and CEO of United Water Resources. We 
are based in Harrington Park, New Jersey, which is, as you 
heard in the earlier testimony, the most densely populated 
State, and our service area is the most densely populated 
region of the most densely populated State.
    We are the second largest investor-owned water services 
company in the United States, and as an aside, I would also say 
that we serve the Toms River, Dover Township area that the 
Governor mentioned a little earlier. As an aside on her behalf, 
I would also support the request for the funding of this study 
since it is our three wells that she alluded to that are out of 
service, and we have worked very closely with the Governor and 
her staff and the Department of Health and the EPA and the DEP 
in the State to try to resolve this long problem.
    Mr. Frelinghuysen. Thank you.
    Mr. Correll. Our company has also been a leader in forming 
public-private partnerships to provide contract operations to 
municipal systems across the country, and through our company 
and through our affiliates and subsidiaries, we provide service 
to an additional 2.5 million people in several States across 
the United States.
    On behalf of our industry, as my testimony says, we have a 
long tradition. Our Association just celebrated its hundredth 
anniversary. Many of our member companies, including ours, 
trace their roots back to the mid-1800's and have been 
providing service for almost 150 years in some cases.
    Our goal is to provide safe and adequate water supply to 
all of our customers on a daily basis, and all of our member 
companies are tax-paying entities and pay taxes at every level 
of Government on an annual basis, but whether it is our 
investor-owned companies or the municipal systems, we all look 
to the EPA for some guidance in establishing the regulations, 
and with that in mind, we fully support the full funding in 
accordance with the budget request for the administration's 
request for $105 million for the EPA's drinking water program 
and $104 million for the State and Tribal Drinking Water 
grants.
    We also support the request, the notion of full funding of 
the SRF, and we were somewhat disappointed that the 
Administration's request did not look for full funding of that, 
and we would certainly support full funding at the billion-
dollar level, as authorized by the SDWA of 1996, rather than 
the $725 million that was requested by the Administration.
    We also believe that full funding for research of the 
health effects of water is important, and in that regard, we 
would support the SDWA setaside of $10 million each year for 
the drinking water State revolving fund, drinking water funding 
for research. We believe that the setaside is both appropriate 
and necessary, and given the expense and importance of such 
research and the need to assure researchers, the future 
support, we think it is important to have that setaside. I 
think the Governor's request this morning is a further example 
of the need for further research funding.
    We also support the request by the American Water Works 
Association Research Foundation for $5 million for added EPA 
research on drinking water.
    In closing, I would just like to say that we have read with 
interest the EPA's draft response to the Congress on the 
privatization of waste water facilities. We understand that 
that was prepared in response to this Subcommittee's request 
last year for information about this, and while it was 
specifically focused on waste water, I can say that most of the 
conclusions and most of the information are equally applicable 
to the water industry and the municipal water industry that 
exists.
    We believe that it is important to eliminate all of the 
barriers to privatization and public private partnerships that 
exist for municipalities today, and that they should be given 
all of the options necessary to improve their service.
    Serving almost 200 communities in almost 20 States, I can 
say we are asked on a regular basis to provide some additional 
services to neighboring or adjacent communitiesand 
municipalities, and indeed, there are a number of restrictions and 
impediments that are imposed upon us that really prevent us from 
providing a full array of options to these municipalities.
    I can say, having read the report and having had a direct 
interest in both the Indianapolis waste water privatization 
that was alluded to in the report, as well as being the ones 
who privatized the Jersey City water system, which to date is 
the largest water system in public-private partnership in the 
country; that all of the impediments that were alluded to in 
the report exist on the water side as well, and I think that 
complying with the executive orders and directing the agencies 
to do whatever is necessary to remove those impediments would 
be a great tribute to this Committee's work and it would be 
something that would be very much appreciated by all of the 
municipalities.
    Once again, I want to thank you for the opportunity on 
behalf of our Association to offer this testimony, and I am 
ready to answer any questions.
    [The statement of Mr. Correll follows:]

[Pages 472 - 476--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. All right. Well, thank you very much for 
your testimony here, a New Jersey flavor to it as well.
    Ms. Kaptur, any comments?
    Ms. Kaptur. In 30 seconds, I just wanted to ask, 
geographically, of the 20 States in which your Association has 
a presence, are more east of the Mississippi, west of the 
Mississippi, north or south? I wanted to get a sense of that.
    Also, within metropolitan areas, does your Association 
represent more suburbanized privately owned water companies, or 
are these in central cities? Give me a sense of where you are 
located because I am unfamiliar with your services.
    Mr. Correll. The almost 20 States that you referred to was 
the number of States that our company provides service to. Our 
Association, representing some 340 companies operates--has 
representatives from 41 States. I would say that they are 
pretty much equally divided across the country, although I am 
almost certain that almost every State east of the Mississippi 
is represented by one of our companies. There may be a few in 
the western States that aren't represented.
    Most of them are more suburban. They are all investor-
owned, but most of them provide service to suburban areas 
outside of the large cities.
    However, I would note that if we were having this 
discussion 50 to 100 years ago, many of those urban areas, 
particularly east of the Mississippi, were, in fact, investor-
owned water systems. Our industry and most of the water systems 
east of the Mississippi trace their roots to the investor-owned 
industry, but over a period of many years, many decades, 
through the use of tax-exempt debt and other opportunities, 
many of the investor-owned systems were purchased by and taken 
over by the municipalities.
    Ms. Kaptur. And are most of your customers or your members, 
are they residential, industrial, commercial, or is it strictly 
residential?
    Mr. Correll. All of our members have a mixture. Many of 
them provide services to residential areas, but many have--
particularly in the State of New Jersey where 40 percent of the 
population is served by investor-owned companies, we serve many 
industries as well.
    Ms. Kaptur. Thank you.
    Mr. Frelinghuysen. Thank you very much. Thank you for being 
here.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

JULIUS CIACCIA, JR., PRESIDENT OF AMWA, AND COMMISSIONER OF WATER FOR 
    CITY OF CLEVELAND, ASSOCIATION OF METROPOLITAN WATER AGENCIES
    Mr. Frelinghuysen. I am pleased to recognize the president 
of AMWA and commissioner of Water for the City of Cleveland, 
and representing the Association of Metropolitan Water 
Agencies.
    Would you be good enough to pronounce your name?
    Mr. Ciaccia. Yes, I knew I was going to have to do that. My 
name is Julius Ciaccia. It is C-i-a-c-c-i-a, just like it 
sounds.
    Mr. Frelinghuysen. I thought of taking a leap of faith, but 
I didn't.
    Mr. Ciaccia. It is an Italian name.
    Mr. Frelinghuysen. A copy of your full remarks will be 
included in the record, and if you would be good enough to 
proceed.
    Mr. Ciaccia. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman and Members of the Subcommittee. 
As I said, my name is Julius Ciaccia. I am president of the 
Association of Metropolitan Water Agencies, and I am also the 
Commissioner of Water for the City of Cleveland, Ohio.
    The Association which we call AMWA is composed of the 
Nation's largest public water systems, water system to serve 
over 100,000 people and collectively serve over 100 million 
Americans. We sincerely appreciate the opportunity to testify, 
and as you said, we are glad that our testimony will be part of 
the record, but briefly, I could outline what that testimony 
is.
    I was heartened this morning to hear that the Chairman and 
this Committee, when addressing the Governor of New Jersey, to 
acknowledge how important research is, and especially in the 
drinking water area, and that is what most of our testimony 
covers.
    It is going to cover health effects research, funding for 
research partnerships with the American Water Works Research 
Foundation, funding for arsenic research through Partnership of 
Research Foundation, California Water Systems, and other water 
supply agencies, and then the EPA Drinking Water Program, State 
primacy grants, and the new Drinking Water Revolving Fund.
    Briefly, on each of those, I would like to say that, last 
year, the entire Congress, of course, is to be commended for 
passing the new Safe Drinking Water Act, and this Act included 
an increase under reliance of health effects research. In 
section after section of this Act, there is a call for the EPA 
to poach regulatory decision-making differently. The statute 
requires the Agency to utilize health effects data to identify 
contaminants for future regulation and for setting up drinking 
water goals and standards.
    For the first time, the law gives the EPA the discretionto 
consider risk tradeoffs and to set standards based on such data.
    Beyond the research needed to satisfy program requirements, 
funds are needed to expand the scientific community's 
understanding of health effects of microbial contaminants and 
disinfection and disinfection byproducts.
    AMWA would like to thank this Subcommittee for last year 
appropriating $10 million specifically for health effects 
research. Without substantial investments on an annual basis, 
Congress, EPA, the States and our drinking water suppliers 
cannot assure American consumers that contaminants selected for 
regulation will be the appropriate ones for drinking water 
standards to have adequately established.
    AMWA recommends that Congress meet EPA's fiscal year 1998 
request of $35.9 million for drinking water research. In 
addition, AMWA has urged EPA to set aside $10 million per 
fiscal year for Drinking Water State Revolving Funds, 
specifically for health effects research.
    In addition to the EPA's request, AMWA supports separate 
funding for research partnerships outside of the Agency. These 
partnerships, which involves the AWWA Research Foundation, the 
Association of California Water Agencies, and other drinking 
water suppliers have already been highlighted by my colleagues, 
and I would like to stress their importance.
    Last year, Congress provided $2.5 million to AWWARF. The 
drinking water community matched that amount with $9.1 million 
and looks forward to maintaining the longstanding cooperative 
relationship we have had with the EPA.
    Just as an example, the EPA and AWWARF jointly participate 
in a research project called the Microbial Council. It 
addresses microbial disinfection, disinfection byproduct 
research needs presented by the Enhanced Surface Water 
Treatment Rule and other related rules, and there are other 
types of examples of joint efforts such as this.
    AMWA recommends providing $5 million for fiscal year 1998 
for EPA AWWARF partnerships with the Nation's drinking water 
suppliers matching those dollars, as we always have.
    The other area that AMWA believes deserves the 
subcommittee's support is the Arsenic Research Partnership. For 
fiscal year 1998, AMWA recommends providing $1 million 
specifically for arsenic research under the aegis of the 
partnership, which includes AWWARF, the Association of 
California Water Agencies, and the EPA. As in the past, the 
funding would be matched by individual drinking water 
suppliers.
    Beyond the research needs, EPA's Drinking Water Program 
faces a daunting----
    Mr. Frelinghuysen. You need to work to summarize a little 
bit.
    Mr. Ciaccia. Okay.
    Mr. Frelinghuysen. Thank you.
    Mr. Ciaccia. Well, as I said, beyond the research needs, we 
would recommend that the Congress support the $105.3-million 
budget that has been submitted. We would also ask that the 
Congress authorize $100 million for public water system 
supervision, public program grants, and finally, that $1 
billion be authorized for the revolving loan funds, as 
authorized.
    Again, Mr. Chairman, it is a big task in front of us, and 
we would ask for your support on all of these recommendations 
that we have made.
    [The statement of Mr. Ciaccia follows:]

[Pages 480 - 484--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. We will do our best. Thank you.
    Ms. Kaptur, any comments?
    Ms. Kaptur. No.
    Mr. Frelinghuysen. Thank you very much for summarizing.
    Mr. Ciaccia. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DOUGLAS B. MacDONALD, EXECUTIVE DIRECTOR, MASSACHUSETTS WATER RESOURCE 
    AUTHORITY
    Mr. Frelinghuysen. Moving right along, Mr. Douglas B. 
MacDonald, Executive Director, Massachusetts Water Resource 
Authority.
    Mr. MacDonald, how are you?
    Mr. MacDonald. Fine. Thank you very much.
    Mr. Frelinghuysen. The same cautionary note that we have 
given to the other witnesses and guests, and a copy of your 
remarks will be included in the record.
    Mr. MacDonald. Let me say, thank you for seeing us today, 
and say that----
    Mr. Frelinghuysen. I thought you were going to say thank 
you for moving the testimony along.
    Mr. MacDonald. And thank you for the support that the 
Committee has given to our project. We have been here before, 
and the staff is very familiar with the project, as are the 
members, and I will spare you most of my written testimony for 
that reason.
    The project is a huge one. It is a local project, but it 
was driven upon us by requirements of the Clean Water Act, and 
we have responded to a Federal mandate by building a massive 
new treatment plant, really unprecedented anywhere else in the 
country.
    That had very, very difficult rate impacts for us, which 
have had almost national notice in some respects, and your 
Committee and the Congress and the Administration has helped 
with that by giving us a small piece of what the project has 
cost to help our local efforts.
    I can really cut to the chase, I think, if I show you 
simply a page that I brought in some of the material in here, 
but I found this very helpful in talking to some members of our 
delegation to illustrate exactly what is going on, and I have 
this for the Members.
    Mr. Frelinghuysen. All Members will get it.
    Mr. MacDonald. We will make sure that we have this 
submitted to you, but it makes the point so simply.
    The red is the burden of the $3.6 billion that have been 
paid by our local ratepayers. These shares in pink are portions 
that our State government has brought to the party because 
everybody has recognized that in asking the Federal Government 
for help, we have had to show that our entire State has also 
backed this effort, and each of these sea-green, sea-blue 
pieces are the various pieces that the committee and the rest 
of the Congress have found it appropriate to help our local 
situation with, and essentially, what we are asking at this 
point, and consistent with the administration's request, is 
that a couple of small further blue slices, a slice off from 
that small red slice so that the Federal share of the project 
would go to about 22 or 23 percent, and the local ratepayers' 
share would drop to about 56 percent. We are still locally 
bearing much thelargest burden of this project, and it is 
appropriate to do so. I mean, this is not a quarrel about that. It is 
about how the Federal Government can continue to help with this 
enormous mandating expense, and that is essentially what I am here to 
ask, if you could continue to help us with in this very difficult 
budget, and this tells the story of what it means to us more 
effectively than anything else I could say. There is some information 
about rates further on in the back of the package.
    Yesterday, some of our delegation was here supporting the 
project, and there were some other ideas presented, one of 
which is some ways in which the Federal Government may be able 
to help through liberalizing some SRF procedures, a very small 
slice of what is in the pink, and we are going to be in touch 
with you about the details about how that would affect us, and 
it would have very salutary effects for a number of other 
people, definitely something we think would be excellent flor 
the committee to move forward on, but in our instance, while 
helpful, it is not a substitute for what the committee has been 
so helpful with in the past, but our principle here has always 
been to thank you for what you can do and let you know that we 
are grateful for every drop of assistance that comes forward. 
So it is also a constructive idea, and we will supply you some 
information about exactly how it would affect us and support 
the members of the delegation who talked about it with the 
chairman yesterday.
    Now, I am remiss not to do one further thing, listening to 
the testimony, and I know I am always supposed to stay on 
message when I come down here. I am also a water supplier. 
These research things that have been discussed with you today 
are enormously important, and I want to second the statements 
of people from the water industry who have talked to you today 
about the importance of those issues. All of us in the local 
community that are trying to give safe drinking water and good 
environmental work depend on the support that we have from EPA 
and the Congress.
    So, in addition to our local needs, I just want to, since I 
am here, speak in support of these other initiatives that have 
been discussed. They are very important to us all.
    [The statement of Mr. MacDonald follows:]

[Pages 487 - 489--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much, and as the chairman 
said to some of your congressional delegation yesterday, the 
Boston Harbor Project is important, and I am sure that we will 
be continuing to participate.
    Mr. MacDonald. We have many witnesses that I know you have 
to hear. So I am not even going to say, that is what the 
project is about. It has national significance for the 
environmental values it embodies, as well as local significance 
for us. So, in helping us, I hope you are serving more than 
just a local agenda, and we are very proud of our project and 
grateful for your help.
    Mr. Frelinghuysen. Thank you very much.
    Mr. MacDonald. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

DAVID SLADE, ASSOCIATION OF NATIONAL ESTUARY PROGRAMS; ACCOMPANIED BY 
    KEVIN McDONALD, CHAIRMAN, CITIZENS ADVISORY COMMITTEE OF PECONIC 
    BAY OF NEW YORK; AND BILL KERR, CHAIRMAN, CITIZENS ADVISORY 
    COMMITTEE OF INDIAN RIVER LAGOON OF FLORIDA
    Mr. Frelinghuysen. David Slade, Association of Natural 
Estuary Programs. If you could come forward.
    Mr. Slade, good morning. How are you? Nice to see you.
    Mr. Slade. We have brought some colleagues.
    Mr. Frelinghuysen. If you would be good enough to identify 
yourselves.
    Mr. Slade. I will do that.
    Mr. Frelinghuysen. Thank you.
    The formal comments will be in the record----
    Mr. Slade. Yes.
    Mr. Frelinghuysen [continuing]. And if you could do your 
level best to summarize, that would be wonderful.
    Mr. Slade. Very good.
    I am David Slade, and we are here to testify on behalf of 
National Estuary Program, and I am a citizen and a Member of 
the Association. To my left is Kevin McDonald. He is Chairman 
of the Citizens Advisory Committee in Peconic Bay in New York, 
and to my right is Bill Kerr, Chairman of the Citizens Advisory 
Committee in Indian River Lagoon in Florida. So the three of us 
are here as citizens in strong support of this program.
    The National Estuary Program was established under Section 
320 of the Clean Water Act. It is 10 years old, and the reason 
we support it so strongly is it is not one of the old school 
command-and-control type of environmental programs. Section 320 
sets up a process where conservation management plans are 
developed by the local sectors, the local agencies, the State 
agencies, local business groups, local citizens and citizen 
groups, and the process requires everybody to come together in 
a consensus, and it has really been successful in decreasing--
not wiping out, but decreasing litigation. It has been very 
successful.
    It is a 10-year-old program, like I said. There are 28 NEPs 
around the country. We do have something you could take a look 
at here. It is just to show you the geographic coverage of this 
program.
    Of the 28 that are there, 17 have reached the 
implementation stage, while 11 are still in the development 
stage. There are two stages of development and implementation. 
So it is really turning the corner, and with the two stages, 
with the development and implementation stage, it is important.
    The message that we wanted to bring to you today is there 
are several sources of funding for this program within the 
Clean Water Act. There is Section 320 funding itself, which is 
the core program, but for development and, later down the line, 
implementation, the NEP program is to coordinate closely with a 
Nonpoint-Source Pollution Control Program, the Construction 
Grants Program, and the Revolving Loan Funds Program.
    We are here today asking the assistance of this 
Subcommittee to help us get that message through to EPA. We are 
not asking here for an additional appropriation amount. 
Whatever the appropriation is to the EPA, we would like the 
Subcommittee's assistance in getting direction to allocate $28 
million of the NEP money to the core program. That is $1 
million per site, and these gentlemen to my left and right can 
tell you why that is important.
    The second is in the implementation stage. We need EPA to 
give priority emphasis when they are, in turn, allocating out 
the Nonpoint Pollution Control, the Construction Grant, and the 
Revolving Loan Fund Programs, to put a special emphasis on 
those CCMPs who have approved management plans. That is our 
central message to get this Subcommittee's assistance with that 
message to EPA.
    I will turn it over to Bill.
    Mr. Frelinghuysen. Sure, very briefly. Good to hear from 
another citizen. You have some counterparts in New Jersey, I 
see. I see you have got some things.
    Mr. McDonald. The successful element of this program and 
why we are here, both Bill and I from far places from 
Washington, is that as a result of this program, citizens 
across the Nation are conferring with one another about what 
some of the problems are in our waterways and how one problem 
solving one part of the country can be transported to 
anotherpart of the country, good technology transfer.
    This program is a success in the sense that there are 
thousands of hours of citizen participation, month after month 
after month, that are actually solving the problems. We have a 
diverse interest involved in this program. At one time, it 
wasn't uncommon for marine operators to be fighting with 
environmental groups and farmers to be fighting with citizen 
groups and environmental groups. This program makes us all work 
together. It puts us at an even part with constructive problem-
solving, and it is actually working, and I would say better 
than most other resource concepts across the country.
    Better than that, it is because of that structure, because 
we are working together, we are able to get support at the 
local level in terms of State, county, and hundreds of millions 
of dollars of water quality improvement projects. Just in New 
York State alone, we approved a bond issue last year, $800 
million to improve water quality, and the Governor smartly said 
we have the plans in place. It is the Long Island Sound study, 
the Peconic Estuary Study, of which this program helped 
general.
    Finally, it is inventing good solutions that we otherwise 
didn't have, and it is that network that we have. It is 
incentive-based, and it really is working, and with a modest 
investment further, I think we can make significant 
improvements.
    Thank you.
    [The statement of Mr. Slade follows:]

[Pages 493 - 496--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Your work is exciting and innovative. 
Interesting.
    Any comments?
    Mr. Kerr. Just that it has encouraged State, local, and 
Federal governments to work together, and as a consensus-
building process in conflict resolution for environmental 
issues, it is tremendous.
    Mr. Slade. This is really one of those environment programs 
that works from the bottom up. It works from the local level 
up, and it is 10 years old. It is coming into fruition, and it 
seems to be meeting with a lot of success.
    Mr. Frelinghuysen. I see a lot of bumper stickers that say 
``Save the Bay.''
    Mr. Slade. That is right.
    Mr. Frelinghuysen. This is a lot of your work.
    Thank you very much.
    Mr. Slade. Thank you.
    Mr. McDonald. Thank you very much.
    Mr. Kerr. Thank you.
    Mr. Frelinghuysen. We will take about a 5-minute recess.
    [Recess.]
                              ----------                              

                                              Thursday, May 1, 1997

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

VANESSA M. LEIBY, EXECUTIVE DIRECTOR, ASSOCIATION OF STATE DRINKING 
    WATER ADMINISTRATORS
    Mr. Frelinghuysen. I would like to start the hearing again. 
I recognize Vanessa M. Leiby, Executive Director, speaking on 
behalf of the Association of State Drinking Water 
Administrators.
    Ms. Leiby. Thank you.
    Mr. Frelinghuysen. Good morning.
    Ms. Leiby. Good morning.
    Mr. Frelinghuysen. A copy of your full testimony will be 
included in the record, if you would be good enough to proceed, 
and if you could, summarize.
    Ms. Leiby. I will try to be brief. I didn't bring anybody 
else with me.
    As you indicated, my name is Vanessa Leiby. I am the 
Executive Director of the Association of State Drinking Water 
Administrators. We represent the States who are charged with 
implementing the Safe Drinking Water Act across the country.
    Before I get into the official testimony, I do want to 
thank you and the other Members of the Subcommittee for knowing 
about drinking water, for caring about drinking water, and 
really being very strong supporters of drinking water of the 
last few years. It has certainly been a help for us to be able 
to come before you and speak with people who are knowledgeable 
about these issues.
    As you know, through a coordinated and committed effort of 
the States, the utilities, local government, the environmental 
community, EPA, and the Congress, we were able to pass a new 
drinking water law in August, and it really will dramatically 
change how we protect drinking water over the next 10 or 20 
years in this country, and there are four major themes, really, 
in the new law.
    There are prevention programs, such as source water 
protection and enhanced operator certification, regulatory 
improvements that require a new emphasis on sound science and 
risk assessment, new funding provisions for infrastructure 
improvements and other setasides for important other 
activities, and a significant new emphasis now on consumer 
outreach and public involvement, which we think is very 
important.
    Now, while the States, who our members supported many of 
these provisions in the law, they also recognize that 
successful implementation would require new resources and 
enhanced coordination and cooperation among all of the 
interested stakeholders that I have mentioned, and the reality 
is that much of the work is really going to fall on our Members 
to get done. They are the ones that have to develop and 
implement the programs, and it will ultimately be held 
accountable for the success of those programs.
    For instance, many of the new initiatives include a 
requirement for States to assess and delineate all of the 
source waters that are used for drinking water in their State 
within a 2-year time frame. Well, there are 187,000 public 
water systems out there, and as part of that process, they are 
going to be identifying potential sources of contamination and 
analyzing the vulnerability or susceptibility of each of those 
water systems to contamination.
    It is a sizeable task, and they are also, as you know, 
working feverishly to get State Revolving Fund Programs in 
place so that much needed monies will be going to these systems 
for infrastructure improvements.
    They are also going to be doing a lot of work for all of 
these water systems. In the viability area, you know we have 
quite a problem with particularly the smaller systems who are 
not able to comply, and so the new law requires that the States 
develop programs that will review the managerial, financial, 
and technical capabilities of all of these water systems to 
provide safe drinking water, again, a permittable task.
    Many States will also be required to expand operator 
certification and training programs to ensure that there are 
qualified people at each of these systems.
    As part of the outreach effort, they will be providing 
annual reports to the consuming public, all of the consumers in 
their States about the quality of drinking water and providing 
significant amounts of new information to EPA oncontaminant 
protection information. Almost all of these new efforts involve quite a 
bit of public outreach and effort.
    Given all of these new responsibilities and programs that 
the States have to implement, you can imagine our surprise when 
the President's budget for fiscal year 1998 included no 
increase for our members, the States, to implement and begin 
developing these programs, but once again, we are looking to 
Congress to help us.
    We are just requesting, really, a fairly modest increase of 
$10 million, for a total of $100 million for public water 
supply supervision and grants to the States. This is the amount 
that was authorized in the Safe Drinking Water Act and one that 
we agreed was reasonable.
    We hope that that amount will be authorized and 
appropriated and that it will be an indication, really, to the 
States that Congress recognized that significant new challenges 
were placed on the States and they want the States to succeed.
    Another vital area of concern, as you have heard from 
numerous preceding individuals, is the importance of health 
effects research, and again, I will be short and summarize and 
say that we certainly support the $39.5 million in the 
President's budget for drinking water research, and also the $5 
million for the American Water Works Research Foundation and 
EPA partnership and the $1 million for arsenic research.
    I have been very, very impressed with the quality and 
capabilities of the individuals and the expertise that have 
been brought to bear in both of these projects.
    These monies, as you well know, like those that the States 
receive are matched and dramatically increase the funds that 
are actually contributed.
    Again, I will concur with earlier testimony that we support 
the $1 billion authorization for the drinking water SRF. As you 
are aware, EPA's infrastructure needs reports they just 
provided to Congress indicated a $138.4-billion need over the 
next 20 years. So we don't think that the $1 billion that we 
had asked for is too much, and certainly, of the $34.4 billion 
that the report indicated as immediate need, the $1 billion 
will certainly help to go towards that.
    So we really would hope that the subcommittee would 
increase that from the $725 million in the President's budget.
    Finally, we would also like to support the President's 
budget of the $105.3 million for EPA for their Drinking Water 
Program efforts. We recognize that they need to be strong. They 
need to have the resources available to develop sound 
standards, to write guidances and regulations that are 
implementable, and we do support them having the appropriate 
funding to do that.
    That is all for my testimony, and I would be happy to 
answer any questions that you might have.
    [The statement of Ms. Leiby follows:]

[Pages 500 - 514--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Well, thank you for going through your 
testimony quite rapidly. These are critical issues, and your 
being here to endorse what we have done and some of the things 
we need to do is important.
    Ms. Leiby. Well, we appreciate it very much, and thank you 
for supporting the States.
    Mr. Frelinghuysen. Well, thank you very much.
    Michael Paque, is he here, Ground Water Protection Council?
                              ----------                              

                                             Thursday, May 1, 1997.

    ENVIRONMENTAL PROTECTION AGENCY AND NATIONAL SCIENCE FOUNDATION

                                WITNESS

PETER D. SAUNDRY, PH.D., EXECUTIVE DIRECTOR, COMMITTEE FOR THE NATIONAL 
    INSTITUTE FOR THE ENVIRONMENT
    Mr. Frelinghuysen. I am pleased to recognize Peter D. 
Saundry, Ph.D., Dr. Saundry, the executive director for the 
Committee for the National Institute for the Environment.
    How are you?
    Mr. Saundry. Nice to meet you, sir.
    Mr. Frelinghuysen. I expected an older man.
    Mr. Saundry. I am actually a little older than I look.
    Mr. Frelinghuysen. Well, it must be the good water you 
drink.
    Mr. Saundry. I hope so. I hope so.
    Mr. Frelinghuysen. Maybe you don't drink coffee like the 
chairman whose place I am taking.
    Mr. Saundry. I try to avoid such coffee.
    My name is Peter Saundry.
    Mr. Frelinghuysen. A copy of your full remarks will be 
included.
    Mr. Saundry. Thank you very much, and I will provide a very 
brief overview and details to be brought up later.
    The Committee for the National Institute for the 
Environment is a national nonprofit, nonpartisan organization. 
We do not take issues on specific environmental issues. Our 
issue is improving the scientific basis for making decisions on 
environmental issues. We are advocates for science for better 
environmental decision-making.
    Now, our main point is that the United States needs a 
trusted source of scientific information on environmental 
issues that are separate from the regulatory agencies. The 
science should be objective, peer-reviewed science that answers 
the key questions of decision-makers inside and outside Federal 
Government.
    When I say separate from the regulatory agencies, it is 
because one unavoidable consequence of regulatory agencies is 
that their science is often viewed, rightly or wrongly, as 
being tainted, with a conflict of interest, or a political 
agenda. Rightly or wrongly, that is a very common perception 
that causes a lot of problems.
    On the other hand, nonregulatory bodies, like the National 
Science Foundation, the National Institutes of Health, have 
strong public support in every community.
    Now, a proposal to create just such a source of credible 
scientific information has been developed, and it has the 
support of over 350 organizations, State and local government 
groups, environmental groups, business groups, colleges and 
universities, scientific societies, and interestingly, three 
former administrators of the Environmental Protection Agency, 
and all former assistant administrators for Research and 
Development at the Environmental Protection Agency.
    The proposal is known as the National Institute for the 
Environment, and you may be familiar with it because 
Congressman Saxton has been pushing the NIE agenda for quite 
some time, and we have chosen that name because of the 
successful National Institutes of Health. Essentially, we feel 
we need to do for environmental science what National 
Institutes of Health does so well for biomedical science.
    The institute is being proposed as a nonregulatory science 
body with a mission to improve the scientific basis for making 
environmental decisions. It is designed to be a neutral science 
forum where those who normally only meet in the courtroom can 
build a common scientific knowledge base on environmental 
issues.
    The institute that we propose will be led by a balanced 
group of individuals representing different communities that 
create, use or are affected by environmental science. The NIE 
would integrate four science activities, very crucial 
activities: first, ongoing assessments of the state of 
knowledge about environmental issues, what do we know, what 
don't we know, what do we have scientific consensus about, what 
is very controversial, and what questions that decision-makers 
need answering can be addressed by additional science; second, 
competitively awarded support for peer-reviewed research, 
organized around environmental topics; third, distribution of 
credible nonpartisan information using modern technologies; and 
finally, support for science-based environmental education and 
training.
    These activities can be implemented through an efficient 
granting mechanism where strict scientific quality control and 
strict scientific peer review are the norm.
    Now, my final point is that this subcommittee, which 
appropriates only half of the Federal Government spending on 
environmental science has the authority and the ability to make 
such a source of sound environmental science a reality. We 
request the committee to direct funds within its budget to one 
or more of the agencies under its jurisdiction to establish a 
nonregulatory environmental science institute that embraces the 
principles I have just outlined.
    Note that the institute need not be a part of the Federal 
Government with Federal employees, nor include any new Federal 
laboratories.
    Now, deciding how much to appropriate is challenging, but 
it is a little bit like deciding how much to spend on flood 
insurance when you are up to your ankles in water already and 
there is rain in the forecast. We ask that the committee find 
$20 to $50 million for fiscal year 1998 to allow such an 
institute to begin operations. We ask that the committee call 
on the administration to present a request in the fiscal year 
1999 budget for sufficient funds for full operations.
    Now, we do not recommend that these funds be taken out from 
existing or requested funds for science, ``science'' being the 
key word there. We recognize that this is very hard, with a 
cost of not acting or delaying to act is great in terms of 
dollars misspent on well-intentioned, but misguided policy 
decisions.
    I and the staff of the CNIE and the many, many supportives 
of this initiative stand ready to meet with you to discuss 
details and also to meet with the staff and bring them up to 
speed with all the details and work together.
    Thank you very much, and I would be happy to answer any 
questions.
    [The statement of Mr. Saundry follows:]

[Pages 518 - 521--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Well, thank you very much for your 
testimony. I know of your good work through Congressman Saxton.
    Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    I am thrilled to see what this proposal is all about. I 
just got here. He wants to be another arm of the research that 
causes us to make good policy, and the agencies. So one should 
do this, be involved in this, other than the agencies, but I 
would like to ask you a question. How old is your organization? 
How old is the institute?
    Mr. Saundry. The Committee for the National Institute for 
the Environment was founded--our first meeting of bringing 
folks together was in late 1989. The proposal was first 
introduced in legislation in 1993, and it was legislation in 
the House and the Senate, occurred in the 103rd Congress and 
again the 104th Congress.
    In fact, I should thank Congressman Frelinghuysen for co-
sponsoring that legislation.
    Mr. Frelinghuysen. Oh, I try to be objective as Chairman by 
not endorsing.
    Mr. Saundry. But you are exactly right. Something separate 
from the regulatory process is needed because that provides a 
neutral forum which is so badly needed.
    We have had a lot of discussion here this morning about 
hundreds of billions of dollars being spent on various 
environmental issues, and yet, the amount that we spent on 
science is relatively very small, and it can have a very big 
impact on the budget that it is spent on solving or averting 
environmental problems.
    Mrs. Meek. Thank you.
    Mr. Frelinghuysen. Thank you. Thank you very much.
    Mr. Saundry. Thank you very much.
    Mr. Frelinghuysen. Bye, now.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

LAWRENCE JAWROSKI, P.E., WATER ENVIRONMENTAL FEDERATION
    Mr. Frelinghuysen. Mr. Lawrence Jawroski, representing the 
Water Environmental Federation.
    Have I done an injustice to your name?
    Mr. Jawroski. No, sir. Quite right. Thank you.
    Mr. Frelinghuysen. A copy of your full testimony will be 
included in the record.
    Mr. Jawroski. Thank you.
    Mr. Frelinghuysen. If you will be good enough to proceed as 
best you can and summarize.
    Mr. Jawroski. I shall, and thank you for your attention. 
Good afternoon, I guess, at this point.
    Mr. Frelinghuysen. It is good afternoon.
    Mr. Jawroski. It is always somewhat difficult being on this 
close to lunch. So, hopefully, I can make the most impact with 
my comments by being mercifully brief.
    Mr. Frelinghuysen. Well, we are not stopping for lunch. So, 
if there is anybody here who is hungry, they can leave.
    Go right ahead.
    Mr. Jawroski. I have four key points that I would like you 
to recall from our testimony as you review it: watershed 
management, funding, research, and nonpoint sources. I will 
touch briefly on each of those for you.
    Watershed management represents an option for approaching 
the evermore diffuse sources of pollution that we are dealing 
with now. In the 25 years of the Clean Water Act, we have 
progressed from dealing with major sources of quite 
identifiable sources of pollution to the more diffuse nature of 
pollution that we are dealing with today. Watershed management 
poses an opportunity for us to act on those sources in a most 
cost-effective manner.
    We support EPA's activities in watershed management and 
suggest that it be made a top-funding priority for the agency, 
and we also strongly recommend that resources within the Office 
of Water be allocated to the maximum extent possible in support 
of these activities; for example, integrating the national 
pollutant discharge elimination system and PDS permit program 
into a watershed approach to allow flexibility and coordination 
of these problems; also, developing guidance for controlling of 
nonpoint source pollution that will encourage a greater focus 
on priority watersheds; and enhancing the coordination of water 
quality data among States and other Federal agencies.
    While many of these activities were highlighted in EPA's 
fiscal year 1997 budget request, they were not unfortunately 
mentioned in the agency's FY 1998 budget summary, and we would 
encourage that these activities be made a high priority.
    The second area that I mentioned is financial assistance 
for waste water facility construction. We have heard several 
people comment on that this morning. I would like to just point 
out to you that we are facing additional challenges 
incontrolling these sources of pollution. This subcommittee and 
Congress itself has been very generous in its support of water 
pollution control over the years, and we would like to encourage that 
support to continue.
    The EPA budget request for the State Revolving Fund was a 
little over $1 billion for fiscal year 1998. We believe that 
that is significantly below the actual needs of the profession. 
We recommend at least $2 billion for the Clean Water Act SFR. 
The needs are ever increasing.
    I am sure many of you are aware of the increasing 
challenges before us in dealing with sanitary sewer overflows, 
combined sewer overflows, and storm water, all of which pose 
significant challenges to us in our profession and in the 
municipalities in terms of control over those sources.
    A third priority area that you have heard of this morning 
is research. We would like to support the continued research 
being done by EPA and also to point out to you, as you have 
read this morning on the drinking water side, we on the water 
quality side have a similar organization called the Water 
Environment Research Foundation, which is dedicated to similar 
goals, as our colleagues on the drinking water side.
    The WERF is an excellent example of leveraging of Federal 
dollars. The program has received approximately $7.5 million in 
Federal contributions over the last several years and has been 
able to leverage those funds at approximately a ratio of 4 to 1 
to develop and disseminate information in terms of water 
quality research. We strongly support the request in EPA's 
budget for $5 million in fiscal year 1998 for the Water 
Environment Research Foundation.
    The final point that I mentioned to you is nonpoint sources 
of pollution. I also mentioned earlier that we have dealt with 
many of the more significant and more visible sources of 
pollution to our Nation's waters, and now we are dealing with 
the more diffuse and more difficult-to-control sources being 
nonpoint sources.
    However, the Nonpoint Source Pollution Program falls nicely 
into the category of watershed-based management. It allows us 
to approach those problems on a priority basis and deal with 
those issues and those sources which will truly have a 
measurable impact and benefit to our Nation's waters.
    We would like to recommend that the subcommittee support 
EPA's budget request for nonpoint source funding. It will help 
us deal with those problems in the future, and I would like to 
leave you with, again, just a comment that the future of the 
improvement of our Nation's waters is based on watershed 
management, and we urge EPA to focus on that in their future 
activities.
    Thank you, Mr. Chairman. I will be happy to answer any 
questions.
    [The statement of Mr. Jaworski follows:]

[Pages 525 - 535--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much for your testimony, 
raising a number of issues that are important that need further 
disability. It is always good to see a P.E. after somebody's 
name around here.
    Mr. Jawroski. Thank you.
    Mr. Frelinghuysen. We get quite a lot of Ph.D's, and we are 
happy to have them as well, and particularly your highlighting 
of the watershed management.
    I have one of those highlight projects in my district, and 
it is pulling all sorts of people together to better 
communicate and work together.
    Mr. Jawroski. It truly is.
    Mr. Frelinghuysen. Thank you very much for being with me.
    Mrs. Meek.
    Mrs. Meek. No, thank you, Mr. Chairman. I don't have any 
questions.
    Mr. Jawroski. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Is Mr. Paque here, Ground Water 
Protection? Or, forever hold your peace.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

JIM HARP, TREASURER, NORTHWEST INDIAN FISHERIES COMMISSION;
TERRY WILLIAMS, COMMISSIONER, NORTHWEST INDIAN FISHERIES COMMISSION; 
    AND
BOB KELLY, COMMISSIONER, NORTHWEST INDIAN FISHERIES COMMISSION
    Mr. Frelinghuysen. We are moving right along. Billy Frank, 
Jr., Chairman, Northwest Indian Fisheries Commission.
    Mr. Frank, welcome. Thanks for your patience. We are a 
little behind schedule.
    Mr. Harp. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Hi. How are you?
    A copy of your formal testimony will be included in the 
record, and we are pleased to have you with us here today.
    Mr. Harp. Thank you, Mr. Chairman.
    I am not Billy Frank.
    Mr. Frelinghuysen. You aren't?
    Mr. Harp. No. Mr. Frank could not make it, but I know he 
would have liked to have been here.
    My name is Jim Harp. I am one of the officers of the 
Northwest Indian Fisheries Commission. I am the treasurer of 
the Northwest Indian Fisheries Commission, and with me is Mr. 
Terry Williams, a commissioner with the Northwest Indian 
Fisheries Commission. We also have Bob Kelly, another 
commissioner from the Northwest Indian Fisheries Commission.
    Mr. Frelinghuysen. Welcome to all of you.
    Mr. Harp. Thank you.
    Mr. Chairman, on behalf of the tribes of the Washington 
State, I would like to thank you for the opportunity to provide 
testimony concerning the EPA's fiscal year 1998 appropriations.
    Specifically, we are requesting that programmatic funding 
levels to the Northwest tribes be included in EPA's budget 
under Section 104(b)(3) of the Clean Water Act.
    The purpose of our request is to continue the 
implementation of the model, Coordinated Tribal Water Quality 
Program, for 26 participating tribes and tribal organizations 
in the State of Washington for the fiscal year 1998.
    Strong congressional support for and implementation of this 
tribal initiative began in 1990 and is present today. However, 
we are losing ground in the implementation of this effort. 
Erosion of base-level funding is jeopardizing the Federal 
Government's long-term investment in this efficient and 
effective Tribal Water Quality Protection Program.
    It is very essential that this continues in the future. The 
specifics of this can be provided by Mr. Williams.
    Mr. Frelinghuysen. If you would be good enough to do it 
just by summary because we actually have the benefit of your 
full testimony.
    Mr. Williams. I intended to summarize to help speed this 
up.
    The Congress has supported our program for about 6 years 
now, and we feel it is vital that this continues and also at 
increasing levels. We have been here year after year testifying 
in support of the program, but have been reducedin the amount 
that has actually been appropriated.
    One of the things that we wanted to get across, one of the 
points is that the tribes are co-managers of the resource in 
the State of Washington. This came out of the treaties and some 
history of litigation, but what we have tried to take from the 
treaties and the litigation is more now the cooperative 
approach, working with the State of Washington and doing 
planning and management in a manner that benefits the both of 
us, and I think that has been working.
    Just a few minutes ago, you heard from the people talking 
about the National Estuary Program. In the State of Washington, 
there is an estuary that has been identified with the plan that 
is approved. The tribes are in co-management of that plan. We 
have been managers for 10 years and never been funded for that 
participation. We helped to develop, first, watershed planning 
and watershed management processes for the State and continue 
along with processes now that are approved for doing the water 
quality and management, TMDLs, monitoring and different lab 
work.
    For that participation, we have been relying on this 
funding for staffing and for our ability for a co-management 
role. That is getting more and more difficult. As the demands 
are being laid on us, and I think as you know, the Northwest 
has a number of problems now that are high risk with water and 
different species that are being looked at for the Endangered 
Species Act, the tribes themselves on the reservations are at 
high risk for the lack of attention over the last 25-some years 
of the EPA. It has just been recently that EPA programs have 
identified tribes and have brought the tribes into the 
management process and into activities.
    So, with that, we are looking for this funding that would 
be specific for this program to help us participate in the co-
management process, and the funding to be specifically 
identified either in 104(b)(3) or possibly 319 as a vehicle.
    A situation within EPA, their internal allocation process 
tends to dilute funds if they are not specifically identified, 
so that they could be scattered throughout the Nation, and that 
is something we are trying to avoid.
    We have been working extremely closely with the EPA in 
their process of guidance and looking at what their funding 
requests are. We support the direction that the agency is 
going. We support the President's request for funds and hope to 
see that in the national as well as our own area, but 
specifically for this work that we are doing, it is critical 
for us in the management to help be part of the problem solving 
within the Northwest Region.
    Maybe just one last comment, and that is, the tribes under 
the self-governance process that is ongoing have taken that 
very seriously, and in identifying our problems, we have tribes 
at each one of the river systems within the States, and as you 
can see on the map, not only do they become actively involved 
in the management of this system, and we have a 10,000-year 
history of these basins with our families, and we understand 
that we know the resource. We know what can be expected and the 
general direction of trends are sometimes the first indicators 
of problems. So it is extremely beneficial to have our people 
on the front lines with the State and doing this type of work.
    [The statement of Mr. Harp follows:]

[Pages 539 - 543--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Well, thank you for your testimony. I am 
glad I don't have to pronounce some of these river systems 
here.
    Mr. Williams. Well, we would love to have you out there.
    Mr. Frelinghuysen. From what I gather, it is a beautiful 
part of the Nation, and you are very much involved in making 
sure it is managed properly and resources are looked after. So 
we will do what we can to be of assistance to you. Your 
physical presence here is important. It endorse something which 
is very important to our Nation and to the region.
    Mrs. Meek.
    Mrs. Meek. I don't have any questions, Mr. Chairman.
    Thank you for coming.
    Mr. Williams. Well, if you ever have the opportunity to be 
in that area, please call.
    Mr. Frelinghuysen. I would use any excuse. Maybe in the 
real chairman's absence, I can find myself coming our there 
sometime.
    Mr. Williams. If you do, give us a call, and we will be 
happy to provide a tour for you.
    Mr. Frelinghuysen. Well, thank you very much. We appreciate 
your being here. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

ANN McCAMMON SOLTIS, POLICY ANALYST, GREAT LAKES INDIAN FISH AND 
    WILDLIFE COMMISSION; ACCOMPANIED BY JIM THANTOM
    Mr. Frelinghuysen. Mr. James Schlender, Executive director 
of Great Lakes Fish and Wildlife Commission?
    Ms. Soltis. I am not Commissioner Schlender.
    Mr. Frelinghuysen. All right.
    Ms. Soltis. He was unable to be here.
    Mr. Frelinghuysen. Hi. I am Rodney Frelinghuysen.
    Ms. Soltis. Hi. Ann McCammon Soltis. Nice to meet you.
    Mr. Frelinghuysen. Nice to meet you.
    Mr. Thantom. Jim Thantom.
    Mr. Frelinghuysen. Jim, how are you?
    Good afternoon. Thank you for being here.
    Ms. Soltis. Thank you for having us.
    Mr. Frelinghuysen. Representing the Commission and being so 
patient in the audience--you have been here quite a long time. 
Have you been here the entire time, too?
    Ms. Soltis. As long as he has.
    Mr. Frelinghuysen. As long as he has, right.
    We will put your entire statement in the record, and if you 
would be good enough to proceed.
    Ms. Soltis. Thank you.
    Mr. Chairman and Members of the Committee, I am Ann 
McCammon Soltis. I am a policy analyst with the Great Lakes 
Indian Fish and Wildlife Commission, and Mr. Schlender regrets 
that he was unable to attend today.
    On behalf of our 11-member Chippewa tribes in 
Wisconsin,Michigan, and Minnesota, thank you for the opportunity to 
appear regarding our EPA fiscal year 1998 appropriations request.
    I would like to briefly highlight the Commission's written 
testimony and to reinforce why the requested funding is 
important not only to our member tribes, but to this Nation's 
overall environmental protection efforts in the Great Lakes 
region.
    Recognizing budget constraints, the Commission is not 
seeking to increase the overall funding for the EPA. Rather, we 
seek Congress' help in directing approximately $330,000 out of 
existing funds to the Commission to ensure that the EPA carries 
out its trust responsibility regarding Chippewa treaties with 
the United States.
    Within the scope of Section 1268 of the Clean Water Act 
relating to the management of the Great Lakes, this funding 
would be used to develop three aspects of the Commission's 
environmental program. First, it would help our participation 
efforts to implement the U.S.-Canada Great Lakes Water Quality 
Agreement of 1978. It would help us assess potential mining 
development in the Great Lakes Basin, and third, it would help 
us conduct cooperative fish contaminant studies.
    Our written testimony outlines why each of these programs 
is needed, but I wish to offer a few additional thoughts.
    Tribal members are uniquely tied to nature. They rely on 
fish, wildlife, and plants for subsistence, economic and 
cultural purposes. The United States has recognized this 
through the provisions in a number of treaties with the 
Chippewa which guarantee hunting, fishing, and gathering 
rights, including the right to fish in Lake Superior. However, 
fishing rights mean little if the fish are unsafe to eat.
    On the last page of your testimony, as I see you have taken 
out, there is a map that shows mercury concentrations of 
walleye in lakes which are harvested by members of the Lac 
Courte Oreilles tribe, which is one of our member tribes. Even 
as the EPA concluded in 1992 study of Wisconsin tribes, because 
of their distinctive relationship with natural resource, tribal 
members face different types, amounts, and causes of 
environmental risks than other Americans.
    In the Chippewa way of life, each person has the 
responsibility to honor and preserve what the creator has 
provided. The representatives of their people, tribal 
governments, and their agencies, such as the Commission, have 
the duty to carry out this responsibility in exercising 
governmental powers and functions.
    Through the various laws, such as the Clean Water Act, and 
through its general trust responsibility toward tribes, the 
United States recognizes the need for tribal participation in 
the programs that develop Great Lakes environmental protection 
standards and lake-wide management plans. These programs 
include the binational program to protect and restore Lake 
Superior.
    In fiscal year 1997, the EPA provided coastal environmental 
management funds to the Commission to facilitate tribal 
participation in the binational program and to address 
environmental concerns associated with proposed sulfide mining 
development. Continued progress in these areas depends on the 
Commission's fiscal year 1998 appropriations request being 
funded, and there are two basic premises underlying our 
request.
    First, the tribes need to be full participants in the 
decisions that directly affect the natural resources that are 
so essential to tribal culture and society and to this Nation 
as a whole, and second, the tribal participation should be 
based on sound science. Thus, we seek these funds to add to our 
scientific and technical expertise so that we can better advise 
our member tribes on issues of concern and encourage decisions 
on the basis of sound science.
    The reality is the tribes will be governed by the end 
results of the various Great Lakes programs, regardless of the 
extent to which they participated in the decision-making 
process. The funds the Commission seeks will provide a 
significant step toward enhancing a partnership role the 
commission member tribes play with other Great Lakes' 
stakeholders.
    The commission and its member tribes are committed to 
passing a healthy environment onto our children and our 
grandchildren. Meaningful tribal participation on a government-
to-government basis in this Nation's Great Lakes programs will 
better help us to honor this commitment.
    With the requested funds, the Commission can help to honor 
the commitment in a cost-effective and efficient manner that 
takes advantage of an inter-tribal structure, that pursues 
intergovernmental and stakeholder cost share and other 
partnerships and that ensures participation and accountability 
at the local level by those most directly affected, which, of 
course, is the tribes themselves.
    I appreciate the opportunity to appear and testify before 
you. Thank you.
    [The statement of Mr. Schlender follows:]

[Pages 547 - 551--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much for being here. We 
have enjoyed your testimony. We have learned something about 
the Chippewas----
    Ms. Soltis. Good.
    Mr. Frelinghuysen [continuing]. Good stewards of the land--
--
    Ms. Soltis. That is right.
    Mr. Frelinghuysen [continuing]. And the need for some of 
our help.
    Ms. Soltis. Yes. That is absolutely right.
    Mr. Frelinghuysen. Mrs. Meek.
    Mrs. Meek. No. I wanted to ask you a question, Mr. 
Chairman.
    Mr. Frelinghuysen. You are not going to ask me to give a 
full accounting of the tribes, are you?
    Mrs. Meek. No, no. This could be an off-the-record 
question.
    Mr. Frelinghuysen. Thank you for being here, both of you.
    There is a lunch break. I can't believe it. Anybody here 
who hasn't been recognized?
    Thank you for being here.
                              ----------                              --
--------

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

MARCELLUS GRACE, PH.D., DEAN, COLLEGE OF PHARMACY, XAVIER UNIVERSITY, 
    LOUISIANA, ASSOCIATION OF MINORITY HEALTH PROFESSIONAL SCHOOLS
    Mr. Lewis. The meeting will come back to order. We are 
operating in a circumstance, Mr. Grace, and others, where 
Members have conflicts all over the Hill. And so we are 
proceeding in a fashion that suggests that your entire 
statement will be included in the record, if you would 
summarize it for us. We will not take too much of your time, 
but in the meantime, we are happy to have you here.
    Please proceed.
    Mr. Grace. Mr. Lewis, thank you very much for indulging me 
this afternoon. I am dean of the College of Pharmacy at Xavier 
University in New Orleans, and I represent a cooperative 
arrangement of eight historically black health professional 
schools. We have been working with the ATSDR on a projects for 
now some--this is the end of our fifth year.
    In essence, we have--I have got a copy of the progress 
report that I also want to put into the record. We have 
published some 19 papers and have done work through this 
cooperation agreement on lead, cadmium, zinc, benzene. We have 
built major infrastructure, inhalation toxicology facilities at 
Meharry. At my University we have built, one of only several in 
the whole country, unique aquatic facility where we actually 
take talapia fish and catfish and expose them to benzene.
    To bring this home, you may have heard in the paper 2 weeks 
ago a barge carrying hundreds of thousands of gallons of 
benzene went aground in the Mississippi River about 80 miles 
upstream from where I live, and they had to evacuate the whole 
campus of Southern University. So to have this kind of work go 
on, in an area like New Orleans, particularly, is very 
relevant.
    We have been receiving $4 million for the last 5 years. We 
would like to recommend that this continue. We are up for the 
5-year renewal. We would like to ask that your Committee would 
continue to support us as you have at the level of $4 million 
and increase the ATSDR's budget to $72 million.
    As I said, you have my full testimony here that can be in 
the record. I would like to just share with you to add to the 
record, this is a progress report that we gave to the agency 
recently, and as I said, 19 publications that were refereed. 
Since I am the principal investigator for this project, we just 
hosted a symposium to sort of, if you will, show off. This is 
our sort of party, if you will, and this is the actual program 
itself that has all the abstracts. And what we had is 150 
scientists and students from all eight schools who came 
together and presented posters and papers on their work for the 
last 5 years.
    I do not like to drop names, but we did have the head of 
the ATSDR deputy, Dr. Darrell Johnson, who was ill and could 
not come, notified us the day before. We did have also the head 
of the NIEHA, Dr. Kent Olin, who was our keynote speaker. And 
this is the program we had. Also, one of our speakers was Dr. 
James Buss, president of the Society of Toxicology.
    So while I am not dropping names, just to make the point 
that the work that we have been doing for the last 5 years has 
made a major contribution to the environmental toxicology work 
area. We want to continue this work and look at some additional 
compounds from the substance-specific list and continue to do 
the great work that we think we have done.
    So I would like to put these in the record.
    [The statement of Mr. Grace follows:]

[Pages 554 - 561--The official Committee record contains additional material here.]


    Mr. Lewis. Well, beyond those names, we are very pleased to 
have you, Dr. Grace, with us representing Xavier and the 
pharmacy school there.
    Mr. Grace. Thank you very much.
    Mr. Lewis. We do know of your work. We appreciate the 
update. While we have difficult times, we will do everything we 
can to try to help.
    Mr. Grace. Yes, sir. Thank you very much.
    Mr. Lewis. Good to see you. Thank you.
                              ----------                              --
--------

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

PEGEEN HANRAHAN, CITY COMMISSIONERS, CITY OF GAINESVILLE, FLORIDA
    Mr. Lewis. Ms. Hanrahan? Is that right?
    Ms. Hanrahan. Yes, that is very good.
    Mr. Lewis. Good. I have been mispronouncing my name today, 
so----[Laughter.]
    Mr. Lewis. The city of Gainesville.
    Ms. Hanrahan. That is right.
    Mr. Lewis. Would you identify yourself for the record?
    Ms. Hanrahan. Yes, I am Pegeen Hanrahan, City Commissioner 
with the city of Gainesville, Florida. Thank you very much for 
having me here today.
    I am here to talk about the Sweetwater Branch, Paynes 
Prairie stormwater management project. You may recall that one 
of my fellow commissioners, Bruce Delaney, was here last year 
to talk to you about this project, and we greatly appreciate 
your continuing interest. This is a project that is vitally 
important not only in north-central Florida, but throughout the 
State. A modest Federal investment would greatly assist us in 
repairing the critical problems relating to managing stormwater 
and treated wastewater, protecting our drinking water, 
restoring a nationally significant ecological habitat, and 
relieving impediments to redeveloping our oldest and most 
socially and economically debilitated areas.
    As you can see from the map here on the cover of the report 
I have provided, Paynes Prairie is an 18,000-acrewetland 
ecosystem State preserve. It is nearly as large as the city itself, 
which is depicted in the color. Gainesville has 96,000 residents and is 
the home of the University of Florida, our flagship university that 
serves 40,000 students.
    The Sweetwater Branch drainage basis covers 1,700 acres. 
The Sweetwater Branch Creek itself handles stormwater runoff 
and wastewater effluent, which has gone on for nearly since the 
early 1800s. Today, the city's Main Street wastewater treatment 
plant handles a flow of about 8 million gallons a day, which 
the city recently spent $15 million upgrading. But the largest 
problem has to do with the enormous discharge of untreated 
stormwater.
    After a rain event, the stream depth can increase by a 
factor of eight, and there is a photo here that shows you not 
only the prairie itself, the bison on the prairie, but you can 
see the significant increase in the volume of stormwater after 
a rain event.
    As a channelized flow, the creek's waters are directed to 
the Alachua Sink.
    Mr. Lewis. She is doing great, Mrs. Thurman.
    Mrs. Thurman. I am leaving her alone. I can tell. 
[Laughter.]
    Ms. Hanrahan. This is a natural sink hole that discharges 
directly to the Florida aquifer. This is a photograph of the 
sink that appeared in the National Geographic.
    The Florida aquifer is an underground----
    Mr. Lewis. Is that where this photo is from?
    Ms. Hanrahan. Yes. It was taken by a Gainesville Sun 
photographer, John Melayan.
    The Florida aquifer provides the majority of drinking water 
to Florida residents. It extends all the way to the Everglades. 
Thousands of municipal, domestic, industrial, and commercial 
water wells rely on the Florida aquifer.
    The discharge of Sweetwater Branch at Alachua Sink puts a 
great deal of garbage, oils, pesticides, sediments, and 
nutrients into this fragile drinking water supply and natural 
area. Because the Sweetwater Basin is the poorest, most crime-
ridden area of our town, as shown in several of the photos we 
have provided, we lack the private investment or tax base 
needed to correct this problem. Public and private entities, 
including the city of Gainesville, Alachua County, the St. 
John's River Water Management District, the Florida Department 
of Environmental Protection, Magurn Investment----
    Mr. Lewis. All those.
    Ms. Hanrahan. All those, yes.
    Mr. Lewis. That we are going to read about in the record, 
right?
    Ms. Hanrahan. Yes. We have all come together to work on a 
solution, and we have moved forward. In order to solve this 
problem, the University of Florida Center for Wetlands has 
identified that it would cost about $14 million. Today we are 
asking you for about $2 million to initiate the project. There 
will not be any need for long-term Federal support because the 
city of Gainesville has a stormwater utility that our citizens 
are able to provide long-term support for stormwater projects. 
So----
    Mr. Lewis. I often ask, if we buy the cow, then what 
happens?
    Ms. Hanrahan. Right. Well, we have taken a proactive----
    Mr. Lewis. So you have got a method of feeding it?
    Ms. Hanrahan. Yes, we do. We do. We have taken a very 
proactive effort on stormwater issues. But locally and on a 
State level, it is just too much in this essentially ground 
field area for us to manage this.
    So we thank you for your consideration today, and we 
appreciate you hearing my concerns.
    [The statement of Ms. Hanrahan follows:]

[Pages 564 - 565--The official Committee record contains additional material here.]


    Mr. Lewis. Well, thank you, Ms. Hanrahan.
    Mrs. Thurman, she has done a very good job.
    Mrs. Thurman. Ditto, and it is not even 2:14. So I am 
leaving at that. You keep on the right schedule, and then we 
will get our project. [Laughter.]
    Mr. Lewis. Thank you very much. I appreciate your being 
with us.
    Ms. Hanrahan. Thank you very much. I appreciate your time.
    Mr. Lewis. Great.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HARRY MAVROGENES, ASSISTANT CITY MANAGER, CITY OF MIAMI BEACH, FLORIDA
    Mr. Lewis. Mr. Harry Mavrogenes? Is that right?
    Mr. Mavrogenes. Yes, sir.
    Mr. Lewis. Somewhere close?
    Mr. Mavrogenes. Very good, sir.
    Mr. Lewis. I think you probably have heard my discussions 
regarding information for the record.
    Mr. Mavrogenes. Yes, sir.
    Mr. Lewis. If you would help us understand your request by 
way of a summarized comment, we would appreciate it.
    Mr. Mavrogenes. Thank you. I appreciate the opportunity to 
be here. For the record, my name is Harry Mavrogenes. I am 
Assistant City Manager for the city of Miami Beach, Florida, 
and we come before you today to bring testimony on two 
projects. The first that we are seeking assistance on is the 
coastal erosion prevention initiative.
    The city of Miami Beach is on a barrier island. It is 
surrounded by the ocean on one side, the bay on the other, many 
canals. We have 39 miles of waterfront property with seawalls. 
And the city being an older city, one of the first ones in the 
southern part of Florida, has a lot of deterioration in those 
areas. The seawalls are a barrier that protects properties from 
tidal action, and the loss of these seawalls can result in loss 
of property and pose a danger to navigation.
    We have requested that we do a demonstration project that 
develops a construction of a new type of seawall which we call 
a living seawall, which will contain native plant materials as 
well as boulders and rocks instead of the traditional concrete 
which has been prevalent, which will enhance the environmental 
area. We have, again, a very sensitive environment, being a 
barrier island, and this will provide the necessary protection, 
probably a better form of protection, and at $1.5 million, I 
think this will go a long way to providing the protection we 
need and a good demonstration.
    The city commission has also set aside $400,000 in local 
funds, and we are attempting to develop other techniques with 
the State as well to help us with the beach site erosion. Part 
of the program includes a planting along the dunes along the 
beach, and we are looking at other programs that will 
ultimately provide long-term economically viable protection for 
the beaches.
    The second item involved our water and sewer system. The 
city of Miami Beach, again, developed in 1915, has a sewer 
system and a water system that is very old. Our commission has 
bitten the bullet, if you will. They have authorized the 
issuance of $60 million in funding in bond funds to begin to 
replace an infrastructure. It is very easy to ignore the stuff 
that is underground. It is very glamorous to build new hotels, 
new convention centers. But when it comes to thereal 
infrastructure, our city has gone as far as it could, and it needs the 
additional help. We are asking for the 90-10. We are providing the 90; 
we are asking for 10 percent of up to $10 million to assist us in 
providing the necessary improvements.
    Our system is unique in that, as you probably know, again, 
being this barrier island, we cannot go very far down for our 
sewers. They are literally at the same plane as water, as our 
water lines. We have to keep them apart side by side, but it is 
the type of system where you have to provide the best possible 
protection of your drinking water from the sewer system. And 
these improvements are very, very critical to our growth.
    The city has been one which is now starting to come back. 
We have the largest historic district of the 20th century in 
the country with our Art Deco historic area. We have made major 
strides in rebuilding and revitalizing this older city, and 
this funding source I think would go a long way in helping us 
finish the major revitalization for, again, a very modest 
amount of investment. We are providing the bulk of the 
necessary other funding.
    [The statement of Mr. Mavrogenes follows:]

[Pages 568 - 571--The official Committee record contains additional material here.]


    Mr. Lewis. Well, I appreciate your testimony. Tell me, who 
represents Miami Beach?
    Mr. Mavrogenes. Representative Ileana Ros-Lehtinen.
    Mr. Lewis. She was scheduled to be here, but we are moving 
ahead of schedule. All right. We will have a chance to chat, 
anyway.
    Mr. Mavrogenes. Are there any other questions?
    Mr. Lewis. I do not really think so, and I know that 
without any question, if we do have, Ileana will make sure that 
you help us. Okay.
    Mr. Mavrogenes. Thank you very much. I appreciate the 
opportunity.
    Mr. Lewis. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

      ENVIRONMENTAL PROTECTION AGENCY AND VETERANS ADMINISTRATION

                                WITNESS

DR. JOSEPH BATES, AMERICAN LUNG ASSOCIATION/AMERICAN THORACIC SOCIETY
    Mr. Lewis. Dr. Bates, you get to get in early and out 
early. The American Lung Association, Dr. Bates.
    Dr. Bates. Yes, sir. I am here to speak about two things.
    Mr. Lewis. All right.
    Dr. Bates. The funding for the Veterans' Administration 
research program and the funding for the EPA, and I am going to 
spend most of my time in this oral testimony about the VA 
research funding.
    Mr. Lewis. If you would give us your entire testimony for 
the record----
    Dr. Bates. We have done that.
    Mr. Lewis [continuing]. And summarize it from there. As I 
think you probably know, a number of people have expressed 
concerns about VA research. The Committee feels very strongly 
about doing all that we can, so we welcome your testimony.
    Dr. Bates. Well, I really appreciate that. I am a Past 
President of the American Lung Association and the American 
Thoracic Society, and I am the Chief of the Medical Service at 
the VA Medical Center in Little Rock, and Professor of Medicine 
at the University there.
    Mr. Lewis. My district includes the Jerry Pettis Veterans 
Hospital, and Loma Linda University is just across the street.
    Dr. Bates. Yes, that is an important medical center.
    Well, I think you are very informed about all this. The 
point that we make is that the number of physician 
investigators in the United States funded for research is 
dwindling. And when I was young, 60 percent of the RO-1s at the 
NIH went to physician investigators. Now it is about 14 
percent. And most of the physician investigators in the U.S. 
now, more than any other side, is funded by the Veterans 
Administration. And this decrease in funding that the 
administration has proposed is a very serious threat to the 
survival particularly of the young people as physicians coming 
into medical research. The VA is an ideal place for clinical 
investigation, and this is a very threatening thing.
    As you also know, compared to the NIH, the VA research 
overhead is much lower. The university's overhead at NIH is 
very steep compared to the VA overhead. The salaries for the 
investigators are not included in this. It just goes for 
research with minimal overhead. So that we are very concerned. 
As you probably know, the number of investigators has been 
dwindling because the VA research budget has been held flat for 
some time. That has resulted in about a number of 400 less 
investigators over the last 6 years.
    The other thing we wanted to make sure we provide our 
comments on is the EPA's Superfund research. We think that is a 
very worthy project, and we want to encourage Congress to 
continue to fund it.
    [The statement of Dr. Bates follows:]

[Pages 574 - 581--The official Committee record contains additional material here.]


    Mr. Lewis. We are very concerned about Superfund, very 
concerned about that history of spending so much of our money 
in litigation rather than in cleanup. So we are working with 
EPA to try to do all we can to make sure that we fix that which 
has not worked so well and make sure we at the same time make 
progress in terms of cleanup.
    I might mention, shifting back to the research question, 
there are a number of subcommittees in the House that deal with 
the various aspects of research, medical, health-oriented, et 
cetera. One of the items that I have asked Loma Linda to help 
me look at is the reality that over the years there have been 
adjustments in research budgets at varying levels. Just so that 
I am clear in your mind's eye, many years ago I put the very 
first money for AIDS research within this budget. It was then 
$200,000. Over the years, however, there has been a lot of 
growth along those avenues and a lot of valuable information 
has been developed. But in the meantime, if you take lung 
cancer funding, prostate cancer funding, and breast cancer, 
that cumulative dollar amount today is, you know, considerably 
behind another channel.
    We do need help from the community, the medical community, 
the research community, to apply some brain power to those 
balances for all of our committees so that we make sure in this 
shrinking circumstance, where the reality isbetween now and 
just the turn of the century there is not likely to be huge growth, 
indeed we want to make sure that we have our priorities in order.
    So I bring that to your attention and hope that you would 
help us.
    Dr. Bates. I appreciate it. Thank you very much.
    Mr. Lewis. And we would be interested in your comment for 
the record as well.
    Dr. Bates. Well, we certainly would support--particularly 
in the Veterans' Administration, the most common medical reason 
for discharge from a veteran's hospital is lung disease. And 
that is chronic obstructive lung disease, emphysema, 
bronchitis, asthma, lung cancer. Coronary artery disease is an 
explosion among the veterans because of their age and their 
smoking history. So these are very, very major areas in the VA.
    Mr. Lewis. Well, I am of the view that the VA's control 
group circumstance of their population base provides an 
excellent----
    Dr. Bates. It is unmatched. Unmatched as far as clinical 
trials.
    Mr. Lewis. So we appreciate very much your comments. We 
appreciate your being with us.
    Dr. Bates. I appreciate your understanding, and thank you 
very much.
    Mr. Lewis. Do you have questions?
    Mrs. Meek. No, thank you.
                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

PAUL F. LARSON, M.D., SENIOR VICE PRESIDENT FOR ACADEMIC AFFAIRS, 
    UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY
    Mr. Lewis. Dr. Larson, we have your full testimony. It will 
be submitted for the record. If you would help us with time by 
way of summarizing and communicating your concern, we would 
appreciate that.
    Dr. Larson. Thank you very much, sir. It is my pleasure to 
be here representing the University of Medicine and Dentistry 
of New Jersey, which is the largest public health science 
university in the Nation.
    Mr. Donald Payne was going to accompany me, and he will be 
submitting his testimony separately.
    Mr. Lewis. That is fine.
    Dr. Larson. I want to talk about two projects. The first 
one is the International Center for Public Health at the 
University Heights Science Park. Infectious diseases are posing 
a bigger and bigger problem for the world. There was a 
television program just last week about how infectious diseases 
are posing such a new threat, armed forces, but also as air 
travel and sea travel, people moving about. It is a big 
problem.
    We are proposing to create the International Center for 
Public Health. This would locate a first-class infectious 
disease research and treatment complex to be located in the 
University Heights Science Park, a Federal enterprise community 
neighborhood in Newark, New Jersey.
    Now, this is an interesting Science Park because it is a 
combination of groups that are working there. It is our other 
institutions of higher education in Newark, including the New 
Jersey Institute of Technology, Rutgers-Newark, the Essex 
County College, but also very importantly, we are working very 
closely with the city of Newark to develop this Science Park.
    The $10 million first phase of the Science Park has been 
completed, and that is thanks to the help of this subcommittee. 
As a matter of fact, I could say that, without the help of this 
subcommittee, we would not have Science Park, so thank you very 
much.
    Out of desolation has grown a technology business 
incubator, a day-care center, a new building housing an 
industrial liaison laboratory for our Center for Biomaterials 
and Medical Devices. The incubator is already over 80 percent 
filled, and we just opened it. Many of the companies are 
minority- and women-owned business enterprises.
    Our International Center at the Science Park will house two 
core tenants. The first is the Public Health Research Institute 
and the other is our own university's Tuberculosis Center.
    The Public Health Research Institute is an internationally 
prestigious biomedical organization that employs 110 
scientists. They are presently located in New York. They sought 
to relocate, and we see them as a major tenant to be an anchor 
within this Science Park. Along with the TB Center, we would 
have a very strong presence in infectious disease looking at 
new ways to conquer and to treat the infectious disease that is 
an imposing threat to our world.
    We request, therefore, $5 million from this subcommittee to 
support the Phase 2 development of Science Park and the 
construction of the International Center for Public Health.
    A second project that we have is in New Brunswick, and this 
is to develop a Child Health Institute of New Jersey. As we 
look across the Nation, there is no center that is putting 
together the expertise of multiple disciplines to look at the 
very serious problems of what happens in the intra-utero and 
then at early life of the children of the United States and of 
this world. We have the wherewithal to put this together with 
our partners, and we would like to present this also to the 
committee as one of our projects.
    I thank you very much.
    [The statement of Dr. Larson follows:]

[Pages 585 - 591--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Dr. Larson. I am very 
familiar with and empathetic to the latter question. Children's 
health is fundamentally--I am on the board of directors of the 
Children's Hospital of Loma Linda, and I know of their 
preliminary work. It is very important work.
    Mrs. Meek.
    Mrs. Meek. No questions.
    Mr. Lewis. Thank you, Dr. Larson.
    Dr. Larson. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

GLENN GRANT, BUSINESS ADMINISTRATOR, CITY OF NEWARK, NEW JERSEY; AND 
    CLYDE DAWSON, MEMBER OF WEEQUAHIC PARK ASSOCIATION
    Mr. Lewis. Mr. Dawson and Mr. Grant.
    Mr. Grant. Good afternoon, Mr. Chairman.
    Mr. Lewis. Welcome to the Committee. I have in these 
hearings been trying to let people know that we have a list of 
well over a hundred witnesses, and so we really appreciate your 
willingness to submit your testimony for the record and kind of 
summarize that which you want to communicate to us.
    You are welcome to begin your testimony, but first I would 
like to introduce my friend, Rodney Frelinghuysen, who is also 
from New Jersey.
    Please proceed as you wish.
    Mr. Grant. Thank you, Mr. Chairman. It is a pleasure to be 
here before you today.
    Mr. Lewis. I wanted to mention, though, one of the things 
that some apparently have forgotten I said this morning, the 
short presentations do very well in this Committee.
    Mr. Grant. We will try to adhere to that, Mr. Chairman.
    We are here today to ask for your assistance and 
partnership in developing jobs for our citizens. We believe 
that the projects that we will identify today provide the best 
public-public partnership to stimulate job growth and economic 
development. These projects are all within our Federal 
enterprise community area and will have a dramatic impact on 
unemployment and poverty suffered by, unfortunately, too many 
of our residents.
    The projects that I am talking about are an infrastructure 
improvement at Waverly Yards, the retrofitting of underutilized 
industrial buildings in the area known as Frelinghuysen Avenue. 
Our Congressman here, his ancestors used to be the mayor of the 
city of Newark, and we are very proud of that long history of 
leadership and service in Newark. So one of the areas that we 
are now trying to redevelop is an area known as Frelinghuysen 
Avenue, that of old industrial factories that are now 
underutilized and abandoned. And if we really can take 
advantage of our location next to Newark International Airport, 
one of the largest airports in the country and one of the 
fastest growing, we believe that we have an economic engine 
that can well serve this country, and particularly the citizens 
of the city of Newark.
    In regards to our Waverly Yards request, it is the largest 
undeveloped remaining parcel in the city of Newark. It is 
directly across from U.S. 1 and 9, and it is an underutilized 
former rail yard of just over 100 acres which will be connected 
to our airport, through an airport monorail.
    The city wishes to develop it to its fullest potential by 
providing critical infrastructure improvements. There is 
currently only one road leading into the site, and basic site 
services such as power, water, and communications lines need to 
be brought into the location. Site clearance, possible 
remediation, and acquisition of several parcels are needed in 
order to make this site an attractive one.
    An international trade center, which this committee has 
helped to support, is now under study and preliminary design. 
It is also proposed to be located in that area. We are 
requesting that this committee provide an appropriation of $6 
million to help make this necessary improvement a reality. 
These activities will ultimately generate hundreds of jobs for 
Newark residents in the trade, hospitality, convention, and 
transportation industries and provide key enhancements to a 
regional transportation center.
    Consistent with our goal of stimulating job growth is our 
proposal to retrofit Frelinghuysen Avenue, as I have indicated. 
There are thousands of jobs in our port area, but, 
unfortunately, they are a stone's throw and a highway throw 
away from being accessed by our citizens. We propose that a 
project of a supplemental funding of $3 million will assist in 
retrofitting those much needed manufacturing industrial jobs.
    An additional project opportunity that we are here to talk 
about today is the Weequahic Park. Weequahic Park was designed 
as the first county part in the Nation by the renowned 
designer, Frederick Law Olmstead, who created Central Park. Now 
thanks to some innovative efforts of a private, non-profit 
Weequahic Park Association, the infrastructure is being 
developed, and the people of Newark are taking back the park. I 
would like to give a minute of my time to WPA's representative, 
Clyde Dawson, who will discuss our proposal.
    [The statement of Mr. Grant follows:]

[Pages 594 - 597--The official Committee record contains additional material here.]


    Mr. Lewis. Mr. Dawson.
    Mr. Dawson. Thank you. In 1992, a group of park users led 
by Mr. McNeil came together to form Weequahic Park Association, 
referred to as WPA, which is modeled after and received a 
generous amount of support from the highly successful Central 
Park Conservancy in New York City to stand on the shoulders of 
our Congressman, Donald Payne, a long-time advocate of 
Weequahic Park.
    In order to supplement the resources provided by Essex 
County for use in Weequahic Park and to have a hands-on 
management role, WPA formally entered into a partnership 
agreement with the county in 1995. Our estimate of the 
investment made in Weequahic Park associated with WPA's 
accomplishments is in excess of $5 million and growing. It 
should be noted that these accomplishments were made without an 
administrative budget. Newark's mayor and city council have 
been and continue to be fully supportive of WPA's restoration 
efforts.
    WPA strongly feels, and we concur, that they are at the 
point of reaching critical mass in their development efforts. 
The most immediate WPA projects are to: one, continue showing 
physical improvement within and outside of the park; two, 
continue to build the management team; three, attract and 
involve more local institutions; four, raise funds and 
undertake the Master Plan study; five, raise funds toimplement 
the Master Plan study; six, provide employment and economic 
opportunities within; seven, reduce crime.
    Our ultimate goal is to restore Weequahic Park to a first-
class park.
    An appropriation of $3.5 million is hereby requested to 
accomplish a broad range of restoration initiatives, including 
the completion of the Master Plan. The Master Plan will include 
fund-raising components to involve the private sector and 
foundations in the continued restoration of this historic and 
invaluable urban asset. Revitalization of the park also 
conforms to the recommendations of the State of New Jersey's 
plan to build on the existing infrastructure available in urban 
centers.
    Thank you, Mr. Chairman.
    [The statement of Mr. Dawson follows:]

[Pages 599 - 602--The official Committee record contains additional material here.]


    Mr. Lewis. Well, thank you both. I have not had the 
privilege of working personally with the historical 
Frelinghuysens, but I have this guy. [Laughter.]
    Mr. Lewis. Mr. Frelinghuysen, the questions are up to you.
    Mr. Frelinghuysen. Well, gentlemen, Mr. Grant, Mr. Dawson, 
thank you for being here.
    Mr. Chairman, the city of Newark is our largest and most 
historic city in our State, and certainly I have a few roots 
there, and I have had some association that predates Mayor 
James' time. It is a great city. It is a renaissance city. It 
is a city that really is remaking itself as we are sitting 
here. It has really done some great things. And Congressman 
Payne has obviously been a good supporter of our efforts on 
this Committee, and we look forward to--I have a little 
historical anecdote here.
    I know we will do our best to--this is just for the record 
now. [Laughter.]
    Mr. Frelinghuysen. They have touched all the right buttons, 
Mr. Chairman. [Laughter.]
    Mr. Lewis. Gentlemen, thank you very much.
    Mrs. Meek. Mr. Chairman, I have a question.
    Mr. Lewis. Don't forget Mrs. Meek. She is very important 
here.
    Mrs. Meek. A quick question. I noticed throughout your 
testimony--and I have not read it thoroughly, but you made 
mention of the fact that you are an enterprise community.
    Mr. Grant. That is correct.
    Mrs. Meek. Tell me what benefits you are getting now.
    Mr. Grant. Right now the largest benefit that we have 
accomplished to date is the creation of a community school. Our 
plan under our enterprise community was to develop eight 
neighborhoods. We took the lowest or the poorest neighborhoods 
in our communities, and we partnered with Weequahic Park and 
other community-based organizations. We are right now engaged 
in an RFP for doing an economic development assessment of those 
neighborhoods. So, to date, the thing that we are most proud of 
is that we have developed a community school, and, secondly, we 
are also doing a city-wide wide area network using 25 
community-based organizations to tie them all together so 
hopefully we can have a one-stop shop. As many individuals come 
to various community-based organizations, they have to repeat 
the approval process.
    Mrs. Meek. That sounds real good.
    Mr. Lewis. He had that down cold, didn't he?
    Mrs. Meek. What?
    Mr. Lewis. He had that down cold. [Laughter.]
    Mrs. Meek. He must have known I was going to ask. But, 
anyway, it is good that he has this clearinghouse in the CBOs. 
That helps a lot.
    Did you apply for an empowerment zone?
    Mr. Grant. Yes.
    Mrs. Meek. Did you get it?
    Mr. Grant. We got the consolation prize.
    Mrs. Meek. Oh, all right. So did Miami.
    Mr. Lewis. Thank you, gentlemen, very much.
                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

JOSEPH MAUDERLY, DIRECTOR OF EXTERNAL AFFAIRS, LOVELACE RESPIRATORY 
    RESEARCH INSTITUTE
    Mr. Lewis. The committee would call Dr. Joseph Mauderly. 
Dr. Mauderly, would you identify yourself for the record?
    Dr. Mauderly. I am Joe Mauderly, Director of External 
Affairs for the Lovelace Respiratory Research Institute in 
Albuquerque, New Mexico. I appreciate the opportunity to talk 
with you about two inter-related issues that are very important 
to the Environmental Protection Agency. The first is the need 
for a national center for coordination of research and 
information on the respiratory effects of air pollution. 
Pollutants inhaled in the environment, home, and workplace are 
known to contribute to respiratory illness, but the extent of 
their contribution and the nature of it is hotly debated and 
very uncertain. This problem is not receiving the attention it 
deserves in view of the alleged health and economic impacts.
    EPA is facing increasing rather than decreasing problems in 
facing this issue as the level of air pollutants goes down 
because it is becoming more difficult to determine whether 
health effects are associated with specific pollutants or the 
mixture of pollutants. It is becoming more difficult to make 
cost/benefit judgments about the effect of reducing pollutants 
further. It is becoming very important to judge whether small 
responses seen in animals or cells or people constitute health 
effects that are important enough to control.
    These are all increasing difficulties along with the issue 
of it is increasingly difficult to identify sub-populations of 
susceptible people that may manifest the effects. It is 
becoming more difficult to validate laboratory assays as far as 
their relevance to human health. This has always been a 
problem, but there is little coordinated effort to do this.
    Now, research on these issues is spread across many 
agencies and non-Federal organizations, as it should be, but 
there is no mechanism for coordinating these activities or the 
information that results from them. There is no central 
resource for information for Congress, industry, or the public.
    The Lovelace Respiratory Research Institute proposes to 
establish the National Environmental Respiratory Center to meet 
several of these needs that I have mentioned. The center would 
be located in the Government-owned Inhalation Toxicology 
Research Institute facility which is located on Kirtland Air 
Force Base in Albuquerque. This facility was developed for the 
Department of Energy over 30 years to study long-term health 
outcomes of inhaled materials and has fulfilled that mission. 
It has unmatched potential as a national user facility of 
specialized resources for university researchers and others.
    Now, Lovelace is well suited to establishing the center 
because it is well known for working in many of these problem 
areas that I have just talked about. The key functions of the 
center that we envision would be to facilitate interagency and 
interdisciplinary research and communication to provide a 
centralized resource of information to all the stakeholders, to 
provide specialized user facilities for people to come in and 
do their research, as well as research that might be conducted 
in-house, and to provide research training.
    Lovelace seeks an appropriation through EPA for core 
funding for operating the center, but envisions that funding 
for special programs specific to the missions of EPA and other 
agencies would comprise the bulk of the work that was conducted 
there. But we are seeking core funding through an appropriation 
through EPA for $2 million to initiate the center and to 
support it.
    The second issue is very related, and I mentioned the 
importance of mixtures. We know, EPA knows well--it is a 
dilemma that they face--that we are exposed to mixtures of 
pollutants. No one is exposed to just one agent at a time. And 
yet all of our research and all of our regulations envision 
that we are exposed to one pollutant at a time. And we do not 
know what to do with this.
    The effects of combined exposures to multiple inhaled 
pollutants is a special problem. Understanding this is very 
important to them, and, again, as air pollutant levels are 
reduced, it is becoming more important to tease out the effects 
of the mixture and understand how to deal with mixtures.
    Despite the importance of this problem, there is virtually 
no research other than a program that has been conducted by 
Lovelace for the Department of Energy on some combined exposure 
issues that are particularly important to that agency. But to 
date, that research has not been extended to the concerns of 
other agencies.
    So Lovelace requests appropriations through EPA to 
participate in this program, to start extending it to issues 
that are especially important to that agency.
    Thank you for this opportunity, and additional details 
would be in my written comments.
    [The statement of Dr. Mauderly follows:]

[Pages 606 - 610--The official Committee record contains additional material here.]


    Mr. Lewis. We appreciate very much your summarizing your 
testimony, and your comments for the record are important to 
us. Those of us who live in air-quality territories understand 
the need for health information to justify strategies that will 
have an impact, and so we appreciate your input.
    Any questions?
    Mrs. Meek. No, Mr. Chairman. Thank you.
    Mr. Lewis. Thank you, Dr. Mauderly.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

JUDY GWEN GUSTINIS, DIRECTOR OF THE CENTER FOR INTEGRATED MANUFACTURING 
    STUDIES, AND VICE PRESIDENT FOR ACADEMIC AFFAIRS; NEBIL NASR, 
    PROFESSOR, SCHOOL OF ENGINEERING, ROCHESTER INSTITUTE FOR 
    TECHNOLOGY
    Mr. Hobson [presiding]. Dr. Judy Gwen Gustinis, and you 
will have to pronounce your name better than I did there.
    Ms. Gustinis. Gustinis.
    Mr. Hobson. Gustinis, okay. From the Rochester Institute of 
Technology.
    Ms. Gustinis. Thank you, Mr. Chairman, for this opportunity 
to allow RIT--we are from Rochester, New York--to testify today 
regarding your Subcommittee's consideration of VA, HUD, and 
Independent Agencies' fiscal year 1998 budget.
    My name is Judith Gustinis. I am the Director of a newly 
created center at the Rochester Institute of Technology known 
as the Center for Integrated Manufacturing Studies.
    With me is Dr. Nebil Nasr. He is an expert on 
remanufacturing and a member of the faculty of the College of 
Engineering at RIT.
    We would like the subcommittee to consider our proposal to 
establish within CIMS, a national center of excellence in an 
emerging area of manufacturing research known as 
remanufacturing. Establishing such a center at RIT will allow 
us to use our considerable expertise in applied research and 
engineering and manufacturing process development and take 
advantage of our years of work with remanufacturers in the 
United States.
    Our database indicates that there are over 73,000 small 
remanufacturers nationwide. This does not take into account the 
Department of Defense which is perhaps the largest 
remanufacturer in the world, and a few notable large companies, 
such as Kodak, Xerox, Caterpillar, Detroit Diesel, Cummins, 
Copeland, and a few others. However, the practice of 
remanufacturing is not widespread in the United States. It is 
the process of return, disassembly, cleaning, reassembly, and 
test of a product.
    Recycling is a positive step in the process for the 
environment because at least raw material can be recovered, but 
it takes energy to recycle, and it loses the energy and labor, 
nonrecoverable materials, that are used to make the components 
in the first place.
    Remanufacturer captures these. Recycling often reclaims 5 
percent of original cost while recycling recaptures 5 percent 
of original cost while remanufacturing can reclaim as much as 
85 percent. This makes it a profitable venture for business and 
good to the environment.
    It is kind to the environment in many ways. It avoids solid 
waste. It saves significant amounts of raw material. It saves 
on energy consumption.
    An example, one study indicates that today, though not 
widespread, the energy saved annually by remanufacturers 
worldwide equals the energy generated by five nuclear 
powerplants or 10.7 million barrels of oil. Imagine the impact 
of widely, more scientific remanufacturing werepracticed in the 
United States.
    Mr. Chairman, new product manufacturing currently creates 
87 percent of the waste produced in the United States. 
Remanufacturers tell a different story.
    Some statistics from remanufactured auto starters, 
annually, 8 million gallons of crude oil, the energy that it 
would have taken to make the new parts, 52,000 tons of iron 
ore, 6,000 tons of copper.
    Another example in consumer products world class from 
Rochester Eastman Kodak Company is the design and remanufacture 
of the single use camera. Recently, Kodak announced that it had 
recycled and remanufactured its 100-millionth Fun Saver Camera, 
avoiding over 14 million tons of material waste. What is 
important, it is a cost-effective product. It can compete 
anywhere in the world. It produces a good price for the 
consumer, and it is a good profit for the company, and it is 
good for the environment. It is a win situation all around.
    Mr. Chairman, the EPA predicts that over 80 percent of U.S. 
landfills will close in the next 20 years, and yet, cost of 
federally mandated programs have grown significantly in the 
last 20 years. Pollution control and cleanup grew from 26 
million to 115 million in not that long a span of time. It 
seems as though we are fighting a losing battle.
    More regulation of dollars to enforce may not be the 
answer. Developing more scientific design and reuse and 
manufacturing practice in the United States will automatically 
be self-pleasing. You might say the motto of our center is make 
profit, not waste, through remanufacture. This would bring the 
U.S. a step closer to creating a closed-loop sustainable 
relationship between industry and the environment.
    For these reasons, Mr. Chairman, RIT is proposing that EPA 
provide programmatic funding to support this National Center 
for Remanufacturing. The center's programs will help EPA's 
science and technology programs address this pressing issue 
without adding any regulation.
    RIT is requesting $4 million in fiscal year 1998 for 
national program start-up activities. It is anticipated ongoing 
program costs will be approximately $2.8 million, but through 
State support and revenue from industry projects, we believe we 
will product 8- to $900,000 of this in the second year. 
Therefore, we will seek $2 million per year for 4 years after 
start-up, and we believe the payback to the environment and 
industrial competitiveness will be more than ten-fold.
    Because of our work in remanufacturing, there is widespread 
support for us through trade associations, such as Auto Parts 
Rebuilders Association and Remanufacturing Industry Council 
International, and other trade associations and remanufacturers 
stand with us for this center.
    Mr. Chairman, RIT has a long history of service to 
remanufacturers and manufacturers. We have experience in 
working in this field in providing real solutions. We hope that 
the Congress will look favorably upon our request to fund a 
national center of excellence in remanufacture at RIT CIMS.
    I thank you for the time you have given us and would be 
happy to answer any questions that you might have.
    [The statement of Ms. Gustinis follows:]

[Pages 614 - 629--The official Committee record contains additional material here.]


    Mr. Hobson. Okay. Any questions?
    Mrs. Meek. Thanks. No questions.
    Mr. Hobson. Rodney.
    Mr. Frelinghuysen. No questions.
    Mr. Hobson. I have a couple of questions that I want to ask 
on behalf of Mr. Walsh who is not able to be with us at this 
moment.
    Ms. Gustinis, in your testimony, you refer to the new 
Center for Integrated Manufacturing Studies at RIT to be a 
unique facility which would provide research, laboratory 
support for the remanufacturing research program you are 
proposing today.
    Would you elaborate on why--I don't know whether you 
pronounce it CIMS or C-I-M-S--is unique and why it is the best 
place in the country to do this?
    Ms. Gustinis. The facility itself is a 157,000-square-foot 
facility. It is dedicated to industrial competitiveness in the 
United States. Within the facility, there are manufacturing 
bays that serve manufacturers. There are 20 different 
laboratories of very many different kinds and technology all 
geared toward providing real-time solutions for manufacturing 
today, and over 5 years of work with remanufacturers, we have 
helped them improve their process, develop new markets, and all 
of this is very kind of the environment.
    Mr. Hobson. Okay. Dr. Nasr, you appear to be at the 
vanguard of an exciting new era of manufacturing research, 
which Mr. Walsh hopes will have a positive impact on 
manufacturers in his district around Syracuse, New York, as 
well as throughout the State and the Nation.
    Would you elaborate on some of the remanufacturing and 
research you are already doing at RIT CIMS and what research 
grants you are already working on with the Federal agencies, 
and would you also--do you have a plan to transfer your 
research and technology to the manufacturing sector?
    Mr. Nasr. Some of the work that we are doing right now at 
the center is to look at the economics and feasibility of 
remanufacturing a product that is not remanufactured today.
    Some of the research grants that we are working on right 
now is basically doing technical assessment to the 
remanufacturing industry with funding from the Department of 
Energy.
    In terms of transferring that to the manufacturing sector, 
what we are trying to do with now is actually learn from 
remanufacturing the product how we can design a product better 
for the environment and basically transfer this knowledge to 
the design site of a new product.
    Mr. Hobson. Either of you or both, what response have you 
already seen from the U.S. manufacturing community about 
working with your lab and expanding work in remanufacturing?
    Mr. Nasr. We have been working with a lot of trade 
associations that represent the industry, and there is 
something called the Remanufacturing Industries Council that we 
are working with now for a few years.
    Mr. Hobson. I have a question, personally, just sitting, 
listening to this. If you get an 85-percent return, why 
wouldn't Pitney-Bowes or Westinghouse be already into this? And 
I have looked at your resume, and I know you used to work that. 
So that is why I ask about it.
    Ms. Gustinis. Actually, that is very nice of you to mention 
that. I won--was part of the team that won a Corporate One 
Standard of Excellence at Pitney-Bowes for developing a closed-
loop remanufacturing center. We found it to be far more 
profitable than we expected it to be. We did learn because we 
shipped products internationally, and that was important 
because the countries abroad are making much heavier 
requirements, and companies that want to ship internationally 
are faced with take-back policies, and we felt it was important 
to learn about that, but what we learned along the way is it is 
highly profitable, which is one of the reasons we think it is 
something that all U.S. industry should be looking at.
    Mr. Hobson. Well, thank you very much for coming. It is a 
very innovative approach, and I think we are all going to be 
looking at this more and more as we go down the road because 
the energy problem, I think, needs to be looked at.
    Ms. Gustinis. Thank you.
    Mr. Hobson. Thank you very much.
    Mr. Nasr. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

R. MICHAEL McCLAIN, PRESIDENT, SOCIETY OF TOXICOLOGY
    Mr. Hobson. Dr. R. Michael McClain of the Society of 
Toxicology.
    Welcome.
    Mr. McClain. Thank you.
    Well, good afternoon, Mr. Chairman and Members of the 
Subcommittee. I am Dr. Michael McClain, and I am currently the 
President of the Society of Toxicology, and I appreciate the 
opportunity to be able to come and talk to you today.
    The Society of Toxicology is a professional organization 
that brings together over 4,000 toxicologists in academia, 
industry, various Government agencies, and our regulatory 
agencies.
    Now, a major goal of the society is to promote the use of 
good science and regulatory decisions. With science as our 
guide, we can use sound judgment in addressing numerous 
environmental issues. We work closely with the Environmental 
Protection Agency and also the National Institutes of 
Environmental Health Sciences in addressing issues related to 
environmental risk.
    Now, much attention has been focused on reform of the 
Superfund program. Both the House and Senate authorizing 
committees are involved in discussions with the administration, 
industry, and others to build consensus on the reauthorization 
of this program.
    The Society of Toxicology is interested in Superfund 
because the cleanup of hazardous waste is an enormous 
undertaking which can be greatly facilitated through toxicology 
research. In fact, the program that I would like to discuss 
today, the Superfund Basic Research Program, is the only 
scientific research program focused on health and cleanup 
issues for Superfund hazardous waste sites.
    Mr. Chairman, I would like to begin by thanking the 
committee for its past wisdom and support for funding the 
Superfund basic research program. This program would not be 
where it is today without the support.
    Now, funding for the research program has passed through 
the Environmental Protection Agency to NIEHS as established in 
Section 311 of the Superfund Reauthorization Act of 1986, and 
NIEHS administers the research program which supports 
university and medical school research to understand the public 
health consequences of hazardous waste sites, as well as to 
develop better methods for waste site remediation. Currently, 
there are 18 programs at 70 universities involving more than 
1,000 scientists.
    The primary purpose of the research program is to provide 
the scientific basis needed to make accurate assessments of the 
human health effects at the hazardous waste sites. In addition, 
research data is used to determine which contaminated sites 
must be cleaned up first, to what extent cleanup is needed, and 
how best to clean up contaminated sites in the most cost-
effective manner.
    Now, this is accomplished by developing more rapid and 
cost-effective strategies for measuring chemicals in and around 
waste sites, placing major emphasis on the technology used to 
detect these chemicals in humans and their effects. 
Collaboration between engineers and the physical chemists is 
encouraged to better understand how chemicals are physically 
trapped in soils so that improved cleanup strategies may be 
devised, and basic biological chemical and physical methods to 
reduce the amount and the toxicity of chemicals at these sites 
are developed.
    Now, research projects include basic research and the 
potential chemical effects on cancer, such as breast and 
prostate, birth defects, and other environmentally related 
human health disease, and the interaction, common goals, and 
exchange of knowledge that result from this research program 
are among the most highly developed programs in the United 
States.
    Moreover, it is important to note that this is the only 
university-based research program that brings together both 
biomedical and engineering scientists to provide the scientific 
basis needed to make accurate assessments of human health risk 
and also in developing cost-effective cleanup technologies.
    Now, much progress has been made as a result of research 
conducted under the auspices of the research program, and this 
includes discoveries about the neurotoxicity and estrogenicity 
of the polychlorinated biphenyls, advancements in mechanisms to 
assess the risk to human health of hazardous waste exposure, 
toxic mixtures, arsenic in drinking water, and developments and 
remediation technology which ensure timely and cost-effective 
cleanups.
    Now, we believe the Superfund basic research program is 
critical to the success of the Superfund hazardous waste site 
cleanup program, and funding of the research program really 
represents just a tiny fraction of the amount of money that is 
spent overall in this program.
    Unfortunately, every year we fight a battle to continue 
funding this research. Once again, in his budget, the President 
has recommended a 21-percent decrease in funding. Last year, 
you may recall that there was a request of 60-percent decrease 
of funding, and it was only up to this committee that expressed 
its opposition to such a drastic cut that the administration 
relented and revised its request level.
    Therefore, for fiscal year 1998, we urge you to once again 
reject the President's reduced request of $25.5 million. 
Instead, we would respectfully urge you to approve $37 million 
as recommended in the pending Superfund authorization bill. In 
addition, we recommend that youprovide at least $23 million for 
the worker training program at NIEHS.
    Now, communities near hazardous waste sites want to know if 
hazardous chemicals are reaching their water or air supplies. 
They want to know if the low levels of these contaminants 
affect their health or the health of their children. They want 
it cleaned up.
    Our universities are responding with technology and 
research efforts which are results-oriented, economically 
feasible, and are scientifically credible with the public, and 
this is only possible because of the research effort funded 
through the Superfund basic research program.
    Again, I appreciate this opportunity to come here and talk 
to you today, and I will answer any questions that you might 
have.
    Thank you.
    [The statement of Mr. McClain follows:]

[Pages 634 - 642--The official Committee record contains additional material here.]


    Mr. Hobson. Mrs. Meek.
    Mrs. Meek. No, sir.
    Mr. Hobson. Well, I would like to make an editorial 
comment.
    Mr. McClain. Sure.
    Mr. Hobson. I think your work is very necessary because the 
problem that I have seen in a practical sense in trying to buy 
a property is that nobody can tell me with any degree of 
certainty what is there and how much it is going to cost me to 
clean it up, and I am not talking about a giant Superfund site. 
I am talking about a little 5,000-square-foot building on less 
than an acre of ground.
    Mr. McClain. And you could have a fuel tank in the back 
that has been leaking.
    Mr. Hobson. It has got one. It has got one, and nobody can 
tell you the sciences here.
    I have also got an aquifer in my district that they are 
trying to build a dump over, and there is a huge fight over the 
science involved in this and how fast water can get out of this 
thing and over there and what do you do when it gets out, and 
the sciences, I can tell you that the science and the 
engineering in this is not, in my opinion, very exact today, 
and so you will--from my position, if you are the right guys, I 
am going to be supporting this because this is very difficult 
in a community today or a State to try to figure out how you do 
this stuff, and an individual can expose their entire estate.
    If you buy a property today and you don't get all of the 
environmental stuff done or even if you try to do it, you 
expose yourself to tremendous problems, but the current owner 
just sits there and lets it continue on.
    Mr. McClain. And hopes to some day get rid of it.
    Mr. Hobson. And hopes that somebody else is going to wind 
up with the property, I think, or the State or somebody is 
going to come along and do it, but the problem is the exactness 
of trying to get this scientific data to where you can deal 
with these with more degree of certainty when you get into it.
    Mr. McClain. That is basically where we are coming from, 
from the Society of Toxicology. We are supporting the funding 
of the basic research that is required to answer some of these 
questions that are basic risk assessment questions.
    Mr. Hobson. Yes.
    Mr. McClain. I think over the last 5 to 10 years, there has 
been a big difference in the way that the regulatory agencies, 
such as EPA, have incorporated good science into the risk 
assessments, and I think this is now just beginning to filter 
down into some of the things and issues on risk assessment that 
might be involved in Superfund sites, but it is a matter of 
getting that information or these changes and direction that 
are currently ongoing at EPA from the Office of Research and 
Development down to the level that the people are actually 
managing and making decisions on the Superfund sites.
    We are definitely supporting or recommending the continued 
support of basic research to address these issues and would ask 
you to not accept the cuts in the current recommendation of the 
President.
    Mr. Hobson. In the past, we have funded.
    Mr. McClain. In the past, you have moved them right back 
up, and we sincerely hope that you choose to do so this year as 
well and maintain the funding that has been authorized for the 
next 2 years as well.
    Mr. Frelinghuysen. This gentleman is one of my 
constituents.
    Mr. Hobson. I was going to say, Rodney, you might want to 
ask him a question about that house that is in that----
    Mr. Frelinghuysen. In the swamp?
    Mr. Hobson. In the swamp where you have got a problem.
    Mr. Frelinghuysen. Of course, the Superfund program is a 
program that is based on political science, not sound science. 
That is why we don't go anywhere. That is why we spend so much 
money.
    Mr. McClain. That is why I think there has been an enormous 
amount of money, particularly in the first 10 years of this 
program, which would be totally squandered.
    Mr. Frelinghuysen. You and I live in an area which has more 
of these sites than any other. A hell of a lot of money has 
been spent, and I must say, I think nine New Jersey sites have 
been cleaned up. $25 billion has been spent nationwide, public 
and private. It is a nightmare, but certainly, I know what you 
are looking for here, and I support it.
    Mr. McClain. Well, thank you very much.
    Mr. Frelinghuysen. You have a Louisiana background in 
there, too, I see.
    Mr. McClain. I was born in Louisiana during the war, so 
that is why. That is my Southern roots here. I have moved 
around since then. I was raised in Pennsylvania, the 
northwestern part, up in the boondocks there, and have spent my 
professional career primarily in New Jersey working for 
Hoffmann-La Roche, one of the largest pharmaceutical companies, 
one of our good representatives here.
    Mr. Frelinghuysen. Good.
    The Chairman, Mr. Hobson, is a good supporter of 
pharmaceutical R&D.
    Mr. Hobson. Okay. Well, thank you, Dr. McClain. We 
appreciate it very much.
    Mr. McClain. Thank you very much. I am sorry to be late.
    Mrs. Meek. Excuse me, Mr. Chairman.
    Mr. Hobson. Sure.
    Mrs. Meek. Doctor, what is the meaning of teratology?
    Mr. McClain. Teratology?
    Mrs. Meek. Yes.
    Mr. McClain. That is the study of chemically induced birth 
defects.
    Mrs. Meek. All right, thank you.
    Mr. McClain. You are welcome.
    Mrs. Meek. I was trying to get the Latin root or something 
from it, and I couldn't get it. There is nothing there to tell 
me anything.
    Mr. McClain. Well, there are a lot of technical terms that 
probably come back and forth. Sometimes we don't realize it. We 
understand what we are saying, but don't recognize that others 
don't.
    Mrs. Meek. Thank you.
    Mr. McClain. Well, thank you.
    Mr. Hobson. Thank you very much, Doctor.
    Mr. McClain. Thanks.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

RAYMOND J. CAMPION, PRESIDENT, MICKEY LELAND NATIONAL URBAN AIR TOXICS 
    RESEARCH CENTER; AND JOSEPH GRAZIANO, PROFESSOR OF PHARMACOLOGY, 
    COLUMBIA UNIVERSITY
    Mr. Frelinghuysen [presiding]. Raymond J. Campion, 
president, Mickey Leland National Urban Air Toxics Research 
Center.
    How are you today?
    Mr. Campion. Thank you. My pleasure.
    Mr. Frelinghuysen. Thank you very much for being with us.
    Mr. Campion. My pleasure.
    Mr. Frelinghuysen. A copy of your formal remarks will be 
included in the record, and if you could do your level best to 
emphasize and empathize and summarize, that would be great.
    Mr. Campion. Well, thank you, sir, and Members of the 
Subcommittee.
    I want to introduce on my right, Dr. Joseph Graziano from 
Columbia, who is a member of our Board of Directors, and this 
is the first time a member of our board has joined us here. Dr. 
Graziano is a professor of Pharmacology at Columbia. He is also 
head of the Department of Environmental Sciences and has done a 
lot of work on lead poisoning with inner-city children. As I 
said, he is one of our board members.
    In our testimony, we indicate that another board member was 
going to join us, Ms. Barbara Price, who is the Vice President 
of Phillips Petroleum and another board member.
    Barbara Price was unfortunately called away for business 
purposes, but having those two types of individuals on our 
board, I think, is one of the real strengths of the Leland 
Center which is a private-public partnership which is focused 
on doing research on air toxics.
    We have had the support of this Committee in the past, and 
we sure appreciate that. We have been working closely with 
Members of the Committee on the activities that we were 
involved in.
    I just want to make a brief report on where we are. As you 
mention, we have our statement in the record. We are beginning 
two major new initiatives this year that focuses on personal 
exposure to air toxics. This is a relatively new approach 
looking at indoor and outdoor exposures that people actually 
find at their body surface, and it is quite different than the 
kinds of things that have been done in the past relative to the 
outdoor monitors and that kind of thing that have been used to 
assess air quality.
    Dr. Graziano reminds me that much of the public debate now 
ongoing relative to air quality and EPA and the standards of it 
being revised are based on those outdoor monitors, and I think 
the personal exposure approach is going to be far more--be less 
controversial, let's say, in assessing what people are really 
exposed to.
    We have been working hard to build good relationships with 
the Environmental Protection Agency. We have just added 
recently two members of the EPA to our Scientific Advisory 
Panel.
    Our private sector support continues to increase. We have 
added two new members from the private sector to our support 
list, and each year now for the last three years, we have had 
an increase in private sector contributions. So I think that 
that private-public partnership is really beginning to work as 
people see the benefits that we are generating.
    In addition to the major research grant described in the 
proposal on personal exposure, we have just been notified by 
the Centers for Disease Control and the National Center for 
Health Statistics that they are going to incorporate some 
Leland Center activities into their new NHANES study. This is 
the major National Health and Nutrition Survey that they are 
beginning in 1988. So, having this personal exposure to 
environmental factors included in the NHANES survey, the first 
time that will be done, it will really add to our wealth of 
knowledge on how people's health are being affected by both the 
air toxics as well as the nutrition and the areas in which they 
live.
    Our request for fiscal 1998 is $2.0 million, and this will 
allow us to move forward with these programs and other 
initiatives described in our testimony. We have had some 
difficulties in the past with the Environmental Protection 
Agency in terms of accessing our grant monies. We are hopefully 
making progress in that area. They have been reluctant dragons 
in getting the money out. It took us about 15 months to finally 
access our 1996 monies. This only occurred in January.
    We are trying to access our 1997 monies. The 1996 situation 
seriously affected our ability to move research forward because 
we simply didn't have the money.
    Their attitude at the scientific level has been pretty good 
and proving, as we add our scientists to our panel. However, I 
would have to say that the administrative side is still balking 
at contributing this money that Congress appropriates to the 
center. So that is an area that we think really needs some 
improvement, and we are working hard at it.
    In summary, sir, we feel that the private-public 
partnership that Congress envisioned in this kind of center is 
beginning to work in the sense that these programs are going 
forward. We think they will make an impact as we go on, and 
having the two entities, private and public, working together 
in developing these programs and finally seeing the results 
from them, I think we will have less rancor and debate as we 
get those results than we have with the current situation.
    So that summarizes what I was prepared to say, and of 
course, the bulk of it is in the testimony. If Dr. Graziano 
wants to add anything, he is certainly welcome.
    [The statement of Mr. Campion follows:]

[Pages 647 - 656--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Dr. Graziano, welcome.
    Mr. Graziano. Thank you.
    Mr. Frelinghuysen. Anything?
    Mr. Graziano. Yes, just to mention to you, sir, that----
    Mr. Frelinghuysen. You didn't go to Rutgers or somewhere?
    Mr. Graziano. Well, I did, and I lived in Frelinghuysen 
Hall. The world is small.
    Mr. Frelinghuysen. Isn't this a great committee?
    Mrs. Meek. It is wonderful.
    Mr. Graziano. Yes. It is a pleasure to be here.
    Mrs. Meek. That is a great legacy you inherited.
    Mr. Frelinghuysen. It is.
    Mrs. Meek. Yes.
    Mr. Frelinghuysen. Isn't that good?
    Mr. Graziano. Well, moving from there, though, I think I am 
here to tell you that I am very proud to serve on the board of 
directors of a Leland Center. A Leland Center has in a very 
short period of time achieved an identity that is now national. 
I believe that the Leland Center now is seen as serving an 
important role in research and an important niche that has come 
to the fore more than ever, I think, in these past couple of 
months with the issue of amending Clean Air Act air quality 
standards.
    The idea of looking at personal exposure rather 
thanregional is very important. Right now, for example, in Manhattan, 
there are two air monitors, and if you live in Manhattan, you are 
either exposed to Monitor A or Monitor B, or that is how you are 
assigned. The unit of analysis is some large geographic region. 
Obviously, people in Manhattan, like people in this room, go home to 
very different places and are exposed to a very different thing.
    So the idea of now focussing, the Leland Center has put 
money initially into the technology to do the personal sampling 
and now is putting money into the field research with that. It 
is a terrific, terrific move in the right direction.
    Mr. Frelinghuysen. You have your own specific monitors as 
opposed to other governmental monitors, air quality monitors?
    Mr. Campion. Well, I would say, first, what Dr. Graziano 
referred to, we developed technology by letting contacts with 
the organizations to do so, the academic community primarily.
    Yes. These are personal monitors which are no larger than a 
credit card, little badges which don't involve you taking any 
serious measures to make sure they are in place or whatever, no 
pumps or that kind of thing. So they are very effective.
    Mr. Frelinghuysen. That is terrific. Interesting.
    Well, thank you both.
    Mrs. Meek. Mr. Chairman.
    Mr. Frelinghuysen. Yes. Mrs. Meek.
    Mrs. Meek. I have a question. I heard Dr. Campion mention 
something which intrigued me.
    Your funding comes through the University of Texas?
    Mr. Campion. No, ma'am. The appropriation comes from this 
Committee, and then we try to access it through the EPA by an 
assistance grant.
    We are located physically at the University of Texas, in 
the Texas Medical Center, which is what the Clean Air Act 
requires.
    Mrs. Meek. I thought I heard something regarding your money 
coming down slowly to you. What did you say on that?
    Mr. Campion. Okay. We access the monies that are 
appropriated through this Committee via the Environmental 
Protection Agency. So we submit an assistance grant application 
to the EPA, and the EPA has been, in our opinion, quite slow--
--
    Mrs. Meek. It is a slow process.
    Mr. Campion [continuing]. In getting that money to us, so 
that we can implement the research.
    Mrs. Meek. The Committee needs to be aware of that.
    Mr. Campion. Well, we are trying to make members of the 
Committee--and Mr. Cushing is quite aware of some of these 
problems, but we are trying to work on them. We would like to 
solve them collegially, and we think we are making progress, 
but it is slow and it is effective.
    I might add, Mr. Frelinghuysen, that I was born and raised 
in Harrison, New Jersey, and I have traveled Frelinghuysen 
Avenue quite often.
    Mr. Frelinghuysen. With that happy note, I think we are 
about to wrap this portion up. Thank you very much.
    Mr. Campion. Thank you for your time.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

STEVEN M. NADEL, ACTING EXECUTIVE DIRECTOR, AMERICAN COUNCIL FOR AN 
    ENERGY-EFFICIENT ECONOMY
    Mr. Frelinghuysen. Mr. Steven M. Nadel, Acting Executive 
Director of the American Council for an Energy-Efficient 
Economy.
    Hi. How are you? Welcome.
    Mr. Nadel. Hi. Thank you.
    Mr. Frelinghuysen. Nice to see you. Your statement will be 
included in the record.
    Mr. Nadel. Okay.
    Mr. Frelinghuysen. If you would proceed with your remarks, 
and if you can do your best to summarize them.
    Mr. Nadel. Okay. I very much appreciate your taking your 
time to listen to our views. I am sure you must be tired, I 
guess, after several days of these hearings.
    I am here testifying on behalf of the American Council for 
an Energy-Efficient Economy. We are a nonprofit research 
organization based here in Washington, D.C., also with offices 
in the Bay Area of California. We have been in existence since 
1980, working on research on technologies, programs, and 
policies to help improve the energy efficiency of the U.S. 
economy in order to help protect the environment, help protect 
our national security, and help promote economic development.
    I am here today speaking on behalf of the Environmental 
Protection Agency's Climate Change Action Programs. As you are 
probably aware, these programs are an important component of 
the U.S. Climate Change Action Plan, which are the U.S.'s 
efforts to meet its commitments made in Rio in 1992 to help 
stabilize greenhouse gas emissions.
    Now, as you are probably aware, the Climate Change Action 
Programs have been funded at about $85 million annually for the 
last 2 years. This represents about a 40-percent cut compared 
to the Administration's proposal. This Subcommittee and the 
House in general are actually to be commended for supporting 
higher levels in the recent years. Unfortunately, we haven't 
been able to convince your colleagues on the Senate to go along 
with that, but we would like to commend you for your support in 
the past and urge you to full fund the EPA request in this 
important area.
    Now, there are four reasons I wanted to briefly mention why 
we think these programs deserve full funding.
    First, these programs are successful. They are some of the 
more creative and innovative Government attempts to use limited 
amounts of money to get very substantial environmental 
benefits. They involve voluntary actions by individuals, 
consumers, small and large companies to implement cost-
effective energy saving and other measures that reduce 
greenhouse gas emissions, and they are a very important 
alternative to more commanded control regulation.
    Many of you have probably heard about programs such as the 
Green Lights. What people may not be aware is there aremany 
other programs that have been equally, if not more effective.
    Our programs, such as the Energy Star Homes Program, that 
is already in just a year of operation recruited more than 200 
builders and has commitments now for 14,000 homes and includes 
some very creative financing working with foreign national 
lenders to help get attractive financing for these efficient 
homes.
    Likewise, the EPA programs have been instrumental in 
helping to work with computer manufacturers, photocopy 
manufacturers, assembly manufacturers, to get their machines to 
basically go to turn into a very low-energy use state when they 
are not in use.
    The conventional computer, the conventional copier uses 
energy all the time, even when it is not in use, and they have 
developed these simple little software techniques to put them 
to sleep, essentially, resulting in very dramatic savings. At 
this point due to the EPA efforts, depending on the type of 
equipment, from 70 to 95 percent of the models now sold in the 
U.S. have these features, up from fractional levels before the 
program began.
    Overall, EPA estimates that in 1996, these programs have 
saved consumers here in the United States about $750 million, 
and then, if you look at the cumulative savings over the 
lifetime of these measures, it will be about $4 billion from 
measures that have already been implemented, equipment that has 
already been purchased, and improvements that have already been 
installed in buildings.
    These savings are about eight times greater than EPA's 
cumulative expenditures to date from these programs. So we are 
talking a benefit cost ratio of about 8 to 1, just really, I 
think, among the best on Government programs.
    Second, as I mentioned before, the Climate Change Programs 
are an important part of the U.S. environmental policy, 
particularly to address greenhouse gas emissions. As you are 
probably aware, there are negotiations now going on to prepare 
for an international meeting in Kyoto in December at which 
future commitments will be made about what the different 
countries in the world will commit to with greenhouse gases.
    The PRIART Treaty in Rio has not been very effective, 
meaning that just about every country is exceeding the targets 
that were set there, and now we are looking at ways to make the 
treaty more effective, but I think everyone agrees, regardless 
of their position about mandatory-type programs, the first-line 
defense seems to be voluntary programs. These EPA programs are 
the core of the U.S. voluntary efforts, and so we think that we 
should fully fund these voluntary programs, so we can do 
everything we possibly can with the voluntary programs before 
we get to the more difficult decisions about whether additional 
measures are needed.
    Third, the Climate Change Action Programs are good for the 
U.S. economy. They save consumers and businesses money, thereby 
freeing up money for them to spend on other goods and services, 
hoping to generate economic activity and increases in 
employment.
    For example, our organization has just completed a study on 
energy efficiency of economic development in three Mid-Atlantic 
States, New Jersey, New York, and Pennsylvania. We concluded 
that as a result of our strong policies in those three States 
to promote cost-effective energy efficiency investments, which 
the EPA programs would just be a part, that by the year 2010, 
164,000 additional jobs could be generated in those three 
States.
    So, really, we are talking some fairly significant 
employment increases because of the energy bill savings and 
their impacts on consumers.
    Fourth and finally, I wanted to say how these programs make 
good economic sense for the U.S. Government as well. To some 
extent, U.S. Government facilities participate in the programs 
and save on energy. To the extent they promote economic 
activity, that is good for the U.S., but even directly, if you 
look at the $750 million in energy bill savings last year, if 
you look at the proportion of that, that is due to business as 
opposed to individuals, and then look at typical tax rates and 
also how much of the savings people receive in their bottom-
line profits versus having to pay to implement these measures, 
if you multiply that all out, and I detail this in my 
testimony, this increase in taxes due to these programs last 
year was probably about $90 million. So we are talking greater 
tax collections about equivalent to the total expenditures. So, 
effectively, this program pays for itself. The energy savings 
are so great that is results in higher tax collections.
    Now, while these programs have widespread support, I know 
that a letter was submitted to Congress supported by more than 
500 businesses, large and small, in support of these and other 
Government energy efficiency programs. There have been some 
criticisms of the program.
    In the limited time here, I am not going to go into them, 
but I will----
    Mr. Frelinghuysen. We will closely read about those 
criticisms.
    Mr. Nadel. Right. To the extent you hear about them, I have 
tried to provide responses. In general, I think the criticisms 
have been pretty limited, pretty minor. EPA has done a good job 
of addressing them. There are one or two that probably 
continued work is needed, but they are not very major and can 
easily be addressed.
    In conclusion, I would like to say that the Climate Change 
Action Programs provide important benefits to the Nation, 
including avoided pollution, substantial financial savings to 
consumers and businesses, and also the direct benefits to the 
U.S. Treasury.
    These benefits are an important first step in addressing 
global climate change problems, and this becomes especially 
important in light of the discussions coming up in Kyoto.
    We urge this subcommittee and the House and ultimately the 
whole Congress to fully fund these programs and particularly to 
work on your colleagues in the Senate to encourage them to go 
along with your appropriations, and I would like to thank you 
very much for your time and attention. I would be happy to 
answer any questions you have.
    [The statement of Mr. Nadel follows:]

[Pages 662 - 668--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much for your testimony, 
Mr. Nadel.
    Any comments, Ms. Kaptur.
    Ms. Kaptur. Thank you for your testimony and staying within 
the time limits.
    Mr. Frelinghuysen. Thank you very much for moving right 
ahead.
    Mr. Nadel. Okay, you are welcome.
    Mr. Frelinghuysen. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

PAUL A. HANLE, PRESIDENT AND CEO, ACADEMY OF NATURAL SCIENCES
    Mr. Frelinghuysen. Mr. Paul A. Hanle, President and CEO of 
Academy of Natural Sciences.
    Good afternoon. How are you?
    Mr. Hanle. Good afternoon.
    Mr. Frelinghuysen. We are right on schedule.
    Mr. Hanle. I will keep you there.
    Mr. Frelinghuysen. Good.
    As you are coming up, the usual cautionary notes. Your 
comments will be included entirely in our report materials, and 
if you could be so kind as to summarize, that would be great.
    Mr. Hanle. I will be happy to do so, Mr. Chairman.
    Thank you for giving me the opportunity, and members of the 
subcommittee. I am the new President of the Academy of Natural 
Sciences, formerly was at the Smithsonian's National Air and 
Space Museum for 13 years.
    Mr. Frelinghuysen. Well, congratulations.
    Mr. Hanle. Thank you.
    Mr. Frelinghuysen. Are you happy you have been elevated?
    Mr. Hanle. It is hard to be elevated from the National Air 
and Space Museum.
    Mr. Frelinghuysen. I am sure it is.
    Mr. Hanle. And I was at the Maryland Science Center, also, 
and why I am here today, representing the academy, just to tell 
you first about the academy, and then, secondly, a little bit 
about the program that we are proposing for consideration for 
support.
    The academy is the oldest operating national history museum 
in the country. It was founded in 1812, and we have some of the 
most extraordinary collections, historical collections, such as 
those from Lewis and Clark and the Audubon birds that were 
actually painted in John James Audubon's Birds of America, but 
we are not just a dusty old place. We are also on the cutting 
edge of research, and in fact, in recent years, we have been 
one of the leading institutions in watershed research, led by 
the National Medal of Science recipient, Dr. Ruth Patrick, who 
has been a great inspiration to the institution and to the 
whole world of aquatic ecology.
    But today, I am talking about something else, which is that 
it seems to me it is very important for us to reach out to 
larger constituencies, the broader general public, and to have 
the research results that museums like ours do, be better 
appreciated because science is a very important thing for 
people to appreciate and become educated in, and we hope 
ultimately to develop interest in careers in science as well.
    Now, many natural history museums are dealing with issues 
that we are dealing with right now, which is how to balance the 
research and historical roots that we have with our public 
role. In fact, if you look out the window, you can see the dome 
of the Natural Museum of National History. It is an appropriate 
image right there. We work with them and with other natural 
history museums around the country to deal with that issue, and 
what we have come to is a mission. That is, we do research, we 
combine it with public dissemination of knowledge, and 
hopefully, we will change the way people behave towards nature; 
that is, we will help them to become better stewards of the 
environment. That objective is ultimately what we are in the 
business--our sense of purpose if all about.
    To pursue that, we are proposing to day a program which we 
call the Urban Streams Awareness, Urban Rivers Awareness 
Program, created as a multi-faceted program to combine research 
and education, focussing on the health of urban rivers and 
their watersheds, and our research would expand existing 
academy efforts that already monitor the environmental quality 
and the upper reaches of the watersheds, but it would go beyond 
that by bringing students, teachers, and families who visit the 
academy to explore the urban watershed with our scientists and 
actually engaging them to do hands-on science in the Delaware 
River Basin.
    We are requesting a three-year program. There are plans to 
serve at least 10,000 students, and in addition, we expect more 
than 100 teachers per year--and these are numbers per year--on 
field trips, in-service programs, and general public visitor 
weekends. And we believe, that like similar programs that the 
Academy has run, that this Urban Rivers Awareness Program will 
be a great success.
    We are seeking, with the assistance of the Environmental 
Protection Agency, to develop a program to continue to expand 
this outreach and put greater emphasis on the environmental 
stewardship objective that I have just described. Specifically, 
we are requesting that the subcommittee encourage the 
Environmental Protection Agency to demonstrate and evaluate the 
effectiveness of programs such as the Urban Rivers Awareness 
Program, and we are seeking support from the Environmental 
Protection Agency for that program.
    I thank you very much for the chance to describe that to 
you, and will be happy to answer questions.
    [The statement of Mr. Hanle follows:]

[Pages 671 - 681--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Well, thank you very much for your 
testimony. I am familiar with some of that river. It hasn't 
been treated very well over the last couple of centuries. Let's 
see if we can do something to have people treat it a little bit 
better.
    Mr. Hanle. I hope so.
    Mr. Frelinghuysen. Thank you very much for being here.
    Ms. Kaptur.
    Ms. Kaptur. Thank you very much for your testimony, and 
good luck to you.
    Mr. Frelinghuysen. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

WALTER GAINER, PRESIDENT, NATIONAL UTILITY CONTRACTORS ASSOCIATION
    Mr. Frelinghuysen. Mr. Walter Gainer, president, National 
Utility Contractors Association. Good afternoon. Thank you for 
being with us. You have some formal remarks. We will include 
them in total in the record, and go right ahead and proceed 
with any summary you would like to give us.
    Mr. Gainer. We already gave you the formal remarks, Mr. 
Chairman, members of the subcommittee. I am pleased to 
represent the National Utility Contractors Association today, 
of which I am president. I have been building and repairing 
sewer and water lines in this country, mainly in the State of 
Maryland, for the last 28 years. I have seen what the EPA, 
their grants programs and the SRF program, has done to help 
relieve our streams.
    The waterways in this country are a dear thing to me, and I 
have seen it cleaned up a lot. For instance, the Potomac, the 
Hudson River and different places like that have come a long 
way. The Chesapeake Bay they are working on right now.
    But the problem is that we need a national organization to 
press these waterways because the States will never do it. They 
don't ever fund the money. They don't have it. They won't do 
it. They will all sit and wait for somebody else to fund it, 
and that is one of the reasons the SRF is so important. They 
can use that to fund most of the projects they have, if we can 
get enough money into it.
    For instance, with the Chesapeake Bay, the nitrogen and 
phosphorus loads that are coming from places that you don't 
even think about like West Virginia, Delaware, Pennsylvania, 
that are coming in there, right now I think they are getting 
almost 28 million tons a year in there, and that is what causes 
the algae and the problems that they have in the Bay. They are 
just now getting started on that program.
    Whether it is this part of the country with the Chesapeake 
Bay, you know, the Atlantic, Pacific, Great Lakes, Cuyahoga 
River, the Hudson, whatever, everybody has got a Chesapeake Bay 
in their own back yard that will need some work done on it.
    I understand you are from New Jersey. You have got combined 
sewers up there that were put in before the turn of the 
century, when they just wanted to get it away from your house. 
They get it down to somebody else's house. That is expensive to 
replace them. They haven't even hardly started in these larger 
metropolitan areas, and they have no money, you know.
    Without that, without these programs, your growth is going 
to stop. I mean, people don't like to hear about that, but 
without a good infrastructure, and with the future of this 
country going, with the airports and such as this, they are 
going to have to have a good infrastructure for water. I mean, 
take D.C. I live around here. Seriously, you all drink bottled 
water here. I am pretty sure that you are not into the----
    Mr. Frelinghuysen. Well, don't say anything about the water 
system around here. I have got water running right down my 
street right now.
    Mr. Gainer. Yes.
    Mr. Frelinghuysen. That is not an endorsement.
    Mr. Gainer. Well, that is what I am saying. You know, this 
system in town here is over 70 or 80 years old.
    Mr. Frelinghuysen. You are lucky. You live in Maryland.
    Mr. Gainer. We are fortunate. Most of the stuff in Maryland 
wasn't built in public works days.
    There is an overwhelming capital investment that is needed. 
We don't understand why the Clinton Administration, with all 
the assessments that are needed, EPA says they need about $136 
billion for what they have right now, and we are getting 
roughly $1 billion a year.
    We feel that the policymakers must address these questions 
and make a commitment to the future infrastructure of this 
country. NUC is currently working on a model, and we will have 
the information for you, we hope by the middle of the summer, 
on how we can use the SRF program right now to leverage and get 
more money out and what effect it will have. We have been 
working on this for several months and we hope to have this 
study out by July.
    I would like to leave you with one final thought. My 
father, who was a politician in West Virginia, said that 
politicians don't put brass plaques underground. But with clean 
water it is important that the basic needs are met, the funding 
is met for the SRFs, so we can clean up this country.
    Thank you. Any questions?
    [The statement of Mr. Gainer follows:]

[Pages 684 - 690--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much. We appreciate your 
being here, Mr. Gainer. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                        VETERANS ADMINISTRATION

                                WITNESS

MICHAEL D. MAVES, M.D., EXECUTIVE VICE PRESIDENT, AMERICAN ACADEMY OF 
    OTOLARYNGOLOGY-HEAD AND NECK SURGERY, INC.
    Mr. Frelinghuysen. Michael D. Maves--is that correct?
    Dr. Maves. Maves.
    Mr. Frelinghuysen. Maves, M.D., Executive Director, 
American Academy, and I will let you do the rest. I serve on a 
hospital board, but I can't get all that out at once.
    Dr. Maves. We appreciate this. This is wonderful timing.
    I am Dr. Michael Maves. I am the executive vice president 
of the American Academy of Otolaryngology-Head and Neck 
Surgery. It is the specialty society that is concerned with the 
11,000 ear, nose and throat doctors in the United States. And 
what I would like to speak to you about are really three 
agencies and programs under your jurisdiction with which our 
members have a great deal of interest.
    The first is to testify on behalf of the 90 million 
Americans who suffer from dizziness and disorders of balance. 
This costs our health care system an estimated $1 billion each 
year. Innovative research on the effects of microgravity on 
astronauts has taught us lessons about balance disorders and 
motion sickness that are helping to develop more sensitive 
diagnostic instruments and management approaches to our 
patients here on Earth.
    We consider these contributions so significant that last 
year, at our 100th annual meeting, we had a program cosponsored 
with NASA entitled ``Vestibular Dysfunction: Lessons and 
Legacies from Space,'' which was extremely successful. We had 
over 600 otolaryngologists who came in a day early to 
participate in this meeting and learn about the developments 
that are going on in the space program that relate to their 
patients back here on Earth. We plan on repeating this 
particular program at intervals, kind of reporting new and 
exciting developments each time.
    One of the things that we found particularly helpful has 
been the synergy among the many scientific disciplines 
represented in NASA's research programs as these advance the 
development of new products and procedures that will make a 
better world for us here at present and those who follow. We 
feel very strongly that the development of the Space Station 
will establish a platform for creating the knowledge and 
expertise that we need to explore and develop space, extended 
long-term research that will help us to plan a healthy, 
productive environment for future generations in space and also 
here on Earth.
    In particular I might add, parenthetically, the reason that 
we have become this interested is that every time individuals 
go into space they exhibit vestibular sort of dizziness because 
the otoconia that here on Earth are sort of gravity-bound, once 
we go into space are released. These patients have dizziness, 
and we find that that dizziness mimics very closely some of the 
conditions here on Earth. The recovery from that dizziness, the 
space dizziness that occurs as the astronauts come back, helps 
us manage and mirror many of the things that we see in patients 
here on Earth that come in to see us for dizziness.
    Similarly, we found that some things such as tissue culture 
research is closer to the day when injured or diseased body 
parts can be replaced with custom-grown tissues. The discovery 
that extended exposure to microgravity produces effects similar 
to those of aging has opened new avenues into improving the 
health and quality of life for our growing number of senior 
citizens.
    Finally, the technologies that NASA has developed for 
remote physiologic monitoring of the astronauts, particularly 
as they would escape Earth's gravity and go to other planets, 
is really technology that is directly applicable. It is the 
same kind of extended monitoring if I was in a hospital and we 
had a patient some distance away.
    So that one of the things that we have really found is that 
much of what goes on in space has a direct application here on 
Earth, and obviously what we would like to see is continued 
support from this subcommittee to NASA's continued approach to 
these problems through a generous appropriations 
recommendation.
    The second area that I would like to discuss is that of the 
Environmental Protection Agency. Again, as physicians who 
specialize in diseases of the ear, nose and throat and related 
structures of the head and neck, you might wonder why are we 
testifying about the Environmental Protection Agency.
    Well, actually we have been an advocate for a healthy 
environment for some time now, and it has been a core issue 
with our own members. A number of our own members actually 
founded the National Association of Physicians for the 
Environment, a very effective public advocacy group that takes 
physicians' interests in the environment and helps to harness 
those into useful programs.
    We have put on a number of seminars with co-participation 
of the Environmental Protection Agency, and we have been a real 
advocate for a healthy internal and external environment. We 
know that air pollution can cause problems not only with the 
lungs but also with other sensitive tissues, particularly those 
of the nose and the sinus as we inspire air, or in the trachea 
and bronchial tubes can cause problems with asthma.
    We have testified on a number of occasions that we support 
the EPA stratospheric ozone protection program, particularly 
the development of the national UV index, which we find is a 
very, very helpful way to let individuals in the public know 
that there may be particular exposure to sun which is going to 
be damaging for them. We have actually, just a few weeks ago, 
testified that we are encouraged thatthe military has used this 
same UV index to help warn the soldiers, sailors, marines and seamen of 
the problems that this causes.
    The last thing that we would like to talk about, though, 
with regard to the EPA is the real problem of noise pollution, 
and it is the area that I think probably got us into thinking 
about concerns of the Environmental Protection Agency.
    There are many forms of deafness that we can't do anything 
about. We see hereditary deafness, deafness that is due to 
aging, deafness that may be due to a variety of treatment 
conditions, but deafness due to noise exposure is a potentially 
controllable form of deafness.
    One of the things that we have had dismay is that the Noise 
Control Act of 1972 has been stripped of its budgetary support. 
We still feel that this is a very important contribution to 
alert the nation about the problems of noise pollution and to 
really try to emphasize to the public the importance of 
conserving their hearing.
    If you step outside, it is a beautiful day walking in 
today. You see lots of people with earphones on their heads and 
they have got the music turned up, and in a very, very real 
sense that may come back to haunt them, a little bit like the 
UV problems, later on in life, because I think a lot of our 
young people in particular are not aware of the noise problems. 
A lot of the systems, the programs that we see in industry, can 
have much of the noise pollution engineered out of them.
    The last thing, Mr. Chairman, that I would like to speak to 
you about is the program of energy efficiency. Community action 
to improve the environment consists of a number of individual 
actions.
    When I first became executive vice president of our 
academy, I wanted to identify primarily areas where we could 
save money and deliver good services for our members. One of 
the things that we found that was very easy to do was to 
establish a very vigorous environmental control program, a 
program where we looked at the resources in our building, made 
it more energy efficient by changing the florescent lights, by 
changing the reflectors.
    We were able to computerize our building so that at night 
when we go out the lights are all turned off, and things like 
this, small items, we have found that it makes good business 
sense. We are saving about $7,500 a year, and we anticipate 
that in about six years our investment in this will be paid off 
but the energy savings will continue.
    So we have been part of a feature story in American Medical 
News that highlighted our building. We have tried to have other 
associations join with us--and as you know, we are housed in 
Alexandria, where I think there are something like 300 or 400 
associations now--to highlight to them and other small 
businesses the importance of energy efficiency in the work 
place.
    The last thing that I wanted to speak to you about was a 
small program in the Veterans Administration which is designed 
to increase the quality of life for millions of hearing 
impaired individuals.
    The NIDCD, the institute that is most closely associated 
with our own Academy, has been working with the Veterans 
Administration in a series of initiatives to improve hearing 
aids, to make them more functional, to improve the use, 
particularly under noisy situations. This is a technology that 
unfortunately is only exposed, really, to a small portion of 
our population. Probably 80 percent of the people who could 
benefit from hearing aids don't use them, and we would really 
like to explore new ways to make that technology more 
available.
    On behalf of our Academy, I want to thank you for the 
privilege and opportunity to present this before you, and I 
would be happy to answer any questions or have our staff 
provide any comment in follow-up.
    [The statement of Dr. Maves follows:]

[Pages 695 - 699--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you for being here.
    Dr. Maves. Thank you very much.
    Mr. Frelinghuysen. Interesting testimony.
    Ms. Kaptur. Wasn't it? I agree.
    Dr. Maves. Thank you very much. Appreciate that.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

LEN PIETRAFESA, DIRECTOR, MARINE, EARTH, AND ATMOSPHERIC SCIENCES, 
    NORTH CAROLINA STATE UNIVERSITY
    Mr. Frelinghuysen. Mr. Price, you have a friend you would 
like to introduce?
    Mr. Price. Thank you, Mr. Chairman. I would love the 
opportunity to say just a word of welcome to our next witness, 
Dr. Leonard Pietrafesa, who is a constituent and a long-time 
friend. He is director of the Marine, Earth, and Atmospheric 
Science Program at North Carolina State University.
    Dr. Pietrafesa has appeared before the Commerce, Justice, 
State Subcommittee before in connection with a project he has 
headed for some years now in Raleigh, studying the pattern of 
storm formation in the Southeast, the so-called Southeastern 
Storms Project which has increased our understanding of how 
these tornados form very quickly and increased our capacity to 
predict storms by spotting those early formations.
    He is here today, though, in another capacity, as a 
spokesman for NASULGC, which for the uninitiated is the 
National Association of State Universities and Land Grant 
Colleges, and he is appearing in connection with the EPA budget 
request, specifically the STAR program, Science To Achieve 
Results, and several other aspects of that budget.
    Dr. Pietrafesa is very well-equipped to speak to these 
matters, and I am honored that he is joining us today. I 
appreciate the subcommittee's hospitality in welcoming him and 
in allowing me to add a very personal welcome.
    Mr. Frelinghuysen. Doctor, welcome.
    Mr. Price, thanks for that wonderful introduction.
    And on behalf of the committee, thank you for being here. A 
copy of your formal remarks will be included in the record, and 
if you would like to summarize in some way for the committee's 
benefit, that would be great.
    Mr. Pietrafesa. Thank you, Mr. Chairman, thank you, 
committee members, and thank you, Mr. Price. I want to thank 
you for this opportunity to present testimony to the 
subcommittee on the appropriations for fiscal year 1998 for the 
Environmental Protection Agency, and I want to commend you, the 
committee, for your outstanding leadership and for your 
continuing efforts to improve the environmental science and 
technology capabilities of the United States.
    I will focus my comments on EPA's Office of Research and 
Development, specifically its Science To Achieve Results or 
STAR program. I will also link this type of program to national 
needs in the broader context of mitigation.
    NASULGC strongly endorses the agency's $115 million request 
in fiscal year 1998 for STAR, $100 million for competitively 
awarded extramural research grants, and $15 million for 300 
graduate student fellowships nationwide. In fact, we believe 
that the relatively small amount, less than 1.5 percent, which 
the agency invests in STAR in its $7.6 billion requested budget 
is one of the most important uses of its resources that it 
could make.
    Without sound science, the agency will not be able to 
correctly identify and develop sound management and mitigation 
strategies regarding emerging environmental problems, or deal 
effectively with existing ones, particularly those that have 
severe social and economic impacts. The STAR program is helping 
to restore credibility to the agency's research and science 
activities. It is proving to be a highly cost-effective way for 
EPA to provide a more balanced long-term capital investment for 
improving environmental R&D.
    STAR is also enabling EPA to build and maintain an adequate 
base of scientific expertise to address environmental and 
natural resource problems. The investigator-initiated research 
grants are significantly expanding the number of scientists 
conducting EPA-related research and enhancing the overall 
quality of scientific research at the agency.
    Additionally, graduate student fellowships are an 
investment producing the next generation of scientists and 
engineers. ORD should try to couple its programs, whenever 
possible, to other Federal and State agency programs such as 
the fledgling U.S. Weather Research Program, USWRP, and the 
proposed CSPAND program, the Center for Protection Against 
Natural Hazards, which would help the EPA better serve the 
citizenry of the United States in understanding the 
environment, in mitigating against hazards.
    NASULGC believes quite strongly that continuing efforts to 
balance the Federal budget present extraordinary opportunities 
for creative partnerships between the Federal Government and 
the Universities. These partnerships can contribute 
significantly to the national goal of a more efficient, 
productive Federal Government by providing policymakers higher 
quality research at lower cost to address society's most 
compelling issues.
    The country's investment in higher education continues to 
provide not only the incalculable dividends associated with a 
better-educated work force, but also the very tangible benefits 
that meet daily human and economic needs. Federally sponsored 
university research is cost-effective and advantageous for 
several reasons, including:
    University research funds are awarded through peer review, 
and that competition ensures that the best science is supported 
by tax dollars.
    Research by university faculty is supported by States' and 
universities' contributions to the scientists' salaries and to 
their research facilities, thereby leveraging tax dollars.
    The cost of university research or facilities operations to 
the Federal Government are sustained only for the duration of 
the grant or contract. They are not permanent entitlements, and 
they do not increase the size of the Federal work force.
    The need to support existing staff drives agency R&D funds 
to programs that utilize those staff even when Federal needs 
for new scientific results or new technologies should mandate 
otherwise. Conversely, university research provides the 
opportunity for rapid change and flexibility and for networking 
nationally.
    Sponsored research in universities supports the training of 
the next generation of scientists and engineers as well as 
policymakers.
    Federal agency programs are typically driven by a 
centralized Washington perspective, one seemingly more narrow 
than regional needs might dictate.
    Although problems remain within the area of peer review, 
EPA has made significant progress in developing a sound peer 
review system, and we support the agency's efforts to 
thoroughly integrate peer review in all scientific and 
technical products, including on-site reviews of in-house 
research similar to the NIH model, and an agency-wide reform 
peer review of scientific products and publications.
    EPA has also worked with NASULGC to greatly expand its base 
of qualified peer reviewers, and I might add that NASULGC 
consists of over 190 universities nationwide. The association 
utilized its extensive database of scientific expertise in its 
universities throughout the Nation to help EPA locate the 
highest caliber candidates across a wide spectrum of 
disciplines for its peer review program.
    The importance of a sound peer review system for EPA cannot 
be overemphasized. While peer review has been criticized as 
harboring hidden biases and agendas, it still proves to be the 
optimum means of recognizing quality academic achievement. 
NASULGC has also been working with EPA and other Federal 
agencies to ensure that scientific excellence is awarded 
regardless of size or type of institution.
    For close to a decade, NASULGC has tried in vain to develop 
a partnership with EPA, long before that term became 
fashionable. However, ORD became much more receptive with the 
arrival of its current Assistant Administrator, Dr. Robert 
Huggett. Over the past two years, EPA has reached out to 
universities and other important stakeholders.
    As noted above, NASULGC has worked with ORD on peer review 
and on its strategic plan. We have also sponsored an EPA 
seminar on its extramural grants program for professional 
societies and academic associations. We currently have underway 
initiatives which would expand EPA outreach to minority 
institutions, explore an exchange of scientists arrangement 
between universities and ORD, and provide fortopical symposia 
featuring EPA principal investigators and other researchers.
    In conclusion, in your efforts to balance the budget, we 
hope you will give due consideration to the contribution 
universities can make in achieving this laudable and necessary 
goal. EPA is now setting a course toward improving the balance 
of internal and extramural funding.
    NASULGC believes that EPA and its Office of Research and 
Development recognize the importance of developing a strong 
working relationship with universities and colleges in this 
country to accomplish their goals in science. We urge the 
committee to provide the necessary resources and the positive 
reinforcement to continue their plans. Federal agencies should 
partner with academia, particularly university consortia, State 
agencies and private industry, to develop strategies and tools 
to mitigate against the effects and the costs of natural 
hazards and disasters.
    Thank you.
    [The statement of Mr. Pietrafesa follows:]

[Pages 704 - 708--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much for your testimony. 
Any comments by members?
    Mr. Price. Just one quick question having to do with Star. 
You know here there was some controversy, some questions raised 
when STAR was first started up but you then go on to say that 
you think it is helping restore credibility to EPA's research 
and science activities.
    Could you just briefly indicate what you mean by that?
    Mr. Pietrafesa. Well, initially there was some internal 
foment about actually appropriating monies for STAR which 
clearly had an extramural bent to them or they were clearly 
intended to partner with the university community. And there 
was concern that at a time when, in fact, budgets were under, 
Federal budgets were under attack and assault that, in fact, 
this could compromise EPA's ability to meet its mission, 
particularly its regulatory mission.
    But I believe that over this period of time STAR has shown 
that the scientific community, the university community has 
contributed greatly to the establishment or, at least, the 
investigation of the scientific problems addressing EPA so that 
they have been able to at least address the facts of the issues 
that need to be addressed properly.
    So, the scientists and the academic community their 
approach is, in fact, to measure the environment, to find out 
what is out there, to develop the tools for measurement, 
whereas EPA has not only that as part of its mission but also a 
regulatory component and the scientific community simply does 
not engage in that. They are out there to present the facts.
    And I believe that that has become a very nice complement 
between a mission driven agency, particularly one with a 
regulatory charge and the academic community which in some 
sense is cleaner in that its mission is to understand the 
environment and to measure the problems therein.
    Mr. Price. Thank you for your response.
    Mr. Frelinghuysen. Thank you for being with us.
                              ----------                              --
--------

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

MICHAEL M. REISCHMAN, NATIONAL SCIENCE FOUNDATION TASK FORCE CHAIR, 
    AMERICAN SOCIETY OF MECHANICAL ENGINEERS
    Mr. Reischman. Thank you, Mr. Chairman.
    I represent, as you said, the American Society of 
Mechanical Engineers, ASME, for short and we would like to 
register our support for the 1998 NSF budget request and the 
NSF investment strategy in general, the engineering directorate 
in particular. That strategy includes a diverse set of 
investments for both mature and emerging research efforts, for 
research at the boundaries between the traditional disciplines 
that we have in our universities and through a variety of 
approaches, whether it is individual PIs, which still remain 
sort of the mainstay of our society as well as small or large 
groups of individual investigators that work in special 
laboratories or in laboratories that have particular industry 
interaction, where they get real synergy out of the cross-
disciplinary research.
    The strategy also emphasizes partnerships. And those are 
fostered by the new programs that are growing right now, the 
GOALI program, the Grand Opportunities for Academic Liaison 
with Industry or the SBIR which I think everyone is familiar 
with.
    We applaud those kinds of government/industry partnerships 
as well as other non-NSF programs of that nature at the 
Department of Commerce or possibly ARPA.
    Let me concentrate now on just engineering research at NSF. 
Over 90 percent of that budget is focused on cross-cutting 
technologies, that is knowledge, for example, knowledge and 
distributed intelligence, civil infrastructure systems, nano 
technology, but there is a very strong central theme in that 
research and that theme is one of intelligent and information 
systems. ASME truly believes it is an outstanding approach. It 
is consistent with our national priorities and it is also a key 
to our future global competitiveness.
    We do have, however, a recurring concern with NSF's support 
of the infrastructure in our colleges, universities and major 
research laboratories. In Fiscal Year 1997, NSF discontinued a 
$100 million academic research infrastructure program. That 
program was made up, first of all, of $50 million that was a 
university laboratory facility renovation and improvement 
program. That was discontinued completely.
    The other $50 million was devoted toward larger scale 
laboratory instrumentation. For example, a mass spectrometer or 
a large scale laser doppler velocimeter system that really 
could not be part of an individual research project.
    And that money was moved to the research accounts in NSF 
and where it could be used in closer proximity to the actual 
individual projects that it actually benefits. In the shuffle I 
am afraid that NSF lost the identity of that program. Well, 
what was lost when that identity is lost?
    The identity being lost, lost an enormous amount 
ofleverage, the $50 or $100 million that NSF put in depending on how 
you look at it. Leverage two to three times that amount from the public 
and private sector. It also lost the ability for NSF to place NSF's 
priorities on that money.
    There is always the feeling that it is somebody else's 
responsibility to pick up the tab for the infrastructure. And 
ASME is strongly supportive of us addressing that crumbling 
research infrastructure by using partnerships and leveraging. 
We would encourage the reestablishment of a facility and 
instrumentation program. This time directed by directorate at 
NSF but tied closely to the research programs which makes it 
more identifiable and usable but most importantly, gaining that 
leverage on other people's money and their investment and 
especially by putting NSF priorities on that money.
    One more comment about education. Engineering at NSF has 
been a long time leader in education and training and human 
resource development. It is by far the largest investor of all 
the R & D directorates and they in conjunction with education 
and human resources have been really staunch supporters of K-
12, and undergraduate education initiatives, innovations, 
renovations, and we are fully supportive of that, of course, 
but I would like to talk a little bit about the graduate 
enhancements in the graduate program that are in the program 
for the 1998 budget.
    I think they are of particular note because the increases 
in NSF are directed at a new program. It is called the 
integrated graduate education and research and training 
program. It emphasizes multi-disciplinary training by way of 
fellowships that are offered through grants at universities. 
And they are directed at students who may be working at the 
boundaries between disciplines.
    For example, a manufacturing engineering that might be 
working with an agricultural sciences group in the area of food 
manufacturing. That interdisciplinary training, we are very 
supportive of and that is an excellent use of new funds in the 
fellowship support.
    However, we would like to caution against the abandonment 
of traditional fellowship programs that allows individuals to 
apply for the fellowships, they are awarded to high quality 
students to pursue graduate work at the institution of their 
choice. So, we would like to see some sort of a balance between 
those two continuing programs.
    In bottom line, we would like to support the NSF's strategy 
and we would like to support their research priorities and most 
of all we would like your support in their 1998 budget request.
    We, of course, appreciate the opportunity to be here and 
that concludes my comments.
    Mr. Frelinghuysen. Thank you very much.
    [The statement of Mr. Reischman follows:]

[Pages 712 - 717--The official Committee record contains additional material here.]


                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

FRANK CALZONETTI, ASSOCIATE DEAN FOR RESEARCH AND GRADUATE STUDIES, 
    EBERLY COLLEGE OF ARTS AND SCIENCES ON BEHALF OF THE COALITION OF 
    EPSCoR STATES
    Mr. Calzonetti. Thank you, Mr. Chairman.
    Mr. Chairman, and Members of the Subcommittee thank you for 
the opportunity to be here today. I am here to testify about 
the experimental programs to stimulate competitive research, 
EPSCoR, programs in the National Science Foundation, the 
Environmental Protection Agency and the National Aeronautics 
and Space Administration.
    Let me first thank Representative Mollohan for his strong 
support on behalf of this program. He has really made a great 
difference in West Virginia and we really appreciate his 
support.
    Until recently, West Virginia had not made great progress 
in expanding its research and development base. However, in 
recent years, the leadership in State Government and in 
Congress has recognized the importance of building a research 
and development capability for the long-term prosperity of the 
State. One of the most significant tools that has helped West 
Virginia the EPSCoR program, which began in the National 
Science Foundation in 1979 in response to Congressional 
concerns about the lack of Federal R & D support in certain 
areas. There is a core group of 18 States and the Commonwealth 
of Puerto Rico that participate in EPSCoR.
    If our country is to maintain world leadership in science 
and technology it is important that all regions of the country 
have the opportunity to contribute to our research base. EPSCoR 
funds only high-quality, merit-based research that helps 
Federal agencies achieve their research objectives. Because 
EPSCoR provides research that fits within the Federal research 
agency mission, while at the same time relying on Federal, 
State cooperation, EPSCoR really is a model for Federal, State 
partnership.
    Let me first discuss the West Virginia NSF EPSCoR program. 
In West Virginia EPSCoR has provided leadership to the State in 
helping to articulate the role that a strong academic R & D 
capability has in the development of a diverse technologically 
sophisticated economy. Through the support provided by the NSF 
EPSCoR program, West Virginia EPSCoR brought together State 
leaders in higher education, industry and State government to 
form the West Virginia science and technology advisory council 
which is working on the development of a State-wide science and 
technology plan.
    One way to improve the academic research enterprise is 
through the development of university-based research centers in 
areas of State relevance. The NSF EPSCoR program has developed 
nationally recognized research centers at Marshall University 
and at West Virginia University. At Marshall University EPSCoR 
supported the development of a biomedical sciences program in 
the school of medicine and is now building a strong chemistry 
program and biological sciences program in the college of 
science.
    At WVU, EPSCoR has supported the development of a non-
linear sciences research group and a computational materials--
    Mr. Frelinghuysen. The chair would like to interrupt and 
recognize Representative Mollohan and he spoke very well of you 
in your absence and I did not have to say what everybody knows 
that you are a great Member of the Committee and maybe you 
would like to say a few words on behalf of our guest.
    Mr. Mollohan. I would like to welcome Dr. Calzonetti again 
to the hearing. He is doing great work throughout EPSCoR in 
West Virginia and we are making great progress and welcome 
again to the committee.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Please continue.
    Mr. Calzonetti. Thank you, very much.
    The materials research center at West Virginia University 
is working with INCO Alloys International in Huntington, West 
Virginia and with GE aircraft engines on the development of 
structural materials for aerospace applications. The NSF EPSCoR 
program has recently funded a chemical communications and 
biological systems cluster at West Virginia University which is 
working with Mylan Pharmaceuticals in Morgantown.
    In addition to the investment in research clusters, the NSF 
EPSCoR program has broader funding to allow West Virginia to 
strengthen its Internet ties to universities and research 
centers in the southeast. West Virginia now is a partner in a 
multi-state program that now has in place a 45-megabyte per 
second network to tie our researchers together with researchers 
in other southeastern States.
    On behalf of the Coalition of EPSCoR States, I urge this 
subcommittee to provide the budget request of $38.41 million 
for the NSF's EPSCoR program and to endorse the NSF plan to 
provide an additional $8 to $10 million in funding for linkages 
between EPSCoR and NSF-supported research activities.
    The NASA EPSCoR program is very important to West Virginia. 
NASA has recently located its computer software facility in 
Fairmont, West Virginia and West Virginia University, the West 
Virginia High Technology Consortium Foundation and West 
Virginia EPSCoR program have invested in the development of an 
Institute for Software Improvement to build a strong academic 
research program to support the NASA computer scientists at the 
center.
    Under the leadership of Congressman Mollohan, West Virginia 
has targeted software development as an area of investment. And 
the NASA EPSCoR program will provide the needed support to 
attract top computer scientists to the State and build a 
nationally recognized center of excellence in software 
engineering, of direct benefit to NASA. Congress has provided 
$4.7 million for NASA EPSCoR in Fiscal Year 1997and if NASA, 
the EPSCoR States and our nation are to benefit fully from this program 
additional funds are needed. I urge the subcommittee to provide $10 
million for NASA EPSCoR in Fiscal Year 1998.
    Turning to EPA EPSCoR, for over 100 years West Virginia has 
supplied the nation with energy and mineral resources to 
support an advancing industrial economy. Much of this mineral 
wealth was extracted from West Virginia when there was little 
recognition or understanding of the long-term undesirable 
consequences of mining and processing on West Virginia's land, 
water and air resources.
    The State of West Virginia and our country need to develop 
local scientific and engineering capabilities to help address 
unique environmental problems. The EPA EPSCoR program is needed 
to give West Virginia and our country the opportunity to build 
scientific and engineering talent which can be directed toward 
finding solutions to long-standing environmental problems. EPA 
funds are particularly concentrated. Of the total amount of 
research contracts and grants provided by the EPA for Fiscal 
Year 1995 only 8 percent of funds went to all of the 19 EPSCoR 
States and the Commonwealth of Puerto Rico combined.
    As a result, I urge the subcommittee to appropriate $5 
million for EPA EPSCoR in Fiscal Year 1998. Let me again 
emphasize that EPSCoR funds only high-quality, merit-reviewed 
research that fits within agency research priorities.
    Mr. Chairman, and Members of the Committee, Congressman 
Mollohan, again, thank you for this opportunity and I would be 
pleased to answer any questions you may have.
    [The statement of Mr. Calzonetti follows:]

[Pages 721 - 725--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you, Dr. Calzonetti.
    Any questions or comments from Members?
    Mr. Mollohan. I would just like to thank Frank, again, for 
his testimony. It was very succinct and very good.
    Thank you.
                              ----------                              

                                              Thursday, May 1, 1997

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

RICHARD HERMAN, CHAIR, JOINT POLICY BOARD FOR MATHEMATICS
    Mr. Frelinghuysen. A copy of your entire statement will be 
made a part of the record and if you will be good enough to 
summarize, and keep it in the five- to six-minute range, we 
would appreciate it.
    Mr. Herman. I definitely will endeavor to do so.
    Mr. Frelinghuysen. We know if you are a mathematician, you 
know how to count, so, if you could keep within that range, we 
would appreciate it.
    Mr. Herman. I get faulted regularly.
    Good afternoon, Mr. Chairman, and Members of the 
Subcommittee. I am Richard Herman, Dean of the College of 
Computer Mathematical and Physical Sciences at the University 
of Maryland and Chairman of the Joint Policy Board for 
Mathematics, on whose behalf I speak today.
    JPBM, as we are referred to, is a collaboration of three 
mathematical organizations with a combined membership of over 
50,000 mathematical scientists and educators. Our members' 
concerns span fundamental and interdisciplinary mathematics, 
research, the applications of mathematics and mathematics 
education at all levels. I thank you for the opportunity to 
comment on the NSF budget today and while I suppose it is 
always dangerous to make lists, I would like to thank Mr. 
Frelinghuysen and Mrs. Price for being at the CNSF exhibit last 
night.
    Mr. Frelinghuysen. It was great.
    Mr. Price. We went around all the different exhibits from 
all over the country, it was most impressive.
    Mr. Herman. I know there was someone from Wake Forest.
    Mr. Price. There was a Wake Forest exhibit and also one 
from UNC-Chapel Hill.
    Mr. Herman. All right, I hope it serves its purposes.
    I would like to discuss two things with you today. First, 
is that the NSF's budget needs to grow at a sufficient pace to 
maintain existing excellence and pursue promising new 
directions. And, second, is the importance of NSF's program for 
undergraduate education.
    Mr. Chairman, JPBM and its member societies strongly 
endorse the recommendation of the Coalition for National 
Science Funding calling for a 7 percent increase for NSF in 
Fiscal Year 1998. We urge your Subcommittee to seriously 
consider this proposal which would barely bring the NSF's 
budget back up to the Fiscal Year 1995 level in terms of 
purchasing power. I would also note that this is consistent 
with the budget the House agreed to authorize for the NSF last 
week.
    We recognize the need to balance the Federal budget and 
admire the persistence this Congress has shown in pursuing this 
goal. But we also believe that with the lack of real growth in 
the NSF budget we are short-changing the future. Too many 
promising opportunities for discovery, innovation, and 
educational improvement are being left unexplored. The national 
impact of the NSF's basic research and education programs--our 
core investment in the mining of these opportunities--warrants 
this level of growth in its budget.
    Let me elaborate a bit. The fruits of basic research often 
include the development of entirely new and unforeseen areas of 
exploration, like biotechnology if we go back some 25 years. 
The challenge for us as these new areas emerge is to support 
that progress without diverting so many resources from the 
parent fields.
    This is something that the folks at NSF struggle with daily 
as they strive to support the most promising ideas for 
research, education and infrastructure among the many excellent 
proposals that come from the nation's colleges and 
universities.
    While we cannot support every promising opportunity, we 
also cannot afford to forego addressing the unprecedented 
number and scope of challenges we face today.
    Let me give you another example of an increasingly fertile 
area of research that I am more familiar with, again, as a 
mathematician. Computational science is the area. In fact, 
computational science is not just a new area but a whole new 
approach to research that has the potential to catalyze 
progress in many fields and technologies.
    Computation is now playing a major role in scientific and 
engineering research akin to theory, observation and 
experiment. Discoveries in many fields are being made because 
of our newly enhanced ability to analyze large data sets and 
provide complex numerical simulations.
    Hence, meteorologists are increasing the lead time in the 
prediction of severe storms, astrophysicists are now able to 
model galaxy formation, and chemists are able to model more 
accurately macro-molecular behavior.
    My point in both of these examples is that Federal support 
for research can stimulate whole new areas of research with, as 
I hope will be apparent, substantial economic benefit for the 
country. Certainly this has been the case with biotech and I 
believe the same will be true of computational science.
    Let me move over to my second point on undergraduate 
education. The programs in NSF's division of undergraduate are 
essential to collegiate educators with innovative ideas for 
expanding student access and learning in mathematics, science 
and engineering. The core programs of that division are 
especially important as they provide the raw material, so to 
speak, for strengthening the foundations of undergraduate 
education.
    Over the past couple of years, the NSF has initiated 
support for larger scale efforts to expand and unify, across 
institutions, many of the individual projects that have proven 
successful, if you will, building on best practice.
    This two-pronged approach, developing the raw materials and 
reinforcing the framework is designed to leverage the 
revitalization of undergraduate education throughout the United 
States. Accordingly, we urge the subcommittee to fully fund the 
requested increase for the division of undergraduate education.
    Mr. Chairman, we are not asking you to stray from your 
commitment to balance the budget by 2002. We know that you and 
your colleagues are in the business of choosing between 
competing goods. But it is my strong belief that the 7 percent 
increase for the National Science Foundation is for the common 
good.
    [The statement of Mr. Herman follows:]

[Pages 729 - 734--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you for making a good case. We 
appreciate, Mr. Herman, your being here.
    Any questions for this witness?
    Mr. Price. No, Mr. Chairman, thank you very much.
    Mr. Herman. Thank you very much for the opportunity.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

HOWARD J. SILVER, EXECUTIVE DIRECTOR, CONSORTIUM OF SOCIAL SCIENCE 
    ASSOCIATIONS
    Mr. Frelinghuysen. How are you, Mr. Silver, nice to see you 
and welcome.
    Mr. Silver. Good to see you.
    Mr. Frelinghuysen. A copy of your full statement will be 
made a part of the record and if you can do your level best to 
summarize, we would appreciate it.
    Mr. Silver. I am Howard Silver, the Executive Director of 
the Consortium of Social Science Associations or COSSA. I am 
also currently serving as the Chairman for the Coalition of 
National Science Funding, an ad hoc umbrella organization of 
about 80 groups in the social behavioral, physical and natural 
sciences, engineering, higher education, and the industrial 
world.
    As has already been mentioned last night, CNSF sponsored an 
exhibition at which 34 scientific societies and universities 
displayed the results of NSF-sponsored research. The event 
demonstrated the importance of how support for basic research 
has produced important knowledge that has been translated into 
many successful products and policies. We have already heard 
expressions of delight with it.
    Mr. Frelinghuysen. Next year we are going to make sure that 
the temperature is 35 and it is snowing so that we can get a 
few more people there.
    Mr. Silver. And there is no playoff game.
    Mr. Frelinghuysen. You are right.
    Mr. Silver. I want to express COSSA and CNSF's appreciation 
for the subcommittee's past strong support for NSF. We know 
these are difficult times for appropriators as they balance 
competing demands within the constraints of seeking a balanced 
budget by 2002.
    Nevertheless, let me add my voice to the chorus. COSSA 
believes that investing in the research and education efforts 
funded by NSF is vital to the future of the country and we 
strongly endorse the CNSF call for a 7.1 percent increase for 
NSF's Fiscal Year 1998 appropriation. This would make NSF's 
Fiscal Year 1998 total budget $3.502 billion which is quite 
similar to the authorization bill that passed the House and is 
also close, as we heard in testimony on April 10th in this 
room, to NSF's original request to OMB.
    The 7.1 percent increase would allow NSF to support more 
excellent research projects to pursue important new discoveries 
and enhance the scientific literacy of the nation's students 
and general population. The increase would permit NSF to 
augment the number and size of its research and education 
grants. In the last three years, inflation has eroded NSF's 
power to support outstanding and innovative research and this 
increase would provide NSF real growth in Fiscal Year 1998.
    We are three years from the 21st century. If the next 50 
years are to produce similar advances that we have allenjoyed 
during the past half century, the nation must invest in science and 
engineering now. If we had not made the investment 50 years ago, the 
great scientific and technical achievements would not have occurred. We 
have the choice to delay investment and stagnate or make the investment 
and reap the economic and social rewards well into the next century.
    We believe the subcommittee understands this well and we 
hope that it will act accordingly.
    Let me say a few words about the social behavior on 
economic sciences and its directorate. As you know, the 
director came under attack and was threatened with elimination 
by the then-chairman of the House Science Committee over the 
past two years.
    COSSA would like to express its appreciation to the 
subcommittee for its unwillingness to support these attempts to 
return these disciplines to second-class status at NSF. We 
understand that we had some help from the speaker and the 
majority leader and we appreciate that, as well.
    The current chairman of the National Science Board, 
Stanford chemist, Richard Zare, argued last year in an 
editorial in Chemical and Engineering News that although the 
social and behavioral sciences are a small fraction of what NSF 
does, ``it behooves us to support the best work in this field 
and pay attention to what it can tell us.'' He further noted, 
``I am wondering whether some problems that are limiting 
society's benefit from advances in the physical sciences might 
not be answered by the social and behavioral sciences.''
    He also suggests that the most fascinating fundamental 
questions of science to be faced in the next half century will 
involve complex systems that will include human problems. The 
social and behavioral sciences, he said, ``Will be the light'' 
that will reveal the best paths for solutions ``for many other 
critical problems.''
    Let me quickly provide a few examples of attempts to 
provide that light. As NSF prepares to participate in the 
development of the next generation of the Internet, the 
Science, Technology and Society program in the SBE directorate 
has continued to support work examining the impacts of the 
advances in communication technology. This work also raises 
questions addressed by Representative Frelinghuysen during the 
hearing on April 10th concerning the implications these new 
developments have for national security.
    As the nation continues to focus attention on children and 
their development, SBE supported research has played a vital 
role in this area. The memory and cognition program has funded 
long-term studies of cognitive development that have examined 
many topics including the acquisition of knowledge underlying 
the understanding of math and science. The NSF's Science and 
Technology Center for Cognitive Science in Pennsylvania has 
been a major player here.
    In addition, SBE continues to support the large historical 
social science data collection such as the panel study of 
income dynamics, the general social survey and the national 
election studies. These data sets are, in many ways, the 
infrastructure of the social sciences and must be protected. 
They have been utilized in college classrooms all over the 
country. The national election study data sets are distributed 
to over 200 institutions of higher learning in all 50 States 
for both instruction and survey methodology and data analysis.
    One last thing before I conclude. COSSA strongly endorses 
the new NSF integrated graduate education and training grants. 
The forerunner of this new program provided significant help to 
distinguished sociologist William Julius Wilson, who is now at 
Harvard, to conduct his major studies of poverty in Chicago and 
to train many scholars who have succeeded in producing their 
own important works in this area.
    In conclusion, let me say that when CNSF first proposed the 
7.1 percent increase for NSF it was thought to be somewhat bold 
and audacious. We now know that this is what NSF believed it 
needed in Fiscal Year 1998 to take advantage of what Director 
Lane refers to as this new age of discovery. It is the amount 
needed to ensure that, as NSB Chairman Zare told the 
subcommittee, there will be fewer missed scientific 
opportunities because of the lack of an adequate budget. The 
House Science Committee and the full House of Representatives 
have now endorsed an increase of this magnitude for NSF. COSSA 
and CNSF again urge the appropriation committee to do the same.
    Thank you very much.
    [The statement of Mr. Silver follows:]

[Pages 738 - 747--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you, Dr. Silver.
    Any comments or questions?
    Mr. Price. Mr. Chairman, I would like to add a word of 
congratulations to Dr. Silver for the fine exhibition that the 
Coalition for National Science Foundation organized yesterday--
an impressive array of the results of NSF's supported research.
    Also, as a political scientist I am perhaps in an 
especially good position to appreciate the contribution that 
Dr. Silver makes to the support of the work of the National 
Science Foundation and the place of the social sciences in that 
work.
    So, we appreciate your being here today and we will pay 
careful attention to your testimony.
    Mr. Silver. I appreciate that, thank you.
    Mr. Frelinghuysen. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DAVID NEMTZOW, PRESIDENT, ALLIANCE TO SAVE ENERGY
    Mr. Frelinghuysen. Welcome, David Nemtzow, President, 
Alliance to Save Energy, welcome.
    Mr. Nemtzow. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. As you are coming up, the cautionary 
word is your entire statement will be included in the record 
and we have got sort of a five- or six-minute time period here 
that we would love to have you summarize your statement.
    Mr. Nemtzow. Thank you, sir, I will do that.
    Mr. Frelinghuysen. Welcome.
    Mr. Nemtzow. I am David Nemtzow and I am President of the 
Alliance to Save Energy. The Alliance is a bipartisan coalition 
of 80 companies dedicated to promoting energy efficiency. We 
are chaired by Senator Jeff Bingaman and co-chaired by Senator 
Jeffords and your colleagues, Congressman Markey and 
Congressman John Porter.
    We work in a bipartisan fashion to promote cost-effective 
energy efficiency. We have been doing that, Mr. Chairman, since 
we were founded by Senator Chuck Percy, 20 years ago, and in 
our 20 year's of experience on energy efficiency I would say 
there are very few programs as successful as the energy Star 
program that is run by the Environmental Protection Agency.
    Let me just say by way of brief background, the Energy Star 
program, which has been around since the Bush Administration, 
is quite simply a labeling program to educate consumers. I 
brought a copy of the label. And it is a very simple label, 
very easy for consumers to understand. And what the EPA does in 
conjunction with the Department of Energy is work voluntarily 
with manufacturers to put this label on products that are 
energy efficient. And they are very successfully going through 
a series of products, refrigerators, air conditioners, 
computers and setting standards and allowing the manufacturers 
to voluntarily use this label so that consumers will know which 
products are energy efficient. Why do we care?
    I brought two windows which are otherwise, I think, 
impossible to distinguish what they are. They both look the 
same to the average consumer. You have no way of knowing. They 
are double-paned. This is an energy inefficient window and this 
is an efficient window. The reason this is energy efficient are 
things that are invisible. This is a cutaway, of course, and it 
has an invisible film that blocks heat loss, and it is filled 
with an invisible gas called Argon.
    So, this window is 50 percent more efficient than this one, 
it saves consumers $2.5 billion if it was used nationwide. It 
reduces pollution by 30 million tons. The problem is that they 
look the same. The only way the consumer has any idea is from 
the Energy Star label.
    And it is really that simple. We are trying to turn the 
nation into energy and pollution experts by giving them access 
to this information. Without it, they do not stand a chance.
    Having said that, let me just briefly state the reasons why 
I think this is such an important program and deserves the 
support of this subcommittee. You may remember the 
advertisement many years ago of the car mechanic who said you 
have two choices. You can pay me now or you can pay me later. 
That is exactly what these voluntary programs are about. They 
are a way to help our economy avoid pollution, to save energy, 
so that we can make those investments now and not have to make 
them down the road in the form of flooding and other disasters 
from climate change.
    And they offer an insurance program. The public is very 
committed to energy efficiency and the public does not always 
realize that energy efficiency is an environmental program. And 
by promoting energy efficiency as part of our environmental 
agenda we have an insurance program against climate change, at 
the same time we are saving consumers money.
    I think it is also important to note that these programs 
have been very successful working voluntarily and I brought a 
chart, if I might, of the savings that the programs have 
yielded so far and are projected to yield in the future. And 
this graph has two components, dollars, or tons of carbon 
dioxide. These are the two goals that are simultaneously met. 
And you can see this program which barely existed in 1992, 
produced zero savings, already is saving about a billion 
dollars a year to the economy and reducing carbon emissions by 
two million tons annually and this growth is very quick, very 
steady as these products are used more and more throughout the 
economy.
    Our goal, quite simply, is for this simple label, this 
Energy Star label, to be as common place as the UL label that 
is on electric products or the recycling logo that we see. We 
are not there yet, and EPA needs your support to do that.
    The program produces enormous returns. And again, let me 
just say in conclusion, that I think it is as the subcommittee 
evaluates the various programs that you have before you and the 
various funding requests that you have I think it is logical 
for you to ask is this really something that the EPA should be 
doing? Is this part of their core mission and something that we 
need them to do? And the answer, I think, quite emphatically 
is, yes. By reducing energy, we reduce pollution from a number 
of sources and a number of air pollutants, carbon dioxide, 
nitrous oxide, sulphur dioxide in a cost effective way without 
resorting to mandatory controls. In that way it is very much a 
part of EPA's core mission and a very high priority as much as 
any other program they do--clean air or Superfund or solid 
waste.
    Number two, can the private sector do this alone? I am 
afraid it is not the case. This window, this example is made by 
Anderson Windows and only Anderson or only private companies 
can make energy efficient windows. We do not want the 
government to make energy efficient products, certainly. But 
the problem is even the most committed company cannot label 
accurately because they have competitive disadvantages. 
Anderson might have one standard and Pela has a different 
standard and Marvin Windows would have a third one. And they 
might use that to their own advantage.
    So, we do need government to be an impartial arbiter to set 
up some standards for the companies to follow; to work with the 
companies but to set up an even standard and then allow the 
companies to put the labels only on those products that meet 
that standard. We have seen that in a variety of fields--
appliances, windows, computers, lighting--it has been very 
successful and I respectfully encourage the subcommittee to 
continue to support the Administration's requested increase for 
these programs.
    I thank you very much for the opportunity to testify on 
behalf of the Alliance to Save Energy today.
    [The statement of Mr. Nemtzow follows:]

[Pages 751 - 757--The official Committee record contains additional material here.]


    Mr. Mollohan [presiding]. Thank you, Mr. Nemtzow, we 
appreciate your testimony and it has been very informative and 
the subcommittee will certainly take it under advisement as we 
consider this bill.
    Mr. Nemtzow. Good, I appreciate it.
                              ----------                              

                                             Thursday, May 1, 1997.

                                 HOPWA

                                WITNESS

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Mollohan. The Subcommittee next would like to welcome 
to the hearing our colleague, distinguished colleague, 
Congresswoman Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Mollohan. I am 
sure that all of us begin this by saying we certainly 
appreciate your time that is taken through this process and the 
courtesies extended by listening to all of us.
    Mr. Mollohan. You are very welcome and we want you to know 
that your written statement will be made a part of the record.
    Ms. Jackson Lee. I certainly appreciate that.
    And with that in mind, I will attempt to highlight. It is 
interesting the timing of this since the housing bill is now on 
the floor of the House and one of the first issues that I 
wanted to begin speaking about is an emphasis on the need of 
Section 8 housing and particularly as it relates to the 18th 
Congressional District.
    The flexibility that Section 8 allows is a very important 
aspect and very important part of my community's needs. We 
would hope that the dollars on Section 8 housing are held and I 
am arguing for, obviously, for an increase. So, generically let 
me just simply say that I am asking for the increase in dollars 
particularly in communities where there is a waiting list.
    The waiting list for Section 8 housing in Houston is 20,000 
and, in fact, it has remained that number for a number of 
years. Some would argue, have you gone through the list and 
some of these individuals are no longer in need. That is not 
the case. These are 20,000 fresh names that we have not been 
able to handle because of our allotment based upon 
appropriations process.
    And, clearly, if we use New York as an example I understand 
it has a waiting list of 250,000 people. But communities like 
Houston, which are considered southern cities, are unique 
because overall we have approximately 3,500 to 4,000 public 
housing units. We really rely upon the Section 8 process to 
assist us in housing individuals who need.
    I happen to have the highest number of public housing 
tenants, if you will, or those in need of public housing in the 
18th Congressional District in Texas. And the fact that we have 
had 20,000 on the waiting list truly impacts our district and I 
guess I am really pleading for some personal relief, frankly. I 
know this comes as general appropriating allotment but with the 
20,000 that I have on the waiting list I am asking for 
particular notice and concern and I do that as a southern city.
    So, I want to emphasize the Section 8 funding that I have 
requested based upon a 20,000-person waiting list in the 18th 
Congressional District.
    Mr. Chairman, how are you?
    Mr. Lewis [presiding]. Fine, thank you.
    Ms. Jackson Lee. I will offer again to the Subcommittee 
what I mentioned as I came in, and you have already heard this, 
we thank you for your patience and we thank you for your 
courtesies extended to those of us who have an interest in this 
area.
    Mr. Lewis. We appreciate your, first of all, from my 
perspective, your total presentation and the brevity. We have 
had about 100 people here but your's has been the shortest for 
me.
    Ms. Jackson Lee. And I am almost finished. [Laughter.]
    I am almost finished. I will summarize just for you. My 
first mention was the Section 8 and I said in my district I 
have 20,000 that have been on the waiting list now for, I will 
say, 10 years. And Houston is a southern city, we do not get a 
lot of attention on this area and I am now pleading for 
particular attention but particular attention to Section 8.
    Let me quickly just emphasize and ask, as well, to be noted 
in the record for my interest and concern with funding on 
housing for the elderly. Again, the arguments are the same as 
it relates to the 18th Congressional District. I have a high 
elderly population. According to the formulas that have been 
used southern cities have fallen short of sort of the formulas 
that are used in our more urban northeastern communities and 
respecting the needs that they have. But we are finding more 
and more that we are piling up on our need. We are not being 
able to bring it down.
    And I mentioned before you came that overall I have between 
3,500 and 4,000 public housing units and, so, we have a low 
number, we do not have the 50,000 or the 25,000. And with that 
in mind, our elderly suffer along with our need for Section 8. 
That is one of the utilizations that we are in great need of 
because we might be able to spread out the need.
    Let me conclude by emphasizing the need for HOWPA monies 
and those are the funding for those living with AIDS. And I 
would hope, again, I guess I am citing the 18th Congressional 
District uniquely out of Texas, Houston was, in 1990, number 13 
with HIV infected and affected. We are increasing the numbers 
of infected and affected particularly in the minority community 
of which I have 49 percent minority. We have an increased 
number of those both Hispanic and African-American.
    The housing problem is particularly sensitive to them 
because, again, we have concerns as we would have in every 
community of where do you put housing for people with AIDS. We 
face that with respect to residential communities and so we are 
looking to be more creative in our housing options for people 
living with AIDS, make it attractive but, again, not trying to 
create the havoc of residential established communities. So, I 
guess what I am trying to suggest is that it is very important 
that we balance the dollars in helping people living with AIDS 
to live in communities but also if communities are creative and 
want to create housing areas--and I seem to be saying 
isolated--but new housing is what I am trying to say, that they 
should have the ability to do that with the funding source.
    I think we have done quite well in Houston and I think we 
have done quite well in the recognition of people living with 
AIDS, the faith community, the local government and others 
working together, but I think we can do more.
    And, again, I would emphasize and have you look at the 
numbers particularly in my district as to how we are impacted. 
And with that, I will close.
    [The statement of Ms. Jackson Lee follows:]

[Pages 761 - 770--The official Committee record contains additional material here.]


    Mr. Lewis. Okay, Congresswoman Jackson Lee, we appreciate 
your being here and I must say that this Committee has been 
very sensitive to the AIDS issue for many, many years. And if I 
am recalling correctly, and I believe it was the National 
Science Foundation in my freshman term on this committee, 17 
years ago, we put the early money in for preliminary looking at 
what research might do and with HOWPA we have been responsive.
    The Section 8 I might suggest to you that you could be very 
helpful by encouraging the authorizing committees to please 
move forward with the fix on this problem for it is a huge, 
huge difficulty that has the potential of driving out all the 
rest of the housing programs around unless we do get a handle 
on it.
    Ms. Jackson Lee. I appreciate that greatly. Might I ask an 
administrative or procedural question. My statement has been 
submitted for the record may I be allowed to amend it with some 
particular numbers that would be helpful to you?
    Mr. Lewis. Sure. We will include your statement for the 
record and if you produce additional material, we will be happy 
to include it.
    Ms. Jackson Lee. I appreciate it very much, thank you.
    Mr. Lewis. Okay, any questions?
    Mr. Price. No, Mr. Chairman.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

FELICE J. LEVINE, PH.D., EXECUTIVE OFFICER, AMERICAN SOCIOLOGICAL 
    ASSOCIATION
    Mr. Lewis. Dr. Felice Levine.
    We very much appreciate your entire statement for the 
record and it will be included and if you would help us with 
our time problem by way of summarizing and highlighting, it 
would be very helpful.
    Ms. Levine. Okay. Thank you, Mr. Chairman.
    I appreciate the opportunity to appear before the 
subcommittee here today. I am the Executive Officer of the 
American Sociological Association and the ASA is the national 
scientific society for over 13,000 sociologists. We urge 
support for the National Science Foundation as you mark up the 
agency's 1998 budget. We value the NSF investment in basic 
research and its tireless effort to produce knowledge capable 
of withstanding the most rigorous scientific scrutiny. Across 
the physical, biological and social sciences, NSF's investments 
have already reaped important dividends.
    As we look to the future, I want to concentrate 
particularly on encouraging recognition of the importance of 
basic research in the social and behavioral sciences. Today, 
the Federal Government spends billions of dollars in such areas 
as childhood education, law enforcement welfare and employment 
training. Sound policy, however, requires a sound foundation of 
basic knowledge. Fortunately the National Science Foundation 
especially through its directorate in social, behavioral and 
economics science provides that important infrastructure.
    The ASA is gratified by this committee's long-term 
recognition of the importance of NSF and, indeed, of the social 
and behavioral sciences. We agree that the administration's 
proposed increase of 3 percent for NSF in Fiscal Year 1998 does 
not get the job done. As a member of the Coalition for National 
Science Funding, we support a budget increase of $232 million 
or 7.1 percent above Fiscal Year 1997.
    We recognize, I think I said this last year, that the 7.1 
percent increase may appear to be large but it is a modest 
investment in building the knowledge in real dollars that our 
country needs. This allocation will increase the likelihood of 
scientific breakthroughs, provide for essential funds for 
necessary training and enable essential projects and most, in 
particular, it will also enable the important continuation of 
very significant basic work in the social and behavioral 
sciences.
    And today I want to focus really on two highlights. One, 
work on children and the other work on violence where this 
committee has had an historical and important interest in 
encouraging NSF's presence.
    In the coming week the highly distinguished interagency 
committee under the auspices of OSTP will issue a report 
Investing in Our Future and National Research Initiative for 
America's Children for the 21st Century. This report 
underscores the importance of Federal research for the future 
well-being of our nation's children. Indeed, the report urges 
basic research in such areas as the relationship among 
biological, cognitive, social and emotional aspects of 
development and on the influences of families, peers, schools, 
communities, media and other social institutions.
    This is exactly the type of social and behavioral science 
research that NSF now funds and has had a very important 
pattern of funding.
    With one example, Professor Ho, a sociologist at the 
University of Iowa is examining extended family networks, 
parent involvement in the schools, immigrant and ethnic culture 
and parent-child interaction such as supervising homework and 
discussing materials learned in class as this relates to 
educational attainment.
    Studies like these are important in terms of building 
fundamental knowledge but they go beyond in their applications 
and implications purely significance from a scientific vantage.
    I mentioned violence, Mr. Chairman, and Members of the 
Committee. And the key role you have played in encouraging the 
NSF to pursue support for a broad-based initiative on how 
science informs our understanding of violence. The eventual 
outcome of the work encouraged by this committee was the 
funding for the National Consortium of Violence Research 
located at Carnegie Mellon University. Your desire for a fuller 
scientific explanation for the causes of violence has borne 
fruit. We are really now putting together a coalition, a center 
without walls that is bringing a multi-disciplinary team of 
investigators together in ways that we could not have 
envisioned had not this center developed and really gotten off 
the ground.
    I am a member of that advisory committee and attended the 
second meeting of that advisory last week and I was struck with 
how the initial plans are really beginning to do very important 
fundamental work in adding to our knowledge about why some 
individuals engage in violence, others do not, some communities 
engage in violence, and others do not, and, indeed, some 
situations escalate violence and others do not.
    I would love to regale you with, I think, the important 
work that basic science is doing at NSF in the human capital 
initiative and the intelligence systems initiative but as the 
red pencil indicates that is detailed in the written testimony.
    I do, also, want to emphasize the importance of NSF's 
leadership role in investing in the data resources over long 
periods of time, the large-scale data resources and what they 
have meant both for sound science and sound policy. These are 
important and essential to the study of societies as, although 
some might think it is a cliche, as observatories and 
accelerators are to the investigation of the physical world 
and, indeed, at far less cost.
    These data permit monitoring critical social, economic and 
political developments. They are continuing programs that 
permit cumulative and systematic knowledge. These data sets 
expand, extend and change over time to keep pace both with 
changes in our social and economic systems and also in our need 
for new forms of knowledge. Most importantly these data are 
accessible to a broad-based scholarly and policy community and 
they have been instrumental in the training and education of 
undergraduate and graduate students, a real side payoff that 
has incalculable value.
    I will not go into detail about them but let me just 
highlight the general social survey, the panel study of income 
dynamics, the national election study, the integrated public 
use micro-series which uses the United States census data going 
back to 1850 and really puts it in a form that can be used for 
both science purposes and policy purposes in ways that 
otherwise would not be accessible to all of us.
    Recently we did a congressional briefing on welfare and 
work and a sociologist and an economist presented important new 
analyses from the panel study of income dynamics collected over 
long periods of time that now permit us toexamine the impact of 
limited time, term limits on welfare and give us some real knowledge 
about what those consequences would be for different sub-populations.
    So, it is a real investment not only in science but in the 
understanding of our social and economic well-being.
    The third area I want to just highlight in conclusion very 
briefly is the importance of NSF's commitment to education and 
training and recognizing that training and science really go 
hand-in-hand. I am pleased to note that increasingly NSF has 
recognized that these initiatives must be inclusive of the 
social and behavioral sciences. And NSF recently announced a 
graduate training program known as the Integrative Graduate 
Education and Research Training Program. Affectionately we call 
it already as IGERT. It sounds kind of like a robot. It seeks, 
though, to do things in a new way, to integrate education and 
research, provide training relevant to both academic, 
industrial and research settings, and facilitate the 
development of a diverse work force. An integrative training 
program across disciplines and work settings holds promise for 
all fields of science.
    Lastly, I just want to make a brief mention of the 
importance of the directorate of education and human resources 
emphasis on the alliance for minority participation. And also 
its inclusion of the social and behavioral sciences. For almost 
25 years now, the American Sociological Association has had 
experience in operating, funded primarily by the National 
Institute of Mental Health and the Ford Foundation, major 
research and training programs for minority students, both 
directed to undergraduate and graduate programs. It is programs 
like AMP that the National Science Foundation wants to innovate 
with that really ensure that the best students across all 
groups are pursuing scientific careers.
    In conclusion, I want to stress that the ASA really 
applauds this subcommittee for recognizing the important role 
of science and the social and behavioral sciences in America's 
future and to that end we urge you to give serious 
consideration to the CNSF request of the 7.1 percent increase 
for Fiscal Year 1998.
    [The statement of Ms. Levine follows:]

[Pages 775 - 787--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Dr. Levine.
    Mr. Mollohan.
    Mr. Mollohan. No, Mr. Chairman.
    Mr. Lewis. Thank you very much. We do appreciate your being 
with us, the Committee feels very strongly about the need for 
research and the role that this Committee plays and the NSF in 
particular. So, we appreciate your expressions and your 
testimony will be part of our record.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

DAVID JOHNSON, PH.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES
    Mr. Lewis. You see, I can tell that Dr. Johnson already 
came prepared to be brief.
    Mr. Johnson. Yes, sir.
    Mr. Chairman, I am here today to talk about the fiscal year 
1998 request for the National Science Foundation. This year, my 
organization is joining with the wide spectrum of scientific 
associations and with the House Science Committee to ask that 
the Subcommittee recommend a 7.1 percent increase for NSF for 
fiscal year 1998.
    NSF is unique among Federal agencies, in that it is charged 
with assuring the health of U.S. science. For three years, the 
NSF budget has remained almost flat in real terms, growing by 
about eight-tenths of one percent. The desire in calling for 
this 7.1 percent increase is to re-establish a trend of modest 
growth for the Foundation.
    Those of us who represent science claim to you each year 
that you should support NSF because, even though NSF is in the 
business of supporting basic science, that basic research 
underlies U.S. economic competitiveness.
    I want to bring to your attention a study soon to be 
published that offers hard evidence for that claim. It was 
conducted by CHI Research, which has the largest database on 
patents outside the U.S. Patent Office. The study is an 
analysis of all U.S. patents in the years 1993 and 1994.
    Among the questions asked was how important has publicly-
supported research been to the development of these inventions. 
The question can be asked because the cover page of a patent 
cites the most important influences on the development of that 
invention. The single most important influence on these patents 
was federally-supported basic research. Its importance exceeds 
industrially-supported research, as well as non-U.S. research. 
Among sources of public support, NSF-supported research was 
most frequently cited.
    This study offers perhaps the best evidence yet that public 
support of science in general is crucial to our economic 
competitiveness, and that despite it's relatively small size, 
NSF supports much of the research that is a prerequisite to 
technical and economic advances in this country. That is why we 
often say that the appropriation for NSF is an investment. Its 
dividends exceed its cost.
    While this new study gives us a glimpse of the power of NSF 
research, I don't want to imply that NSF's only utility is the 
contribution it makes to the economy. There are at least two 
other services NSF provides that are of equal importance. The 
first is that NSF supports research that is responsive to 
national needs. It was, for example, under the leadership of 
this Subcommittee, as Felice pointed out, that NSF funded a 
research center on violence. Poll after pool makes clear that 
violence is among the top concerns oftaxpayers. It is fitting 
that NSF uses tax dollars to bring research to bear on problems that 
the American public most wants to see solved.
    By the same token, NSF supports research on problems that 
may not be of conscious concern to taxpayers but that, 
nevertheless, have as profound impact on the quality of their 
daily lives. The new Knowledge and Distributed Intelligence 
initiative is an example. We say that we live in the 
information age, but it is probably more truthful to say that 
we are trying to figure out how to live in the information age.
    Those of us who are fortunate literally have the 
information of the world at our fingertips through the Internet 
and other on-line services. Yet, many of our citizens are 
unable even to read, let alone to use computers to access 
information. NSF can help find ways to make access to knowledge 
more available for all citizens.
    At the same time, those with access to information are 
finding that there are so many information sources that they 
can flounder in it. KDI will help improve the creation, 
organization, storage, dissemination and use of knowledge. 
While these issues may not keep citizens awake at night, they 
are among the most pressing practical problems we face today.
    For all these reasons, NSF should have your generous 
support. Thank you.
    [The statement of Mr. Johnson follows:]

[Pages 790 - 793--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Dr. Johnson. We appreciate 
your support as well, so thank you.
    Mr. Johnson. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

ALAN G. KRAUT, PH.D., EXECUTIVE DIRECTOR, AMERICAN PSYCHOLOGICAL 
    SOCIETY
    Mr. Lewis. Alan G. Kraut, American Psychological Society. 
Dr. Kraut. I'm getting my sociologists and psychologists all 
together here. [Laughter.]
    Mr. Kraut. And we're glad to be associated with one 
another.
    Well, I want to make just a couple of points today, but I 
would ask that my complete written statement be placed in the 
record.
    Mr. Lewis. It will be.
    Mr. Kraut. Let me begin by giving you a sense of what 
research psychologists do. American Psychological Society 
members are scientists and academics in universities and 
colleges across the country. Many are NSF funded, and they are 
representative of virtually every distinguished academic group 
imaginable, from members of the National Academy of Sciences to 
winners of the National Medal of Science, our own version of 
the U.S. Nobel Prize.
    Last year, by the way, this was awarded to, among others, a 
noted California psychologist, Roger Sheppard, and just today 
it was announced by President Clinton that Harvard cognitive 
psychologist Bill Estes would be the recipient.
    Psychologists conduct basic research in cognitive science, 
including perception, attention, learning, memory, and 
artificial intelligence. We conduct basic research in the 
fundamental social processes that influence behavior, such as 
looking at the effects of groups on individual behavior and how 
individuals behave in groups. We also study how development 
occurs, how the child grows physically, emotionally, and 
intellectually, and we conduct basic research in the biological 
bases of behavior, the relationship between brain and behavior 
and the interaction occurs between genes and the environment.
    These areas of basic behavioral research, plus many more, 
are a part of the NSF mission, and have been for some time. The 
common threat is behavior, whether at the level of a single 
organ, an individual, or the behavior of groups and 
organizations.
    For fiscal year 1998, in keeping with the recommendation of 
the Coalition for National Science Funding, that you have heard 
from many of us presenting this testimony, we're asking for a 
7.1 percent increase for NSF.
    Now, within NSF, we're primarily concerned about the 
activities of the Social, Behavioral, and Economic Sciences 
Directorate, known as SBE.
    This Subcommittee has had a history with the SBE 
Directorate, for which we're most grateful. Your support was 
crucial in establishing the Directorate five years ago, and 
more recently, in enabling the Directorate to pursue something 
called the Human Capital Initiative, which I will discuss in a 
moment.
    We are also grateful for your support of the Directorate in 
the face of attempts of the last two years to remove it from 
the NSF structure. Fortunately, we have not seen any further 
efforts to undermine NSF's important mission in behavioral 
science, and that's a situation that we credit in large part to 
your resistance to those earlier efforts.
    Any increase in the 1998 budget for SBE will support the 
Directorate's Human Capital Initiative. This is a program that 
has received funding from this committee. Originally, human 
capital was a behavioral science research agenda developed by 
representatives of more than 70 behavioral and social science 
organizations. It described the contributions of behavioral 
science research to our understanding in several broad areas of 
national concern which have behavior at their core. They 
included education, substance abuse, violence, productivity, 
problems of aging, problems of health and others. Each of these 
areas involved a significant basic behavior science component.
    The Human Capital Initiative also pinpointed priorities for 
future research in these areas, and was intended to guide 
federal agencies--not just NSF, but also the National 
Institutes of Health and the Departments of Labor and 
Education--in making research funding decisions for psychology 
and related sciences.
    And now NSF, with this subcommittee's backing, has embraced 
and expanded the Human Capital Initiative to include other 
topics, such as poverty and community and family processes--
again, aiming at what the basic research questions are that 
underlie these issues.
    As part of that expansion, we're currently working with NSF 
to develop a report on basic research in psychology. When 
completed, that report will be used to identify priorities in 
cognitive science, in social and developmental psychology, 
organizational psychology, and interdisciplinary research that 
cross-cuts with biology, physics, education, and engineering, 
among other areas.
    I bring this to your attention in the hope that you will 
continue to encourage NSF to use the report in basic research 
in psychology in setting priorities for the Human Capital 
Initiative in 1998.
    Thank you for the opportunity to appear before your 
committee.
    [The statement of Mr. Kraut follows:]

[Pages 796 - 806--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you, Dr. Kraut.
    I noted with interest that you managed to get about as much 
out of two pages as Dr. Levine got out of seven pages. 
[Laughter.]
    It must have been the size of the type. Thank you very 
much.
    Mr. Kraut. Thank you.
                              ----------                              

                                              Thursday, May 1, 1997

 NATIONAL SCIENCE FOUNDATION, DEPARTMENT OF VETERANS AFFAIRS, NATIONAL 
                  AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

NORMAN ABELES, PH.D., PRESIDENT, THE AMERICAN PSYCHOLOGICAL ASSOCIATION
    Mr. Lewis. Dr. Norman Abeles, the American Psychological 
Association. Welcome.
    Mr. Abeles. Thank you, Chairman Lewis, Mr. Mollohan.
    Mr. Lewis. One more time, if you would summarize, this will 
be included in the entire record.
    Mr. Abeles. Very briefly, I'm going to summarize.
    I represent the other psychological association, the 
American Psychological Association, which is a scientific and 
professional organization of 151,000 individuals all over the 
United States, and some in Canada and some overseas, too.
    I want to speak briefly about the fiscal year 1998 budget 
for the National Science Foundation, NASA, and the Veterans' 
Health Administration. Let me talk first about NSF, to 
summarize that we endorse the 7.1 percent increase requested by 
the Coalition for National Science Funding, for a total NSF 
appropriation of $3.5 billion.
    One example of research that psychologists do comes from 
studying psychology as it applies to the criminal justice 
system. Each year, more than 75,000 people become crime 
suspects in the U.S. based on identification from lineups and 
photo spreads. Some IDs will be false and lead to mistaken 
arrests and imprisonments. Just two weeks ago, Ricardo Guerra 
was released from prison after serving 14 years on death row, 
falsely accused and convicted of murdering a Texas policeman.
    The research of Gary Wells, a psychologist at Iowa State 
University, shows that an objective question such as ``how 
certain are you that the person you identified is the person 
you saw commit the crime?'' elicits a similar response, 
regardless of whether the eyewitness's testimony is accurate or 
not. This suggests that the witness's memory may be confounded 
very quickly by their own misperceptions.
    Further, once an eyewitness's memory has been distorted in 
this way, a straightforward cross-examination often fails to 
produce an accurate recollection. Wells' data suggests that 
stronger steps are needed to ``inoculate'' eyewitnesses' 
memories, especially over the weeks and months that may stretch 
between the crime and a courtroom trial.
    Let me move on quickly----
    Mr. Lewis. What I'm going to do is have you suspend for 
just a moment. I have one minute before I go vote. So I will be 
right back.
    Mr. Abeles. Okay. Fine. I'll wait for you.
    [Recess.]
    Mr. Lewis. The meeting will come back to order.
    Proceed, Dr. Abeles.
    Mr. Abeles. As to NASA, APA supports the fiscal year 1998 
administration request of $214.2 million for the Office of Life 
and Microgravity Sciences and Applications.
    Let me give you a couple more examples. Human factor 
psychologists track decision-making processes that affect 
aviation safety and have played a critical role, it is our 
understanding, of why mistakes happen when humans are required 
to operate in a complex environment. Even as more technology 
finds its way into the cockpit, human beings still make the 
critical flight decisions. Continued research on the complex 
interactions of flight crews with ground controllers, with 
cockpit technology, and with the aircraft, will provide the 
insight needed to design error-tolerant systems.
    So the bottom line on this, we support the $418.3 million 
for the Research and Technology Base within the Office of 
Aeronautics and Space Transportation Technology.
    Lastly, coming to the end, I would like to turn your 
attention to the Medical Care account of the Veterans Health 
Administration, used to fund the education and training of 
health care professionals. As a veteran myself, and consultant 
to the VA, I am very interested in this. Within this program, 
and of direct interest to the American Psychological 
Association, are apprenticeship opportunities for 
psychologists. In fiscal year 1996, 1,400 psychologists were 
involved in the program.
    As the health profession most focused on behavior, 
psychology is an essential partner in providing health care in 
the VHA. We serve as vital members of VA primary care teams as 
the VHA shifts to interdisciplinary outpatient services. 
Moreover, because of their extensive research training, we play 
a critical role in evaluating the effectiveness, the outcome, 
of the VHA health services.
    We have provided essential patient care for five decades, 
including such services as the diagnosis and treatment of Post 
Traumatic Stress Disorder, substance abuse prevention, and 
wellness programs, stress management techniques, vocational 
assessment and rehabilitation, cardiac rehabilitation, smoking 
cessation, and weight reduction. Further, psychologists are 
providing critically needed services to the 40 percent of 
veterans who suffer from mental disorders. So it is important 
that they're highly productive.
    Mr. Chairman, psychology has been a vital discipline in the 
Veterans Health Administration for the past 50 years. The 
foundation for this role is the VHA Psychology Internship and 
Postdoctoral Fellowship program, which continues to train the 
future leaders.
    On behalf of APA, we would urge the committee to fully 
support the VHA education and training program and, within that 
context, maintain the strength of the VA psychologist 
internship program.
    In conclusion, I would like to express my appreciation to 
present my testimony before the subcommittee. 
Psychologicalscience addresses a broad range of important issues and 
problems confronting our Nation. As the Subcommittee considers funding 
requests, I urge you to place a high priority on those issues outlined 
in my testimony.]
    Thank you.
    [The statement of Mr. Abeles follows:]

[Pages 810 - 820--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you, Dr. Abeles.
    I was going to say to all of my friends, who are interested 
in the field of psychology, that two things have occurred 
regarding the research processes here. First, Dr. Neal Lane, 
the Director of NSF, took me to the bottom of the Pacific Ocean 
in a deep submersible, to try to make sure I got the message.
    Dr. Abeles. Wonderful. [Laughter.]
    Mr. Lewis. Later he called my son, who is a professor of 
psychology in one of these small, little colleges in Southern 
California----
    Mr. Abeles. I talked to Neal yesterday at the science 
exhibit. It was delightful talking to him.
    Mr. Lewis. Thank you for being here.
    Mr. Abeles. Thank you. I appreciate it.
                              ----------                              

                                             Thursday, May 1, 1997.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

DAVID BRANDT, EXECUTIVE DIRECTOR, THE NATIONAL SPACE SOCIETY
    Mr. Lewis. Mr. David Brandt, the National Space Society. 
Mr. Brandt, you've heard the pitch----
    Mr. Brandt. In fact, and I'll be as brief as I can.
    On behalf of the board of directors and 25,000 members of 
the National Space Society, I want to take this opportunity to 
thank you for the privilege of testifying.
    NSS is an independent, space advocacy organization founded 
20 years ago. Our strength comes from a diverse group of 
members, doctors, lawyers, teachers, police officers, as well 
as scientists, space explorers, and even a handful of former 
Members of Congress. While they come from many different 
backgrounds, our vision is of creating a spacefaring 
civilization. They're all firm believers in that. This is a 
vision not only for the purpose of further expanding human 
knowledge, but forever advancing our knowledge.
    The great explorers and historians of the future must know 
that at the end of the 20th century, the United States of 
America did our part to advance the noble cause of exploration.
    As an independent organization, we're not bound to any 
specific goals of NASA. Rather, our members speak out on 
programs and funding issues as they relate to our agenda. It is 
against this touchstone of seeking to open outer space as a 
next frontier for commerce and ultimately settlement that we 
weigh our policies and budget priorities.
    Members of NSS are deeply worried about the continued 
decline in real spending for NASA, especially as we look to 
proposed budgets in the next century. Americans have been 
writing to you to show their support for a stabilized budget 
over the years, and some of them have sent copies to us. Since 
they view NSS as their voice in Washington, I would like to 
read just one of those real quick.
    A 61-year-old programmer-analyst explains that our Nation 
invests too little in scientific research and development. He 
says that NASA funding should be maintained at the current 
level of spending, for the following reasons: One, NASA has 
already been cut, as you're well ware, contributing its fair 
share to balancing the budget. It is a long-term investment in 
the future, and NASA is central, both symbolically and 
materially, to this Nation's commitment to leadership in 
science and technology and, therefore, to our economic health.
    As you can hear in this statement and others, that, of 
course, will be in the record, the space frontier is important 
to the lives of many Americans. Allocating funds and setting 
priorities at NASA can obviously be a very arduous process. 
There are many worthwhile programs that compete for financial 
support.
    We have posed this dilemma to our members over the years, 
and as advocates, we give them a mythical $100 to spend. The 
way they have broken it up is--it's interesting to note just 
the top three. Our members would spend $14 on the international 
space station, about $13 and a half on launching a mission to 
return to the Moon and establish a permanent settlement there; 
another $13 to develop reusable launch vehicles to help lower 
the cost of access to orbit. So it's a across the board. They 
would like to see many things.
    Of course, we're limited in what we can do. However, it is 
interesting to note that the Administration and Congress agree 
on two of these three. Where the public's desires and the 
government's plans part is in the Nation's commitment to human 
planetary exploration. We understand Congress' hesitancy to 
support these programs until the costs can be reduced 
dramatically--of course, especially the cost of getting to 
orbit--but these goals can't be achieved unless we adequately 
fund research and development programs.
    To this end, the National Space Society urges Members of 
this Subcommittee to fully support the development of advanced 
technologies for exploration. By investing now in research, we 
can achieve our dreams and affordably send humans to the Moon 
to establish a permanent outpost, and we can set the stage for 
a series of international cooperative human missions to Mars 
early in the next decade.
    Mr. Chairman, NASA deserves the full support of Congress. 
The House recently passed the Civilian Space Authorization Act, 
which increases NASA's spending from $13.7 billion this year to 
$13.8 billion next year, and then $13.9 in 1999. These spending 
levels still do not stabilize the space agency's budget into 
the early years of the next century, but they're a step in the 
right direction. In fact, these levels don't even really keep 
pace with anticipated inflation.
    Our membership strongly urges the United States House of 
Representatives to fund NASA at the full authorization level.
    In conclusion, if the Administration succeeds in cutting 
NASA's budget in each of the next five years, as is now 
proposed--about $2 billion when adjustments are made for 
inflation--America's space agency will begin to lose its vigor, 
in effect dulling our Nation's competitive edge.
    Alternatively, if NASA's budget can be stabilized and the 
space agency is allowed to reinvest savings in new programs, a 
dynamic future of exploration and commercial development will 
become a reality. America's spirit will take flight, as will 
our dreams and our hopes.
    Thank you once again for the opportunity to appear, Mr. 
Chairman. I'm available for any questions that you might have.
    [The statement of Mr. Brandt follows:]

[Pages 824 - 828--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Mr. Brandt. Your statement 
was very much to the point of those who are concerned about 
man's role in space, and NASA's work is very important to the 
committee, as you know.
    Mr. Brandt. Indeed.
    Mr. Lewis. We really do appreciate it.
    Mr. Mollohan.
    Mr. Mollohan. No questions, Mr. Chairman.
    Mr. Lewis. Thank you very much for being with us.
    Mr. Brandt. Thank you.
    Mr. Lewis. We have about another three or four minutes, and 
then we'll go up for two votes.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

ELISABETH GANTT, PROFESSOR, UNIVERSITY OF MARYLAND APPEARING ON BEHALF 
    OF THE AMERICAN SOCIETY OF PLANT PHYSIOLOGISTS
    Mr. Lewis. Dr. Gantt, hello.
    Ms. Gantt. Hello, Mr. Chairman.
    My name is Elisabeth Gantt and I'm a Professor at the 
University of Maryland. I am here representing the American 
Society of Plant Physiologists, which I served as President in 
1988 and 1989.
    We appreciate the opportunity to discuss the valuable 
research and education opportunities supported by the National 
Science Foundation in plant sciences. Of course, we support any 
increase.
    Let me give you just a few examples of plant research done 
by scientists at the University of Maryland and at several 
other institutions who are receiving support for research on 
plants from the Foundation. At our university, Steve Wolniak is 
investigating the fundamental mechanisms of how plant cells 
divide and how these mechanisms lead to the development of 
roots, shoots and stems. Such knowledge is necessary for future 
enhancement in plant productivity.
    Research in my own laboratory centers on identifying the 
genes involved in the synthesis of red and yellow pigments that 
provide color to many vegetables and fruits and, very 
importantly, as sources of vitamin A, which we all require. 
Such pigments also play important roles in absorbing light 
energy from the sun for photosynthesis, while also protecting 
plants from too much light. These are key elements for 
photosynthesis--a process by which plants convert the sun's 
energy into chemical energy and without which plant growth and 
food production would not exist.
    By investigating the origin of chloroplasts, one of my 
young colleagues, Charles Delwiche, with collaborators from 
Indiana University and the University of Pennsylvania, have 
made a discovery which holds great promise for designing drug 
therapies to control parasites that currently cause great loses 
in the U.S. livestock industry. This discovery was just 
published in the March 7, 1997 issue of Science.
    Research supported by the National Science Foundation in 
the plant sciences makes significant contributions to major 
sectors of the economy. Throughout the world, plants are, of 
course, major sources of energy. But molecular approaches to 
plant research are giving us plants that are sources of 
industrial lubricants and detergents, and plant biodegradable 
plastic.
    Mr. Lewis. I'm going to have you recede for just a moment 
while we run up and vote. We'll probably be gone for two 
minutes on this one. We have this one and another vote 
following it, so we'll be back right away.
    [Recess.]
    Mr. Lewis. Please proceed. I'm sorry.
    Ms. Gantt. That's quite all right.
    I was just leading into the molecular approaches and about 
the biodegradable plastics. Breakthrough research which brings 
us plastic-producing plants was done----
    Mr. Lewis. You've already intrigued me enough. I was 
thinking in the early part of your testimony, that I've 
actually being trying to figure out what I want to do in my 
``next life''. I believe in multiple careers. Yours may be a 
prospect. [Laughter.]
    Ms. Gantt. Well, it's in your home state. On the plastic-
producing plants, the work was done by plant physiologist Chris 
Somerville from the Carnegie Institution in Stanford. One of 
the many reports on his research is found in the cover story of 
the March 10, 1997 issue of Business Week, entitled ``The 
Biotech Century''. Thanks to his research, supported by NSF, 
Somerville reports that farmers will actually be growing plants 
producing plastic for American and international consumers by 
the year 2003. Plant technology is also propelling us into a 
new era of plant-derived pharmaceutical therapy.
    Now, we agree, of course, with the Business Week article--
and I quote--``Thanks to fundamental advances in genetics, 
biology will define scientific progress in the 21st century. 
It's all happening faster than anyone expected.''
    As a scientist and teacher involved in teaching hundreds of 
nonscience students, I recognize the value of the 
scienceteacher enhancement program funded by the NSF in Maryland and 
other states. The enhancement has benefitted secondary school science 
teachers in several counties, and has increased the interactions among 
science teachers and faculty at the University of Maryland. School 
districts have been cost sharing a portion of the total cost of this 
program that ensures improved science teaching and introduction of 
meaningful research methodology to the classroom.
    These are but a few examples of the key support that NSF 
provides for science education and research. We recognize the 
strong record of support by the chair and this subcommittee for 
the NSF results, and the vital knowledge needed to provide for 
the welfare of present and future generations of Americans.
    I thank you for your attention and for the opportunity to 
appear before you. If you have any questions, I shall be glad 
to try and answer them.
    [The statement of Ms. Gantt follows:]

[Pages 831 - 833--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Miss Gantt.
    I must say that in 2003 we'll be growing plastics by way of 
plants, and maybe at that point in time we'll be able to use 
that plastic to wrap the balanced budget and hope that it's 
biodegradable. [Laughter.]
    Ms. Gantt. That's right, especially considering its size. 
[Laughter.]
    Mr. Lewis. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

  NATIONAL SCIENCE FOUNDATION AND THE ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

RONALD A. ATLAS, PH.D., CHAIR, COMMITTEE ON ENVIRONMENTAL MICROBIOLOGY, 
    AMERICAN SOCIETY FOR MICROBIOLOGY
    Mr. Lewis. Dr. Ronald Atlas, American Society for 
Microbiology.
    Mr. Atlas. Thank you, Mr. Chairman.
    Mr. Lewis. Welcome.
    Mr. Atlas. Thank you. I would like to ask that our full 
statement be included in the record.
    Mr. Lewis. Your full statement will be included, and around 
here, generally speaking, the briefer you are, the more 
attention we pay to the full statement. [Laughter.]
    Mr. Atlas. Anyway, I am from the University of Louisville. 
My name is Ronald Atlas and I'm representing the American 
Society for Microbiology. On behalf of our 42,000 members, I 
would like to offer comments on both the research appropriation 
request for the Environmental Protection Agency and the one for 
the National Science Foundation.
    With respect to the EPA appropriation relative to other 
agencies, it is a fairly small research component of their 
budget request. Yet, it is a very important one for meeting our 
national environmental needs.
    We are particularly supportive of the Science To Achieve 
Results program, or STAR program, even though we have not yet 
seen it in franchise microbiology. It is focused largely in the 
chemical area, which is important, but we are urging that in 
the language of the appropriation that the Congress also urge 
the EPA to include research on the microbiological sciences. 
These are extremely important in terms of public health and 
environmental quality.
    The EPA needs to focus more, in our opinion, on issues like 
the Safe Drinking Water Act relative to microbiological safety. 
We note that last year this Appropriations subcommittee added 
on the Safe Drinking Water side $5 million in the research 
budget, which EPA, being earmarked, has removed from this 
year's request. So they're actually asking for $3.5 million 
less this year to support research, despite the fact that with 
the passage last year of the Safe Drinking Water Act, or its 
enactment, that there really is a much greater mandate on the 
EPA to develop the science base that will support the 
regulatory and enforcement side of safe drinking water. So we 
are again asking that you consider adding an appropriation 
increase to cover safe drinking water aspects. We really need 
to avoid future outbreaks of things like the Cryptosporidium 
outbreak in Milwaukee that felled many individuals from the 
municipal water supply.
    We are also supportive of the EPA's request to fund 
fellowships within the STAR program. We note that this is not 
always been favored by this committee. There have been cuts in 
the past. EPA has asked to restore their appropriation request 
within fellowships. We think it important that we continue to 
train scientists to meet the future needs of environmental 
research in the Nation and urge that you do fully support their 
request for the STAR fellowship program.
    Turning to the NSF appropriation, we note that the NSF is 
the key agency funding basic science within the Nation. The 
President's request of only a three percent increase will just 
keep us at or just above the inflation rate. It will not allow 
us to expand the basic science mission of the Nation in the way 
that we think it needs to be done.
    Compared to Japan, for example, which is putting forward 
over the next five years a 50 percent increase in basic science 
research funding, if we only fund a three percent increase, 
we're going to start to lose ground internationally. I think 
the NSF has a long-established record of providing the basic 
research needs that we build the applied aspects upon later, so 
we begin to lose international competitiveness, in our opinion, 
if we do not adequately fund the NSF.
    We are in support of the request by the National Coalition 
for the National Science Foundation to increase the NSF 
appropriation by some 7.1 percent, and we urge this committee 
to consider doing so, so that we can keep pace with the 
Nation's needs in terms of research.
    With those brief comments, I would be happy to answer any 
questions that you might have.
    [The statement of Mr. Atlas follows:]

[Pages 836 - 850--The official Committee record contains additional material here.]


    Mr. Lewis. Well, we do appreciate your being here to 
testify. We will include your entire testimony in the record. I 
don't think we have any questions, but we have discussed the 
NSF for a very, very lengthy period in a number of 
circumstances, and we do appreciate your support.
    Thank you for being here, Mr. Atlas.
    Mr. Atlas. Thank you.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

RONALD W. ROUSSEAU, CHAIR OF THE COUNCIL FOR CHEMICAL RESEARCH
    Mr. Lewis. Dr. Rousseau, welcome. We will be happy to 
include your entire statement in the record. Proceed from 
there.
    Mr. Rousseau. Thank you.
    I am Ron Rousseau. I am Chair of the School of Chemical 
Engineering at the Georgia Tech. I am here today, though, as 
Chair of the Council for Chemical Research and to present the 
Council's views on the fiscal year 1998 budget for the National 
Science Foundation.
    Our message is that producing the kinds of advances 
witnessed in the 20th century requires research and 
development. Our Nation is supreme today, in both defense and 
nondefense related technology, because similar investments were 
made by our predecessors.
    The current competitive global environment has forced many 
to focus on the short term. The National Science Foundation, 
however, is our Nation's insurance against the consequences of 
such limited vision. That insurance comes at a cost, and if 
those who inherit our legacy are to be strong and competitive 
in a profoundly global and technological world, we must sustain 
and even grow our base in engineering math and science.
    To achieve these goals, we feel we must reverse the erosion 
of funding for the National Science Foundation. Since fiscal 
year 1995, the purchasing power for NSF's research dollars has 
shrunk by more than six percent. The Council for Chemical 
Research urges you to support a level of funding for fiscal 
year 1998 that both restores the ground lost since fiscal year 
1995, and provides some growth. Accordingly, we hope the fiscal 
year 1998 NSF budget will be increased by at least 7.1 percent 
over the 1997 appropriation.
    The U.S. chemical industry represents ten percent of all 
U.S. manufacturing. It employs more than a million Americans, 
and it's the number one exporter. It also contributes the 
largest trade surplus of any nondefense related sector in the 
United States economy. The Council for Chemical Research is a 
nonprofit organization that advances a competitive, efficient 
research base for the Nation's chemical enterprise. It does so 
by fostering collaboration among the industrial, academic and 
government sectors. Our member organizations include most of 
the major research universities, chemical companies, and 
government laboratories that conduct research in chemical 
sciences and engineering.
    As leaders of the Nation's chemical research enterprise, 
CCR understands the extraordinary impact NSF has had on both 
American scientific discovery and on education. It is the only 
federal agency with responsibility for research and education 
in all scientific and engineering fields. It is the heart of 
the Nation's science and technology enterprise.
    Since it was established in 1950, NSF has served the Nation 
by investing in research and education in science, mathematics, 
and engineering. Not only has NSF consistently served as the 
guarantor of basic research for the United States, it has 
worked hard and well to make its efforts strategic and 
visionary, efficient and results-oriented.
    Today, NSF's role as a leader and steward of the Nation's 
science and engineering enterprise faces new tests: namely, 
promoting new approaches to research, education, and workforce 
training that reach all Americans; responding to the increased 
importance of science and engineering in many aspects of daily 
life; and modernizing the Nation's research infrastructure.
    Of particular interest to CCR's multi-sector membership are 
NSF's efforts to advance integration of research and education. 
NSF has focused on this as a central theme of its strategic 
plan and is pursuing objectives through programs such as 
Research Experiences for Undergraduates, the Faculty Early 
Career Development program, and Gant Opportunities for Academic 
Liaison with Industry.
    The budget decisions you must make are not easy. The case 
for investing in the future by funding NSF must stand up 
against concerns about spending for individual health and 
security. NSF is only 0.2 percent of the federal budget, but it 
supports about 25 percent of the Nation's academic research. 
Rather than an expense, we believe R&D is an investment that 
has proven to yield a high return to our society.
    We urge you to invest in the National Science Foundation 
with a 7.1 percent increase for fiscal year 1998.
    Mr. Chairman, thank you for your attention and the 
opportunity to present these views.
    [The statement of Mr. Rousseau follows:]

[Pages 853 - 857--The official Committee record contains additional material here.]


    Mr. Lewis. Dr. Rousseau, we appreciate both your patience 
and your willingness to be here. Let me say one more time that 
your entire statement, if you want to adjust it a little--I 
notice you crossed out several or most of the pages there. 
[Laughter.]
    We would be happy to receive it, and we do appreciate your 
support.
    We have just a few minutes left on a vote, and then we will 
have Dr. Paul Anderson of the American Chemical Society and Dr. 
David Applegate, American Geological Institute, those two being 
our last two witnesses of the day.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

PAUL S. ANDERSON, PRESIDENT, AMERICAN CHEMICAL SOCIETY, AND SENIOR VICE 
    PRESIDENT FOR CHEMICAL AND PHYSICAL SCIENCES, DUPONT MERCK 
    PHARMACEUTICAL COMPANY
    Mr. Lewis. Dr. Anderson, why don't you come right on up 
here. Welcome.
    Mr. Anderson. Thank you very much for the opportunity. I 
also assume our full statement will be entered.
    I would like to point out that I do represent the American 
Chemical Society and its 152,000 members across the Nation. 
Also, I am a senior vice president for chemical and physical 
sciences at DuPont Merck Pharmaceutical Company.
    Today I would like to begin my testimony by giving you a 
chemist's view of the value of NSF as a strategic investment in 
the quality of life and continued economic competitiveness of 
America.
    Chemists are proud of the contributions that they have made 
to the understanding of life processes, and to improving 
agricultural yields, the clothes we wear, the cars we drive, 
the food we eat, the homes in which we live, and many other 
everyday items. We are also proud of our efforts to preserve 
and protect the environment and the contributions of the 
chemical and allied products industry to our Nation's economy.
    We believe that NSF has played a major role in making all 
of these accomplishments possible, in the sense that they have 
been behind many of the discoveries which have, in fact, led to 
new businesses, because the essential ingredients are long-term 
fundamental research, well-training individuals, and a 
sustained emphasis on science and math education as a way of 
acquiring the resources and tools that are needed to make 
scientific discoveries and advances.
    In our judgment, there is no question that the Nation's 
future prosperity--indeed, our world leadership--depends on a 
rich and diverse scientific knowledge base. NSF is not only 
uniquely equipped with the ability to enable that, but within 
the Federal Government, the foundation is uniquely charged with 
that responsibility.
    To do this, NSF partners with universities and industry to 
ensure that federal investments are sound and leveraged. Using 
the merit review process, NSF supports the best university-
based research opportunities that exist. The products of these 
efforts--new knowledge and well-educated, highly skilled 
graduates--are intellectual capital for U.S. industry. 
Industry, in turn, through the sales of products developed with 
this intellectual capital, generates revenue and tax dollars 
that ultimately flow back to the federal and state governments.
    The chemical and allied products industry, for example, has 
produced a positive balance of trade for more than 40 years, 
and in 1996, posted a $16.9 billion surplus on total exports of 
$61.7 billion. With this relatively small federal investment in 
chemistry, the returns of this investment to the Nation are 
enormous and vital to the economy.
    Science and technology, without question, are long-term 
investments. To develop the cadre of individuals capable of 
pursuing cutting-edge research requires many years of up-front 
investment. Students already in their elementary school years 
need to be exposed to the richness and excitement that science 
offers.
    The Foundation, through its Education and Human Resources 
Directorate, supports a host of creative science and 
mathematics education programs that seek to ensure a 
scientifically-literate workforce and to develop capable 
scientists and engineers.
    The Foundation acts as a catalyst for innovative ideas and 
methodologies for teaching science. Through its efforts, 
students across the country are becoming excited about science 
and mathematics. These investments are developing the future 
researchers and they, in turn, will help ensure our Nation's 
future prosperity. We as a Nation, as noted by the 
administration and by this Congress, need to remain committed 
to science education.
    To continue progress and to ensure our Nation's future, the 
American Chemical Society believes that NSF should be funded in 
the range of seven percent above the fiscal year 1997 levels. 
Few agencies within the Federal Government contribute more to 
the future vitality of America than does the National Science 
Foundation. We recognize that the financial resources of the 
Federal Government are limited, yet there is a real need to 
invest now so that we can have a healthier tomorrow.
    Therefore, the Society's recommendation reflects a balance 
between investing in a healthier America while curtailing 
federal spending. The Society contends that strengthening the 
National Science Foundation will stand as an important 
achievement of the 105th Congress, for both its foresight and 
its commitment to a better standard of living for all 
Americans.
    Thank you for the opportunity to appear before you today, 
and I would be pleased to answer any questions you may have at 
this time.
    [The statement of Mr. Anderson follows:]

[Pages 860 - 873--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you, Dr. Anderson. We appreciate your 
being with us. I'm sorry about the votes. But your entire 
statement will appear in the record.
    Mr. Anderson. Thank you very much.
                              ----------                              

                                             Thursday, May 1, 1997.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

DAVID APPLEGATE, ON BEHALF OF THE AMERICAN GEOLOGICAL INSTITUTE
    Mr. Lewis. Our last witness for today is Dr. David 
Applegate. It's the end of the day.
    Mr. Applegate. Good afternoon, Mr. Chairman, Mr. Mollohan. 
Thank you for this opportunity to testify in support of fiscal 
year 1998 appropriations for the National Science Foundation. I 
am Dr. David Applegate, and I am here to represent the American 
Geological Institute, which is a nonprofit federation of 31 
societies in the geosciences, that represent over 100,000 
geologists, geophysicists, and other earth scientists.
    I'm a geologist myself, and so I particularly appreciate 
the opportunity to speak in support of NSF funding. I received 
funding as a graduate fellowship from NSF, as well as to do 
geological research in the Death Valley region of California, 
looking at the structures there. I believe a year ago you were 
trying to get the ranking member to come out and visit Death 
Valley in the summertime, and he was not very interested in 
doing that.
    Mr. Lewis. Death Valley is in the heart of my district.
    Mr. Applegate. Yes. The structures and the faults there, as 
well as further west, pose a continuous threat to the citizens, 
although perhaps not quite like they show it in the movies.
    Mr. Lewis. I hope not.
    Mr. Applegate. I hope not as well.
    Natural hazards reduction is just one example of a national 
priority issue in which geoscience research and information 
enhance society's ability to make wise policy decisions.
    The earthquake tremors that shook California this past 
weekend, as well as the rushing floodwaters of the Red River of 
the North that struck Grand Forks, ND--and earlier floods in 
California, as well as the Ohio River Valley--are powerful 
reminders of the havoc that natural hazards cause.
    In the past decade, earthquakes and floods have resulted in 
tens of billions of dollars in losses. If recent history is a 
reliable guide, then federal investments in R&D on geologic 
hazards will be repaid many times over by reduced losses, 
reduced loss of tax revenues, and reduced expenditure for 
federal emergency and disaster relief funds. NSF has an ongoing 
initiative in active tectonics research to improve our 
fundamental understanding of earthquakes, volcanoes, and other 
geologic hazards.
    Natural disasters, global climate change, the need for 
energy resources, and water quality issues are reported daily 
by the news media, and tackling these issues requires a firm 
knowledge of earth sciences and of the Earth and its processes. 
Both the Federal Government and the Nation clearly have a stake 
in maintaining the health of the basic science on which these 
policy decisions ultimately must be based.
    NSF is America's premier agency for basic research and 
science education, and it plays a pivotal role in maintaining 
our preeminence in science and technology. Past investments in 
NSF-supported research have paid off handsomely, affecting 
almost every sector of American life.
    This subcommittee has shown a great deal of leadership in 
protecting NSF's budget in recent years, for which we're very 
grateful, and that leadership will be even more critical in the 
coming year. In this time of fiscal constraints, it is 
imperative that we do not starve scientific research that fuels 
economic growth and improves our health, safety, and quality of 
life.
    The NSF Directorate for Geosciences is the principal source 
of federal support for research in earth, oceanographic, and 
atmospheric sciences conducted at U.S. universities. AGI urges 
Congress to reaffirm its commitment to science by fully funding 
the President's fiscal year 1998 budget request for this 
directorate as part of NSF's overall request of $3.27 billion.
    AGI further urges that funding for the agency be increased 
to $3.5 billion, an amount consistent with authorizing 
legislation that recently passed the House, as well as the call 
by the Coalition for National Science Funding, for a 7.1 
percent increase. These proposed increases I hope represent a 
modest investment in the future of our Nation and our planet at 
a time when we can ill-afford not to make that investment.
    We also encourage the subcommittee to fully support the NSF 
Directorate for Education and Human Resources,which plays a 
crucial role in improving the Nation's scientific literacy. 
Because most human activities involve interactions with the 
Earth, our citizens need a basic understanding of our planet in 
order to make informed decisions about the delicate balance 
between resource utilization and environmental protection. 
Improved teaching methods and new educational technology, 
combined with curriculum improvements in the new national 
science standards from the National Academy of Sciences, may 
help to capture and hold the curiosity and enthusiasm of 
students and better prepare them for the workplace of the 21st 
century.
    I appreciate this opportunity to testify before the 
committee, and would like my full statement included in the 
record.
    [The statement of Mr. Applegate follows:]

[Pages 876 - 886--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Dr. David Applegate, of the 
American Geological Institute. It was a pleasure to be with 
you.
    Mr. Applegate. Thank you.
    Mr. Lewis. We anticipate a very difficult year, but in this 
subcommittee there is a commitment to NSF's work, as well as 
both our responsibility for applied and basic research. So we 
appreciate your appearance.
    With that, Miss Meek, the Committee will be adjourned until 
10:00 a.m., Friday, May 2nd, at which time we hope to conclude 
our public witness period for the 1998 fiscal year.
    You have been more than helpful, and I appreciate it.
    Mrs. Meek. Thank you.
    Mr. Lewis. We are adjourned.
                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                               WITNESSES

RICHARD SURRATT, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DISABLED 
    AMERICAN VETERANS
JOHN BOLLINGER, DEPUTY EXECUTIVE DIRECTOR, PARALYZED VETERANS OF 
    AMERICA
JAMES MAGILL, LEGISLATIVE DIRECTOR, VETERANS OF FOREIGN WAR
VERONICA A'ZERA, NATIONAL LEGISLATIVE DIRECTOR, AMVETS
    Mr. Lewis. The meeting will come to order.
    First on our agenda is the Independent Veterans Budget 
Group. Mr. Richard Surratt and your guests, whomever you want 
to have up, you can introduce them. But, remember, your 
testimony must be brief.
    Disabled American Veterans, Mr. John Bollinger; Paralyzed 
Veterans of America, Mr. James Magill.
    Mr. Magill. I am with the VFW.
    Mr. Lewis. Okay. Legislative Director. Okay.
    The way this is outlined here is difficult for me, because 
I am not thinking about it individually. I am thinking about it 
as a group.
    Anyway, would you--proceed as you would like. Your entire 
testimony, as you present it, will be included in the record.
    We have maybe about 50 witnesses today, so I am going to 
ask people to summarize their statements as much as possible. 
Okay.
    Mr. Surratt. Thank you, Mr. Chairman, for allowing the 
Independent Budget to come before this Subcommittee and testify 
again. This is the 11th year that we have published the 
Independent Budget.
    As you probably know, the responsibilities are divided 
among the four coauthors. DAV handles the benefits part and the 
general operating expenses part. PVA handles the medical care 
part, VFW handles construction, and AmVets handles national 
cemeteries.
    With your permission, I would like to proceed and testify 
on behalf of the DAV and then have Mr. Bollinger testify on 
behalf of the PVA on medical care and Mr. Magill on the 
construction part and Mrs. Veronica A'zera on the national 
cemetery system.
    Mr. Lewis. Please.
    Mr. Surratt. As I said, I am Rick Surratt with the Disabled 
American Veterans. My remarks today will focus on the general 
operating expenses appropriation.
    As an organization of more than one million service-
connected disabled veterans, DAV has a special interest in the 
effectiveness of the benefit programs and their delivery. Over 
the past several years, the effectiveness of the compensation 
and pension program has been diminished because of large claims 
backlogs and resulting long delays in benefit decisions and 
awards.
    This has been an area of major concern in the Congress and 
in the veterans' community. We have been critical of VA's 
failure to take decisive and meaningful action, but we believe 
VA now has a good preliminary plan to correct the problems. We, 
therefore, support VA's concept for reengineering its business 
processes to achieve more efficiency in the claims adjudication 
system.
    We believe VA's plan follows from an objective, thorough 
analysis of its performance and a candid acknowledgment that 
the current situation is primarily the product of an emphasis 
on quantity, rather than quality, and the absence of incentives 
and accountability for quality.
    VA has identified the deficiencies and strengths of the 
current system and formulated a plan to correct its 
deficiencies while maintaining and building on its strengths. 
VA will do this through simple but effective work process and 
procedural changes, complemented by a new culture of quality 
decision making and improved service to veterans.
    To overcome poor quality, VA will introduce new training 
programs, more meaningful quality measurement standards and 
better quality enforcement mechanisms with individual 
accountability.
    A new integrated claims process will replace the current 
segmented or compartmentalized assembly line process. Under the 
current process, each employee in the sequence is responsible 
for only that one step that is and is not concerned with the 
completion or quality of the whole and final product. The new 
process places all activities within a decision team that will 
more closely work with the veterans to achieve the proper 
result.
    Also, under the new process, mistakes and decisions can be 
remedied much more promptly and efficiently. These process 
changes do not involve the trial-and-error approach of the 
untested, unproven and disruptive redesign measures advocated 
by others, such as the Veterans Claims Adjudication Commission.
    We do caution that the success of this new plan depends on 
many of the details of implementation yet to be formulated, and 
I want complete dedication and full resolve to change the 
current culture in claims processing.
    The concept, as presented, is a sound one, however. We urge 
you to support VA strategy for improving claims processing. VA 
must be provided the necessary resources to accomplish this 
plan.
    This leads to a concern we have about the administration's 
budget request. The administration proposes to make more deep 
cuts in Veterans Benefits Administration staffing during fiscal 
year 1998--543 FTE overall and 100 in Compensation and Pension 
Service alone. It is logical to conclude that long-term 
efficiency obtained through qualityimprovements will require an 
investment of resources initially.
    It is difficult to see how the more individualized, 
personal interaction with veterans envisioned in the new plan 
can be accomplished with fewer employees. Even VA does not 
project that it will realize these new efficiencies in the 
first year. VA does not expect to attain its goals until the 
year 2002 when the plan is fully implemented. The Independent 
Budget recommends that current staffing levels be at least 
maintained in the Veterans Benefits Administration.
    Similarly, we note that the administration proposes a 
reduction of 26 FTE in the Office of General Counsel at a time 
when appeals to the Court of Veterans Appeals are on the rise. 
The Court of Veterans Appeals has on several occasions reminded 
the VA that it is obligated to devote sufficient resources to 
its representation of the Secretary before the Court to comply 
with the time limits in the courts rules. The Court and 
appellants have become impatient with VA's repeated motions for 
extension of time which delay veterans' appeals for months.
    Mr. Chairman, we ask that you give careful attention to our 
recommendations in the Independent Budget for all VA programs. 
Of course, I would be happy to answer any questions you have 
today about our views.
    In closing, I would like to thank you and the other members 
of this subcommittee for your interest in a budget that will be 
fair to our Nation's veterans.
    That concludes my testimony, Mr. Chairman.
    Mr. Lewis. Thank you very much.
    [The information follows:]

[Pages 892 - 898--The official Committee record contains additional material here.]


    Mr. Lewis. Why don't we proceed with the individual 
presenters and move from there. So, Mr. Bollinger.
    Mr. Bollinger. Thank you, sir. I am John Bollinger with 
Paralyzed Veterans of America; and I obviously am very much 
aware with the President's recommended budget and what has 
happened on the House and Senate committees, the authorizing 
committees.
    I guess it is troubling enough when you consider the 
Congress has rejected the legislation that the administration 
has asked for in the past, and it is troubling enough when you 
consider that these proposed cuts are going to be extended 
through 2002, as well as the fact that the VA is going to be 
treating an increasingly elderly population, and the fact that 
money is going to shift from the Northeast to the Southwest, 
and it comes at a time--just when Dr. Kizer and the VA are 
beginning this restructuring process that I think, if 
implemented properly, will be a good thing for the VA.
    But now the current status of the budget negotiations has 
placed veterans in our worst nightmare. It is a real worst-case 
scenario.
    If VA does get legislation to keep those third-party 
payments, veterans are now being asked to cover that loss to 
the deficit reduction by agreeing to accept $2 billion in 
permanent cuts to other programs for disabled veterans and for 
very needy veterans. Even if the authorizing committees agreed 
to let VA keep third-party collections, the amount collected 
will represent very little in terms of what the VA really needs 
to provide quality health care to veterans. Further, we know 
that the cost of collection remains exorbitant.
    I would like, if I may, to submit for the record a chart 
that comes from the administration's fiscal year 1998 budget. 
It shows that collections have actually fallen between 1995 and 
1997 and costs to collect have increased steadily. So there is 
no question in our mind it is a real gamble to bank on this as 
the sole source of improving VA health care over the next five 
years.
    [The information follows:]

[Page 900--The official Committee record contains additional material here.]


    Mr. Bollinger. There is a lot of talk going around that VA 
can do more with less. The Independent Budget panel has always 
believed that, through eligibility reform and through 
restructuring, that the VA could attain increased efficiency; 
and it can. But, eventually, you come to a point of no return 
when efficiency turns into cutting or denying needed medical 
services for eligible veterans.
    The proposed budget cuts, coupled with untested legislation 
which may not, in fact, pass, will soon, in our opinion, 
devastate VA's ability to provide quality health care to 
veterans that need it.
    Both House and Senate Committees on Veterans Affairs have 
recognized the risk of the administration's budget and have 
replaced the MCCR collections with the real appropriated 
dollars. Although this is less than what the Independent Budget 
panel has recommended, we believe it is definitely a more 
reliable proposal than gambling on the MCCR funds; and, to be 
clear, the Independent Budget has always promoted the use of 
third-party medicare payments for VA, but it has always been as 
a supplement and not to replace real appropriated dollars.
    You know, we have heard lately that the administration has 
requested billions--in fact, I think it is $32 billion for new 
programs. At the same time, we read in the paper yesterday that 
the Treasury is going to be able to pay back in the amount of 
$65 billion to the deficit, and the deficit is the lowest it 
has been in 16 years.
    And while all this is going on, veterans health care funds 
are being frozen and the veterans community is really being 
almost blackmailed into accepting significant cuts and programs 
for service connected to veterans and poor veterans. We believe 
that this is most definitely not in the best interest of 
veterans; and if there are any winners here, it surely isn't 
going to be veterans. We believe that Congress should ensure 
that previous commitments are honored before new programs are 
entertained.
    Finally, I just want to--and it bears repeating, and I know 
you know it, but many of our members truly rely on the VA for 
their health care services. It is not like going down to your 
corner doctor and getting treatment.
    We rely on specialized service for prosthetics, for over-
the-counter supplies that we use every day to get up in the 
morning and come to work and go about the business of living 
every day. From wheelchairs to pharmaceuticals, prosthetics, 
blind rehab, spinal chord injury care, amputations, these are 
oftentimes largely unmatched in excellence in the private 
sector. The VA does this sort of thing well, and for many 
disabled veterans and for our members it is truly the only game 
in town. So we would encourage you to restore the appropriated 
money to this budget.
    Thank you.
    Mr. Lewis. Thank you very much, Mr. Bollinger.
    [The information follows:]

[Pages 902 - 907--The official Committee record contains additional material here.]


    Mr. Lewis. Let me call on James Magill, Legislative 
Director for the VFW.
    Mr. Magill. Thank you, sir.
    The VFW, of course, is tasked with the construction aspect. 
We are very concerned about the administration's request for 
construction in light of the eligibility to perform.
    We believe that the construction budget request falls way 
short in addressing VA's new role. We believe that new 
outpatient clinics need to be established, we believe that 
existing ones should be modernized, and all of this will only 
improve VA's ability to care for veterans at what we believe a 
reduced cost.
    With respect to long-term care, we have real serious 
concerns. VA needs to convert more hospital beds over to long-
term care beds, they need to acquire additional nursing homes, 
and they must increase the access to community home-based care.
    With respect to major construction, we believe that VA must 
consider acquisition and conversion as an alternative. Leasing 
is a viable alternative for outpatient clinics and nursing 
homes.
    With respect to minor construction, most of the VA 
hospitals were filled in the 1950s. They need to be modernized, 
and they need to be repaired, actually. They are very--they are 
an aging facility.
    Something that we think is also very important is, with the 
minor construction, there is a ceiling that is put on the 
amount of money that can be spent; and we believe that, while 
we would strongly recommend that, consideration be given to 
adjust that annually only for the inflation rate.
    This doesn't include my construction program. I didn't go 
into the numbers and details because you have those.
    Mr. Lewis. We have those, right. Thank you.
    Mr. Magill. If I could just take a short amount of time to 
reemphasize what John said. With the reliance of additional or 
pending legislation to provide funding levels for health care, 
we believe that if they need the money, they should ask for it. 
It should not be contingent on a bill that, in all likelihood, 
is not assured of a passage. And I think, when you see the 
chart that John brought, it is a serious problem; and it is a 
gamble; and we also are very much opposed to it.
    That concludes my statement.
    Mr. Lewis. Well, thank you very much, Mr. Magill.
    [The information follows:]

[Pages 909 - 914--The official Committee record contains additional material here.]


    Mr. Lewis. Next, let me call on Veronica A'zera, National 
Legislative Director for AmVets.
    Ms. A'zera. Thank you, Mr. Chairman.
    We are very grateful for this opportunity to testify about 
the National Cemetery System, which is our part of the 
Independent Budget. You have my written testimony submitted, so 
I will just highlight a couple points.
    America's National Cemetery System has a long and proud 
history of service to Americans veterans and their families. 
Despite NCS's continued high standard of service and despite 
the administration's proposal for a $7 million increase in 
budget authority over fiscal year 1997 levels, the system has 
been and continues to be underfunded. The current and future 
requirements of NCS are simply not being adequately funded to 
meet the demands.
    Based on the 1990 census, annual veteran deaths are 
expected to peak at 620,000 in 2008. NCS will fall short of 
requirements to provide spaces for the veterans to seek burial 
in a national cemetery. Currently, only 57 of the 114 national 
cemeteries remain open with in-ground burial plots. By the year 
2000, it is projected that only 53 cemeteries will be accepting 
full caskets.
    The independent budget is a factual analysis of the 
realistic funding required by the VA to carry out the many 
roles and missions designed to meet the needs of America's 
veterans. We urge the Congress and administration to support 
the VA's efforts to a reorganization and refocusing of its 
health care delivery system but spare the agency and the 
veterans from funding reductions in order to balance the 
budget. In order to accomplish this, here are some of our 
recommendations:
    The VA should at least add 60 more FTEs over the 1997 level 
to cover the NCS's incremental work load increases and maintain 
current services. There will still be a shortfall of nearly 
270.
    The VA should provide at least an additional $4 million in 
funding to reduce NCS equipment backlog.
    The VA should aggressively pursue an open cemetery in each 
state. VA should actively expand existing national cemeteries 
wherever possible.
    And our Independent Budget recommendations cost out at 
approximately $85,550,000, which represents a little bit over a 
million increase over the fiscal year 1998 VA budget request.
    This concludes my statement, but I want to reemphasize what 
John said before.
    Mr. Lewis. I appreciate that. Miss A'zera, I have two 
spellings of your name. Is it A'zera?
    Ms. A'zera. Zera.
    Mr. Lewis. Okay. I have zara on one and zera on the other, 
so I apologize.
    [The information follows:]

[Pages 916 - 921--The official Committee record contains additional material here.]


    Mr. Lewis. I want to make sure the record is clear. I think 
that the commentary regarding the NCS is understood by all of 
us, but some careful attention and focus by the authorizing 
committee as well as oversight is not only helpful but 
necessary.
    But let me just kind of throw out a postulate and have 
whatever reaction you would like. It comes from my own 
experience in my district and commentary coming from colleagues 
of mine on both sides of the aisle.
    Over these past several years, the authorizing committee 
has generally been very supportive of the veterans' 
organizations and their advocacy; and the appropriations 
committee has been reasonably certain and comparatively 
responsive overall.
    Nonetheless, there has persisted in districts like mine an 
environment where, as a result of our aggressively working with 
our veterans' groups in our community, we have come to have the 
sense that within a major veteran's hospital, a major medical 
complex, the average veteran has grown to anticipate long waits 
for service in spite of the fact that there is a pretty 
substantial level of personnel available, at least in that 
facility, attitudes on the part of personnel that almost would 
put numbers on the foreheads of veterans, rather than an 
interhuman response and, from time to time, I must say 
something less than the high-quality level of service that you 
described being available--at least potentially available--
within veterans' organizations, the medical assistance. I am 
very disconcerted about that.
    If the Congress passes authorizations that suggest that we 
have this long-term obligation and responsibility and 
appropriations are made and--for example, within the cemetery 
system, the percentage of dollars that go to administration in 
Washington causes me to scratch my head.
    So I am looking for general commentary and reaction. So I 
would like to have a sense if these impressions are a 
reflection of your impressions or not.
    Mr. Bollinger. Well, Mr. Chairman, there is no question 
that in many facilities you will find long waiting lines, there 
are some management problems.
    I know, myself, when I go out to 50 Irving Street here in 
Washington, D.C., for the VA hospital, you get there at 8:00 
o'clock in the morning and you can see the tension kind of grow 
over the morning between the people behind the desk and the 
veterans waiting to be served. No question, that is a problem. 
I am not so sure that is a problem that doesn't exist in the 
private sector as well many places you go.
    I can tell you without question--and I speak for PVA here; 
I don't know across the board--but I can tell you that 
between--around 70 percent of our members use the VA health 
care system.
    As far as the multi-disciplinary care that spinal chord 
injury veterans need, it just isn't out there in the private 
sector, with very few exceptions. And we know that these 
specialized services, including blind rehab and amputations and 
just the AIDS population that the VA treats, is incredible.
    We know that in the case of these specialized services, our 
members can't get them elsewhere; and, for the most part, the 
VA does a very good job providing this unique kind of care. And 
it can't exist in a vacuum and coupled with all the tertiary 
care services the VA offers, we think it is a resource worth 
preserving.
    You know, when you look at all the incredible research that 
has come out of VA over the years, this is another thing where 
the administration's budget has come up way short. We believe 
that, without the continuity, the consistency that research 
money provides, that all Americans, not just veterans, are 
going to be losers in this one. So we would--in addition to the 
appropriated money, we think research is an awful important 
element of this whole thing that needs your support.
    Mr. Lewis. Any others?
    Mr. Magill. I would just suggest that we also--and I have 
heard problems, but I don't think it is throughout the system. 
We have got some good hospitals, and we have got some good 
employees--and others-- we may have some that aren't quite up 
to the standard that we would like.
    The VFW has numerous volunteers that work in each of the VA 
medical centers, where we rely on them, that if there is a 
problem, they can get the attention of the medical director. We 
also send our professional staff out to all hospitals, not 
every year, of course, but I think they average at least every 
2 years. And that is one of the things that we try to find out 
right away: Are the veterans being served in a timely fashion? 
And----
    Mr. Lewis. If I could interrupt. I must say, the volunteers 
have been very helpful in terms of working with my own staff in 
my district location. But it is through that joint effort that 
we not only brought some of these problems to the highest level 
of attention within the local administration--indeed, we 
brought it all the way to the Secretary because we were not 
getting the response down where people are.
    And it is very disconcerting to this Member that we have a 
commitment here--I don't want veterans' medical care systems to 
be a reflection of the worst of that which people in their 
minds eye fear about socialized medicine.
    We often say, my God, you don't want to be in England and 
get your health care. But in our veterans systems, too often--
at least we get feedback that indicates our veterans are 
getting the worst of that. Some would rather go to Canada, on 
the other hand. It is disconcerting, at least in terms of our 
experience.
    And this is not the newest hospital, but it is certainly 
not the oldest, the Jerry Pettis Memorial Hospital, which was a 
replacement after an earthquake loss. Nonetheless, I am 
interested in that feedback and on-going communication from you 
and your organization.
    Ms. A'zera. Just to tag along with what Mr. Bollinger said, 
there are also the good stories; and research alone came up. 
The VA came up with the cat scan, the nicotine patch. I mean, a 
lot of good stories come out of it also.
    There can be an argument, too, that with less funding that 
is going to make them even worse at the hospital; and services 
would go down after that. So I guess the answer is to keep it 
up there so we can improve on services and keep it where it 
should be and, hopefully, improve it.
    Mr. Lewis. Miss Meek, do you have any questions?
    Mrs. Meek. No, I don't have any questions.
    First, I wondered about how this panel is constituted, but 
they are coming in with the viewpoint from the veterans 
themselves.
    Mr. Lewis. That is right--and represent a mix of the 
groups' interests as well.
    We want to have an on-going communication beyond theformal 
meeting. Sometimes I wonder if personalized communication is better 
than formal meetings; but, from time to time, we need to have it on the 
record as well.
    I must say I spent a lot of time reviewing that of which 
Dr. Kizer is about, and the desire to reorganize in a fashion 
that provides more flexible response to veterans' needs is a 
very worthy objective and some of the goals are very healthy. 
But they can't go forward effectively without adequate funding. 
That is for certain.
    We do have questions that are difficult to deal with. But 
you live in the Midwest, and you see populations moving to the 
Southwest and to the West, and you see vacation movement to 
Florida during the right weather, et cetera. Often that is on 
the part of veterans who either planned well or have more than 
others.
    In the meantime, you scratch your head about these huge 
palaces of bricks and mortar that are now no longer shining 
palaces but, rather, run-down brick and mortar often. How you 
deal with that, whether the clinical movement to clinics and so 
forth has more logic----
    I can tell you this. The veterans who drive from Bishop, 
which is four and a half hours, at 70 miles an hour, to Pettis 
Memorial would do better with a clinic; and you are not going 
to be able to serve the deserving where you can put four 
Eastern states easily, you know, without that process. I think 
we have to be willing to look but, at the same time, look with 
great care.
    With that, I thank you; and I appreciate you being here. 
For the record, I wish we all were together at the Franklin 
Delano Roosevelt dedication today.
    Mr. Surratt. I think we can all agree with that.
                              ----------                              

                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

SVEN BURSELL, SCIENTIFIC DIRECTOR, JOSLIN VISION NETWORK, JOSLIN 
    DIABETES CENTER
    Mr. Lewis. Let's see. We are just about on schedule, aren't 
we?
    I can see that you have a summarized statement already, and 
you know you can supplement it for the record, so please 
proceed.
    Mr. Bursell. Thank you very much.
    Mr. Chairman, Members of the Subcommittee, and staff, I 
would like to thank you very much for the opportunity to 
present a program which could be of immense value to the 
Department of Veterans' Affairs.
    Mr. Lewis. For the record, this is Dr. Sven Bursell, who is 
the scientific director of the Joslin Diabetes Center.
    Mr. Bursell. And just in parenthesis, Joslin Diabetes 
Center is one of the Harvard medical institutions in Boston.
    Mr. Lewis. I can almost tell by your accent.
    Excuse me.
    Mr. Bursell. Now I am totally off my script.
    Mr. Lewis. That was my intention.
    Mr. Bursell. At Joslin, our research and patient care teams 
have been involved in new advances in diabetes care for nearly 
100 years and have developed methods of diabetes care which 
will improve the health status of the 26 million veterans and 
significantly reduce the cost of providing health services for 
them.
    Diabetes, among veterans and their families, mirrors the 
effects of this common and devastating disease in the overall 
population. There are over 26 million veterans whose health 
care is covered by the Department of Veterans' Affairs; 786,000 
of them are known to have diabetes, and an equal number have 
yet to be diagnosed.
    In dealing with diabetes, people often forget it is a 
chronic disease, because of insulin therapy; it allows most 
diabetic patients to lead normal lives. However, even with 
insulin, the complications of diabetes can be devastating. For 
example, nearly all diabetic patients will develop eye 
complications at some time in their life.
    At a certain stage of diabetic eye complications, data 
shows that 70 out of 100 of the patients, if they are not 
treated, will go blind within 5 years. If the 100 patients are 
accessed into appropriate and timely treatment, only 1 in 100 
will go blind.
    So, basically, Joslin Diabetes Center is the largest and 
most comprehensive diabetes research inpatient care resource in 
the world, and we would like to join with the Department of 
Veterans' Affairs to address this largely hidden, yet 
devastating, costly problem of diabetes, and we hope that with 
the implementation of our proposed program, that we can assure 
that we stop the 70 in 100 incidents of blindness and 
potentially reduce that to 1 in 100.
    There are three major components in the type of programwe 
are proposing. The first is the detection of undiagnosed diabetes, and 
diabetes--this is what I am talking about, type 2 diabetes--is largely 
asymptomatic. And I think it is asymptomatic because when you start to 
feel run down and tired, you attribute it to old age and you don't 
think about diabetes, so that is why it can be a chronic problem.
    Recently, we have developed a noninvasive method for 
detecting diabetes in the general population, a method based on 
shining a low-intensity blue light into the lens of the eye and 
measuring the light that comes back to the measurement 
instrument.
    In diabetes, where blood sugars are high, it affects the 
nature of the proteins in the lens of the eye, and that, in 
turn, affects the characteristics of the light signal that we 
measure. So using the changes in light signal, we can detect 
diabetes without having to take a blood or urine sample. The 
measurement itself takes about 4 seconds, and you will know 
whether or not a patient has the risk for diabetes.
    Mr. Lewis. And the level of accuracy?
    Mr. Bursell. The level of accuracy is around 80 to 90 
percent specificity and sensitivity for detecting diabetes, 
screening for diabetes in the general population, and that is 
at least as good, if not better, than the glucose tolerance 
test, which is a 3-hour blood test for detecting diabetes.
    Mrs. Meek. Is this procedure in current practice?
    Mr. Bursell. The technology for this procedure is currently 
undergoing a commercialization. The company essentially 
licensed the technology from us, and it is currently going to 
be marketed by Beringer Mannheim. I have been in contact with 
the company, and they said because of my association, they will 
provide some instrumentation that will allow us to access the 
veterans population to screen for diabetes.
    Mrs. Meek. Okay.
    Mr. Bursell. So----
    Mr. Lewis. If I could, to follow up on Mrs. Meek's 
question, what you are suggesting here is that the technology 
is developed, it is in the process of commercialization; that 
means that it would be--that the technology, as well as the 
technique itself, would be promoted among optometrists.
    Mr. Bursell. It could be, or you could set it up in a mall.
    Mr. Lewis. In a clinic setting?
    Mr. Bursell. In any clinic situation, Lens Crafters or any 
place that has access to the general population of the patients 
that may have diabetes.
    Mr. Lewis. For my staff, I would like to have us look at an 
evaluation of the increased costs of medical care delivery to 
veterans that are directly linked to adult onset diabetes--I 
think they are very substantial numbers--and then relate that 
to the technology like this.
    Mr. Bursell. I think in--I know that in the general care 
arena, it costs about 14 to 15 thousand dollars per year in 
medicare/medicaid patients, for diabetic patients who have gone 
blind. So if you can prevent them from going blind, obviously, 
you can realize those savings.
    Mr. Lewis. It is certainly obvious the potential impact 
upon quality of life is important. But beyond that, if you are 
looking at appropriations and oversight, the added expense has 
to be very real.
    Mr. Bursell. The second component of this proposal is a 
telemedicine strategy which we call the Joslin Vision Network. 
As I said, it is a telemedicine application, uses industry 
standard protocols, and the platform itself consists of three 
basic components.
    The first is what is referred to as the remote exam 
station, and that facilitates a video image capture of eye 
images, entry of relevant medical record information, 
computerized medical record system, and the transmission of 
these images, medical information, over phone lines to central 
sites, where they can be interpreted by skilled opthalmologists 
or trained readers, the philosophy being that the eye exam 
should be as routine as a blood pressure measurement, so that 
when a diabetic patient comes into the clinic, they have the 
blood pressure taken, they have the blood test done and the eye 
exam.
    And the eye exam, the way we designed it, takes about 5 
minutes to acquire the correct images. The training is minimal, 
even though it is high-tech computer equipment. The computer 
equipment is transparent to the user, so it is very easy to 
use. We have trained noncomputer people in about a half an hour 
to use the system.
    Mr. Lewis. I must say that this is being very simplistic, I 
know, but we have gotten to enjoy in many ways, even though I 
am disconcerted by the time waiting in the lobbies of 
hospitals, but these guys--and I use the term largely; it is 
guys--they get to know each other and their buddies, and they 
are playing cards and whatever they do, but while they are 
doing that, they could also wander over to a unit in the lobby, 
and a nonskilled, high-paid person could easily--to make sure 
people got the tests.
    But beyond that, it seems to me, it isn't a far stretch to 
have a computer connection between that machine and that 
patient's records, and automatically somewhere there would be a 
flash to indicate there is a problem here.
    Mr. Bursell. Exactly. And that is the second component of 
our telemedicine application, is the images are automatically 
transmitted to a central site, be it telephone line, two-one 
connections, ISDA connections. And at that site, the images are 
read by a trained reader, and what is generated automatically 
from those findings is a diagnosis with respect to the level of 
retinopathy. And to go with the other medical record 
information, we can send immediately back to the remote site in 
a position what the diagnosis is, what the recommended 
treatment plan is, and recommend plans for future treatment.
    Mr. Lewis. Very interesting. I appreciate that. 
Essentially, you have taken me to the heart of what you wanted 
to say; I can see that. Thank you very much. I appreciate that.
    Mr. Bursell. You are quite welcome.
    [The information follows:]

[Pages 928 - 933--The official Committee record contains additional material here.]


                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

R. DALE WALKER, M.D., CHAIRMAN, DEPARTMENT OF PSYCHIATRY, OREGON HEALTH 
    SCIENCES UNIVERSITY, PORTLAND, OREGON, AMERICAN PSYCHIATRIC 
    ASSOCIATION
    Mr. Lewis. Dr. Dale Walker. Dr. Walker is Chairman of the 
Department of Psychology at Oregon Health Sciences University 
in Portland. He is here representing the American Psychiatric 
Association.
    I would like to welcome you.
    Dr. Walker. Just a correction. I am Chair of the Department 
of Psychiatry.
    Mr. Lewis. Did I say ``psychiatry''?
    Dr. Walker.  You said ``psychology.''
    Mr. Lewis. That is because I have a son who is a 
psychologist.
    Dr. Walker. Well, we are friends in our department, so we 
work well.
    It is an interesting time for me to be here with you. In 
some sense, I am asking you to support and spend money and 
prioritize money that sometimes you probably wonder if you 
have. And, indeed, we are trying to figure out some way to 
provide good care.
    You made an interesting comment earlier about a long-term 
obligation, and that certainly strikes true to me. I have 
worked in the VA for 20 years, directing the alcohol/drug 
programs and the Seattle VA, and we had the first center of 
excellence for substance abuse treatment and education in 
addictions in Seattle. I have worked long and hard in that.
    I am also a veteran. So I come to you with a great deal of 
feeling about a need to maintain that obligation and in some 
way that makes sense for the patients that we all see and take 
care of.
    Now, as representing the American Psychiatric Association 
here today, I am speaker in the assembly, which is a little bit 
like Congress, in the House of Representatives, and your life, 
and in that process of representing 41,000 psychiatrists, I 
wanted to let you know a little bit.
    We certainly advocate for more health care funds for the VA 
system. We also want special attention, though, to be spent on 
what is happening with the chronically ill patients in the VA.
    Again, the spokesperson before me talked about chronic 
illnesses. The VA is one of those important facilities in the 
world that looks at illnesses over time. It is the largest 
health care system in the world that manages patients for long-
term illnesses, and as this country is being redirected, in 
managed care, to look at acute illnesses, a lot of concern 
should be spent looking at these patients and their access to 
care and the kinds of things that can help them in better ways.
    Now the important thing I wanted to share with you is that 
chronic mental illnesses, including addictions, are treatable, 
diagnosable, they are cost-effective, and if one develops 
prevention and stabilization strategies, over time you do 
reduce health care dollars for these individuals, you do help 
and assist in housing for homelessness and working with acute 
medical problems that are the indirect relation to alcohol and 
drug problems, for instance.
    And I wanted to let you know a little bit about the need to 
pay attention to the specialized programs and some safeguards 
to protect those programs which Congress, by the way, has 
supported and advocated over the last two decades.
    The posttraumatic stress disorder program is clearly a high 
priority within the VA system. However, it needs to develop 
better day hospital and treatment programs for patients who are 
seeking help.
    The interesting conflict is, if you develop day hospital 
and longer-term-care programs, by definition you are seeing 
those patients in an intensive way. That is in conflict with 
the funding mechanism of seeing more individuals, if I might 
say, in some of the less desirable ways, more social security 
numbers. It is the funding mechanism process.
    Chronic illness care means more than a social security 
number, and we need to develop a special mechanism for funding 
these groups. One looking at substance abuse programs has to 
examine, first of all, the stabilization of care. You all know 
that lots of impatient programs in alcohol and drug treatment 
have changed as the emphasis has been going to outpatient care.
    The problem, though, is that in 1996 the VA saw fewer 
veterans in treatment for alcohol and drug than it saw since 
1990, when the original expansion proposals by Congress were 
recommended. So there is a transition and a redirecting of 
funding from programs that needs to be looked at and, I think, 
needs to be a major concern.
    The other issue for substance abuse is the importance of 
having training programs provide skilled people to give the 
care to the veterans. This is a national issue, not just a VA 
issue, of providing training for skilled, experienced people to 
work in this area. The VA, I would say to you, has the best 
program around, and I hope that it will continue in its 
training.
    That leads me to another issue I would like to tell you 
about, and that is the important relationship of VA's to 
medical schools. They are absolutely directly related and 
dependent upon one another in training. If the VA system is 
destabilized in its training system, the medical schools are 
affected, and vice versa.
    That partnership of deans, committees, hospitals, is, I 
think, unique. It has provided wonderful building blocks to 
provide training and good care across the country. We are very 
proud of that process, I think both the Seattle and Portland 
area, where I have trained and done my work, and I would like 
to see that continued as well.
    Mr. Lewis. As we are at Loma Linda.
    Dr. Walker. Yes, indeed. I have done some work at Loma 
Linda as well, as a matter of fact, and saw the hospital open 
originally.
    Mrs. Meek. He is a scholar, Mr. Chairman.
    Mr. Lewis. Let me take a moment, if you will. I am 
interested in maybe a specific illustration. Let me describe an 
individual in hopes that it might reflect a broader need.
    Somewhere in the 1940s, that person found himself in the 
Pacific, maybe a corpsman, in horrendous circumstances, seeing 
associates slaughtered. It impacted enough to come back as a 
result of a nervous breakdown. It goes on with his or her, 
quote, normal life, raises a family. But over all those years, 
let's assume that the person might be a Marine and he meets 
another Marine, and the Marine wants to talk about the war. 
This is a Marine who is on active duty, let's say. And that 
person reacts in a fashion that absolutely causes him to close 
down. He does not want to discuss that history, never discusses 
that history. This is 50 years later. Is that a pattern?
    Dr. Walker. I am familiar with those kinds of stories.
    In looking at posttraumatic stress, there is an acute 
process that one might look at the first 3 years, but there are 
also two other pieces to think about. There is a long-term 
process, which is what you are suggesting, and, indeed, there 
is documentation, and I have seen people from the Bataan Death 
March who have had these experiences and play those tapes back 
and, indeed, you are there.
    The same is true intergenerationally, that families who 
have suffered great tragedies pass that information to their 
next family, and, indeed, they too can experience the loss and 
the incredible pain of that horror, that tragedy.
    Clearly, psychiatric care works in those kinds of 
situations, and it is very, very useful. One of the problems is 
how--we have to overcome the stigma of dealing with these 
issues in an open and honest way, as opposed to somehow having 
to feel the shame as well as the pain. And that, for me, is the 
uncoupling that we have to do. And I think that, again, the VA 
has opened up the whole posttraumatic stress process that is 
existing everywhere else in every other medical care center, 
but here, because of the tragedy of war, it is allowed to be 
something to be talked about.
    Mr. Lewis. Very interesting. Maybe this FDR memorial 
syndrome has me asking these questions today, but nonetheless.
    Dr. Walker. Well, I have appreciated your sensitivity. And 
you made another comment about, patients are more than just 
numbers and something about long waits, and having been on the 
caretaking side, in a system that barely manages the staff, I 
would tell you that is a serious problem, and those of us who 
have worked in the VA need to remember the importance that 
these patients need to be followed through individually, not as 
numbers, not in lines; they are no longer in the military.
    Mr. Lewis. That is right.
    Dr. Walker. And that is something we need to do more 
effectively.
    Mr. Lewis. Dr. Walker, I appreciate you being here and for 
your formal testimony. We welcome you being with us. Thank you.
    Dr. Walker. I greatly appreciate it. Thank you.
    [The information follows:]

[Pages 937 - 941--The official Committee record contains additional material here.]


                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

HENRY FERNANDEZ, PRESIDENT AND CEO, ASSOCIATION OF UNIVERSITY PROGRAMS 
    IN HEALTH ADMINISTRATION
    Mr. Lewis. Mr. Henry Fernandez, President and CEO of the 
Association of University Programs in Health Administration, 
welcome.
    Mr. Fernandez. Thank you.
    Mr. Lewis. My staff is chiding me quietly. I am kind of 
rambling around today.
    Mr. Fernandez. Well, I certainly have enjoyed this 
morning's meeting, Mr. Chairman, and I am delighted to be here 
with you and Mrs. Meeks.
    I am the President and CEO of the Association of University 
Programs in Health Administration. By way of background, the 
AUPHA represents every world class higher education institution 
that contains an accredited graduate or undergraduate health 
management educational program and prepares new practitioners 
for health management, as well as more seasoned managers.
    We are very much involved in the field as a whole. Besides 
our 109 university programs, we have over 200 affiliate 
members, which are primarily health care institutions and 
providers of service on health care. We also have over 120 
international members in 150 countries. So it is really an 
international consortium.
    In California alone, we have nine members, including your 
alma mater UCLA. In Florida, we have seven members; the 
University of Florida and the University of Miami are 
outstanding members of our collaborative, graduates on every 
level of the health care system. They administer some of the 
Nation's largest and most complex and most successful health 
care institutions.
    We have historically had a really good working relationship 
with the Federal Government through HRSA, the Health Resources 
and Services Administration. We support the training of 
graduate students in health management. We work through AID in 
improving the health care delivery systems from the Newly 
Independent States all the way through and to Latin America.
    AUPHA and its member university programs are resourced to 
our Government and represent part of a solid practical 
investment and a cost-effective health care system. Indeed, in 
the past year this resource has been playing a substantial role 
in improving the managerial infrastructure at the VHA.
    Mr. Chairman, you recall last year I shared with you a new 
venture that we were engaging in with the Veterans' Health 
Administration that we both believed would result in 
substantial improvements in management and functioning of the 
VHA. It was a modest project, one that put together some of the 
Nation's outstanding health management educators to work with 
senior administrators at facilities and networks within the VHA 
to train them in the management methods, techniques, and 
practices. The program was targeted specifically atchief 
planning information and financial officers and other senior managers 
with significant line responsibilities.
    We also crafted a really unique feature in the membership, 
one that created opportunities to link the higher ed case 
institution as a whole with the VHA in a new and dynamic way, 
and it provided a mechanism for the mentors, the faculty, to 
continue to work, not just simply within workshops that were 
episodic, but throughout the entire year with seasoned 
managers.
    You were responsive to this effort, Mr. Chairman. In your 
1997 appropriations bill, you expressly supported the 
continuation and expansion of the relationship. I want to 
report to you on the success of this past year, Mr. Chairman.
    We are now engaged in a broad-scale partnership with the 
VHA at both the national and even the VISN levels, where we are 
providing considerable management training to addressing the 
needs of administrators throughout the system.
    We are conducting a second national program for senior 
executives at the VAMC and VISN levels, building on last year's 
success, and, equally important, we just concluded a new and 
specially tailored program for VISN 8 which includes Florida 
and Puerto Rico, Mrs. Meeks, and we are drawing on the success 
of that national program. We hope to expand these types of 
learning relationships to the advantage of the VA and the 
veterans population it serves.
    These efforts have exposed VHA managers to the best 
practices in the private sector, and it will help them and 
their clinical leadership to deal more effectively with their 
private sector counterparts as they develop a role in 
comprehensive systems of care within the evolving and 
restructured VHA system. We think very much so that what we are 
doing is going to ensure the vision for change and prescription 
of change that the leadership of the VHA have defined in the 
recent past.
    You concluded last year that there are other areas for 
potential savings that included management and coordination of 
medical centers, and we agree, we will be working in that 
regard. And last year we found sound management training at the 
VHA senior managers, conducted by these leading academic 
experts and practitioners in the country, is critical to this 
important reform effort at the VHA if it is going to meet its 
future challenge.
    We want to continue to work with the committee, Mr. 
Chairman, in fashioning a strong program that will turn the VHA 
system into a model for the efficient delivery of health care, 
and we think we are starting in that direction.
    Thank you for the opportunity to testify and share with you 
the success of the past year. We look forward to working with 
you and your staff and certainly the VHA in meeting your goals 
of fine quality, cost-effective services for all veterans.
    [The information follows:]

[Pages 944 - 956--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much, Mr. Fernandez.
    This all comes under the title or the topic of, 
``Physician, heal thyself.'' Very interesting.
    Mr. Fernandez. In large measure, sir. Thank you.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. That is fine. I don't have any questions.
                              ----------                              

                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

CHARLES L. CALKINS, NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE 
    ASSOCIATION
    Chairman Lewis. Mr. Charles Calkins, National Executive 
Secretary, Fleet Reserve Association. You know the standard 
pattern here. Your entire statement will be included in the 
record, and we welcome your testimony.
    Mr. Calkins. I will try to make it as brief as possible, 
Mr. Chairman. Thank you very much for allowing us to be here.
    I am accompanied today by Master Chief Petty Officer of the 
Navy, Joe Barnes, retired, and Sergeant Major of the Marine 
Corps, Mack McKinny, retired, and, of course, Master Chief Tom 
Snee, also retired.
    Our membership is more than 162,000 active-duty, retired 
and Reserve members of the Navy, Marine Corporation and Coast 
Guard veterans, and, of course, that is why we are here.
    I know you have seen our statement, and we have quite a 
shopping list in there. I will try to condense it as much as 
possible. The fact is that Joe and I worked on this a few days 
to try to get it down to a summary. I will even make that a bit 
briefer.
    We do support the request for the $19.7 billion for 
compensation and pensions and we also request the additional 
funds from the oversight committees.
    We believe it is unfair to deny reinstatement of dependency 
and indemnity compensation to widows whose subsequent spouse 
has either passed away or divorced.
    The Fleet Reserve Association does not support a decrease 
in COLAs based on the presupposition that the CPI is inflated, 
particularly when it is not supported with sufficient 
scientific data.
    We strongly support the House Committee on Veterans' 
Affairs request for an additional $175 million to improve the 
Veterans Educational Assistance Program. The Montgomery GI bill 
is sorely in need of improvement, and with current benefits 
running far below the costs of the undergraduate program. 
Legislation was enacted last year authorizing military 
personnel to switch over to the Montgomery GI bill from VEAP.
    However, the interpretation of what constituted an active 
VEAP account left out thousands of service members since they 
no longer had the funds in their accounts, and they were 
advised by the respective counsels in their respective services 
to take their money out, to close their accounts. Of course, 
the result is they have no accounts and they can't transfer.
    We urge Congress to halt the discriminating practice of 
requiring military retirees to waive retirement pay in order to 
receive VA disability compensation. We would like to see that 
passed through.
    Hopefully, military retirees will soon be placed in a 
higher priority for the VA medical facilities. Health care is 
really quite an issue, and, of course, we would look for your 
support on military subvention when it starts to work its way 
through the House.
    I think that is a much-needed program. Of course, the VA 
subvention plan will also help.
    We, again, urge support for the requested funding for the 
national cemetery systems and form our State cemetery systems.
    Mr. Chairman, I really appreciate the opportunity to be 
here before you and your committee, and we wish you a lot of 
luck. There is an awful lot of things out there, and we must 
not forget the veterans.
    Mr. Lewis. We appreciate the input of the Fleet 
Association. We know of your support in general, but the 
specifics are very important for us. Your statement, as I 
indicated, will be included in the record. I appreciate your 
being here.
    Mrs. Meek.
    Mrs. Meek. No questions, Mr. Chairman.
    Mr. Lewis. Thank you very much.
    [The information follows:]

[Pages 959 - 966--The official Committee record contains additional material here.]


                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

JOHN VITIKACS, ASSISTANT DIRECTOR, VETERANS AFFAIRS AND REHABILITATION 
    COMMISSION, AMERICAN LEGION
    Mr. Lewis. John Vitikacs, Assistant Director of Veterans 
Affairs and Rehabilitation Commission.
    Mr. Vitikacs. Good morning, Mr. Chairman and Members and 
staff. The American Legion is deeply concerned with the 
President's fiscal year 1998 budget proposal for the Department 
of Veterans Affairs, especially for the 5-year medical care 
projections. Planned discretionary funding for medical care 
will not allow VA to meet the demands of an aging veterans 
community without rationing care, restricting access to the 
vast majority of veterans, and jeopardizing the quality of care 
provided.
    The House Veterans Affairs Committee also recognized the 
shortfalls of the President's budget and took actions to 
restore needed medical care and research dollars to reflect a 
$600 million increase over fiscal year 1997 levels. The 
American Legion believes this is still shy of the funding 
needed by VA to adequately care for its current patient 
population.
    For the fiscal year 1998 fiscal year, the American Legion 
requests, as a minimum, $18.2 billion in medical care, $280 
million in medical research, and $75 million in State home 
grants programs. In medical construction, the American Legion 
requests $225 million for major projects and $200 million for 
minor projects. It is extremely important that the VA Hospital 
system maintain its infrastructure.
    The American Legion is concerned that the proposed fiscal 
year 1998 budget for the Veterans Benefits Administration will 
lead to a reduction in staffing that will ultimately impede the 
regular engineering and improvement process that is currently 
underway. The American Legion strongly recommends that no cuts 
be made in VBA's funding until this critical stage is 
completed.
    Staffing and resource reductions will also negatively 
impact the compensation and pension service, as well as 
vocational rehabilitation and counseling services.
    Mr. Chairman, the American Legion developed a plan called 
the GI bill of health, which outlines major changes for VA to 
meet the challenges of the 21st Century. This initiative opens 
access to VA health care to all veterans, establishes new 
revenue streams, and creates new health care access points 
across the country.
    All new patients would bring their health care dollars with 
them to pay for services and treatments received. A recent 
study mandated by Public Law 103-455 entitled, ``Feasibility 
Study; Transforming the Veterans Health Administration into a 
Government Corporation,'' arrived at many of the same 
conclusions and offered similar recommendations as does the 
American Legion's GI bill of health on the future of VA health 
care.
    Strengthening and maintaining the Veterans Health 
Administration is a major goal of the American Legion. It is 
necessary to test and evaluate various strategies to enhance 
the veterans health care system for current and future 
generations of veterans. The American Legion supports a 
Congressionally appointed commission to study, evaluate and 
recommend future directions for VA health care.
    In this regard, we support H.R. 335, a bill to establish a 
commission on the future of America's veterans. This commission 
would evaluate various studies and proposals and design and 
establish demonstration projects at various VA medical centers 
for evaluation and modification before system-wide 
implementation.
    Mr. Chairman, thank you for the opportunity to present this 
testimony. That concludes my remarks. I will be glad to respond 
to any questions.
    [The information follows:]

[Pages 969 - 976--The official Committee record contains additional material here.]


    Mr. Lewis. Well, first, I very much appreciate being 
present and representing the interests as well as the view of 
the American Legion. I would be interested in, separate from 
your formal testimony, any reaction to my relatively off-the-
cuff comments about veterans medical care and the way veterans 
oftentimes seem to be treated in our hospital system. Were you 
here for that?
    Mr. Vitikacs. No, I wasn't, unfortunately.
    Mr. Lewis. It is one thing to have money flows, and the 
committees have tried to be responsive, especially in this 
environment we have been operating in in the past several 
years. In the meantime, in our hospitals, oft times it is 
presumed veterans will wait for long periods of time. Often 
they have a number on their forehead, et cetera. And I am 
wondering if the American Legion has views regarding this and 
if you would like to speak to it, besides just the money.
    Mr. Vitikacs. Well, we believe that the reform enacted last 
year will help in enabling veterans to receive earlier 
preventive health care services, that the shift from the 
inpatient base care to ambulatory primary care is definitely 
long overdue. But we are very concerned that the increase in 
the eligibility will lead and is leading to an increase in 
costs, where you have more individuals today who are eligible 
for services on an ambulatory basis that heretofore were not 
able to receive those services, and our observations are at 
various medical centers. This is increasing the costs across 
the board.
    Mr. Lewis. You brought yourself immediately back to costs. 
I was much concerned about attitudinal questions. Maybe you can 
think about that and, if you want to expand for the record, I 
would appreciate it.
    Mr. Vitikacs. I am not sure I fully understand.
    Mr. Lewis. I am concerned about at the top level in the 
Veterans Administration, within the hospitals and otherwise, 
they want to do ``this is business as usual,'' instead of a 
commitment we have long-term to veterans that makes them human 
beings, rather than numbers. And that has almost nothing to do 
with money.
    Mr. Vitikacs. Absolutely. Absolutely. And that is why this 
organization has made its own proposals for reforming and 
restructuring the system well into the 21st Century.
    Mr. Lewis. I appreciate that.
    Mrs. Meek.
    Mrs. Meek. Thank you very much.
    Mr. Lewis. Thank you for being here.
    Mr. Vitikacs. Thank you.
                                               Friday, May 2, 1997.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

GEORGE RUTHERFORD, PROFESSOR OF EPIDEMIOLOGY AND HEALTH ADMINISTRATION, 
    SCHOOL OF PUBLIC HEALTH, UNIVERSITY OF CALIFORNIA-BERKELEY NATIONAL 
    ASSOCIATION OF VETERANS' RESEARCH AND EDUCATION FOUNDATIONS
    Mr. Lewis. Mr. George Rutherford, Professor of Epidemiology 
and Health Administration at the School of Public Health, in 
beautiful downtown Berkeley.
    Dr. Rutherford. It is indeed.
    Mr. Lewis. Today, speaking on behalf of the National 
Association of Veterans' Research and Education Foundations.
    Dr. Rutherford. Mr. Chairman and Mrs. Meek, thank you for 
the opportunity to present testimony this morning. I am here at 
the invitation of the National Association of Veterans' 
Research and Education Foundations, or NAVREF, an association 
of Medical Research Foundation's affiliated VA medical centers.
    Mr. Lewis. You know, Dr. Rutherford, we will have your 
entire statement in the record, so as much as you can 
summarize?
    Dr. Rutherford. Yes, sir, I would be absolutely happy to.
    A year and a half ago I was the Chair of the committee that 
the Veterans Administration called together on how their 
research programs are structured and run, and my background, I 
am a pediatrician and teach in a public health school.
    Mr. Lewis. You are a pediatrician and you teach in a public 
health school.
    Dr. Rutherford. Yes, sir.
    Mr. Lewis. Do you know Dr. Fred Hodges, by chance?
    Dr. Rutherford. I do indeed. He is my counterpart in the 
State Health Department where I used to work as well. I saw him 
last night actually.
    Mr. Lewis. Is that right. Last night here?
    Dr. Rutherford. No, last night in Berkeley. It is those 
night flights.
    Mr. Lewis. Next time you see him, say hello for me. He was 
my college roommate in my freshman year at Berkeley.
    Dr. Rutherford. Oh, you are kidding. It is really a small 
world.
    Mr. Lewis. It is on the record, as a matter of fact.
    Dr. Rutherford. Yes. So I came to this with absolutely no 
knowledge of the Veterans Administration, since I was a medical 
student. So it was long ago and far away.
    This committee I chair had a mix of people like myself who 
had little contact with the Veterans Administration, people 
from inside the VA, and then non-VA stakeholders, like the 
Paralyzed Veterans and Veterans of Foreign Wars.
    I was absolutely astounded by what I learned about the VA 
research program. I had the opportunity to do a number of site 
visits up and down the West Coast and one in Pittsburgh, of all 
places. I can't remember why we happened to be there that day. 
And it was really a phenomenally valuable program.
    We produced this report called ``Final Report of the 
Research Realignment Advisory Committee,'' and there are 
several conclusions within that which I think are salient to 
your deliberations today. One that, ``research is an essential 
component of VA's mission,'' but we also felt in the current 
funding climate, if VA research rested on its laurel and 
accepted the status quo, that its entire enterprise would be 
jeopardized. We made a series of recommendations. Just to touch 
on some, that the VA should strengthen the alignment of the 
VA's research mission and scientific discovery with its mission 
of patient care. So what they are spending their money on 
matches up with what the people have that are in the system.
    Secondly, we felt that career development had been widely 
underfunded over the last several years, and the new generation 
of clinician researchers was not coming in to the system.
    Thirdly, we also felt, sort of akin to the NIH structure, 
that VA should appoint a federally chartered National Research 
and Development Advisory Committee to oversee an entire 
portfolio of research to make sure that it was adequately 
targeted to the needs of veterans, especially now moving from a 
largely inpatient system to a largely outpatient system.
    We made a number of recommendations, as you might imagine, 
but there are several that touched on funding, and I would just 
like to go over those quickly.
    First, we thought that following realignment of the VA 
research enterprise, how it is administratively structured and 
how monies are passed out, additional funding may be sought 
from the Congress to increase the overall VA research 
investment.
    We felt that we were--that the Nation was getting very good 
value for the dollars spent in VA research, and that once a lot 
of sort of the redundancies were ironed out of the system 
through this realignment process, that it would be worthwhile 
of future investment. The new research and development officer 
at the VA, Dr. Feussner, is pursuing these recommendations we 
made, and, in fact, has pushed ahead with many of the 
recommendations, and I suspect they will adopt them all.
    Some of the things that are now happening is there are 
three new diabetes centers of excellence, two new centers for 
rehabilitation medicine, focusing on sensory loss and traumatic 
brain injury, a substance abuse research initiative related to 
nicotine and smoking behavior, and cooperative studies 
comparing surgical and medical treatments for heart disease and 
for prostate cancer, which are very big questions in the 
practice of medicine with 60 and 70-year-olds.
    However, what I wanted to talk about today mostly was the 
need for additional resources. As you are aware, the 
President's fiscal year 1998 budget requested a $28 million cut 
in the program. A cut of this magnitude, almost 11 percent, 
would halt these initiatives and many others and in many ways 
would be a fall back from the recommendations that the 
Committee made.
    Mr. Lewis. If I may interpose a comment, Dr. Rutherford, 
many of the witnesses pointed to this recommendation by the 
Administration that is considerably below the charters of most 
who look at the values of these research programs. I think it 
is fair to say, however, that there are many a window as well 
as a mirror in the budget process game, and there is little 
doubt that there are people within the Administration who know 
full well that you can recommend a reduction here because you 
know absolutely what the Congress is going to do over here, and 
that sort of thing is a part of the process. So I am not so 
sure how serious they really are about that recommendation.
    Dr. Rutherford. I will trust your judgment on this. Anyway, 
the plea I wanted to make was to ask that you and your 
colleagues on the Subcommittee approve full restoration of the 
funds cut in the President's budget, and an additional $18 
million in new funding for fiscal year 1998, for the fiscal 
year 1998 VA research appropriation, to get it up to $280 
million, a number you heard today. There are various reasons. 
You can see in my testimony that these monies are needed. I 
think that the bottom line is that the system now is doing the 
kind of research that is going to really help its patients.
    There needs to be some additional monies brought into the 
system so the pay lines, the percentage of grants that are 
actually funded, gets above 15 percent. That is viewed as very 
discouraging by a number of clinician investigators. We 
certainly heard a lot of testimony about people leaving the 
system. NIH is paying 20 percent. In the academic medical 
school life, you get a little bit farther than that, and there 
is not a lot of reason to hang on with the VA.
    Anyway, we request additional money for the career 
development award, and also new funding to target, to increase 
research in the areas specifically targeted towards veterans 
needs, as I mentioned before.
    Let me just end there. I would be happy to answer any 
questions. I am sorry I tried to read this.
    [The information follows:]

[Pages 981 - 985--The official Committee record contains additional material here.]


    Mr. Lewis. Dr. Rutherford, we appreciate not only the 
thrust, but the quality of your comments, and appreciate what 
you have to say. The Committee has addressed the same issues 
themselves over time here, and very much are empathic.
    The difficulty is this huge problem of competition within 
our subcommittee, but also the pressure to move towards being 
responsible about the budget as well.
    In the meantime, I was semi-curious, I guess I might as 
well for the record, that means I have met two pediatricians of 
quality who went into public health instead of practicing 
pediatrics. What is this all about?
    Dr. Rutherford. You sort of get the feel for it, and after 
I did my residency at the U.C. San Diego and then went to the 
Center for Disease Control, I never looked back, and I have had 
a wonderful career.
    Mr. Lewis. You have to have at least additional questions 
about a witness who had a chance to live in San Diego and moved 
away.
    Dr. Rutherford. Well, I grew up there.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. No questions.
    Mr. Lewis. Thank you.
                              ----------                              

                                               Friday, May 2, 1997.

                       COURT OF VETERANS APPEALS

                                WITNESS

DAVID B. ISBELL, CHAIR, ADVISORY COMMITTEE, VETERANS CONSORTIUM PRO 
    BONO PROGRAM
    Mr. Lewis. With the Veterans Consortium Pro Bono, David B. 
Isbell. Did I pronounce that right this year?
    Mr. Isbell. Isbell, that is right, sir. Just two syllables. 
People want to submit an extra syllable.
    Mr. Chairman, Congresswoman Meeks, I am grateful for this 
opportunity to appear, however briefly, before the Committee, 
to speak in support of our request for an appropriation for 
next year. The court has, as you know, left that responsibility 
to us starting last year and continuing this year, and it is 
one we are happy to have.
    As you know, the program has been in operation since late 
1992, and before the end of this fiscal year, we will have 
placed 1,000 cases, that is, provided free representation to 
1,000 appellants, mainly veterans, sometimes their survivors, 
before the Court of Veterans Appeals, with a success rate very 
close to 80 percent.
    I might also call attention to the leveraging or 
multiplying factor of the appropriations that have been in 
support of the program. We get free help of a value that is 
between three and four times as much as the money that is spent 
on the program, so that we calculate that is something like $10 
million worth of free help that has been provided through the 
program during the period of its existence.
    I might call attention also to something referred to in the 
written statement I submitted, which is that we have started 
receiving contributions from firms and lawyers who have taken 
cases under the program and have applied for equal access to 
justice funds. They do not amount to substantial sums yet. They 
certainly ought not to be counted on as an offset to the need 
for Federal funds, but they do provide a little extra fund that 
we are putting to use for separate purposes, to extend the 
program beyond the Washington metropolitan area.
    Now, so far there have been contributions by four law firms 
on six occasions totaling some $40,000. We hope we will 
continue to get those and be able to make the same sort of 
special use of them.
    Now, I don't propose to repeat what is in our written 
statement or in the basic justification for our appropriation 
request that was included in the court submission, but I would 
be glad to do so, if you wish. I think the best way to use my 
time would be to answer questions.
    [The information follows:]

[Pages 988 - 992--The official Committee record contains additional material here.]


    Mr. Lewis. I think you know we have had more than one 
discussion regarding the pro bono program over the years. Your 
submitting the justification for the record is appreciated, and 
your very brief statement is very appreciated, and it has been 
moved forward here.
    Mrs. Meek.
    Mrs. Meek. This is the second time we have heard from you. 
Have we heard from you before about the program? I asked you 
questions before.
    Mr. Isbell. Not this term, no.
    Mrs. Meek. Someone came and preceded you.
    Mr. Lewis. He is appearing in a different capacity at this 
point.
    Mrs. Meek. I know. Did you testify before this committee 
before this particular term?
    Mr. Isbell. Not in this session of Congress.
    Mr. Lewis. Last year.
    Mr. Isbell. I did last year.
    Mrs. Meek. I recall asking questions about it, because I 
wanted to know if the veterans were getting a good recourse in 
terms of when they come up for appeal.
    Mr. Isbell. Ms. Meeks, you asked my predecessor who 
frequently appeared to testify. Mainly the questions have to do 
with the Pro Bono Program.
    Mr. Lewis. Mr. Isbell is associated, a partner, I presume, 
but I don't know, with Covington & Burling?
    Mr. Isbell. Yes.
    Mr. Lewis. Anyway, I have no further questions, but I do 
appreciate being here to present the testimony.
    Mr. Isbell. Thank you very much.
                              ----------                              

                                               Friday, May 2, 1997.

                        SELECTIVE SERVICE SYSTEM

                                WITNESS

RAYMOND J. TONEY, ASSOCIATE DIRECTOR, NATIONAL INTERRELIGIOUS SERVICE 
    BOARD FOR CONSCIENTIOUS OBJECTORS
    Mr. Lewis. Next on our list of witnesses is Mr. Raymond J. 
Toney, Associate Director of the National Interreligious 
Service Board for Conscientious Objectors. Mr. Toney.
    Mr. Toney. Mr. Lewis, thank you. Thank you again for the 
opportunity to appear before this distinguished panel. The 
organization I represent, the National Interreligious Service 
Board for Conscientious Objectors, NISBCO, has been monitoring 
military conscription and national service since the inception 
of the organization in 1940. Since 1984, we have been working 
at the international level advising governmental and 
nongovernmental organizations on issues of military service, 
conscription and rights of conscience, and also attempting to 
develop international human rights standards regarding military 
conscription and the treatment of military personnel.
    Our primary concern today is the Selective Service System, 
and we first want to address the question of funding for the 
agency's proposed mission expansion.
    As you are aware, in September the Selective Service System 
quietly announced their intention to become, in their own 
words, a ``national clearinghouse'' for opportunities to 
``serve America today.'' The opportunities they plan to 
advertise are with AmeriCorps and the Department of Defense.
    This proposed expansion leads me to ask the following 
question, which I would like to leave with you today: 
Shouldthis committee allocate $23 million so that the government can 
register young men for a nonexistent and unforeseeable military draft, 
severely punish those who fail to register, all so that the Selective 
Service System can serve as a recruiting agency for AmeriCorps and the 
DOD?
    In an internal memo recently obtained by NISBCO, the select 
service system states, ``with the downsizing of the Federal 
Government, and its survival periodically threatened by 
detractors in Congress and the media, the Selective Service 
System can no longer dwell upon its proud past or bet on the 
threats of tomorrow. The system must be of proven value to 
America today and every day.''
    The reasoning employed here by the Selective Service is 
quite curious. First, they are, in fact, recognizing the 
legitimate governmental and public interest in terminating 
draft registration and the agency itself. They do not argue 
that the agency is a viable and necessary institution if judged 
by objective criteria. In fact, they concede, as did the 
Pentagon in 1994, that there is no military draft in our 
Nation's future.
    Second, the argument continues that since they are no 
longer viable as is, they must seek out additional programs in 
order to justify their funding. The Selective Service System, a 
governmental agency, is essentially marketing itself to the 
Congress and the administration as though it were a for-profit 
enterprise with a new product to sell, or perhaps as a 
corporation in need of a bailout.
    I believe that most Americans would agree that when 
governmental agencies become obsolete, they should be closed, 
especially when the agency in question burdens the free 
exercise and enjoyment of civil and religious liberties to the 
extent that draft registration and the Selective Service System 
do.
    In regard to the linkage of the Federal Conscription Agency 
and AmeriCorps, I submit to you that this effort should be 
headed off immediately here in this subcommittee. NISBCO's 
concerns about linking the Selective Service System with 
national service go far beyond the scope of this hearing, 
though I do wish to state for the record that NISBCO is 
unalterably opposed to any such relationship between national 
service and the military conscription system.
    I do wish to submit for this committee's review a copy of 
our publication, ``National Service and Religious Values,'' 
prepared by one of the Nation's foremost authorities on issues 
of national service and conscription, Mr. William Yolton, which 
you have, Mr. Lewis.
    The second issue I wanted to address is the broader issue 
of the continuing requirement of peacetime draft registration.
    Mr. Lewis. Just to interrupt you, I must say the $23 
million question, your simple answer is, no.
    Mr. Toney. Yes, that is correct. To be very brief, do not 
fund the expansion and end this project.
    Mr. Lewis. We have tried that, you know.
    Mr. Toney. You have tried that, and we want to congratulate 
you for trying it. We encourage you to continue to try it. 
There is a General Accounting Office study that is being 
conducted right now which will address the remaining issue 
which Selective Service raises basically, which is that 
basically what they are going to look at is alternatives to 
active registration and develop a standby on-the-shelf program 
that would meet the DOD's stated goals without having to 
register people, without having to punish the nonregistrants, 
et cetera. We expect those findings in June, and perhaps we 
will see some action on the floor of Congress. We wanted you to 
be aware that that is going forward.
    So I will conclude. I wanted to pose one other question, 
which relates to the religious freedom issues: Do we really 
find in draft registration a compelling governmental interest 
that can justify burdening the exercise of religious and civil 
liberties to this degree, and when the Pentagon said the draft 
registration is not needed?
    The last issue I want to raise, which is an important one, 
is that nowhere in the registration process can conscientious 
objectors state that they are unwilling to perform military 
service. For many youth, this is reason enough not to register. 
About 20,000 a year, in our estimation, refuse to register 
because they are conscientious objectors or they are civil 
libertarians. They incur severe penalties for this. They can't 
get student loans, for example, Pell grants; they can't get 
Federal job training; and in some States, they are not even 
allowed to attend institutions of higher education.
    The youth are, in fact, criminalized, judged and sentenced 
with no chance for a personal appearance before any competent 
authority. There is no appeal process for the youth who fail to 
register.
    In conclusion, I would say that a decision by this 
committee in particular to approve the $500,000 budget increase 
requested by the Selective Service System for their AmeriCorps 
recruitment program would have negative and perhaps 
unforeseeable consequences not only for religious and civil 
liberties, but for the values of community service as well. 
Service to others is laudable and necessary from a religious 
viewpoint, yet we must view any national service program with 
great suspicion, especially one that relies on a conscription 
agency for identifying and attracting participants.
    Mr. Lewis. I think you have made your point very well. I 
think you and I could have an off-the-record discussion of this 
and probably we wouldn't be too far apart. I appreciate very 
much your being here.
    Mr. Toney. Thank you for allowing us.
    [The information follows:]

[Pages 996 - 1001--The official Committee record contains additional material here.]


                                                Friday, May 2, 1997

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

BRAD IAROSSI, P.E., VICE PRESIDENT, ASSOCIATION OF STATE DAM SAFETY 
    OFFICIALS, INC.
    Mr. Lewis. Okay. Mr. Brad Iarossi, the Association of State 
Dam Safety Officials. Your entire statement will be in the 
record, so you can present it as briefly as you like.
    Mr. Iarossi. I will do it as briefly as I can. Thank you, 
Mr. Chairman. Thank you for this opportunity.
    My name is Brad Iarossi, and I am the vice president of the 
Association of State Dam Safety Officials, and I am the chief 
of the Dam Safety Program for the State of Maryland.
    I want to speak to you today about the safety of non-
Federal dams and to request your support for additional funding 
in FEMA's budget to implement the National Dam Safety Program 
Act of 1996.
    Last year, Congress clearly recognized the need for a 
strong Federal role in preventing dam failures and passed the 
National Dam Safety Program Act of 1996. The act authorizes 
$2.9 million in fiscal year 1998, yet the administration's 
budget proposal only requests $432,000. This falls far short of 
the funds needed to implement the act. We respectfully oppose 
the administration's fiscal year 1998 proposal and request that 
this subcommittee appropriate $2.9 million to fully fund this 
program in accordance with the act.
    To fully fund the act, we are requesting $2.5 million for 
emergency management and planning assistance for the following 
initiatives authorized in the act: $1 million in grants to 
States as an incentive to improve their dam safety programs; 
$500,000 for training of State dam safety engineers; $1 million 
for research into more effective techniques and equipment for 
inspecting and monitoring dams; and an additional $400,000 and 
4 workyears in salaries and expenses for FEMA to administer the 
program and to coordinate the efforts between Federal agencies 
and States.
    There are 75,000 dams on the national dam inventory. 
Ninety-five percent of these are regulated by the States. This 
is an overwhelming task for many of the States. Many States are 
understaffed and underfunded. Many States do not have adequate 
regulations or laws to effectively assure safety of dams.
    The national dam inventory lists 9,200 high-hazard dams, 
meaning that their failure will likely cause loss of life or 
tremendous property damage. A survey of the States lists 2,100 
dams as being unsafe, which means that they have deficiencies 
that leave them susceptible to failure. We have included in our 
written testimony a table listing dam statistics for each 
State. The survey includes 450 unsafe dams in Ohio, 452 unsafe 
dams in Texas, and 49 unsafe dams in West Virginia.
    The Federal Government has an important leadership role. 
Dam failures do not respect State boundaries, and the recovery 
costs comes from the National Flood Insurance Program and the 
Disaster Relief Fund.
    We see dam failures every year. This past March in southern 
Ohio, the failure of two dams caused considerable damage to 
downstream homes in Lawrence and Adams Counties. One dam was 
illegally constructed, while the other was a failure due to 
lack of maintenance. Luckily, no one died.
    A year ago this April, a 38-foot-high privately-owned dam 
in New Hampshire failed. That caused $5.5 million in damages to 
a downstream town, and it cost one woman her life as her truck 
was washed in the Merrimack River.
    Dams provide us with enormous benefits, such as flood 
control, hydroelectric power, irrigation, water supply, 
recreation and navigation. Yet as part of this country's aging 
infrastructure, dams also create potential catastrophic 
disasters should they fail. It is tragic that historically dam 
safety only receives attention after a disaster. The Federal 
Government needs to provide leadership and assistance to 
States, which is what the National Dam Safety Program Act 
provides, if fully funded and if implemented.
    We need to be out in front of these disasters through 
predisaster mitigation, rather than postdisaster mitigation. 
The benefits of prevention through predisaster mitigation are 
obvious. It is more cost-effective, and it saves lives.
    Mr. Chairman, we strongly urge this Subcommittee to 
recognize the benefits of this very modestly-funded program and 
to appropriate an additional $2.9 million earmarked for 
implementation of the National Dam Safety Program Act. It is an 
investment in public safety. If the program should only prevent 
one dam failure, it will pay for itself even before you include 
the cost of the loss of life.
    Thank you for this opportunity. I look forward to working 
with you and your staff on this very important program. I would 
be happy to answer any questions you have.
    Mr. Lewis. Thank you very much, Mr. Iarossi.
    [The information follows:]

[Pages 1004 - 1015--The official Committee record contains additional material here.]


    Mr. Lewis. Are you familiar with the problems that we faced 
in northern and central California with the endless miles of 
levees and dams----
    Mr. Larossi. Yes, sir.
    Mr. Lewis [continuing]. Recently affected? What is the 
major problem with that and that largely private network?
    Mr. Iarossi. I think what we have seen for years and years 
is the Federally-owned and maintained levees, as in the case of 
dams, are well-maintained and in good shape. The privately-
owned ones are not well-maintained. There isn't the financial 
support that the Federal Government has to put in their dams, 
and privately-owned levees just don't enjoy that funding.
    Mr. Lewis. There have been proposals that at least we 
consider in that instance mapping and getting a better measure 
of the relative quality and the problems of those literally 
hundreds and hundreds of miles of levees.
    Mr. Iarossi. Well, I have heard there is interest in having 
the Corps of Engineers do a similar study of levee safety 
across the country like they did for dams in the late 1970s.
    Mr. Lewis. Have you all addressed that question yourself?
    Mr. Iarossi. The levee question?
    Mr. Lewis. Yes.
    Mr. Iarossi. We are here about dams. We think levees are 
certainly a legitimate concern. The bill that was passed by 
Congress last year in support of Senator Bond, levees were 
excluded from the act. The act was not to regulate levies at 
all. But there are similar concerns with levees, yes.
    Mr. Lewis. We could very well be addressing some of those 
questions as we move forward here.
    In the meantime, I very much appreciate your presence. The 
questions you raise are important ones, and we will try to be 
responsive.
    Mr. Iarossi. Thank you very much, Mr. Chairman.
                              ----------                              

                                               Friday, May 2, 1997.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

JERRY UHLMANN, CHAIRMAN, NEMA LEGISLATIVE COMMITTEE, NATIONAL EMERGENCY 
    MANAGEMENT ASSOCIATION
    Mr. Lewis. Next on our list is Jerry Uhlmann of NEMA, the 
Legislative Committee of the National Emergency Management 
Association.
    Mr. Uhlmann. Good morning, Mr. Chairman.
    Mr. Lewis. Nice to be with you. As you know, we accept your 
entire testimony for the record, and you can summarize it as 
you wish.
    Mr. Uhlmann. Thank you very much.
    I am director of the State of Missouri--director of the 
State Emergency Management Agency, and also am here as the 
Chair of the Legislative Committee for NEMA. Of course, NEMA is 
the organization made up of all the State emergency management 
directors of the States. It is a real honor to be here today. I 
am happy to have your time.
    Of course, I have submitted the detailed report. What I 
would like to do is just hit some of the things that are 
important to us as State emergency managers as far as this.
    Mr. Lewis. We would be very interested in your highlighting 
your remarks.
    Mr. Uhlmann. Thank you.
    For the past several years Congress has looked at ways to 
reduce the costs of Federal disasters. NEMA supports all of 
these efforts in reducing the cost of the disaster, and we feel 
the best way to do that is through a strong State and local 
program to address the preparedness, mitigation and response 
and recovery. We feel that is the solution to that problem.
    Now, the State and local assistance allocation in the FEMA 
budget provides the basis for the comprehensive emergency 
management program. These matching funds come through FEMA, 
through the State, down to the local officials, and this is the 
basis for our emergency management program.
    There is currently a $124.5 million shortfall in the 
program, and on top of that, States receive a $2.9 million 
shortfall in this program. In addition to that, FEMA did not 
include in their budget $4 million that Congress had put in in 
the last two sessions. So basically what we are confronted with 
is less preparedness, and a lot of States are having layoffs, 
both at the State and local level. These reductions, of course, 
come at a tremendous critical time when we are dealing with 
disasters throughout the Nation.
    FEMA's request of $103.7 more State and local falls 
tremendously short. NEMA requests that Congress allocate an 
additional 8- to $10 million to supplement this program. This 
could either be through redistribution of existing funds or, of 
course, reappropriation of funds.
    We feel that this is probably the States' greatest concern 
as far as the budget is concerned, because this is what really 
keeps the emergency management system nationally going.
    Another program of great interest and benefit to the States 
is establishing a predisaster mitigation fund. FEMA is 
requesting $50 million for this effort. NEMA strongly supports 
that. Until we truly embrace mitigation, we have the cycle of 
destruction, rebuilding, and so forth, and we feel that 
mitigation is certainly the answer.
    One of the greatest concerns expressed by the subcommittee 
during the March 6th hearing with FEMA was the length of time 
it takes to complete the mitigation projects under the Hazard 
Mitigation Grant Program. It takes many times as long as 6 
months to a year for this to run through the process, and that 
is certainly too long when we are interested in getting things 
back not only for the communities, but also for the 
individuals.
    Now, other Federal agencies, such as HUD and the Department 
of Transportation, allow States to conduct environmental 
assessments, their own environmental assessments. We feel that 
is one of the reasons that a lot of delays in those programs 
exist. If it could be lowered down to let the States do it, we 
have the capability in many States to do that. We could do it 
expediently and with a lot less cost.
    As we said, a number of States, of course, and communities 
are struggling to recover from disasters. These events continue 
to point out the need for an emphasis onlong-term loss 
prevention and recovery activities. Successful long-term recovery from 
disasters may require access to resources, both within and beyond the 
authority of FEMA. Other Federal agencies can and should bring 
resources to the disaster area. These include Department of Labor, the 
CDBG from HUD, the Resource Conservation Service, the Army Corps of 
Engineers, NOAA, and there are many others.
    Unless State emergency management officials know how to 
secure these funds, know the eligibility, the time frames and 
the matching requirements, many of these funds go unused just 
because we don't know how to manage them. So we need someone to 
really coordinate the Federal response in the recovery phase.
    Now, NEMA requests the subcommittee to provide FEMA with 
the authority and resources to coordinate Federal programs for 
long-term recovery. They do a tremendous job in their response 
phase, but when we get into the recovery phase, there is really 
no one there to coordinate all of these assets. And, as I said, 
the States do not have the capability and are not familiar with 
the programs. They do not know how to deal with all that. So we 
need the same authority for FEMA from the response phase, going 
on into the recovery phase.
    In closing, I would just say NEMA strongly encourages the 
subcommittee to support the FEMA budget. The Agency under James 
C. Witt has done a tremendous job, and we really think it is 
crucial to the safety and welfare of all the citizens of the 
country.
    [The information follows:]

[Pages 1019 - 1025--The official Committee record contains additional material here.]


    Mr. Lewis. I must say, Mr. Uhlmann, I appreciate your 
testimony. I think it is very important for this Committee by 
way of our appropriations oversight responsibilities to take 
your comments regarding regionalizing and transferring 
responsibility to the States, in other words, appropriate to 
save money as well as to expedite the process--that is very 
worthy of consideration.
    I wonder if NEMA has addressed language that apparently is 
going to be part of the natural resources bill that comes to 
the floor that would, as a part of the mitigation effort, where 
there is a need to evaluate and improve the condition of levies 
and other flood control mechanisms that may have been affected 
by way of emergency circumstances--I believe the language calls 
for temporary waiving of the Endangered Species Act. Are you 
familiar with that?
    Mr. Uhlmann. I am somewhat familiar with that.
    Mr. Lewis. For this Member it would be very valuable to 
have input from NEMA regarding how they react to that.
    Mr. Uhlmann. We would be happy to do that, because we think 
that is critical. It kind of goes along with the environmental 
assessments that I have explained here, and I think it is 
something that definitely needs to be looked upon. We would be 
happy to provide that.
    Mr. Lewis. If you could survey your members so it could be 
part of our record here, I would be very interested in that.
    Mr. Uhlmann. I would be glad to do that.
    [The information follows:]

[Pages 1027 - 1028--The official Committee record contains additional material here.]


         Direct Use of CDBG Funds for Persons With Disabilities

    There are three specific activity codes under which 
entitlement grantees report the direct use of CDBG funds to 
benefit persons with disabilities. These are: expenditures for 
centers for the handicapped; expenditures for public services 
for the handicapped; and removal of architectural barriers. 
Dollars reported spent on each of these three activities grew 
over the 1989-1993 5-year period:
    Funds expended for Handicapped Center grew from $7.9 
million to $11.1 million, an increase of 41 percent.
    Funds expended for Services for the Handicapped grew from 
$6.3 million to $9.8 million, an increase of 54 percent.
    Funds expended for Removal of Architectural Barriers grew 
from $15.8 million to $34.2 million, an increase of 138 
percent.
    In general, historical data show that five out of eight 
entitlement communities funded at least one activity providing 
benefit specifically directed to the disabled. Morris County, 
New Jersey, reported seven activities which specifically 
benefited people with disabilities for a total of $97.644.

      Allocation of Preservation Funds to the Jacksonville Office

    There are 146 eligible projects in the State of Florida, 
but only 54 owners applied. Many of them either did not apply 
in time, or their offers did not meet program requirements, 
despite repeated efforts by HUD Jacksonville to bring the 
submissions of the owners, and in some cases of non-profits and 
owners, into compliance.
    If the owner did not apply in time to have an approved plan 
of action by September 30, 1996, HUD could not make a grant. 
Jacksonville's processing time from Initial Notice of Intent to 
Plan of Action approval (695 days) is actually below the 
national average (740 days).
    For 1997, HUD has allocated $5,669,323 for two Resident 
Homeownership Grants handled by the Jacksonville Office from 
Preservation funds. One project had already been approved from 
1996 funds. Five projects were given extensions in previous 
fiscal years.

    Mr. Lewis. Mrs. Meek?
    Mrs. Meek. I just want to be sure I understand this. NEMA 
is recommending monies for management purposes to improve the 
management of disasters on the State level. I notice you asked 
for funds; is that correct?
    Mr. Uhlmann. Yes, that is correct. Approximately $8 to $10 
million.
    Mrs. Meek. Yes. Could you explain that to me?
    Mr. Uhlmann. Yes. There has been a reduction in the last 
two sessions of money that goes from FEMA down to the State and 
local level due to the Emergency Management Assistance Program. 
What we want to do is restore that back so that we can continue 
our programs. In many States at this point, they are now having 
to lay off staff members at the State and the local level, and 
we feel that is really the strong fiber of emergency management 
is having a good program at the State and local level.
    Mr. Lewis. Am I correct in assuming that NEMA, in their 
mitigation efforts as well as work on recovery programs, is 
aggressively addressing at the State level improvement of 
building codes, looking to earthquake kinds of structures, 
improvements, et cetera?
    Mr. Uhlmann. Yes. The big interest, of course, now from 
FEMA and the States, it is kind of a coordinated effort, is 
that mitigation is really the key to success. We have got to 
improve our mitigation. We are doing that on all hazards. Of 
course, the earthquake has been around for a long time.
    Mr. Lewis. But other hazards as well?
    Mr. Uhlmann. And floods. Of course, in Missouri we had the 
buyout program, where we moved about 12,000 people out of the 
most frequently flooded areas. So there has been a lot done, 
but there really needs to be a lot more in that regard.
    Mrs. Meek. I have an off-the-record statement.
    Mr. Lewis. Off the record.
    [Discussion off the record.]
    Mr. Lewis. Back on the record.
    I understand why Mrs. Meek wanted to discuss that item off 
the record, but in the meantime the commentary is an important 
part of our discussion here. You have essentially addressed it 
by way of your testimony as well.
    Thank you very much.
                              ----------                              

                                               Friday, May 2, 1997.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

ANJAY ELZANOWSKI, ASSISTANT DIRECTOR FOR ANIMAL RESEARCH ISSUES, HUMANE 
    SOCIETY OF THE UNITED STATES
    Mr. Lewis. Our next witness and our last witness for the 
morning session is Dr. Elzanowski; is that correct?
    Mr. Elzanowski. Yes.
    Mr. Lewis. Assistant Director for Animal Research Issues, 
the Humane Society of the United States.
    Mr. Elzanowski. Good morning.
    Mr. Lewis. It is nice to be with you.
    Mr. Elzanowski. As you said, Mr. Chairman, I am Assistant 
Director for Research at the Humane Society of the United 
States, which is the Nation's largest animal protection 
organization, representing more than 4.7 million members and 
constituents.
    Mr. Lewis. Your entire statement will be placed in the 
record. We attempt to control the time as best we can. At the 
same time, we want to have exchange.
    Mr. Elzanowski. Sure. I thank you for the opportunity to 
testify today. I am going to limit my testimony to the 
controversy surrounding appropriations for NASA's participation 
in the Bion space flights. The Bion missions have been launched 
approximately every 2 years since 1974. The most recent flight, 
Bion 11, alone cost the U.S. $13.6 million, and the Bion 12, to 
be launched in 1998, will cost Americans $19.6 million.
    Last year, the House of Representatives voted 244 to 171 to 
slash the funding for animal experiments in Bion 11. 
Unfortunately, Bion 11 passed by a narrow margin in the Senate.
    Fortunately, NASA has just suspended its participation in 
primate research on the Bion 12 mission. However, this 
announcement does not guarantee that primates will not be used 
by the other participating countries, Russia or France, or on 
subsequent missions.
    NASA is gearing up to use other unidentified animals, 
referred to as ``appropriate models'' in NASA's news release. 
Therefore, it is important to avert any further escalation of 
the unspeakable harm done by NASA and its partners to the most 
sentient of animals over the last 22 years.
    Bion 11 caused acute suffering of Rhesus macaques sent for 
over 2 weeks to space. One of the two monkeys did not survive 
the surgical procedures to which it was subjected just one day 
after the landing.
    Bion 11 was only the most recent episode in a history of 
mistreatment of animals by NASA, especially the Ames Research 
Center, which provides veterinary support to Bion.
    Long before Bion 11, the Ames Center has repeatedly raised 
public concerns, especially after the resignation of Dr. Sharon 
Vanderlip, Chief of Veterinary Services at the Ames Center.
    In addition to being inhumane, NASA's Bion program is 
remarkably ineffective. Animal experimentation in space is of 
highly questionable relevance to human beings, to the 
astronauts. The known pitfalls of extrapolating information 
from one species to another are aggravated by the fact that 
large animals that may in some respects simulate human 
conditions have to be immobilized, which leads to distress and 
interferes with research, and small animals, such as rodents, 
are too dissimilar to provide relevant data.
    Twenty-two years of flying rats and monkeys into space 
aboard Bion has yielded a morass of conflicting information 
that generates more animal research rather than helping 
understand human medical problems in space.
    It is obvious that human studies are much more relevant to 
human health problems than animal studies.
    The details of Bion 11/12, 11 and 12, which is going to be 
launched, are specified in two proposals, the musculoskeletal 
proposal and regulatory physiology proposal. All of the tests 
required by the musculoskeletal proposal can be performed, with 
modifications, in humans. Out of nine parameters listed in the 
regulatory physiology proposal, the second one, only one, the 
deep brain temperature, cannot be measured in unrestrained 
humans. We strongly believe that measurements of eight out of 
nine parameters in unrestrained humans is by far more reliable 
and useful than measuring nine out of nine measurements in 
animals, especially if animals are under acute distress.
    Bearing all this in mind, it is astonishing that the entire 
voluminous proposal for Bion 11/12 does not contain a single 
assessment of the proposed research in terms of its feasibility 
in humans.
    Overall, the proposal for Bion 11/12 is clearly 
substandard. According to Dr. David Wiebers, a distinguished 
medical researcher and board-certified neurologist, who is 
listed in our written testimony, ``The proposal would never 
make it to first base at the National Institutes of Health.''
    In conclusion, Mr. Chairman, HSUS believes that medical 
data for future manned flights should be obtained from hundreds 
of humans who have spent and continue to spend time in space 
despite the known adverse effects of microgravity. We believe 
that the astronauts in the American space program are devoted 
to that program and the future welfare of their colleagues, and 
that instead of obtaining questionable data from animals, NASA 
should select astronauts willing to provide the necessary 
tissue samples.
    Mr. Chairman, flying animals into space, at least the way 
it has been done by NASA so far, is ineffective scientifically, 
wasteful economically, and terribly inhumane. We therefore 
request the inclusion of language that bans the use of any 
funds for missions involving experiments with nonhuman mammals 
in the Bion project in the fiscal year 1998 VA, HUD, and 
independent agencies appropriations bill.
    Thank you for your attention.
    Mr. Lewis. Thank you very much, Dr. Elzanowski.
    [The information follows:]

[Pages 1033 - 1037--The official Committee record contains additional material here.]


    Mr. Lewis. I must say that the debate that the Humane 
Society has addressed over some years is a helpful debate, 
where these kinds of discussion add to the flavor and mix and, 
hopefully, the quality of that which sometimes our research is 
all about.
    I am very close to a number of medical research 
institutions. At one time I thought I might become a 
veterinarian because I have a great love for animals, 
especially dogs and horses.
    Having said that, there is little question that there are 
researchers who believe strongly that they do get positive 
results from their experiments, including some of the Bion work 
that has gone forward. The researchers from UCLA, for example, 
would suggest to us that the information flows that they have 
received helped with their work dealing with quadriplegics and 
paraplegics and is very significant. But nonetheless, I think 
we need to pursue these questions in a way that causes NASA to 
give us some other direct responses to the questions that are 
being raised. So I think we ought to see who the appropriate 
people are and see that they indicate to us, beyond waiting 
until the record is printed.
    Mrs. Meek. Certainly, Mr. Chairman, the ethical part of the 
question needs to be researched and looked into in terms of 
direction NASA might think of going.
    Mr. Lewis. There currently is a funding proposal that 
involves, for example, sir, potential research as it relates to 
using proton therapy for cancer treatment, those radiation 
techniques, in a joint venture with NASA, attempting to measure 
the impact of radiation upon humans, measuring the effects upon 
human patients. All of this interchange is helpful. So I 
appreciate very much your testimony.
    That completes our list for this morning. We will be 
returning shortly after 1 o'clock. In the meantime, we will be 
in recess for a lunch break.
                              ----------                              

                                               Friday, May 2, 1997.

                          COLUMBIA UNIVERSITY

                                WITNESS

WILLIAM A. POLF, DEPUTY VICE PRESIDENT, COLUMBIA UNIVERSITY
    Mr. Lewis. We will take you out of order. You may come up. 
Dr. William A. Polf, deputy vice president of Columbia 
University, it is our pleasure to be with you. What is your 
field?
    Mr. Polf. I actually am an American historian. I have been 
in the administration of Columbia University for many years.
    Mr. Lewis. My history professor's son doesn't want to go 
into administration; he says he wants to teach. About the time 
he starts having children, he will probably want to go into 
administration.
    Mr. Polf. I am a native Californian who was born in your 
part of the world, Lynnwood, California.
    Mr. Lewis. We welcome your testimony, and we urge people to 
provide their full statement for the record and tell us what 
they want to communicate, within the time limits, reasonably.
    Mr. Polf. Thank you, Mr. Chairman. And it is good to see 
Congressman Stokes again. I have seen him on previous 
occasions.
    Mr. Stokes. Nice to see you, sir. Thank you.
    Mr. Polf. As the chairman said, I am Dr. William A. Polf, 
deputy vice president for external relations and strategic 
programs at the Health Sciences Center of Columbia University. 
I appreciate the opportunity to appear today toupdate you on 
the progress and development of the Audubon Biomedical Science and 
Technology Park.
    The Audubon Biomedical Science and Technology Park, located 
on the Health Sciences Campus of the Columbia Presbyterian 
Medical Center in New York City, is one of the first urban 
scientific research parks dedicated to biomedical research and 
the development of a new biotechnology industry. It is the 
first research park in New York City and one of the few in the 
Nation devoted specifically to housing both academic and 
commercial research to help create a synergy between university 
research and the development of commercial applications in 
pioneering new medical technologies, pharmaceuticals, and 
diagnostics.
    Development of the Audubon Park is supported by a 
partnership among Columbia University, New York City, New York 
State, and the Federal Government. The support of this 
subcommittee has been critical.
    Audubon combines three functions that, together, serve the 
national interest by providing a vital and innovative mechanism 
for providing health care to medically underserved citizens 
while maintaining America's leadership in one of our most 
important economic sectors, biomedical research and 
development.
    Audubon provides a location for the continuing progress of 
biomedical science in the discovery of the root causes of many 
diseases and the development of the most advanced methods to 
diagnose and treat them. Audubon offers facilities and programs 
for translating the discoveries achieved in the scientific 
laboratory into the treatments that reach the bedsides of 
patients across the country.
    Audubon is an instrument for the creation of new business 
and jobs in the economically depressed neighborhoods of 
Washington Heights and Harlem. Audubon is a central element of 
the new empowerment zone program in New York providing job 
training and business development services to the North 
Manhattan neighborhoods.
    Audubon will provide a center for enabling American 
biomedical science to generate new business in advanced 
pharmaceuticals and medical technologies, two cornerstones upon 
which the American economy can hold its own and grow in an 
increasingly competitive international business setting.
    By helping build the research and development base that 
provides a scientific and technological foundation for American 
business, Audubon will create new American jobs. In addition to 
this important economic stimulus, the health benefits from new 
discoveries at the park will flow directly to the surrounding 
community, which is characterized by high rates of illness 
associated with poverty, inadequate health care, and urban 
distress.
    When completed, the park will consist of five research 
buildings, the restored Audubon Ballroom, and a community 
center. The first building, the Mary Lasker Building, which 
houses the Audubon Business and Technology Center, is 
completed, and it currently houses 13 biotechnology companies.
    The second building has received support from your 
subcommittee and is currently under construction. It will 
provide the center for the most comprehensive program of 
research and treatment for diabetes in metropolitan New York, 
in addition to disease prevention research in cancer and--Mr. 
Chairman, I need to correct the testimony. The next word should 
be ``genetics,'' not ``geriatrics''--and pediatrics.
    Because of Federal support, private support for this 
project has increased significantly. When completed, this 
facility will house more than $25 million in research annually, 
supporting 400 new jobs. When the park is finished, nearly 
2,500 new jobs will have been created, including scientific, 
research, laboratory, clerical, administrative, retail, and 
building operations and support.
    We are currently only $20 million away from obtaining the 
necessary funds to complete this phase, which represents a 
cornerstone of Audubon. As your subcommittee works to establish 
funding priorities for fiscal year 1998, I respectfully request 
that $10 million be dedicated from the Special Purpose Grants 
Program, as authorized under HUD's Community Development Block 
Grant Program, for completion of the new facility in Audubon. 
This will create jobs in an economically depressed area and 
develop and stimulate our national biotechnology industry.
    Thank you again, Mr. Chairman, for the opportunity to 
present testimony to the subcommittee.
    [The information follows:]

[Pages 1041 - 1048--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you.
    Dr. Polf, would you give me a brief outline of the history 
of Audubon, when it was first begun--you know, when the Federal 
Government first made any economic contribution, and how much.
    Mr. Polf. I would be glad to.
    The park itself has been in development for about 15 years. 
The first facility, which is now called the Lasker Building, 
was financed by Columbia, the city, and the State of New York. 
The second facility began planning in 1989, and I believe the 
first appropriation of Federal support was in fiscal year 1991.
    To date, the total amount of Federal support that has been 
provided is $12.5 million, some of which has come through this 
committee.
    Mr. Lewis. Okay. You dwelled a good deal in your testimony 
on the number of jobs, et cetera, et cetera. Jobs, especially 
in research institutes, are incidental in the sense that those 
jobs are there to produce output. Could you give us some 
indication relative to what has been developed output of this 
biotechnological research?
    Mr. Polf. The main thing that--our first building to be 
completed so far, the so-called Lasker Building, is our 
commercial biotech building. And within the last 2 years--it 
has just officially been open for about 2 years--we have 
established, I think, I believe we now have more than 13 
companies in the facility, including companies which have 
started in Harlem. We have had companies that have come to us 
because they wanted to be in the Federal empowerment zone. So 
we have had a lot of economic development activity that has 
started already.
    The areas of research--and of course there is research 
associated with the companies in those businesses.
    The second building that is about to be completed, which 
this committee has, thankfully, helped us with, will house the 
kind of research which is at the cutting edge of new 
biotechnology and in such areas as genetic development.
    For example, at Columbia most recently we discovered what 
has been called the P-10 gene, which is the gene that is 
instrumental in relation to a variety of cancers. There was 
quite a bit of press given to this 6 weeks ago when it was 
announced. And in a variety of other areas in our cancer 
research, and in a great deal of our basic science.
    One of the main things that we will be doing in this 
building is linking laboratory research in diabetes to clinical 
care in diabetes. As you know, diabetes is a disease that cuts 
across many other diseases and is linked to many diseases, and 
we believe that the research that we will do in diabetes will 
lead very directly and quickly to clinical applications that 
can help us.
    Mr. Lewis. The reason I asked the question and I would like 
to have some more detail for our record: For example, VA 
medical research has been significantly reduced as a result of 
the Administration's recommendation, if we follow that 
recommendation. But things like the viral connection between 
peptic ulcer and the problems that we face there saw 
significant breakthroughs through their research.
    NASA presently is in the midst of evaluating the impact of 
a virus on a very significant portion of the poor population of 
Latin America. I think that is very important. That is what I 
mean and what I would be interested in.
    Mr. Polf. In another area, a most recent discovery in our 
Alzheimer's research, we have made a linkage in estrogen levels 
and the onset of Alzheimer's that may indicate that estrogen 
may be a form of treatment for the prevention of Alzheimer's. 
That is another example, and a whole a variety of--our medical 
center is one of the major centers of organ transplants, 
particularly heart transplants, and a couple of the companies 
that are located in our incubator facility are directly 
involved in developing new technologies that relate to helping 
transplants.
    Columbia was the place where the main DNA manipulation 
discovery leading to the drug TPA, which is the drug that helps 
prevent organ rejection in organ transplants, was discovered. 
That is the kind of thing we are doing.
    Mr. Lewis. Thank you.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Polf, nice to see you again. In your formal testimony 
you mentioned that Audubon Park is a central element in the 
empowerment zone project you have there in New York.
    Mr. Polf. Right.
    Mr. Stokes. Can you tell us how it ties into the 
empowerment zone?
    Mr. Polf. What we are doing, specifically, Congressman, is 
making sure that our programs--we are very close to the 
administration of the empowerment zone, and what we want to do, 
particularly in the job training area, is to develop some joint 
programs that help train younger people working in laboratory 
environments in combination with the rich education experience, 
and that is a program we are just developing right now.
    We have in place another program that helps licensed 
laboratory technicians complete their training. We also have, 
as I said, in a couple of instances companies that are able to 
benefit from the tax credits related to the empowerment zone 
located in our facility because it is in the empowerment zone, 
and we have a number of other projects of that kind.
    Mr. Stokes. You also mentioned that because of the Federal 
funds in this project, you have been able to generate 
significant private funding.
    Mr. Polf. Yes.
    Mr. Stokes. Could you tell us about that, what you mean?
    Mr. Polf. First of all, Federal money was very instrumental 
in getting State support for this project of about $10 million, 
and we have also received about $25 million in private support 
for the project from donors who, quite frankly, were skeptical 
about the viability of this project but, when they saw the 
support that was being provided by both the State and the 
Federal Governments, put up significant dollars to complete the 
project. That is one of the things that is helping us move into 
the diabetes area in particular.
    Mr. Stokes. I see.
    Mr. Lewis. Maybe you could elaborate on that for the record 
as well.
    Mr. Polf. We got a specific gift--the New York City 
metropolitan area is not an area where there is a large 
concentration of diabetes research, and so what this new center 
will allow us to do is to concentrate a variety of areas of 
science. As I said before, it cuts across a number of diseases, 
and we have gotten a donation to create a new diabetes center 
specifically for that purpose that will be opened and operating 
in the building when it is opened later this year.
    Mr. Lewis. Well, thank you very much, Mr. Polf.
                              ----------                              

                                                Friday, May 2, 1997

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY

                                WITNESS

JOHN W. SUTTIE, PRESIDENT, FEDERATION OF AMERICAN SOCIETIES FOR 
    EXPERIMENTAL BIOLOGY
    Mr. Lewis. Bernard Kahn.
    Dr. Suttie? We might as well take you out of order.
    Dr. John Suttie is the president of the Federation of 
American Societies for Experimental Biology.
    Doctor.
    Mr. Suttie. Thank you, Mr. Chairman, Mr. Stokes.
    I am here today representing the Federation of American 
Societies for Experimental Biology. FASEB is a coalition of 14 
societies with a combined membership of more than 43,000 
scientists who conduct life science research at all major 
universities and various corporate research laboratories.
    Mr. Lewis. Doctor, as you know, we have your entire 
statement, and we will put it in the record. So if you would 
summarize your comments.
    Mr. Suttie. I certainly will. I will begin by discussing 
the budget of the NSF.
    The NSF is the sole Federal agency with the commission to 
promote a broad program of basic education in research and 
science, and this broad mission is now the key to the growing 
interdependence of science as we approach the 21st century. 
Discoveries in physics, mathematics, engineering, materials, 
and computer sciences are of critical importance to biology and 
medical research.
    It is for that reason that FASEB has moved beyond its 
advocacy for biomedical research funding and has worked closely 
with the Coalition for National Science Funding to request a 
7.1 percent increase for NSF in fiscal year 1998. The studies 
made possible by NSF-funded research go beyond basic science 
advancement and also lead to industrial development and 
economic growth which continues to improve the quality of life 
for our citizens.
    For example, NSF-sponsored fundamental research on 
microorganisms led to the discovery of the DNA-cutting enzymes 
called restriction endonucleases. Use of these enzymes as 
reagents has played an essential role in the development of the 
field of molecular biology and the billion-dollar biotechnology 
it has spawned.
    Also, student participation in NSF-funded research at 
universities has educated and trained the workforce which is 
needed to support the development and the growth of the biotech 
industry.
    Despite its significant contribution to our Nation's 
scientific enterprise, NSF will be able to fund in fiscal year 
1997 only a fraction of the proposals that had been rated 
meritorious.
    Because of inflation, the NSF budget has lost approximately 
6 percent of its purchasing power since 1995. Continued decline 
will delay our progress in science as important new proposals 
remain unfunded and weaken the technical infrastructure that 
demands a workforce educated in the disciplines of science.
    To combat this alarming trend, FASEB recommends an NSF 
budget for fiscal year 1998 of $3.5 billion, or a 7.1 percent 
increase. This would replace the inflationary loss suffered 
since 1995 and provide a modest 1 percent growth in the NSF 
appropriation. This figure is similar to the amount for fiscal 
year 1998 that was approved last week by the House of 
Representatives when it passed H.R. 1273, the National Science 
Authorization Act.
    I will focus briefly on FASEB's recommendation for medical 
research at the Department of Veterans' Affairs. Our Nation has 
a real obligation to provide the highest quality health care 
possible to U.S. veterans. The VA Research and Development 
Program enhances the quality of veterans' health care by 
integrating clinical needs with fundamental research and 
assuring the rapid transfer of new knowledge from the 
laboratory to the bedside.
    It has also produced outstanding developments in the field 
of biomedical research which affect the general population. For 
example, the application of molecular biological techniques to 
the rapid diagnosis of tuberculosis has allowed diagnosis in 2 
days rather than 4 to 6 weeks previously necessary. This 
advance will result in earlier treatment and reduced periods of 
hospitalization.
    Despite important discoveries such as these, VA-sponsored 
research is in serious jeopardy. The $28 million cut for VA 
research which was included in the administration's fiscal year 
1998 budget request will be devastating and represents a 10.5 
percent in real dollars and nearly 15 percent when adjusted for 
inflation. The resulting damage to those highly regarded 
programs will be irreparable.
    The VA research programs are an important part of the 
Nation's biomedical research capacity and a major factor in 
enhancing the quality of health care for both our veterans and 
for others. FASEB urges the members of this subcommittee to 
soundly reject any cuts in these critical programs. We further 
call on you to appropriate an additional $18 million for VA 
research, for a total of at least $280 million.
    Finally, Mr. Chairman, FASEB has a spending recommendation 
for NASA. In recent years, NASA has made progress in 
implementing merit review for its relatively small Biomedical 
Research Program contained in the Office of Life and 
Microgravity Sciences. We have been concerned that this 
Biomedical Research Program be continued and it not be 
interrupted because of delays in space station construction. 
For fiscal year 1998, FASEB recommends $55 million for research 
and analysis in this program, a $5 million increase above the 
previous year.
    Mr. Chairman, that concludes my remarks. I would be glad to 
answer any questions that you might have.
    [The information follows:]

[Pages 1054 - 1066--The official Committee record contains additional material here.]


    Mr. Lewis. Thank you very much.
    Mr. Stokes.
    Mr. Stokes. No questions, Mr. Chairman. I just thank the 
doctor for his appearance here and for his testimony.
    Mr. Lewis. Dr. Suttie, you follow a rather impressive 
string of people who have expressed similar concerns about 
research dollars, and the committee is of course very empathic.
                              ----------                              

                                               Friday, May 2, 1997.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JACQUELINE L. JOHNSON, CHAIRPERSON, NAIHC, AND EXECUTIVE DIRECTOR, 
    TLINGIT-HAIDA INDIAN HOUSING AUTHORITY, JUNEAU, ALASKA, NATIONAL 
    AMERICAN INDIAN HOUSING COUNCIL (NAIHC)
    Mr. Lewis. One more time, could I ask if Mr. Tom Seth has 
arrived?
    Mr. Kahn.
    Ms. Jacqueline Johnson.
    Chairperson Jacqueline Johnson from Juneau, Alaska. Is that 
right?
    Ms. Johnson. Yes.
    Mr. Lewis. From the National American Indian Housing 
Council. Nice to see you again.
    Ms. Johnson. Good afternoon, Chairman Lewis and other 
Members of the Committee.
    I just wanted to let you know, first of all, I want to 
thank you for allowing me to testify today. I was scheduled for 
Wednesday, but I was at the negotiating rulemaking. As you 
know, it was a very important part of NAHASDA and the Indian 
Housing Act for Indian programs, and I am overwhelmed to be 
able to come here and tell you about the successes that we have 
there. It was incredible. We actually finished the rules and 
the regulations 1 day early.
    We had a 3-month time frame. We came to a formula that we 
all had consensus on and agreed to, and we believe that the 
rules and the regulations that we developed in the negotiated 
rulemaking process accommodate the needs of the tribe as well 
as the oversight provisions and requirements that not only 
Congress was looking for but needed to be provided for and 
instructed to for HUD.
    We also think that the rules respect the tribal sovereignty 
of the tribes in allowing them to be able to make and develop 
some of those flexible programs and meeting the needs that we 
thought were so important and the reason why we promoted the 
act.
    One of the biggest things that we also did was, we spent 
time writing the rules and the regulations for the Loan 
Guarantee Program so that we can encourage throughout the act, 
in the way that we developed the rules, a merging of public and 
private partnerships and trying to be able to get the public--I 
mean the private market, into the Indian country to help us 
resolve some of our Indian housing needs.
    So the next most important issue, of course, is money. That 
is what we are here about. So what I would like to let you know 
is that the President's budget for NAHASDA and for the block 
grant doesn't, of course, adequately, in our minds, meet the 
needs of what NAHASDA needs. And when we were developing 
NAHASDA, we recognized that there were a number of tribes who 
didn't have access to Indian housing problems. So through 
NAHASDA, finally there will be allocations for all tribes and 
all tribes will be able to have funding to manage the housing 
programs based upon the formula.
    So we recognize that there will be more tribes specifically 
in Indian housing programs and trying to relieve some of the 
economic and housing storage in their communities.
    The other thing, of course, is that the President's budget 
remains at a consistent level and it doesn't account for any 
inflationary factors, and also it doesn't account for the 
impact of welfare reform to Indian country.
    We believe that Indian country, since it is one of the most 
economically distressed places in the United States, will have 
some of the largest impact of welfare reform and the issues 
addressing it, and so there are a couple of places that we are 
looking at housing to create and encourage job promotion 
through this act as well as other partnerships. But welfare 
reform will be a difficult thing for us to overcome.
    Also, because a block grant is set and we get one amount of 
money, as people's rents are lowered because of welfare reform 
and the loss of jobs, or since we don't have the ability to 
create those other jobs, we won't be like other public housing 
programs where the subsidy just gets bigger in the housing 
components, our size is set in one block grant.
    The other thing, which is the most important element of the 
block grant, is to be able to have the 601 Loan Guarantee 
Program. As you know, the President's budget has zero dollars 
in that. We are urging you to consider putting money into the 
601 Loan Guarantee Program.
    We know in order for us to succeed and in order for this 
grant to succeed, that we need to be able to leverage, and the 
only way that we can entice the private market to work with us 
is through the loan guarantee. We saw that happen with the 184 
loan guarantee when it happened.
    Finally, financial markets, Fannie Mae, and other people 
were interested in doing business with us because they had the 
100 percent guarantee with the Federal Government. We are 
asking for that same guarantee with the 601 Loan Guarantee. And 
we are asking, if it is difficult and you would like us to do a 
pilot program, we will even agree to do that with you. But this 
is so important to us that we want at least something there so 
that we can prove that this will be a successful element to 
bringing up our economic stability in our communities.
    The National Indian Housing Council is asking that $850 
million be considered under the block grant program. This 
program is all-inclusive. There are provisions of the act that 
we didn't have to take care of before. The environmental 
requirements and review environments are now the tribal 
responsibility. There is the responsibility of putting together 
a comprehensive Indian housing plan as well as the components 
of that. So there are new responsibilities that we have never 
had to do before. So we believe that in addition to taking care 
of our current assisted stock, that we need to have that 
additional money to be able to ensure that this block grant is 
successful.
    If you could have been there and felt the power of the 
tribes and felt the power of the housing authorities and how 
they felt on that evening when we were successful, that power 
was incredible, and we need to allow that power to happen, 
because when people feel good about themselves and they feel 
successful about the product that they are doing, we will 
accomplish a lot more. And I believe if we give an adequate 
amount of money to this block grant, you will see success in 
Indian country that you have never seen before.
    We had unity putting this act together that we have never 
had before, and that same unity passed through the negotiated 
rulemaking process and I believe will pass through HUD. We will 
be working with the Secretary to be able to work with them to 
make sure that they understand not just the policies and the 
regulations but the spirit within them.
    The other thing is, there are a couple of things that we 
also think that you might be able to help us with, and one is 
the NAHASDA grant funds; we need them to be treated like home 
funds. You could use them for leverage and matching funds, and 
right now the NAHASDA grant funds do not have that 
identification.
    So if we were able to take the NAHASDA grant funds and to 
be able to place that identification with some language through 
the appropriation process that allows them to be used for 
matching and leveraging, then we will be able to leverage those 
dollars more with other departments' dollars, with other 
programs' dollars, with CDFI, with other kinds of things that 
are out there that currently, right now, we are not able to use 
them for. So that is a critical issue for us.
    The other thing is that we have a number of nonnatives that 
are participating in the Section 8 Program in Indian country. 
In fact, out of 3,600 vouchers that we have in Indian country--
which I know is not significant numbers compared to public 
housing, which we know is quite substantial--about 2,000 of 
those vouchers are currently being used by nonnatives. Those 
vouchers are important for those housing authorities to be able 
to maintain their viability.
    But what we would like, as long as they are being utilized 
by nonnatives, that perhaps we could have a public housing and 
Indian housing partnership in the management of those vouchers, 
and those vouchers will continue to be funded by the public 
housing program.
    And, of course, the technical assistance and training for 
tribes and TDHEs--Tribe Designated Housing Entities--under the 
act is absolutely critical at that point. This is a new phase 
for us, and we need to make sure that they have the capability, 
they continue the capacity, and they grow in those things.
    So we feel it is very important that we maintain a high 
level of technical assistance and training to be able to create 
those successes and help to share those models out there in 
Indian country.
    And I am not just saying it for the tribes and TDHEs. At 
this point, I think HUD is going to need a lot of assistance 
and training for them to be able to understand what this act 
does, what it provides, and what kind of assistance we need to 
provide to make it become successful.
    The last thing I would like your support in is, we are 
looking to try to create another kind of--we introduced a bill 
a couple of years ago and continued to last year, and it is 
called the Native American Financial Services Organization. I 
believe I talked with you a little bit about that. What we 
would like to do is, we believe this act is a first step. This 
is the nucleus for getting us the goal, making us feel that we 
have the ability to do it.
    The second step is the access to the private markets, and 
there are a lot of small tribes who are going to need to have 
not just capacity building, but they will probably remain 
small. We need to do some consortiums, some poolings, and other 
things to get the resources available and leveraged to make it 
bigger and broader, and I am asking you to be partners in 
creating that next step of this act, and that is creating 
something similar to NAFSO; if not NAFSO, something that gives 
us access and creates a financial market amongst Indian country 
that we can work on together that we can feel the same pride 
that we felt with NAHASDA when it passed and what we are doing 
now.
    I believe that we will be working on some proposals, and I 
hope that any of your input and ideas, that you will share them 
with us and we will be able to put together something that will 
be the next step for creating the financial market in Indian 
country.
    With that, I thank you very much for allowing me to be here 
today, and I appreciate your support and appreciate the 
interest that you have in Indian country, Chairman Lewis. It 
has been very rewarding, and it has been great to work with you 
and your staff. They have always been great.
    [The information follows:]

[Pages 1071 - 1075--The official Committee record contains additional material here.]


    Mr. Lewis. We thank you very much and appreciate our being 
able to work together, not only on these housing programs but 
your schedule as well.
    Mr. Stokes, Ms. Johnson and I have had a chance to spend a 
good deal of time together. You may have questions, but it is a 
shame she is not more articulate, isn't it?
    You did a very fine job. Thank you.
    Mr. Stokes. I might just take a moment, since I have not 
been favored with the conversations that you have had with the 
Chairman, and you are an excellent advocate for your cause and 
extremely articulate and eloquent, but I was interested in your 
comments relative to welfare reform and the impact that is 
having. Do you want to elaborate on that a little bit?
    Ms. Johnson. One thing that we are concerned about: The 
impact of welfare reform, particularly in Indian country, we 
believe as people--a lot of our Natives have moved out of the 
reservations to the more urban communities, and we believe as 
things become more difficult, that there is starting to already 
be, but there will be a greater, influx of people coming back 
to the reservation where services are being provided by the 
tribal organizations. The tribal organizations won't be able to 
handle that, and we won't be able to handle the housing 
provisions.
    But not only that; because the block grant is set for 5 
years, this is the amount of level of funding that you have, 
and as payments are reduced because income is reduced because 
we are still on the percentage of income ratio, we don't have 
anything that helps build up the subsidy or the additional 
amount of money that is required to operate those units.
    In the formula, what we did, we used the 1996 level for 
current assisted stock to say, okay, this is how much subsidy 
you are going to get. But if we start seeing a decline in the 
people's abilities to provide those payments, we will see the 
decline in our ability to operate that permanent assisted 
stock.
    Mr. Stokes. I guess a part of your whole equation too, I 
note here, is the fact that while the Federal Government has 
recognized a certain number of tribes, there are obviously some 
processes by which they are continuing to currently recognize a 
certain number of new tribes?
    Ms. Johnson. Well, all tribes that we are dealing with are 
federally recognized tribes except for the few State-recognized 
tribes. But out of those there are probably about 300 tribes 
that were being served by Federal Indian housing programs, and 
there is like 530 tribes in the United States.
    So a lot of them didn't have housing programs. They were 
either too small or weren't part of a consortium to be able to 
make it work.
    This grant, the formula allocation, distributes money to 
all tribes that have affordable housing needs. So there will be 
more tribes be able to take advantage of it now that couldn't 
in the past.
    Mr. Stokes. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. I can assure you, Mr. Stokes, that Ms. Johnson 
will be working with the authorizing committee as well over the 
time period. Thank you.
    Ms. Johnson. Thank you. I appreciate it.
    Mr. Lewis. Let me touch bases with our earlier schedule one 
more time to see if others have arrived.
    Mr. Tom Seth by chance? Mr. Bernard Kahn?
    Then we will move on with our schedule from there.
                              ----------                              --
--------

                                               Friday, May 2, 1997.

                      CITY OF COMPTON, CALIFORNIA

                                WITNESS

OMAR BRADLEY, MAYOR, CITY OF COMPTON, CALIFORNIA
    Mr. Lewis. Omar Bradley, the Mayor of the City of Compton. 
I haven't been to Compton for a couple of months. Good to see 
you.
    Mayor Bradley. Good to see you, Mr. Chairman, and you, too, 
Mr. Stokes; and on behalf of the more than 91,000 residents of 
the City of Compton I want to thank you for the opportunity to 
appear before you today to present testimony relevant to the 
fiscal year 1998 VA/HUD independent agencies appropriation 
bill.
    Mr. Lewis. We would say--let you know, Mr. Bradley that 
your entire statement will be included in the record; and we 
will measure it with care. So if you would help us with our 
time, but present the thoughts that you want in your own terms, 
please.
    Mayor Bradley. I will try and be as rapid as possible.
    With the time that I have been provided, I want to 
discuss----
    Mr. Lewis. Let me interrupt. By chance, that is not a UCLA 
tie, is it?
    Mayor Bradley. No, I am a Long Beach State 49er.
    Mr. Lewis. It is the right colors.
    Mayor Bradley. Since my name is Omar Bradley, I had to wear 
some of Army's colors, too.
    I wanted to discuss issues related to our efforts to 
initiate economic and community development. HUD is a very 
important part of that.
    This Tuesday marked the fifth anniversary of the so-called 
Rodney King riots that devastated a great portion of Los 
Angeles County. Nowhere was the impact of that violence more 
destructive than in the City of Compton. During the riots, more 
than 200 fires burned throughout the City; and more than 100 
businesses and nearly 1,800 jobs were lost.
    Over the past 5 years, much has been done to rebuild and 
revitalize the riot-torn areas. However, much more remains 
undone; and the effects have had a profound effect on the City 
of Compton.
    For example, one in three buildings that were destroyed or 
sustained significant damage in this City, Compton, has yet to 
be repaired or rebuilt. City residents wishing to establish or 
reopen businesses cannot secure adequate resources or financing 
to do so. Additionally, the City's unemployment rate has 
swollen to 14.7 percent, nearly twice the State's average.
    Compton applied for an empowerment zone designation to aid 
its economic recovery; but, inexplicably, the City was denied. 
Nor were any of $1.3 billion in grants and loans awarded to the 
City of Los Angeles ever sent to the City of Compton.
    In spite of these setbacks, the citizens of Compton 
havedisplayed a remarkable ability to overcome each hardship with new 
resolve and determination, and this type of resolve and determination 
serves as the basis of the City's attempt to launch our regenesis 
program into the next century. Known as the Compton General Plan 2010, 
this innovative strategy plans--outlines revitalization through three 
specific areas. The first is vision, the second is revitalization, and 
the third is stability.
    With proper vision, the City is able to make specific 
statements about how Compton should look and function by the 
year 2010. With revitalization, the City can highlight its 
positive aspects while conceptualizing improvements that can be 
achieved over a relatively brief period. Through stabilization, 
the search to outline and eliminate negative trends can be 
pursued. Once these areas have been identified, other 
problematic areas can be addressed.
    Mr. Chairman, you have heard the challenges we are facing 
are multifaceted and daunting. The role that HUD plays in 
helping Compton to address these issues is essential.
    The addition of HUD funds will assist Compton in its effort 
to establish, first, an international industrial complex to 
capitalize on the trade opportunities from the $1.8 billion 
Alameda Corridor Project; secondly, it will help move the 
City's unemployment and welfare recipients into the workforce; 
third, it will encourage community development and 
entrepreneurship; and, fourth, it will promote homeownership by 
providing safe and affordable housing.
    With this in mind, the City of Compton support's HUD's 
budget request for $16 billion for the fiscal year 1998. 
Specifically, the City of Compton would like the Committee to 
support the Department's request to, first, allocate $100 
million to begin the implementation of the second round of 
empowerment zones and empowerment communities. The City desires 
to obtain designation as an empowerment zone or enterprise 
community in the next round of competition. We strongly believe 
that the tax incentives and substantial resources that come 
with the zone designations will aid in the implementation of 
Compton's general plan.
    Second, we would like this Committee to provide $50 million 
for economic development initiative funds from this account. 
These funds would be used by the City to assist in our effort 
to establish an international industrial complex adjacent to 
the Alameda Corridor. This project would bring class A 
industrial space to the City and serve as a major land 
development project.
    Also we would like this Committee to provide at least $4.6 
billion for the community development block grant program. This 
program has been extremely beneficial to the Compton community 
over the last 21 years. Unlike other funding sources, the CDBG 
program provides a stream of resources that provides for some 
flexibility and promotes comprehensive community planning and 
continuity of effort.
    Fourth, we would like for you to help us utilize $1.3 
billion to continue the section 108 loan program. In addition 
to providing reduced interest loans to those projects that 
require gap funding, Compton uses these loans for a number of 
strong job-producing economic development projects through the 
City's economic development revolving loan program.
    In addition to these programs, the City also would like to 
go on record supporting the $5.4 billion budget to transform 
dilapidated HUD housing into modern, liveable properties and 
that $823 million request for the HOME program.
    In supporting these programs, the committee is supporting 
the efforts of Compton and other economically distressed areas 
around the Nation to foster sustainable economic growth and 
community development. With your continued assistance, we will 
be able to achieve this goal.
    Mr. Chairman, this concludes my statement. Again, thank you 
for the opportunity to present these views and recommendations 
to you for the City of Compton.
    Have any questions?
    [The information follows:]

[Pages 1080 - 1084--The official Committee record contains additional material here.]


    Mr. Lewis. Mayor Bradley, I must say that the last Mayor 
Bradley that I worked with closely was a UCLA graduate; but, in 
the meantime, I like your colors.
    Mayor Bradley. My mother graduated from UCLA. She was a 
graduate in 1981.
    Mr. Lewis. I did attend a meeting at Compton High School 
recently where we were discussing the question of cocaine and 
its transport into the country; and the questions are still 
swirling around that, as I am sure you are familiar with.
    Mayor Bradley. Yes, sir.
    Mr. Lewis. We know of many of the problems of urban America 
and especially of a community like Compton; and we would like 
for the funds that are provided by HUD to, in a sensitive way, 
be responsive to the kinds of requests that you are making 
today.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Mayor, let me welcome you before our Subcommittee. It 
is a pleasure and honor to have you here this afternoon.
    In your testimony, you mentioned 14 percent unemployment. I 
would imagine that under our new welfare reform legislation 
that you are having some fallout with reference to that in your 
statement. You want to tell us about it?
    Mayor Bradley. Well, certainly, as the welfare reform 
program begins to take toll on people who probably need more 
preparation in terms of job training, we are seeing higher 
rates of crime, despair, hopelessness. Much of the crime is 
associated around relationships between men and women who, in 
fact, utilize that welfare for survival.
    In fact, just last Saturday, we had a homicide--well, the 
person who was killed was a recipient; and she was murdered by 
her husband or her lover, whichever you prefer. So, as the 
money begins to dry up, you are seeing more volatile situations 
between men and women who usually utilize that money to survive 
as a family, even if the male is not part of the household.
    The other thing that you are seeing in Compton is a rise in 
robbery, a rise in burglary. We have the highest homicide rate 
west of the Mississippi River; and certainly in the last 12 
days we have experienced eight homicides, much of it having to 
do with situations of economic depravity and despair.
    So my recommendation is that, through the funds we receive 
from HUD, we can begin to train people who are coming off of 
welfare to become valuable parts of our citizenry.
    One of the things that we have an abundance of is empty 
housing stock. Much of that housing is a part of HUD's program. 
What we would like to do is take some of these people who, in 
fact, are not working who should be heads of their household, 
train them to repair the housing that isthere, and then, 
through the HUD first-time buyer program, allow them to purchase those 
same homes.
    Since Los Angeles County is a macrocosm of the City of 
Compton, consider this. We have 26,000 domiciles. We have 1,000 
empty. Los Angeles County probably has maybe a million 
domiciles. How many do you think are empty there and how many 
people could be employed to rehabilitate those homes, if in 
fact, they were given the proper training?
    So we are really interested in seeing HUD move forward, but 
we also recognize that we have got to give people trainable, 
sellable skills so that they can ultimately get off of the 
welfare roll and become independent productive citizens.
    Mr. Stokes. I noted, Mr. Chairman, a couple of nights ago a 
nationally televised TV program that was about Los Angeles and 
the Rodney King riots of about 5 years ago; and, of course, 
they indicated that to a large degree in Los Angeles they had 
been able to recoup and rebuild some of the areas. They showed 
a big mall that had been destroyed and had now been rebuilt, 
mentioned about $1.3 billion having been spent in that area. 
But, evidently, a lot of this did not spill over into Compton.
    Mayor Bradley. None. And let me just be specific.
    The problem is that when you make an appropriation without 
providing for training, then that money usually leaves the 
community. Because if you are not trained to help in the 
rebuild project, then you are not going to participate in it. 
If you are not participatory, then what happens is you have 
beautiful buildings, but you have people who are locked out. 
And they, in turn, become criminals, because if they don't take 
a part in the project they are going to take a part of the 
project from a criminal standpoint.
    So what we have to do is be intelligent in how we spend. I 
don't believe we should take a man fishing. We should teach him 
how to fish, and then he fishes on his own, and he is fed for a 
lifetime.
    So I would like to see some of the funding that we receive 
from HUD focused upon people who are revisiting the community 
from maybe penitentiary cells so this person doesn't get locked 
out and forced into a life of crime and recidivism. That can 
only be done through education and preparation for life. That 
is what we need to do. We need to have a holistic approach to 
making human beings capable of surviving in our society.
    As I said in earlier meetings, everybody that is an 
American has the right and should have the right to an 
opportunity to succeed. I had it. I hope everybody else has.
    Mr. Stokes. Thank you very much, Mr. Mayor.
    Mr. Lewis. I must say, Mayor Bradley, you, too, are an 
articulate spokesperson for your viewpoint; and the City of 
Compton is grateful, as we are grateful for your coming here.
    Mayor Bradley. And, by the way, George Bush is a former 
resident of the City of Compton.
    Mr. Lewis. Mike of my staff was telling me that the former 
mayor was a former member of the committee, Del Clawson.
    Mr. Stokes. Yes, I know Del.
    Mayor Bradley. Including Pete Rozelle and a few other 
notables.
    Mr. Lewis. You didn't get those broad shoulders just at the 
breakfast table.
    Mayor Bradley. Playing football. We played Long Beach State 
my last year there--I mean, we played UCLA; and we lost 59 to 
nothing.
    Thank you, Mr. Chairman.
    Mr. Lewis. That certainly wasn't your fault.
    Mayor Bradley. No, because I refused to play.
    Thank you so much. God bless.
                                               Friday, May 2, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

KERRY SUBLETTE, SARKEYS PROFESSOR OF ENVIRONMENTAL ENGINEERING, THE 
    UNIVERSITY OF TULSA
    Mr. Lewis. Dr. Kerry Sublette.
    It may be that guests who are going to be on our schedule 
earlier have arrived. If they have, if they will let my staff 
know, I would appreciate it.
    Dr. Sublette, Professor of Environmental Engineering, 
University of Tulsa.
    Mr. Sublette. Yes, sir. I have to say, after listening to 
the last two witnesses, I am suitably humbled.
    I come to you today not only on behalf of the University of 
Tulsa, but I am also representing the University of Oklahoma, 
Oklahoma State University and the University of Arkansas at 
Fayetteville. All of these institutions have come together to 
form the Integrated Petroleum Environmental Consortium, or 
IPEC, which I hope you will agree meets the objectives of the 
new community-based approach of the EPA to regulation as 
applied to the domestic energy industry.
    Included in this new way of thinking, as I am sure you 
know, are developing consensus-based solutions empowering the 
public with information, providing multimedia environmental 
protection, building partnerships with regulated communities, 
increasing the use of promising technologies and use of more 
market-based incentives; and I think as you will hear this is 
the hallmark of IPEC. We believe that IPEC is of critical 
importance to the EPA in accomplishing these types of goals and 
these types of initiatives in this particular industry.
    Mr. Chairman, the declining price of crude oil and 
increasing costs of compliance to environmental regulations 
have combined to produce a decrease in domestic oil production 
in the United States. The major oil companies have scaled back 
their domestic production, and they have refocused their 
exploration and production overseas. However, there are 8,000 
independent producers that don't have that option. The only two 
options they have is producing from this domestic resource base 
or going out of business.
    At the same time, the independents are increasingly the 
inheritors of these mature fields that the majors are leaving 
behind. Yet, compared to the major producer, the independent 
producer is most vulnerable to the declining price of oil and 
gas and the increasing cost of environmental compliance and 
unfavorable tax policies. This independent producer only has 
one source of revenue, and that is the sale of oil and gas. He 
doesn't refine any products. There is no vertical depth to his 
business.
    If these small- and medium-sized producers which make up 
the backbone of this, I think we all agree, strategic industry 
in this country are to remain viable, the domestic industry 
which produces up to 75 percent of the domestic production in 
this country will require access to cost-effective technology 
of pollution prevention, research, waste treatment, remediation 
and exploration and production. The industry needs clearly more 
cost-effective technologies and new approaches to pollution 
prevention to lower the cost of complying with pollution and 
waste disposal regulations that U.S. society demands.
    A reduction in the environmental compliance costs will have 
the greatest impact on the national economy when applied at 
this level, at the level of the extraction industry. The 
strategic importance of this industry requires that industry 
and government and academia all combine their resources and 
coordinate their efforts toward finding solutions to 
environmental problems that represent the greatest challenge to 
the domestic petroleum industry and to the competitiveness of 
that industry and the greatest risk to human health and the 
environment.
    In response to this need, as I have said, these four major 
universities have joined together to form IPEC. IPEC seeks to 
work with the Environmental Protection Agency in meeting the 
objectives of the strategic plan of the Office of Research and 
Development while increasing the competitiveness of this 
strategically important industry.
    Specifically, IPEC proposes to provide the infrastructure 
to achieve and maintain an outstanding R&D program to assess 
risk assessment and risk management in the domestic industry, 
focus R&D expenditures on solving environmental problems in the 
domestic energy industry that pose the greatest risk to human 
health and the environment, to work with the Environmental 
Protection Agency to maintain a close working relationship with 
the domestic petroleum industry, something that doesn't exist 
now, and support the development of outstanding environmental 
scientists and engineers and provide the needed technology 
transfer to the industry.
    IPEC will be a true public-private partnership, with 
industry providing 50 percent cost sharing for funded projects; 
and the industry will both be advisor and hands-on participant 
in any technology development. IPEC is seeking an appropriation 
of up to $4 million for fiscal year 1998 and succeeding fiscal 
years 1999, 2000, 2001 and 2002 through the Environmental 
Protection Agency. The consortium will be responsible for 
private sector and State support at no less than 25 percent of 
Federal appropriations in fiscal year 1998 and an average of 50 
percent of Federal appropriations over a 5-year period.
    The consortium will be subject to review as of September 
30, 1999, and each 12-month period thereafter to assure the 
effective production of data regulatory assessments and 
technology development meeting the stated goals of the 
consortium.
    And, lastly, as I close, Mr. Chairman, I would be remiss if 
I didn't thank you and this committee and Mr. Stokes for the 
support that has been given to the University of Tulsa and the 
city of Tulsa for its most important economic development 
education initiative, the Kendall-Whittier Project. Testimony 
has been submitted in that regard, but on behalf of the 
President of the University of Tulsa and the city of Tulsa I 
would like to thank you for that effort.
    Mr. Lewis. Thank you very much, Dr. Sublette.
    [The information follows:]

[Pages 1089 - 1097--The official Committee record contains additional material here.]


    Mr. Lewis. Let me say perhaps one of the most significant 
periods of my involvement in public affairs swirls around that 
time in the late 1960s when we first discovered that word 
``environment.'' It is obvious that man has interest in making 
certain that we do that which is effective and necessary to 
improve and extend the conditions under which we live.
    Having said that, from time to time, I have noticed that 
that whole discussion has been dominated by people on the 
fringes of these issues. Some would use the environmental 
discussions to establish preconceived notions about no growth. 
Others would suggest that the environment is the world only as 
I see it. And it is very important that people who are 
somewhere closer to the center of all of this help direct and 
guide the discussion.
    So I very much welcome the work of this consortium and want 
you to know I think you are on a very important track, and if 
there are ways that we can be of assistance we will try to do 
that.
    Mr. Sublette. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. No questions, Mr. Chairman. I appreciate Dr. 
Sublette's testimony.
    Mr. Lewis. Nice to be with you.
    Mr. Sublette. Thank you very much.
                              ----------                              

                                               Friday, May 2, 1997.

               AMERICAN ASSOCIATION OF NURSE ANESTHETISTS

                                WITNESS

STEPHEN McGARRY, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS
    Mr. Lewis. Mr. Steven McGarry--we actually have you up 
almost on the button. We were going to call you at 2:03--the 
American Association of Nurse Anesthetists.
    Mr. McGarry. My job is to put you to sleep, but I will try 
and be brief and keep you awake for a couple of minutes anyway.
    My name is Stephen McGarry, and I am a certified registered 
nurse anesthetist. I am also a Vietnam era veteran and a 20-
year employee of the West Roxbury VA medical center in Boston. 
I appreciate the opportunity to present my testimony to the 
committee today on behalf of the 27,000 CRNAs of the American 
Association of Nurse Anesthetists and the 450 CRNAs of the 
Association of VA Nurse Anesthetists.
    My testimony today will explain how CRNAs can save the VHA 
money and will address some concerns that we have about 
preserving the quality of care provided to our Nation's 
veterans.
    CRNAs administer approximately 65 percent of the 
anesthetics given to patients each year in the United States 
and perform many of the same functions as physician 
anesthesiologists. Both CRNAs and anesthesiologists administer 
anesthesia for all types of surgical procedures from the 
simplest to the most complex either as solo providers or in a 
team care setting. No studies have ever found any difference 
between CRNA and anesthesiologists in the quality of care 
provided.
    While both types of health care professionals can provide 
same or similar services, CRNAs cost the VHA much less to 
retain. The average salary of a physician anesthesiologist is 
over $200,000 per year, while the average salary of a CRNA 
employed by the VHA runs far lower at approximately $81,000 per 
year. CRNAs draw far lower salaries and therefore cost less 
than anesthesiologists to retain.
    In addition to salary considerations, however, it is also 
vitally important to utilize CRNAs in appropriate practice 
situations with our physician anesthesiologists counterparts. 
Many work in a team care setting in conjunction with the 
anesthesiologist to provide anesthesia service to our Nation's 
veterans. However, according to VHA Handbook 1112, there is no 
requirement of anesthesiologist supervision of CRNAs. CRNAs are 
licensed and certified to provide all types of anesthesia 
services, and no State requires supervision by an 
anesthesiologist.
    This is also a well-established policy in the other Federal 
services. In fact, there are many veterans in military 
hospitals throughout the country which have CRNAs as their sole 
anesthesia providers, and this practice arrangement has not had 
a negative impact on the quality of the anesthesia care. 
Therefore, any attempt by either the national anesthesia 
service or by local VHA medical directors to mandate 
supervision by anesthesiologists for all anesthesia care would 
undermine cost-effectiveness without any increase in the 
quality of care provided to our Nation's veterans.
    Being a veteran, above the concerns for cost-effectiveness, 
however, quality of care should be the primary concern for all 
VHA medical centers. We owe our veterans no less. That is why 
Congress should direct the VHA to give all due consideration 
before approving the introduction of anesthesiologist 
assistants or AAs into the VA medical system.
    Anesthesiologist assistants function under the direction of 
an anesthesiologist. According to a memorandum sent to all 
CRNAs by the VHA, VHA does not currently have anesthesia 
assistants as a recognized group of health care providers, and 
there is an orderly process for adding a new provider group.
    AANA strongly recommends the VHA follow this orderly 
process and no other if the decision is made to consider the 
introduction of AAs. It is unclear, however, why there are 
currently AAs already working in the VHA system when they are 
not yet a recognized VHA provider.
    Until AAs have been evaluated and national policies 
established for their practice within the VHA, there is some 
reason to be concerned about the quality of care they provide. 
The Health Care Financing Administration expressed their 
concerns along ago in medicare regulations stating 
anesthesiologist assistants are not educated and experienced in 
comprehensive patient care as are CRNAs.
    Therefore, at the very least, VHA medical directors should 
be directed to implement strict supervision and policies in 
order to preserve quality of care. Until that is done, AANA 
strongly recommends re-examination of the decisions that have 
allowed the employment of AAs before they were carefully 
considered during an orderly process referred to the VHA 
memorandum.
    I would last like to thank the Committee for the 
opportunity to speak, and I add this last part myself. As a 
veteran and VA employee, I feel Dr. Kizer's vision could prove 
to be our most effective managed health care system where more 
of our health care dollar goes back to the patient and less to 
the pockets of the corporate world.
    Mr. Lewis. Well, we will make sure that Dr. Kizer hears 
that last additive from your testimony. But, in the meantime, 
we very much appreciate you being with us and appreciate your 
remarks.
    Mr. Stokes.
    Mr. Stokes. No questions.
    Mr. Lewis. Thank you very much.
    [The information follows:]

[Pages 1101 - 1105--The official Committee record contains additional material here.]


    Mr. Lewis. By chance has Tom Seth arrived? Or Bernard Kahn? 
If not, then the record will receive their testimony, if they 
would like to submit it.
    Mr. Lewis. In the meantime, that ends our public witness 
testimony; and, with that, the committee is adjourned.
    [Information for the record follows:]

[Pages 1107 - 1375--The official Committee record contains additional material here.]







                           W I T N E S S E S

                               __________
                                                                   Page
A'zera, Veronica.................................................   889
Abeles, Norman...................................................   807
Adams, Tom.......................................................  1291
Allen, W.R.......................................................  1296
Anderson, P.S....................................................   858
Anthes, R.A......................................................  1371
Applegate, David.................................................   874
Atlas, R.A.......................................................   834
Avery, Martin....................................................   126
Bates, Dr. Joseph................................................   572
Berenson, A.R....................................................   220
Bereuter, Hon. Doug..............................................    78
Blum, J.O........................................................  1351
Blumenauer, Hon. Earl............................................    37
Bollinger, John..................................................   889
Bowles, L.K......................................................   343
Boyd, Hon. Allen.................................................  1107
Boyd, Merle......................................................  1362
Bradley, Omar....................................................  1077
Brandt, David....................................................   821
Briggs, Jack.....................................................  1234
Bursell, Sven....................................................   924
Butler, W.T......................................................   325
Bye, Dr. R.E., Jr................................................  1224
Cabral, R.J......................................................  1175
Cagey, Henry.....................................................   118
Calhoun, J.A.....................................................  1309
Calkins, C.L.....................................................   957
Calzonetti, Frank................................................   718
Campbell, C.K....................................................   370
Campion, R.J.....................................................   645
Capps, Hon. Walter...............................................  1109
Charvat, Steven..................................................  1303
Ciaccia, Julius, Jr..............................................   477
Clark, Les.......................................................  1175
Cole, M.L........................................................   385
Colvin, J.F......................................................  1330
Cook, Peter......................................................   469
Correll, D.L.....................................................   469
Cunha, Manuel, Jr................................................  1175
Davis, Hon. Jim..................................................   112
Dawson, Clyde....................................................   592
Diaz, Ricardo....................................................   246
DiPasquale, N.A..................................................  1204
Doyle, Hon. Mike.................................................    72
Elzanowski, Anjay................................................  1030
Farr, Hon. Sam...................................................   442
Federoff, Carolyn................................................  1171
Fernandez, Henry.................................................   942
Foreman, Spencer.................................................  1274
Fox, Dr. Peter...................................................  1133
Frank, Hon. Barney...............................................    23
Friedman, Dr. Louis..............................................  1342
Gainer, Walter...................................................   682
Gantt, Elisabeth.................................................   829
Gentry, R.C......................................................   298
Glenn, G.A.......................................................  1259
Godbey, Dr. Galen................................................  1336
Gorden, Stephen..................................................   419
Gordon, Hon. Bart................................................    44
Gorosh, Kathye...................................................  1199
Grace, Marcellus.................................................   552
Grant, Glenn.....................................................   592
Graziano, Joseph.................................................   645
Grogan, Paul.....................................................   277
Gustinis, J.G....................................................   611
Hanle, P.A.......................................................   669
Hanrahan, Pegeen.................................................   562
Harp, Jim........................................................   536
Harvey, Bart.....................................................   335
Haynes, Rita.....................................................   448
Herman, Richard..................................................   726
Herrera, Alexandra...............................................   442
Higgins, Maureen.................................................  1164
Iarossi, Brad....................................................  1002
Isbell, D.B......................................................   986
Jackson-Lee, Hon. Sheila.........................................   758
Jawroski, Lawrence...............................................   522
Johnson, David...................................................   788
Johnson, J.L.....................................................  1067
Johnson, Than....................................................   194
Jollivette, C.M..................................................  1265
Joseph, Rev. Laverne.............................................   360
Kahn, B.M........................................................  1248
Kelly, Bob.......................................................   536
Kenny, M.P.......................................................  1175
Kerr, Bill.......................................................   490
Killian, Bill....................................................  1179
Kirk, Ken........................................................  1148
Kleine, M.A......................................................  1243
Kraut, A.G.......................................................   794
Lampson, Hon. Rick...............................................    15
Larson, L.A......................................................  1151
Larson, P.F......................................................   583
Lehman, Hon. William.............................................   385
Leiby, V.M.......................................................   497
Levine, F.J......................................................   771
MacDonald, D.B...................................................   485
Magill, James....................................................   889
Mallory, R.E.....................................................  1164
Maloney, Hon. J.H................................................     1
Martin, Robert...................................................   461
Mason, R.J.......................................................  1219
Mathews, Mary....................................................   448
Mauderly, Joseph.................................................   604
Maulson, Tom.....................................................   134
Maves, M.D.......................................................   691
Mavrogenes, Harry................................................   566
McClain, R.M.....................................................   631
McDonald, Kevin..................................................   490
McEwen, B.S......................................................  1366
McGarry, Stephen.................................................  1098
McGovern, Hon. J.P...............................................    24
McKee, Kate......................................................   448
Moakley, Hon. Joe................................................    85
Mullen, J.M., Jr.................................................   174
Nadel, S.M.......................................................   658
Nasr, Nebil......................................................   611
Nellor, Margaret.................................................  1133
Nemtzow, David...................................................   748
O'Brien, T.J.....................................................  1262
O'Hara, Ann......................................................   205
Overbey, M.M.....................................................  1116
Pallone, Hon. Frank..............................................    49
Pelosi, Hon. Nancy...............................................    61
Pickett, Hon. Owen...............................................    27
Pietrafesa, Len..................................................   700
Pings, C.J.......................................................  1155
Polf, W.A........................................................  1038
Quinn, Hon. Jack.................................................   112
Rawls, Mac.......................................................    27
Reheis, C.H......................................................  1175
Reischman, M.M...................................................   709
Reyes, Silvestre.................................................   111
Rhea, L.D........................................................  1321
Roman, Nan.......................................................  1279
Rousseau, R.W....................................................   851
Rutherford, George...............................................   978
Sandy, M.L.......................................................  1306
Saundry, P.D.....................................................   515
Saxton, Hon. Jim.................................................   430
Saylor, A.V......................................................  1283
Schlender, J.H...................................................   547
Schwarzkopf, Larry...............................................   142
Shays, Hon. Christopher..........................................     5
Silver, H.J......................................................   735
Slade, David.....................................................   490
Soltis, A. McC...................................................   544
Speicher, A.L....................................................  1146
Stevenson, Mr....................................................   461
Sturdivant, J.N..................................................  1166
Sublette, Kerry..................................................  1087
Suki, W.N........................................................   402
Surratt, Richard.................................................   889
Suttie, J.W......................................................  1051
Testa, W.R.......................................................   261
Thantom, Jim.....................................................   544
Thompson, B.J....................................................   315
Thurman, Hon. K.L................................................    99
Tierney, Hon. J.F................................................    25
Toney, R.J.......................................................   993
Turpin, Roland...................................................   231
Uhlmann, Jerry...................................................  1016
Vancott, Wit.....................................................   461
Visclosky, Hon. P.J............................................40, 1114
Vitikacs, John...................................................   967
Walker, R.D......................................................   934
Waters, Hon. Maxine..............................................   164
Wawronowicz, Larry...............................................   134
Webdale, W.D.....................................................   350
Weinstein, Michael...............................................   185
Weller, Hon. Jerry...............................................    67
Whitman, Hon. C.T................................................   430
Williams, Terry..................................................   536
Wilmer, John, Sr.................................................  1160
Wodraska, J.R....................................................  1209








                               I N D E X

                              ----------                              

              Community Development Financial Institutions

                                                                   Page
Rita Haynes, Coalition of Community Development Financial 
  Institutions...................................................   448
Mary Mathews, Coalition of Community Development Financial 
  Institutions...................................................   448
Kate McKee, Coalition of Community Development Financial 
  Institutions...................................................   448
Hon. Sam Farr....................................................   442
Alexandra Herrera................................................   442
Hon. Christopher Shays...........................................     5

                       Court of Veterans Appeals

David B. Isbell, Veterans Consortium Pro Bono Program............   986

                    Environmental Protection Agency

Ronald Atlas, American Society for Microbiology..................   834
Joseph Bates, American Lung Association/Thoracic Society.........   572
Hon. Doug Bereuter...............................................    78
Raymond J. Campion, Mickey Leland National Urban Air Toxics 
  Research Center................................................   645
Julius Ciaccia, Jr., Association of Metropolitan Water Agencies, 
  Commissioner of Water for City of Cleveland....................   477
Peter Cook, National Association of Water Companies..............   469
Donald L. Correll, United Water Resources, National Association 
  of Water Companies.............................................   469
Hon. Jim Davis...................................................   112
Hon. Mike Doyle..................................................    72
Hon. Barney Frank................................................    23
Walter Gainer, National Utility Contractors Association..........   682
Stephen Gorden, City of Detroit, American Water Works Association   419
Marcellus Grace, Xavier University, Louisiana, Association of 
  Minority Health Professional Schools...........................   552
Joseph Graziano, Columbia University.............................   645
Judy Gwen Gustinis, Center for Integrated Manufacturing Studies..   611
Paul A. Hanle, Academy of Natural Sciences.......................   669
Pegeen Hanrahan, City of Gainesville, Florida....................   562
Jim Harp, Northwest Indian Fisheries Commission..................   536
Lawrence Jawroski, Water Environmental Federation................   522
Bob Kelly, Northwest Indian Fisheries Commission.................   536
Bill Kerr, Citizens Advisory Committee of Indian River Lagoon of 
  Florida........................................................   490
Hon. Nick Lampson................................................    15
Paul D. Larson, University of Medicine and Dentistry of New 
  Jersey.........................................................   582
Vanessa M. Leiby, Association of State Drinking Water 
  Administrators.................................................   497
Douglas B. MacDonald, Massachusetts Water Resources Authority....   485
Hon. James H. Maloney............................................     1
Robert Martin, AWWA Research Foundation and the Association of 
  California Water Agencies......................................   461
Joseph Mauderly, Lovelace Respiratory Research...................   604
Tom Maulson, Lac Du Flambeau Band of Chippewa....................   134
Michael D. Maves, American Academy of Otolaryngology-Head and 
  Neck Surgery, Inc..............................................   691
Harry Mavrogenes, City of Miami Beach, Florida...................   566
Ann McCamon Soltis, Great Lakes Fish and Wildlife Commission.....   544
R. Michael McClain, Society of Toxicology........................   631
Kevin McDonald, Citizens Advisory Committee of Peconic Bay, NY...   490
Hon. John Joseph Moakley.........................................    85
Steven M. Nadel, American Council for an Energy-Efficient Economy   658
Nebil Nasr, Rochester Institute for Technology...................   611
David M. Nemtzow, Alliance to Save Energy........................   748
Hon. Frank Pallone Jr............................................    49
Hon. Owen Pickett................................................    27
Len Pietrafesa, North Carolina State University, National 
  Association of State Universities and Land-Grant Colleges......   700
Mac Rawls, Virginia Marine Science...............................    27
Peter D. Saundry, Committee for the National Institute for the 
  Environment....................................................   515
Hon. Jim Saxton..................................................   430
Hon. Christopher Shays...........................................     5
David Slade, Association of National Estuary Programs............   490
Kerry Sublette, The University of Tulsa..........................  1087
Jim Thanton, Great Lakes Fish and Wildlife Commission............   544
Hon. Karen Thurman...............................................    99
Hon. John F. Tierney.............................................    23
Hon. Christine Todd Whitman, Governor, State of New Jersey.......   430
Hon. Pete J. Visclosky...........................................    40
Larry Wawronowicz, Lac Du Flambeau Band of Chippewa..............   134
Hon. Jerry Weller................................................    67
Terry Williams, Northwest Indian Fisheries Commission............   536

                  Federal Emergency Management Agency

Hon. Earl Blumenauer.............................................    37
Brad Iarossi, Association of State Dam Safety Officials, Inc.....  1002
Jerry Uhlmann, National Emergency Management Association.........  1016

                     Housing and Urban Development

Martin Avery, Navajo Nation......................................   126
Aimee Berenson, AIDS Action Council..............................   220
Hon. Doug Bereuter...............................................    78
Liza K. Bowles, NAHB Research Center.............................   343
Hon. Omar Bradley, Mayor, City of Compton, California............  1077
Henry Cagey, Lummi Indian Business Council.......................   118
C. Keith Campbell, American Association of Retired Persons.......   370
Mary Louise Cole, ICARE Bay Point Schools........................   385
Clyde Dawson, Weequahic Park Association.........................   592
Ricardo Diaz, Council of Large Public Housing Authorities, 
  Milwaukee Housing Authority....................................   246
Hon. Mike Doyle..................................................    72
Richard C. Gentry, Richmond Redevelopment and Housing Authority..   298
Glenn Grant, City of Newark, New Jersey..........................   592
Paul Grogan, Local Initiatives Support Corporation...............   277
Bart Harvey, The Enterprise Foundation...........................   335
Hon. Sheila Jackson Lee..........................................   758
Than Johnson, Champaign Residential Services Inc., American 
  Network of Community Options and Resources.....................   194
Jacqueline L. Johnson, TLINGIT-HAIDA Indian Housing Authority, 
  Juneau, Alaska, National American Indian Housing Council.......  1067
Laverne Joseph, Retirement Housing Foundation, American 
  Association of Homes and Services for the Aging................   360
Hon. William Lehman, ICARE Bay Point Schools.....................   385
Ann McCamon Soltis, Great Lakes Fish and Wildlife Commission.....   544
James M. Mullen, Trinity College.................................   174
Ann O'Hara, Technical Assistance Collaborative, Inc., Consortium 
  for Citizens with Disabilities.................................   205
Hon. Nancy Pelosi................................................    61
William A. Polf, Columbia University.............................  1038
Larry Schwarzkopf, Fond du Lac Band of Chippewa Indians..........   142
Hon. Christopher Shays...........................................     2
William R. Testa, Arc Morris Chapter, Arc of the United States...   261
Jim Thanton, Great Lakes Fish and Wildlife Commission............   544
Barbara J. Thompson, National Council of State Housing Agencies..   315
Roland Turpin, Metropolitan Housing Authority, Public Housing 
  Authorities Directors Association, Dayton, Ohio................   231
Hon. Pete J. Visclosky...........................................    40
Hon. Maxine Waters...............................................   164
Walter Webdale, Housing and Community Development, Fairfax 
  County, Association of Local Housing Finance Agencies, National 
  Association of Counties; National Community Development 
  Association; National League of Cities; and The United States 
  Conference of Mayors...........................................   350
Michael Weinstein, AIDS Healthcare Foundation Washington Office..   185

             National Aeronautics and Space Administration

Norman Abeles, American Psychological Association................   807
David Brandt, National Space Society.............................   821
Frank Calzonetti, Eberly College of Arts and Sciences on behalf 
  of EPSCoR States...............................................   718
Anjay Elzanowski, Humane Society of the United States............  1030
Michael D. Maves, American Academy of Otolaryngology-Head and 
  Neck Surgery, Inc..............................................   691
John W. Suttie, Federation of American Societies for Experimental 
  Biology........................................................  1051

                      National Science Foundation

Norman Abeles, American Psychological Association................   807
Paul F. Anderson, American Chemical Society......................   858
David Applegate, American Geological Institute...................
Ronald Atlas, American Society for Microbiology..................   834
Frank Calzonetti, Eberly College of Arts and Sciences on behalf 
  of EPSCoR States...............................................   718
Hon. Mike Doyle..................................................    72
Elisabeth Gannt, American Society of Plant Physiologists.........   829
Richard Herman, Joint Policy Board for Mathmatics................   726
David Johnson, Federation of Behaviorial, Psychological and 
  Cognitive Sciences.............................................   788
Alan G. Kraut, American Psychological Society....................   794
Felice J. Levine, American Sociological Association..............   771
Michael M. Reischman, National Science Foundation Task Force, 
  American Society of Mechanical Engineers.......................   709
Ronald Rousseaux, Council Chemical Research, Inc.................   851
Peter D. Saundry, Committee for the National Institute for the 
  Environment....................................................   515
Howard J. Silver, Consortium of Social Science Associations......   735
John W. Suttie, Federation of American Societies for Experimental 
  Biology........................................................  1051

                        Selective Service System

Raymond J. Toney, National Interreligious Service Board for 
  Conscientious Objectors........................................   993

                     Department of Veterans Affairs

Veronica A'zera, AmVets..........................................   889
Norman Abeles, American Psychological Association................   807
Joseph Bates, American Lung Association/Thoracic Society.........   572
Hon. Doug Bereuter...............................................    78
John Bollinger, Paralyzed Veterans of America....................   889
Sven Bursell, Joslin Diabetes Center.............................   924
William Butler, Baylor College of Medicine, Association of 
  American Medical Colleges......................................   325
Charles L. Calkins, Fleet Reserve Association....................   957
Hon. Mike Doyle..................................................    72
Henry Fernandez, Association of University Programs in Health 
  Administration.................................................   942
Hon. Bart Gordon.................................................    44
James Magill, Veterans of Foreign War............................   889
Michael D. Maves, American Academy of Otolaryngology-Head and 
  Neck Surgery, Inc..............................................   691
Stephen McGarry, American Association of Nurse Anesthetists......  1098
Hon. Jack Quinn..................................................   112
George Rutherford, University of California-Berkeley, National 
  Assocation of Veterans' Research and Education Foundations.....   978
Wadi N. Suki American Society of Nephrology......................   402
Richard Surratt, Disabled American Veterans......................   889
John W. Suttie, Federation of American Societies for Experimental 
  Biology........................................................  1051
John Vitikacs, American Legion...................................   967
R. Dale Walker, Oregon Health Sciences University, Portland, 
  Oregon, American Psychiatric Association.......................   934

                           Written Testimony

American Anthropological Association.............................  1116
American Federation of Government Employees......................  1166
American Federation of Government Employees Local 3258...........  1171
American Heart Association.......................................  1121
American Public Power Association................................  1126
American Society for Engineering Education.......................  1146
American Society of Civil Engineers..............................  1136
American Society of Pharmacologists and Experimental Therapeutics  1129
Association of American Universities.............................  1155
Association of Metropolitan Sewage Agencies......................  1148
Association of State and Territorial Solid Waste Management 
  Officials......................................................  1204
Association of State Floodplain Managers.........................  1151
Bad River Band of Lake Superior Chippewa Indians.................  1160
Hon. Allen Boyd..................................................  1107
California Housing Finance Agency................................  1164
California Industry and Government Coalition on PM-10/PM-2.5.....  1175
California Rural Water Association...............................  1179
Hon. Walter Capps................................................  1109
Consortium of Eleven Professional Scientific Societies...........  1214
Core Center of Chicago, Illinois.................................  1199
Environmental Lung Center at National Jewish Medical and Research 
  Center.........................................................  1219
Engineering Education Coalition..................................  1142
Florida State University.........................................  1224
Fond Du Lac Tribal and Community College.........................  1228
Dr. Peter Fox, Arizona State University and Margaret Nellor, 
  County Sanitation Districts of Los Angeles County..............  1133
Friends of VA Medical Care and Health Research...................  1238
Golden Gate University...........................................  1243
Hebrew Academy for Special Children..............................  1248
Integrated Petroleum Environmental Consortium....................  1253
Massachusetts Foundation for Excellence in Marine & Polymer 
  Sciences.......................................................  1259
Metropolitan Water District of South California..................  1209
Metropolitan Water Reclamation District of Greater Chicago.......  1262
Montefiore Medical Center........................................  1274
National Alliance for the Mentally Ill...........................  1283
National Alliance to End Homelessness, Inc.......................  1279
National Association of Conservation Districts...................  1289
National Audubon Society.........................................  1291
National Congress of American Indians............................  1296
National Coordinating Council on Emergency Management............  1303
National Council of Space Grant Directors........................  1306
National Crime Prevention Council................................  1309
New York University..............................................  1318
Non Commissioned Officers Association of the United States of 
  America........................................................  1321
Nuclear Energy Institute.........................................  1330
Pennsylvania Educational Telecommunications Exchange Network.....  1336
The Planetary Society............................................  1342
Polysocyanurate Insulation Manufacturers Association.............  1351
Hon Silvestre Reyes..............................................  1111
Sac and Fox Nation...............................................  1362
Society for Neuroscience.........................................  1366
State and Territorial Air Pollution Program Administrators.......  1356
University Corporation for Atmospheric Research..................  1371
University of Miami..............................................  1265
Water Environment Research Foundation............................  1374

                                <all>
</pre></body></html>
